<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, 

                                   AND

               INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000   

                                

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman

 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia 
 DAVID L. HOBSON, Ohio                 MARCY KAPTUR, Ohio 
 JOE KNOLLENBERG, Michigan             CARRIE P. MEEK, Florida 
 RODNEY P. FRELINGHUYSEN, New Jersey   DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi          ROBERT E. ``BUD'' CRAMER, Jr.,
 ANNE M. NORTHUP, Kentucky             Alabama
 JOHN E. SUNUNU, New Hampshire   




 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin, and Dena L. 
                                 Baron,

                            Staff Assistants

                                ________
                                 PART 8

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-573                     WASHINGTON : 1999




                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     



                 James W. Dyer, Clerk and Staff Director

                                  (ii)



 DEPARTMENTS OF VETERANS AFFAIRS, AND HOUSING  AND URBAN DEVELOPMENT, 
            AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2000

                               ----------

                                           Thursday, April 15, 1999.

TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
ORGANIZATIONS

    ..............................................................

DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT AND FEDERAL EMERGENCY 
MANAGEMENT AGENCY

                             WITNESS 

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE
  THE STATE OF OREGON

Mr. Walsh.  The Subcommittee hearing will come to order. This morning 
we have Congressional member witnesses today. I would like to welcome 
Earl Blumenauer from Oregon and give him the opportunity to proceed.
I apologize for being late. It was just out of my control.
Mr. Blumenauer.  Thank you. I appreciate the courtesy to spend a couple 
of moments. It is not a problem at all. I wanted to touch base very 
briefly with you to call attention to three specific requests that have 
come your way that are very important to our community.
The first deals with a project with homeless youth. I will tell you 
that even though it is not located in my District, it has touched my 
heart. It is modeled after a program that came from California and San 
Francisco.
It has engaged a variety of private sector individuals who put up a 
vast quantity of private funds to deal with these children; homeless 
youth who are lost and forgotten. I will tell you it is a problem. 
These young people go up and down the West Coast from San Diego to 
Vancouver, B.C.
They have a program to integrate the current system providing these 
services in a way that really forces the young people to be a part of a 
more structured program and do so in a comprehensive fashion. I 
strongly urge that somebody on your Staff take a little time to look at 
the merits of this program. I think it has the potential of providing a 
huge opportunity for the Federal Government to do a better job dealing 
with a forgotten number of young people.
As many as a third of these homeless youth die by their early 20s. 
Another 30 become homeless adults or enter the criminal justice
system. If we had a present value way of counting it, we would 
find it would be a huge social cost.
We are asking, first of all, that you consider possible Committee 
language that talk about the concern of the increasing number of 
homeless youth and directing the attention of the Department of Housing 
and Urban Development to recognize the extremely successful programs 
that deal with it. We ask that there be money set aside to do a case study evaluation of this program in San Francisco and the program in Portland; not to give them program money, but to look at it. If it has a fraction of the 
impact that appears to me to have, it could have profound implications.
Finally, the demographic data base. Nobody knows who these kids are. 
They shift up and down. I have spent some time seeing them and talking 
to them. We need to know what is going on. Again, this will make a huge 
difference in terms of how Federal monies are expended.
The other project, again is not in my District, but it deals with 
Portland State University and the City of Portland where they are 
seeking a $4 million appropriation from the Economic Development 
Initiative Fund to deal with an innovative program dealing with the 
retirement facility located in the University's Urban Center.
It has a chance to use University resources and community resources. 
That would have a very significant impact. There is also $2 million 
requested for the Urban Study Center South Project. Again, it is a 
public-private partnership. The details are examined in some detail in 
which we presented it to you.
The final program deals with the Johnson Creek Watershed. As you may 
know, I have spent a lot of time concerned about how the Federal 
Government spends its money dealing with disaster relief. We spend 
billions on sub-optimal projects in a vein attempt to stop them.
Then we spend billions more after they have failed; $2.5 billion of 
repetitive fund flood loss in less than 20 years on just 2 percent of 
the projects. The properties would get 40 percent of the loss. We have 
taken a single watershed, the Johnson Creek Watershed.
We have brought people together in a comprehensive fashion. We have 
done the planning process in a way that I think few regions in the 
Country have done. We are hoping that there will be support from your 
committee to provide some $3.3 million to purchase frequently flooded 
properties before disaster strikes again, and request that an 
appropriation be made to FEMA's Region 10 Flood Mitigation Assistance 
Program for a distribution.
I think the Federal Government, by supporting the innovative and pretty 
comprehensive programs at the local level, can demonstrate how we can 
save money in the long-run. The taxpayers are on the hook for billions 
of dollars. FEMA is doing a great job, I think, in moving in that 
direction.
To the extent to which this Subcommittee could reinforce that effort on 
behalf of FEMA and hopefully some mention for the projects that we 
have, I think that we can provide some results that are going to save 
in the long-run.
I appreciate your courtesy on me and a hectic day to spend a few 
minutes. At any point, we are happy to follow-up with you or your Staff 
to provide greater detail on these projects. I would say 200 to 300 are 
in my District, but I think all of them have the potential of saving 
that money in the long-run.
[The prepared statement of Mr. Blumenauer follows:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Walsh.  Well thanks for that brief summation. We will 
edit all of your statements into the record. We will do the 
best we can. Mr. Mollohan, do you have any questions?
    Mr. Mollohan.  No. Thank you.
    Mr. Walsh.  Thank you.
    Our next witness is Jim McGovern and Barney Frank together. 
Come on up gentlemen; welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                               WITNESSES

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Frank.  Thank you, Mr. Chairman, and Mr. Ranking 
Member. I am here again with my colleague, Mr. McGovern as I 
have previously been here with his predecessor to talk to your 
predecessors about an item which was included in the 
President's budget.
    It is money for the City of Fall River and New Bedford to 
help them with their sewer and water situation. Both 
communities are under Federal court orders to comply with the 
Federal Clean Water Act. In each case, there is three-figure 
bill; hundreds of millions of dollars for New Bedford and well 
over $100 million for Fall River.
    There are international as well as national waters that we 
are talking about--Bay and Fall River in particular has an 
impact on Rhode Island. They try to keep them up. They came 
later to the program than some others. They came in after 
Congress and the Reagan Administration made some changes in the 
financing.
    Had they been doing this 20 years before, it would have 
been almost all Federally funded. Now, it is mostly funded by 
the rate payers. We accept that fact. We are thankful for the 
little bit of help we have been getting for the past couple of 
years; a $1.5 million a year for each City.
    They are in compliance. As you know, we have often had this 
situation where local officials get defiant and say take me to 
jail and it complicates this. In both cities, we have mayors 
who have been willing to consistently push for this. Understand 
that the bulk of this comes on the rate payer. We have asked 
for this small assistance from the Federal Government.
    I should note that we have been in touch with Mr. Boehlert 
and Mr. Borski. Their Subcommittee has statutory proposals 
which would be very helpful to these cities. I know your 
predecessor, Mr. Chairman, Mr. Lewis, used to wish they would 
get that over with so you would stop having to do this.
    This is a case where the appropriators clearly have to 
make-up for a defect in the authorization budget. That is very 
clear. As I understand it, the issue of wetlands has, again, 
literally bogged down the overall bill. I mean, there tends to 
be agreement on the Clean Water Act part of this.
    The wetlands part has caused a dike. So, in the interim we 
have been asking for this. This Subcommittee was very helpful 
in persuading EPA and then the State of Massachusetts, through 
Governor Salucci, who had then taken over--we got a change in 
the loan repayment term from 20 years to 30 years, which turned 
out to be a very significant help.
    We were talking about equipment which obviously has much 
more than a 20-year lifetime. That was a way to reduce the cost 
of the impact of sewer and water rate increases. So, these are 
people who are trying very hard to alleviate it. We do believe 
that the million and a half is not a huge amount for each one.
    It has been very helpful. When it comes year after year, it 
may amount to a 15 percent or 20 percent reduction in their 
overall cost. It is very critical for this whole thing to work. 
So, we are here to ask for that again.
    Mr. McGovern.  Thank you for the opportunity to testify. I 
just echo what Barney has just said. Barney represents New 
Bedford. We both represent Fall River. Fall River is a 
community with a high unemployment rate.
    Incomes are not very high. To absorb the costs associated 
with complying with the Clean Water Act at this particular 
point it would be devastating to the economic development of 
that community if we cannot provide some help.
    I am here to request that this Committee do what it has 
generously done for the last 5 years and help us with this 
appropriation. If you could do that, we would be very grateful.
    If I could also just make one more pitch because I have 
another request pending before this Committee. I also represent 
the City of Worcester, Massachusetts. I had put in a request 
for $2 million to help with the development of the most 
blighted area of the City of Worcester; an area that has been 
ignored for decades at this particular point.
    There is currently developing a private-public partnership 
to try to redevelop the neighborhood, bring a new Boy's and 
Girl's Club into the area, improving the quality of housing, 
and the reindustrialization of the area. We are looking for 
some seed money to try to get this thing going.
    It is vital to the City of Worcester. For those of you who 
do not know, Worcester is the second largest City in New 
England. It is in desperate need of some help to help this 
particular neighborhood. So, if you could consider that as 
well, I would appreciate it.
    [The prepared statement of Mr. McGovern follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frank.  I will just add that when I got to Congress, 
the Boy's and Girl's Club was just called the Boy's Club. One 
of the earliest pieces of legislation that I helped get through 
with my co-sponsor, Strom Thurmond, was to change the name to 
the Boy's and Girl's Club. I just want to note that it is now 
the Boy's and Girl's Club, thanks to the Thurmond-Frank Bill.
    Mr. Walsh. Thank you for your testimony. As you may note, 
the President has included the following projects in his budget 
request. That will help. Worcester like Syracuse, like 
Wheeling, like most of the cities in the Northeast have some 
problems in the inner city. We need to deal with them. HUD is 
the agency that does that. So, we will try to consider that.
    Mr. McGovern. Mr. Chairman, if we can continue on the 
project you and I discussed in the gym yesterday. We may have 
some more money for you next year.
    Mr. Walsh. Thank you. Thank you for your testimony.
    Frank Pallone is up to bat next.
    [No response.]
    Doug, you are in the rotation. Are you ready?
    Mr. Bereuter. Yes.
    Mr. Walsh. The gentleman from Nebraska. Good to have you 
with us; welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Bereuter. Thank you. I appreciate being able to come 
right in and visit. Mr. Chairman and members of the Committee, 
I wanted to speak on behalf of several items that are in the 
President's budget request.
    The Rural Water Training and Technical Assistance Program 
is very important to a whole variety of small communities 
across the whole Country. I think the $8.6 million for Canadian 
funding of on-sight training in technical assistance and ground 
water protection is very important.
    I am also requesting that the $7.5 million for source water 
protection provided in last year's bill be included again this 
year. Second, I want to go to the Indian Housing Loan Guarantee 
Program. This is a program that I initiated some time ago as a 
member of the Banking Committee.
    We had been trying to find a way for Indians living on 
reservations to be able to receive a loan from a commercial 
entity and have a guarantee of that loan. We have had a trust 
status problem with that. I think the program is now up and 
running.
    I would like to request that you give it favorable 
consideration so that the funds there can be leveraged up to 
approximately--$6 million would leverage it up to $68 million 
in guaranteed loans. It is modeled after the Housing 502 
Program, single family housing programs, which was another 
initiative that I started with a lot of support from my 
colleagues. It has been extraordinarily successful in smaller 
communities across the Country.
    I make a number of comments, Mr. Chairman, about the 
community Development Block Grant Program. One of the things 
that concerns me is that an increasing amount of that money is 
dedicated for distribution at the discretion of the secretary 
and at the Washington level; a much higher percentage all of 
the time.
    I am concerned about what that does to the erosion of funds 
available to entitlement cities and to the smaller communities 
through the State agencies. I have been a recipient of an 
earmark last year or the year before. I think it is better if 
we do not have earmarks, but that seems to be a way of life 
here.
    So, I made a request that year. I am making one this year 
for a community center. If you would choose to not do any 
earmarking of Community Development Block Grant Funds Special 
Projects, I would be more supportive of it. As long as we are 
doing it, I make a request of you.
    I understand if you want to make a change in that 
direction. You will certainly have my support. Finally, I want 
to talk to you very, very briefly about the Veterans 
Administration housing. I missed one issue. I do support the 
Rural Housing of USDA.
    I am quite concerned that really the $20 million that HUD 
is requesting really is a duplication. I would suggest you look 
long and hard at that; possibly eliminating the $20 million 
they have specified for that area. I think this is overlapping 
with the USDA's programs.
    I am not sure that that is needed there. So, I am 
suggesting you look at the possibility of eliminating that $20 
million. That is an unusual comment for you, I suppose. The 
Veterans Affairs Issues, VERA, continues to create difficulties 
for sparsely settled States like my own.
    The amount of funds coming to support veterans is 
dramatically being reduced in Great Plains States and other 
sparsely settled parts of the Nation. This is an authorization 
problem. It is not your problem. I do want to call it to your 
attention and ask you to use whatever resources, pressure, and 
influences you can have to begin to make some changes in that 
issue.
    A veterans hospital was closed in my District this past 
year as far as in-patient service is concerned. I believe given 
the reduction in the types and numbers of veterans that can be 
brought into the veterans hospital for inpatient care, that was 
almost inevitable.
    I regretted that we had to make those changes for fiscal 
reasons, even though you are providing, we are providing as a 
Congress, more money than ever before for veterans health care. 
We are at that point where we have the bulge in numbers from 
World War II and veterans who are naturally demanding more 
medical services.
    The VERA Program, based on a per capita distribution of 
funds, is simply not fair to sparsely settled parts of the 
Country. There is a base of adequate medical care that ought to 
be available to every veteran, no matter where he or she lives.
    It is true they are piling up in the Sun Belt. That does 
not mean that we can just leave these veterans high and dry who 
are not moving towards the Sun Belt or are not close to a major 
metropolitan area. So, I just wanted to bring that to your 
attention.
    I will be happy to respond to any questions or comments you 
might have ladies and gentlemen.
    [The prepared statement of Mr. Bereuter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you. These are all issues, especially 
VERA, that we have similar problems with. Most of us come from 
those States, other than Ms. Meek who VERA affects in a 
different way, not necessarily in a positive way either. So, we 
have the secretary coming in next week. We will discuss that.
    Any other questions from members of the panel?
    [No response.]
    Thank you.
    Mr. Bereuter.  Thank you.
    Mr. Walsh.  Bart Gordon, I believe is next. We will go with 
the gentleman from Tennessee; welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                   THE DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Gordon.  I have provided you with a copy of testimony 
for the record. Let me just thank you for taking the time to 
listen to me this morning. Commerce and Science Committee 
hearings can be pretty boring sometime. Having sitting here 
listening to people whine about their own concerns would wear 
me out.
    So, I admire you for doing this. Speaking of wearing you 
out, this is my fourth visit on this same subject. So, I will 
try to be brief. It is concerning the renovation of some 
psychiatric buildings at the Alvin C. York Veterans Medical 
Center.
    A quick background, there are four VAs in Tennessee. The 
York Center probably does 95 percent of all of the psychiatric 
work for the State. It is in my hometown of Murfreesboro. I am 
pretty familiar with it. My father worked there for 27 years. 
He was a grounds keeper.
    When I was in high school, I was a volunteer that used to 
go out with the patients. So, I am pretty aware of what is 
going on there. It is really the only project that I have come 
before this Committee requesting. So, I think it is something 
that needs to be done.
    What we are talking about is the housing for the 
psychiatric wards are the old kind of styles where you have 
these big wards on each floor. You have communal bath rooms and 
that sort of thing, which is simply not compatible to 
psychiatric care. The VA has put it on all of their top lists. 
Two years ago this Committee was kind enough to appropriate 
$2.3 million for the design and all of those sorts of things, 
engineering, architecture.
    At the time, the idea was to tear those down and to build 
back three more. Recognizing the need to be frugal, that has 
been changed into just a renovation. It is expected that it is 
going to cost $6 million per building to renovate. The 
Administration has asked for $12 million in their budget, which 
is good.
    We are glad we are going to do two out of three. It would 
seem like there are going to be some efficiencies through 
there. They ought to go ahead and do all three which would mean 
$18 million. So, I would hope that you would look to their 
recommendation, to the VA's recommendation as it is toward the 
project.
    Then hopefully you could increase that by $6 million so I 
do not have to come back here next year and probably ask for $7 
million or $8 million because we did not do it at the same 
time.
    So, that is my story and I am sticking to it.
    Mr. Walsh.  Well thank you very much. This is obviously a 
very competitive area within the VA budget. There are so few 
dollars allocated. It sounds like it is a needed project. We 
will do the best we can.
    Mr. Gordon.  Thank you. We have tried to present all of the 
background to your Staff. We have photographs and anything else 
that you might need. We have tried to do it in an appropriate 
way. Again, the VA is making the recommendations. This is not 
something out of left field. This is something that has gone 
through the full process.
    Mr. Mollohan.  Did the President include this in his budget 
request?
    Mr. Gordon.  He included $12 million for two of the three.
    Mr. Mollohan.  Okay.
    Mr. Gordon.  So what we would hope you would do would think 
that there are going to be efficiencies to do three. We already 
have architecture, design, and all of those plans for the 
three.
    It is just going to be a lot cleaner to go ahead and do it 
this year, than we come back next year, as I say, and say okay 
we have got two of them done. Let us get the other one done. By 
the way, the cost is probably in the millions.
    Mr. Walsh.  Any other questions?
    Mr. Mollohan.  Yes. Has the President requested that in 
previous years?
    Mr. Gordon.  No. I think he did request the building and 
design, which we got 3 years ago. This is the first year that 
he has put it in the budget. I forgot the term they use, but it 
is on there. It is a hazard. It is on their list to have them 
changed.
    Mr. Mollohan.  Thanks.
    Mr. Walsh. Thank you very much.
    [The prepared statement of Mr. Gordon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Mr. Pallone is not coming we have been told. 
Lane Evans. We can work you right in now if you would like. The 
gentleman from Illinois; welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                   THE DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Evans.  I request that my entire statement be included 
in the record.
    Mr. Walsh.  Without objection.
    Mr. Evans.  My testimony today is straightforward and 
simple. I am asking the members of this Subcommittee, and 
ultimately the Full Committee and Congress, to provide a 
substantial increase in the appropriations for veterans' 
benefits and services for fiscal year 2000.
    Without this kind of significant increase in funding 
provided by Congress for veterans' benefits and services, we 
risk as a Nation failing our veterans. We cannot afford to fail 
your veterans who have served honorably and got in harm's way 
to preserve and defend the freedoms and liberties that we so 
often take for granted.
    Based on a detailed analysis prepared by the Democratic 
Staff of the Veterans Affairs Committee, I believe an increase 
of $3.2 billion above the President's request is needed. This 
demonstrates the magnitude of the funding crisis for VA 
benefits and programs.
    This analysis is an attachment to my prepared testimony. I 
hope it will be useful to this Subcommittee and the members. 
Clearly, I am not alone in my recognition of the funding golf. 
Maybe my Republican colleagues have pronounced the 
Administration's proposed budget for next year for veterans to 
be under funded by at least $2 billion and possibly more. The 
Chairman of our Committee, the gentleman from Arizona, Mr. 
Stump, who strongly opposes unwarranted spending, recommended 
an increase of $1.9 billion over the Administration's proposed 
funding levels.
    Evidence of the failing prices in veterans' affairs is 
coming from many sources. One recently retired VA Medical 
Center Director testified that the proposed budget would lead 
to an unprecedented number of VA Medical Centers being closed.
    Daily I read about VA facility closures, VA employee lay-
offs, and program cuts across the Country. Already there is a 
massive change in VA's management of long-term and mental 
health care that often amounts to a denial of care. VA's 
Director say they will have to terminate the needed programs 
to--openings and lay off a significant number of employees 
under the proposed budget.
    The VA is a health care system created for veterans and 
their special health care needs. It is special and a largely 
unrecognized part of the Nation's public health infrastructure. 
It should not be allowed to wither on the vine because veterans 
are no longer the flavor of the month.
    VA health care is a safety net that is strained; unless you 
repair it and strengthen and to be allowed to further weaken 
and develop larger holes. This will cost money; money I urge 
this Subcommittee and Full Committee to appropriate.
    In simplest terms, the funding crisis confronting VA is due 
to the Administration and Congress have failed to recommend and 
provide sufficient resources for several years. The solution to 
this crisis is to provide the funding needed for our veterans 
of our great nation.
    Mr. Chairman, I appreciate the opportunity to testify 
before your Committee. I hope that you will carefully consider 
the imperatives of the veterans' programs. Thank you very much.
    [The prepared statement of Mr. Evans follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you for your statement. Thank you for 
your long and dedicated service on the Veterans Affairs 
Committee and the leadership that you provide it. I think we 
are all, both parties, the Republicans and Democrats, are very 
disappointed with the President's budget request for VA.
    Obviously we have to find some more money. The question is 
how much do we have available? It is a priority of this 
Subcommittee. We will do the best we can.
    Mr. Evans.  I appreciate it.
    Mr. Walsh.  Any other questions or comments?
    Mr. Mollohan.  I just want to echo the Chairman's comments 
regarding your long and dedicated service to veterans, Lane. I 
am hopeful that we will address the CAPS issue which really has 
to be addressed so we can get some more money for this and 
other very important projects. Thank you for your testimony.
    Mr. Evans.  That is good to hear.
    Mr. Walsh.  Thank you, sir.
    Mr. Evans.  Thank you.
    Mr. Walsh.  The gentle lady from Illinois, Ms. Schakowsky. 
We welcome you to the Subcommittee today.
                              ----------                              


                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Ms. Schakowsky. I appreciate it very much. Good morning, 
Mr. Chairman and Congressman Mollohan, and members of the 
Committee. I thank you for giving me this opportunity to speak 
on behalf of the constituents in my District. I want to urge 
the Committee to give serious consideration to these 
appropriation requests.
    These are the best kinds of spending because they are 
investments rather than consumption. This is most evident by 
the example of the City of Chicago's request for $3 million to 
help them finance non-profit housing developments for seniors 
and persons with disabilities through HUD Section 202 and 811 
HUD Programs.
    That $3 million will help Chicago meet its tremendous need 
for affordable housing units. It should be noted that my 
District's housing crunch may be worsened because we might lose 
over 700 affordable housing units; 250 of those apartments are 
reserved for senior citizens because of a failure to renew 
Section 8 contracts with private landlords.
    Fortunately, Chicago is working to help five non-profit 
developments, four of which are reserved for seniors under the 
Section 202 Program. Unfortunately, again, these developments 
are currently delayed because of an unavoidable gap in 
financing.
    This gap occurred because the Section 202 Program bases its 
funding formula on the cost to build apartments meeting HUD 
specifications, but local specifications are stronger and makes 
a development more costly than HUD anticipates. Thus, a gap 
between allocation and need occurs.
    At the same time, HUD rules discourage additional private 
funding for this housing. The City, however, can and would fill 
this gap, but it needs our help. The $3 million that I am 
requesting would help Chicago help these non-profits build four 
202 and 811 developments totaling 285 units, and adding to the 
1,393 other elderly housing units built since 1992.
    In the same vein of productive spending, I urge the 
Committee to fund two programs for universities in my District. 
Loyola University of Chicago is requesting $2.99 million from 
HUD's Economic Development Initiative to build four new 
Computer Information Resource Centers.
    It is important to note that these centers will not only 
serve the student body, but will also be available to high 
schools, to community groups, and to professionals. They will 
link the corporate municipal non-profit and the university 
communities in order to prepare Chicagoans for the advanced 
technology and information management skills needed for 21st 
Century jobs.
    Additionally, Northwestern University request $100,000 from 
the National Space Grant College and Fellowship Program. In the 
past, Northwestern has used this funding to place high school 
and college students in research programs. Some of those same 
students have gone on to win Goldwater Fellowships, NASA Grant 
Student Fellowships, NASA Graduate Student Researcher 
Fellowships, Westinghouse Talent Search Awards, and Intel 
Talent Search Awards.
    I respectfully urge your careful consideration of these 
requests. They will go a long way towards helping the City of 
Chicago, Northwestern University, and Loyola University of 
Chicago strengthen my community and I dare say the Nation as 
well. Thank you very much.
    [The prepared statement of Ms. Schakowsky follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you. We will include your entire 
statement in the record. Many of these issues are issues that 
we all face. The Section 202 housing--there is some discussion 
going on between the Housing and Banking Committee and this 
Subcommittee to try to resolve some of those issues for senior 
housing and create some more opportunity for building the units 
and rehabilitating existing ones.
    Ms. Schakowsky.  Well, it certainly is a critical need in 
my District. As you point out it is one around the Country as 
well.
    Mr. Walsh.  Anyone else?
    [No response.]
    Thank you.
    Ms. Schkowsky.  Thank you so much.
    Mr. Walsh.  The gentleman from Connecticut is welcome to 
join us at the table. We are ready for you. Mr. Shays of 
Connecticut Number 4.
                              ----------                              


                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Shays.  Thank you very much, Mr. Chairman and members 
of the Committee. I have a fairly long statement which I would 
like to submit for the record.
    Mr. Walsh.  Without objection.
    Mr. Shays.  I would like to talk to you about three issues. 
The first is we would like a funding request for the 
Corporation for National Service of $548.5 million. It is an 
increase of $110 million, and tell you that of all of the 
Government programs, I believe that National Service is one of 
the most productive and one of the most beneficial that we 
have.
    Speaking as a former Peace Corps volunteer, I was not a 
``volunteer.'' I was really a member of the Peace Corps. When 
you call it the National Service volunteers, people say well, 
you know, they are not really volunteering. No. They just 
happen to be working for a minimum wage and doing something 
that we want them to do.
    They are earning their educational grant of $4,750 instead 
of being given a grant. I can tell you in the 4th Congressional 
District they are doing an extraordinary job. I would say to 
you the thing I love the most about the Peace Corps is they 
basically designed it in a way that tried to accommodate the 
concerns that Republicans had.
    Yet, Republicans seemed to be the most critical of the 
program. Basically, 75 percent of this program is State and 
Local focused. It is not a national Government program, as I 
think you all know. It is designing programs within the States 
that can take advantage of the help of an individual.
    I would just ask you to take a second, third, or fourth 
look at the number of students who have been tutored and 
mentored, the number of homes that have been built, the number 
of senior citizens that have been protected, and so on by these 
young Americans who are gaining viable working strengths and 
also serving their Country.
    I would also say to you that I know Harris Wofford. I 
believe that he is trying to make this a better program. I 
believe he is making it a better program. I would ask you to 
really be impressed with what he has been doing. I am also here 
to ask for $92 million for EPA's Brownfields Funding.
    This was a program that EPA did initially as charter 
program. We have instituted it in appropriations, not as a 
pilot program. Brownfields has been extraordinarily helpful to 
us. What it has done is it has identified old industrial sites 
in a unified way, and really assessed how much is required to 
clean them up.
    We had all of these old industrial sites in Bridgeport. 
People stayed away because they though they were an endless 
cause. We have been able to use Brownfields and assess what you 
need to spend so much here, so much here, and so much here.
    What has happened is the private sector is buying them up. 
We are seeing a tremendous benefit from this. One of the 
aspects of the Brownfields legislation I like is that you can 
expense up front for your clean-up.
    I am one of the few Republicans that represent an urban 
District. I think you, Mr. Chairman, have an urban area as 
well. There are not many of us on the Republican side. I think 
Democrats are more sensitized to this because you tend to 
represent these districts more.
    Of all of the things that have happened in our urban areas, 
these Brownfields Legislation for me is again the most 
beneficial. I have seen its success in both Bridgeport and in 
Stanford; two of the three cities I represent.
    I would like to just conclude by asking that you provide an 
increase of $60 million or more into our housing opportunities 
for people with AIDS, HOPWA. At a minimum, I urge support for 
the Administration's request of $240 million. I would like $285 
million.
    It has impact and we need more than that. At least it gets 
to the bulk of the problem. We do have a housing crisis, 
particularly in the Northeast and I suspect in other parts of 
the Country. I would hope that you would see fit to fund this 
program.
    I would like to say that this legislation basically is 
impacted directly by my predecessor, Stuart McKinney. His 
widow, Lucy McKinney, was someone who used to stand behind her 
husband. At the death of her husband, she has been out in front 
because she because truly sensitized to a number of issues 
related to housing opportunities for people with HOPWA, and has 
just been an extraordinary citizen.
    I am just requesting that we not forget our obligation in 
this area. That would cover it.
    [The prepared statement of Mr. Shays follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much, Chris. These are all very 
valid and important priorities. We have really stringent budget 
requirements we are working under. We have got some tough 
decisions to make.
    Mr. Shays.  I know you do.
    Mr. Walsh.  The way you present these and your genuineness 
and sincerity make it all the more difficult for us.
    Mr. Shays.  Let me say this to you. I know ultimately that 
you are going to have to pass this legislation out onto the 
budget resolution. I believe that it would be very helpful if 
we begin the negotiations with the President on these.
    There are some tax cut Republicans would want and there are 
some spending increases that the White House wants. Ultimately, 
they are going to happen. I hope that, particularly my Democrat 
colleagues can encourage the White House to step in as early as 
possible because by then I think your job might be a little 
easier.
    Mr. Walsh.  Thank you.
    Anyone else?
    [No response.]
    Mr. Shays.  Thank you.
    Mr. Walsh.  I would like to welcome the gentleman from 
Indiana. Please proceed.
                              ----------                              


                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky.  Mr. Chairman, the Committee has my full 
testimony and a number of requests before it. I realize that, 
first of all, you do not know what your allocation is. This is 
going to be a very difficult year.
    We simply want to stress to you and the members of the 
Committee who are here is that these are vitally important 
requests as far as the economic well-being of the District I 
represent, as well as the quality of life and environmental 
integrity. We would want to work with you and the members of 
your Staff as we proceed to establish some priorities.
    [The prepared statement of Mr. Visclosky follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Well, we have your statement. It will be 
entered entirely into the record. We will review your 
priorities and be as responsive as we can.
    Mr. Visclosky.  I appreciate that, Mr. Chairman.
    Mr. Walsh.  I thank you for your brevity.
    Mr. Visclosky.  Thank you very much.
    Mr. Walsh.  The gentleman from Texas, Mr. Reyes; Texas 
Number 16; welcome.
                              ----------                              


                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                         DEPARTMENT OF VETERANS


                                WITNESS

HON. SYLVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Reyes.  Good morning. I have a brief statement that I 
will just read outlining the needs that I hope you and the 
Committee can support. Mr. Chairman and members of the 
Committee, I appreciate the opportunity to be here today to 
solicit your support for programs and projects that are 
important to the people of El Paso, Texas, the District that I 
represent.
    First, I am asking you to provide full funding for the 20 
new Empowerment Zones that were recently designated by the 
President Clinton. El Paso received one of those Empowerment 
Zones. Over the 10-year life of the Empowerment Zone Program, 
Urban Empowerment Zones are supposed to receive $100 million.
    In fiscal year 1999, however, only $3 million was 
appropriated for each zone. I ask for this support because 
while the rest of the Nation enjoys record low unemployment 
rates, El Paso has more than 10,000 workers that have been 
dislocated as a result of the North American Free Trade 
Agreement.
    Our unemployment rate is consistently in the double digits. 
If ever a community needed full funding for its Empowerment 
Zone, I believe it is El Paso. Secondly, I am requesting $13.5 
million for the El Paso-Las Cruces Regional Sustainable Water 
Project to resolve the water problems that face the 2 million 
residents of New Mexico and the West Texas Border Region. The 
New Mexico-Texas Water Commissions created a regional 
cooperative project to address our water problems by increasing 
the surface water supply through more effective water storage, 
distribution, treatment, and aquifer storage of water from the 
Rio Grande River.
    With funding from this Committee, the initial planning 
phase of the Sustainable Water Project will be completed during 
fiscal year 2000. In order to ensure that the project proceeds 
on schedule, we need funding of $13.5 million to begin the 
design phase.
    Third, I am also requesting that you appropriate $5 million 
for the Southwest Center For Environmental Research and Policy, 
better known as SCERP. SCERP is a consortium of five U.S. and 
four Mexican universities whose mission it is to address the 
environmental problems affecting the border region.
    The University of Texas at El Paso is one of the member 
institutions. Since 1990, the support of this Committee has 
enabled SCERP and UTEP to address some of the most critical 
environmental problems affecting our border.
    Since 1990, SCERP has implemented more than 150 projects in 
the areas of air and water quality, hazardous waste management, 
environmental health, education, training, and environmental 
information assistance. Fourth, I am requesting that you fully 
fund Section 202 housing for the elderly. My District needs 
more than 30,000 additional units of affordable housing. The 
President has requested $660 million which is the amount 
appropriated in fiscal year 1999. That did not even fund half 
of the applications however.
    In my District, the City of Socorro has attempted 
unsuccessfully since 1996 to provide a mere 40 homes for 
elderly individuals under the 202 Program. This despite being 
in one of the lowest per capital income areas of the Country.
    Simply stated, Mr. Chairman, we need your help. There are 
serious needs not only in my District but around the Country. I 
hope you will provide adequate resources under the 202 Housing 
Program to address the needs of our Nation's elderly 
population.
    Finally, as a member of the House Veterans Affairs 
Committee, I urge you to adequately provide for the needs of 
our Nation's veterans. El Paso has more than 60,000 veterans; 
the second largest veterans population in the State of Texas.
    Their health care, assisted living needs, and extended care 
facilities is significant and growing. It is representative of 
the status of veterans all across our Country.
    We must show a significantly greater commitment of 
resources than reflected in the proposed flat line budgets. The 
Veterans Administration itself and the veterans service 
organizations have all indicated that substantial increases are 
necessary to meet the growing needs of our veterans.
    Therefore, I am requesting an additional $2 billion for 
veterans health care. In addition, with regard to the State 
Veterans Home Grant Program, I am requesting an additional $50 
million to equal the $90 million that was appropriated last 
year.
    Mr. Chairman, I appreciate your consideration of these 
requests. I thank you and the Committee members for your time 
and your attention. Thank you very much.
    [The prepared statement of Mr. Reyes follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much for your statement. These 
are all priorities of this Subcommittee. We have a very 
difficult time this year making these decisions. We will do our 
best.
    Mr. Reyes.  I certainly appreciate that. Thank you very 
much.
    Mr. Walsh.  You are welcome.
    Mr. Mollohan.  No, Mr. Chairman.
    Mr. Reyes.  Thanks a lot.
    Mr. Walsh.  Thank you for your brevity. Mr. Weygand, 
welcome. The gentleman from Rhode Island.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. BOB WEYGAND A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Weygand.  Thank you, Mr. Chairman. I want to thank you, 
first of all, for allowing us to testify, but also we will 
follow the two previous speakers in brevity. I will submit the 
statement. I would like to just summarize some of the things 
that are really most important.
    The focus of my testimony and my statements is really on 
making cities and communities more liveable. All of the issues 
that I have talked in there about them is trying to make it 
more liveable.
    The first is the liveable committee's agenda which, as a 
part of the budget, we have a $50 million allocation for 
purposes of helping communities work in a more comprehensive 
way to bring better living conditions to those communities, 
particularly with regard to housing.
    That is a very important program, but it is also 
supplemented in my testimony about evaluation and abatement 
programs. Clearly, particularly in older cities in the 
Northeast and in Rhode Island where we have an awful lot of 
wonderful housing stock.
    Some of the problems, particularly lead problems, affect 
young children and have a detrimental effect on their 
educational experiences later on. Within the budget right now, 
we have level-funded lead evaluations and abatement programs; 
particularly, after you take a look at trying to increase that.
    It was the impact without having good lead abatement 
programs and evaluations means higher educational costs and 
health care costs, particularly for low income minority 
children in the inner city, as well as in the older communities 
of our Country.
    There are also two other programs within HUD that I would 
ask you to take a look at is the home program. It is a home 
repair program. Particularly again, from older housing stock, 
particularly for people who are trying to be owners and 
occupiers of their homes in the urban areas.
    That is increasingly important to have that kind of 
assistance available to them. Again, we are trying to focus on 
not the Urban Sprawl, but really trying to make cities more 
liveable and enticing people to stay in the cities versus 
sprawl out.
    Therefore, we have to have the tax incentives, the benefits 
there to make them want to do that. Home ownership and lead 
evaluation and abatement is just two of them. Title I is 
another program that has gone through a lot of political 
scrutiny over the last few years.
    HUD has not really done anything over the last year to 
really make a determination where they are going. I am not 
asking for financial assisting for the Committee to urge them 
to come up with a final to answer what they are doing with 
Title I.
    Ninety-five percent of the program is a good program. There 
are only a few bad apples that have given Title I a bad rap. I 
would ask you to ask HUD to start moving forward on 
reestablishing the benefits of the Title I Program and to stop 
procrastinating and not going forward with the Title I.
    The last issue is with regard to veterans. VERA, as you all 
know, is the formula by which we fund the veterans hospitals 
and other assistance to veterans. While the Sun Belt has 
clearly seen a migration of veterans from the Northeast to the 
Sun Belt.
    Veterans are moving at a greater rate to the more desirable 
areas. That is understandable. What happens not only in Rhode 
Island, but also throughout the Northeast and Chicago areas in 
the Mid-West is that we are now with the lowest income and 
sometimes the older veterans who are generally the more sickly 
veterans that we have to service.
    The formula purely right now is based upon population, not 
based upon the incidents and the likelihood of problems. In 
Rhode Island, while we have done very well with regard to 
outpatient services for veterans and doing a number of other 
case management for veterans, clearly we are having higher 
hospitalization costs because the veterans that are coming to 
us are older, more sickly, and are in need of a greater amount 
of care than many of those that are in the Sun Belt.
    We would hope that you would take a look at that because 
that is clearly for the Northeast States, it is very, very 
difficult. The last one is something that came up just 
recently. I think all of you are probably familiar with it.
    That is the lack of funding for honor guards for our 
veterans. Throughout this Country no matter where we go, we are 
seeing honor guards not there for veterans' funerals. It is 
appalling to all of us to have a long tradition of veterans 
affairs and fighting for veterans, we should clearly be able to 
fund the amount of monies necessary to provide National Guard 
or other kinds of honor guards at funerals for our veterans.
    It is atrocious to think that someone who has served our 
Country, has perhaps even been disabled because of their 
service to their Country, now at their time of burial does not 
even get the honor of an honor guard. We clearly ask you to 
take a look at that and provide funding for those areas.
    With that, Mr. Chairman, I want to thank you for your 
patience. I hope I was as brief as I had hoped to be.
    [The prepared statement of Mr. Weygand follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  You did just fine. Thank you very much. Your 
concerns about the Veterans Administration are shared by this 
Committee. This last lining of the budget is going to be a 
major challenge for us. There is a lot of dissatisfaction, I 
think it is safe to say, with VERA in most quarters. It is a 
matter of money and policy.
    Mr. Weygand.  With that, Mr. Chairman, the formula right 
now is population-based. As you know, with Medicare and all of 
the other problems we are having with HMOs, it is clearly just 
not population that you make your determination on formula.
    It should be based upon some of the other demographics that 
go along with it, the age, and the problems that obviously 
occur. If you are healthy enough and wealthy enough to move to 
the Sun Belt, you do that. If you are poorer and you are 
sicklier, you do not have that opportunity often. That is what 
happens to veterans. Thank you, Mr. Chairman.
    Mr. Walsh.  Thank you, Mr. Chairman.
    Any other comments and questions?
    Mr. Mollohan.  No. Thank you.
    Mr. Walsh.  The gentleman from New Jersey's 3rd District 
Section, Mr. Saxton.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Saxton.  Mr. Chairman and members of the Committee, I 
have some written testimony that I would like to submit for the 
record, if that is okay.
    Mr. Walsh.  Okay.
    Mr. Saxton.  Just let me take a few minutes of your time, 
or maybe even less, to talk about three issues; two of which 
are very closely related and of huge importance to me and the 
people that I represent.
    My District has the dubious distinction of having the most 
Super Fund sites of any District in the Country. That is not 
something we like to talk about.
    Mr. Walsh.  You may be challenged on that point.
    Mr. Frelinghuysen.  I think I have it.
    Mr. Saxton.  In any event, we are all familiar and I know 
that Mr. Frelinghuysen is especially familiar with the 
importance of this program. While it is not perfect and while 
we struggle to try to fix the problems with it and have 
different ideas about how to do that, the Administration's 
request for $1.5 billion seems to me, in light of the 
seriousness of the matter, to be an appropriate number.
    I therefore urge support of that number. The second and 
related issue is a much smaller issue, but no less important to 
me. In Toms River, New Jersey there is a concern involving a 
so-called cancer cluster. Meaning that an unusually large 
number of cancer patients have been identified. They seem to be 
all young people. For the past 2 fiscal years, the 
appropriators have been kind enough to provide $2 million each 
year for a study to try to determine what it is that has caused 
this unusually high number of cancers in children.
    The study will be concluded this year with an appropriation 
of $1 million, making a total of $5 million of course over the 
3 years, four of which have already been spent. So, that is 
obviously of great importance.
    Also of great importance to those of us in coastal areas is 
the third issue that I would just like to mention briefly. That 
is the National Estuary Program. In New Jersey, Barnegat Bay, 
is a part of the National Estuary Program. I am aware of the 
great support that Governor Whitman and incidentally Governor 
Pataki have expressed for the National Estuary Program.
    We are hoping that we will be able to fund it for the first 
time fully this year with an appropriation of $30 million. This 
is I guess extremely important given that something in the 
neighborhood of 75 percent of the American population live 
within 50 miles of the coast.
    We have the potential ongoing of doing environmental damage 
to our waterways, bays, tributaries, et cetera. The National 
Estuary Program is the Federal effort to try to determine what 
it is that we are doing to our waterways and how to fix 
whatever it is that we have done. So, those are three programs 
that are of particular interest and importance to me. I ask 
your consideration of them.
    [The prepared statement of Mr. Saxton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you. Thank you for your long dedication 
to the environment; specifically, coastal zone management and 
estuary areas. You have done a great job. The Committee has 
funded the Toms River Cluster in the past. We will do our best 
to continue that funding.
    Any other comments or questions?
    Mr. Frelinghuysen.  Let me act on the Chair's endorsement 
and I am sure others do as well; particularly the leadership on 
the Tom's River Situation. If it were not for your persistence, 
I do not think so much attention had been given to it, but 
thank you particularly.
    Mr. Walsh.  I thank Mr. Mollohan very much. Mr. Rothman, 
welcome.
                              ----------                              

                                           Thursday, April 15, 1999

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. STEVEN R. ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Rothman.  Thank you for giving me this opportunity, Mr. 
Chairman and members of the Subcommittee. It is good to be with 
you. Let me tell you what I am asking for; $2 million for an 
expansion of a facility in Hackensack, New Jersey called the 
Hackensack University Medical Center.
    It is the busiest acute care hospital in New Jersey. It has 
the highest occupancy rate in the State. What we are trying to 
do is expand a place called Children's House. That is the place 
where abused children get taken from all over the State of New 
Jersey; particularly the six northern counties, the most 
populated part of New Jersey.
    The whole idea of the Children's House which is now located 
in a residential neighborhood, in a residential two-story home 
on the campus of the Medical Center, is to take the children 
who have already obviously been terribly victimized out of 
frightening sterile hospitals or police interrogation room 
environments.
    That has been a success. They originally, in 1997, you 
know, they have--in 1997, they had an anticipation of 30 
youngsters who would be treated at Children's Home. Now it is 
300. So, there is a need to expand out of this little two-story 
house on the campus and to make a program where the kids can 
stay overnight in this facility; where no VA social workers, 
where there will be a pediatric pulmonologist, pediatric 
physicians with all of the sub-specialties there, and social 
workers all staying overnight so they do not have to stay 
overnight in a hospital room or be interrogated at the police 
station about what just happened to them. It can be in a warmer 
environment.
    So, while there is good news about lower crime rates 
overall in the United States, that is not the case with the 
crime of child abuse; certainly not in New Jersey. To help 
combat this problem is why the Children's House was begun and 
why the expansion is needed.
    To serve the diagnostic and long-term needs of abused 
children and adolescents and as located on the campus of one of 
the most prestigious hospitals in the State of New Jersey. 
Medical examinations are conducted inside the children's house. 
They are not conducted inside of the hospital emergency room 
where they otherwise would be.
    That, again, is to minimize the trauma to these kids who 
have been horribly abused. The Children's House is designated 
by the State of New Jersey already as the Northern Regional 
Diagnostic Center for Child Abuse and Neglect. As such, the 
Children's House is charged with providing this coordinated 
care in the most densely populated region of the State of New 
Jersey.
    Under a current multi-disciplinary team operational 
directive, the Children's House works in coordination with the 
County Prosecutor, the State Division of Youth and Family 
Services to perform Ed's functions. The HUMC, the Hackensack 
University Medical Center makes this a priority program. It 
subsidizes this program as a part of its commitment to 
providing charity care.
    Which reads $75 million in charity care from this hospital 
alone in 1997. The children's house began with a one-time start 
up grant of $250,000 from the Prosecutors Office. Burton County 
Prosecutors now receives an annual State grant of half a 
million in its role as a Regional Diagnostic Center.
    The ongoing and increasing needs are not being met. There 
is an urgent need for the expansion of the facility. HUMC has 
proposed replacing the 1,500 square foot facility. With a 
modified residential house on the campus of the hospital with a 
20,000 square foot provide, or give the kids an opportunity to 
sleep there at night instead of in the hospital.
    You have been victimized. You have been traumatized, and 
they put you in the emergency room to find a bed free in the 
hospital; a cold sterile environment. That is what the hospital 
wants to avoid. Put them in a more residential facility 
overnight.
    That does not exist and they want to do that so they can 
provide the medical, psychological, and social service support 
from these abused children and their families. So, the family 
can stay and sleep overnight with them right on a hospital 
campus at no cost to the family members nor to my children.
    Now, the hospital has got commitments from philanthropies 
and from State funding. The hospital plans to make a major 
contribution as it has for this Children's House. The expanded 
facility will cost close to $7 million just for the expansion.
    We are asking for a grant from this Subcommittee for $2 
million towards that $7 million need. I urge the Subcommittee 
to consider funding this request. I want to thank Chairman 
Walsh, ranking member Mollohan, and members of this Committee; 
certainly our good friend from New Jersey, Rodney and LaCary 
from Florida who have always been there to help us in the past.
    It is real neat. Can you imagine being child victimized and 
then being treated not like a criminal but being put in this 
cold sterile environment and you wonder what you are being 
treated this way when everybody is only using the only 
facilities available.
    Well, the Hackensack University Medical Center wants to do 
something about that. It has worked hard. It has a great plan 
by the Prosecutor's Office and by all of the Social Service 
People. They are willing to do their part. Find out if the $7 
million is ready, which they can cover with ambitions fun 
raising families, your health is very appreciated.
    [The prepared statement of Mr. Rothman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much. Any comments or questions?
    Mr. Frelinghuysen.  I would certainly want to echo some of 
what Congressman Rothman had stated. Not to be repetitive, but 
certainly have met with representatives of the medical center, 
Hackensack, and I am well-aware, the Chairman I think is now 
better aware of what you are seeking for children's housing. We 
appreciate your being with us. It is important.
    Mr. Rothman.  Thank you.
    Mr. Walsh.  Thank you very much. The gentleman from Texas, 
9th District, is welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. NICK LAMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Lampson.  Thank you very much. Thank you, Mr. Chairman, 
and members for letting us come and visit for a few minutes 
this morning about the Gulf Coast Hazardous Substance Research 
Center which as been in existence in nine different 
universities since 1988.
    We are looking for funding at the level that we have had in 
the past; $2.5 million. What we would also like to request or 
make a special request about which we spoke last year for a 
Gulf Coast Air Research Cooperative through the EPA Office of 
Research and Development to the level also of $2.5 million.
    This center carries out a program. I am just going to go 
through my notes. I have given you all a full text of the books 
and my comments that I would like for you to look at at some 
point in time.
    The center carries out a program of peer review research, 
evaluation, testing, development, and demonstration of all 
kinds or innovative technology that may be used to either 
minimize, destroy, or handle hazardous waste associated with 
the petroleum industry and the electro chemical industry and 
other Gulf Coast industries to achieve better protection of 
human health and the environment.
    Like I said, this center was established in 1988. Since 
then it has had numerous projects with successful completion; 
300 multi year projects; 200 different principal investigators; 
450 graduate students at affiliated universities. They have 
produced over 1,200 publications, theses, and technical 
presentations.
    I have been very successful on leveraging outside research 
support for various projects recently funded by the center 
through the Federal, State, and industrial research grants. The 
major category areas of research are like I said, waste 
minimization by technology and--modification and emerging 
technologies.
    Major areas of technology research include biology, 
remediation, biological remediation, soils and sludge 
treatment, separations, hazardous substance, monitoring, 
detection, combustion oxidation, pollution prevention, and 
modeling and risk assessment.
    Projects in this center have received national awards, 
Presidential Dream Chemistry Challenge Award, State of Texas 
Governor's Award, and many others. The center provides 
coordination at a consortium of universities: Texas A&M 
University System; University of Texas; Rice University, the 
University of Houston, Memorial University, Louisiana State 
University, Mississippi State University, the University of 
Alabama, the University of Central Florida.
    It enters into research agreements with private research 
organizations and industry. We have been looking at the 
solution to air problems lies in the studies by local and 
regional research cooperatives. The main objective of this area 
research cooperative is to focus on three major areas: critical 
data gaps, unique Gulf Coast air chemistry and characterization 
and control of emissions that contribute to the Gulf Coast air 
quality problems.
    There are some unique problems that we have there. We think 
that this is the study that will help answer those questions by 
the EPA and improve the quality of life. The benefits, 
obviously, improved air quality. It is better environmental 
regulatory and decision-making; better more focused monitoring, 
better application of resources, improved regional economics, 
increased competitiveness, and reduced health risk.
    The basic bottom line is that we believe that it will 
improve the quality of life in the region and its continued 
economic health as well. With that, let me just introduce the 
various people who are involved and their universities. If you 
have a question either of me or of them, I would be happy to 
address it.
    The center's director is Dr. Jack Popper. Jack is over here 
to my right. Mr. George Talbert is the Assistant Director for 
technology transfer. Dr. Aden Agerman at Texas A&M University 
where my daughters go; Dr. Menow Shoffra, from the University 
of Central Florida; Dr. Dennis Clifford, at the University of 
Houston.
    Dr. Dennis Trueax, Mississippi State University; Dr. David 
Cock of Lamar University; Demand reduction, Danny Rival of 
Louisiana State University; Dr. Mason Thompson of Rice 
University; Dr. Gary April of the University of Alabama, and 
Dr. Allen Ford who is a former center director.
    Thus the completion of my comments. If we can answer any of 
your questions I would be delighted to do so.
    [The prepared statement of Mr. Lampson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  You are to be congratulated in bringing them 
all together and orchestrating this. This is marvelous. It 
obviously has an impact. We have, as you know, very tight 
budget constraints. We will do the best we can with what we 
have got.
    Thank you very much for your comments. Are there any other 
comments or questions of Mr. Lampson?
    Mr. Mollohan.  I thank you for your excellent testimony. It 
looks like two excellent projects and a good team of experts 
behind them. I appreciate your appearance here today.
    Mr. Lampson.  Thank you very much. The center has been one 
of the real stars in my opinion in my District and one of the 
things that could really add a lot.
    Mr. Mollohan.  Thank you.
    Mr. Walsh.  Thank you, sir.
    Mr. Lampson.  Thank you, Mr. Chairman.
    Mr. Walsh.  Mr. Goodling.
    Ms. Meek.  Mr. Chairman, before his testimony begins, I owe 
this man a real big favor, Chairman Goodling. My one little 
vote for him is extremely important.
    Mr. Walsh.  Thank you. Thank you for saying that. That is a 
good start. Welcome to the Subcommittee.
    Mr. Goodling.  Carrie can never give me a vote to repay me, 
but she says she will give me something else sometimes.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. BILL GOODLING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Goodling.  I want to thank you for allowing me to 
present the projects this morning. You have my complete 
statement. I will just summarize. I will quickly summarize 
this. Last year, we got a million dollars. York City has a lot 
of extra capacity. York City cannot grow.
    The surrounding township is growing leaps and bounds. If 
they try to go it alone, it will cost them at least an 
additional $50 million. If they combine with York where there 
is capacity, then all they need is to get the line in there.
    That is a project of $6.6 million. I am asking for $3 
million in Federal funds for that project. As I said, we got $1 
million last year to get it started. The second project would 
extend Dillsburg Borough to our system in the Franklin 
Township.
    That is an area currently without public water or sewer. 
The cost of that project is $11.3 million. I am requesting $2.1 
in Federal funds. They are experiencing septic tank failure and 
ground water purity is being threatened. I am suggesting four 
projects be included in HUD's Economic Development Initiative.
    The first project would provide water and sewer services to 
a 282 acre industrial park in Adams County. The total cost of 
that project is $13 million. I am requesting $1.5 million. We 
have a real problem.
    That is my county. It is most rural. It is also a county 
that just went through 10 years of hell with the EPA because 
everybody there did exactly what they were told to do, but 800 
small businesses all of a sudden are being sued because of 
their putting the waste exactly where they were supposed to put 
the waste, according to the townships and the county.
    The total cost of that project is $13 million. Like I said, 
I am asking for $1.5 million. In Adams County we have a project 
to construct a solid waste co-composting facility. Again, that 
will help them from getting in trouble with the EPA up in that 
particular area.
    In that county, unfortunately, an awful lot of it the 
Federal Government owns. So, they get no tax money. As you 
know, there is a famous battlefield and cemetery and so on 
there. Stewartstown and Hopewell Township is in real trouble.
    They are right over the Maryland line and half of Baltimore 
County. It has moved across the line. They want to improve 
their capacity from 400,000 gallons to 625,000 gallons. This 
means a new water system. It will be essential that when they 
get some Federal funding, the area has very little, other than 
residential, the residential tax base. I request $800,000 for 
that project.
    Finally, I request funding for a project at Upper Allen 
Township in Cumberland County to provide public water and sewer 
for the Bowmansdale and Shepherdstown areas. The request for 
that is $3.341 million. Again, we have failing septic tanks in 
the area. That is the purpose for that.
    That is a quick summary of my extensive report, which I 
know the Staff will read. I appreciate any consideration you 
can give us.
    [The prepared statement of Mr. Goodling follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you for your interest and your 
representation of your constituency in these areas. These are, 
of course, clean water, wastewater all over the country. We 
will make them a priority. Thank you for your testimony.
    Does anyone else have another question?
    [No response.]
    Mr. Goodling.  Thank you.
    Mr. Walsh.  Thank you. The gentleman from New York 
representing Manhattan Island and Brooklyn. Mr. Nadler, welcome 
to the Subcommittee.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Nadler.  Thank you very much, Mr. Chairman. Thank you 
for giving me an opportunity to testify this morning. First of 
all, let me ask consent to submit for the record of 
representative Constance Morella in support of the HOPWA 
Program.
    Mr. Walsh.  Without objection.
    [The prepared statement of Ms. Morella follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Nadler.  I am also submitting my own statement for the 
record and it should be somewhat longer than my oral remarks.
    Mr. Walsh.  Terrific.
    Mr. Nadler.  Mr. Chairman, stable and affordable housing is 
essential to preventing the early onset of illness for 
assessing, extending medical care, and drug therapies, and 
maintaining quality of life for HIV infected individuals and 
their families.
    People with HIV or AIDS face a staggering array of barriers 
to obtaining and maintaining affordable stable housing. Despite 
Federal and State anti-discrimination laws, many people with 
AIDS still face illegal eviction from their home when it is 
discovered that they have AIDS.
    Many others lose their housing as a result of illness and 
lost wages. They cannot pay their rent or mortgage. A growing 
number of people with HIV or AIDS are already homeless when 
they become ill. These people find themselves shuffled between 
acute care hospitals, medically unsafe facilities, and the 
streets, at an enormous cost to the health and the health care 
system.
    Recent studies confirm that the more stable an individual's 
housing situation, the more likely it is that they will be able 
to access medical care, adhere to complex drug therapies, you 
know, AIDS patients very often have to take 36 to 45 different 
pills a day at precise times so that it works and return to 
productive work in social services. HOPWA is the only Federal 
Housing Program that provides comprehensive community-based HIV 
specific housing programs.
    HOPWA gives local communities hardest hit by the AIDS 
epidemic, the capability to devise the most appropriate and 
cost effective housing strategies for community members with 
HIV AIDS and their families.
    Communities may use HOPWA Funds to develop any of a broad 
range of housing and support services to meet the community's 
needs; where those needs are short-term supported housing, 
rental assistance for low income people with HIV or AIDS, 
community residences, or coordinated home care services.
    Ninety percent of HOPWA funding is distributed by HUD 
directly to cities and States with high AIDS caseloads to a 
formula grant. The remaining 10 percent is awarded on a 
competitive basis to projects of national significance. 
Administrative costs are capped by law at 3 percent for grant 
administrators and 7 percent for project sponsors who provide 
the housing.
    Funding for HOPWA has never kept pace with the growing need 
for housing assistance. In 1998, HUD reported that 130,000 
people living with AIDS, and an additional 75,000 persons with 
HIV are currently in need of housing assistance, but that 
fiscal year 1998 funding for HOPWA was only sufficient to 
support about \1/5\ of those individuals.
    HUD estimates that 7 to 10 new jurisdictions will qualify 
for HOPWA Formula Funds in fiscal year 2000. Based on these 
factors, the national organizations responding to AIDS and the 
National AIDS Housing Coalition estimates that at least $285 
million is needed for the HOPWA Program in fiscal year 2000.
    This will enable local agencies to meet the needs of 
existing and new jurisdictions, and the people living with HIV 
and AIDS within the jurisdictions. Fifty-two members of 
Congress have signed a letter urging you to increase HOPWA 
funding to $285 million.
    I urge that you do everything you can to fund this vital 
program at, at least $285 million. I thank you for your 
attention.
    [The prepared statement of Mr. Nadler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much for making that strong but 
brief statement. Mr. Shays was in just earlier and made the 
same presentation on that.
    Mr. Nadler.  Not in the same words, I hope.
    Mr. Walsh.  No, no, no, but it is obvious that there is a 
need there. Thank you.
    Mr. Nadler.  Thank you very much.
    Mr. Walsh.  Any other follow-up questions?
    [No response.]
    Thank you gentlemen, and the lady. Mr. Roemer from Indiana.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Roemer.  Thank you, Mr. Chairman, for the opportunity 
to be before this distinguished Committee. Before I get into my 
opening remarks, I want to thank you for your previous help on 
different inquiries and different projects that I have 
requested before the Committee.
    Today, I want to summarize three requests that I bring 
before you today. Detailed information about each of them is 
attached. I will certainly be pleased to provide additional 
information as required in the future.
    The first item, Mr. Chairman, is for the City of Elkhart, 
Indiana. It is known as the ``Building the American Dream 
Project.'' It proposes to construct 160 new mixed income 
housing units over a 3-year period. Elkhart, like many of your 
cities and your communities, does not have vast tracts of 
available land nor existing public housing projects suitable 
for large housing revitalization.
    What it has accomplished is targeting a number of 
potentially liveable spaces suitable for comprehensive 
revitalization, particularly in older neighborhoods ripe for 
renewal. Housing and home ownership are proven tools to bring 
back neighborhoods.
    Cohesive development provides cascading benefits for the 
neighborhoods and the surrounding city. Building the American 
Dream is an umbrella project for several housing developments 
and supporting initiatives as described in the attached project 
description. We are seeking $1.5 million in fiscal year 2000 
HUD Economic Development Initiative Funds to leverage, Mr. 
Chairman, over $15 million in private and local public funds 
for the construction of these units.
    Just as an aside, to the members of the Committee. I know 
you represent cities like this where they have populations of 
about 40,000 to 43,000 people. Some people in these cities have 
not participated in the economic boom that has gone on for the 
rest of the Country.
    We have seen some of these older homes built 50, 60, 70, 
and 80 years ago boarded up and left for the City to try to 
maintain. This project tries to recapture the home ownership 
rate in the inner cities and also tries to do something about 
some neighborhoods to revive these neighborhoods in a very 
informative, yet innovative and creative way.
    So, we are hopeful that we can leverage this $1.5 million 
for $15 million in private sector funds. The next request, Mr. 
Chairman, is for the City of South Bend. It includes two 
requests. The first is for $1.8 million in funding from HUD 
Community Outreach Partnership Centers.
    Such funds would establish start-up of first year 
operations at the Institute at Indiana University at South 
Bend. Such an institute fits South Bend's long history of 
improving neighborhoods by fostering neighborhood-based support 
groups.
    Although the City's staff invest significant amounts of 
support time and effort, several years of involvement have 
taught us that emerging leaders of neighborhood groups have no 
formalized opportunities for training and leadership skills.
    Developing such talent helps neighborhoods to thrive and 
become self-sufficient. Our Neighborhood Leadership Training 
Institute would identify, recruit, and train promising 
community leaders for strong roles in neighborhood-based 
development organizations.
    The Institute would be located in the City of South Bend at 
the Indiana University of South Bend. Finally, again for the 
City of South Bend, I ask you to consider respectfully a 
request for $700,000 from the Environmental Protection Agency's 
Environmental Programs Accounts.
    The funds would be used for the reconstruction of an 
aquifer protection wall adjacent to the St. Joseph River. South 
Bend draws its drinking water from a series of seven active 
well fields. One of these is the largest source of drinking 
water for the entire City and is located on an island in the 
middle of the River.
    During the 1930s as a part of the mission and the Works 
Progress Administration, a stone wall was constructed to 
protect the island and the well field from erosion and 
flooding.
    Significant deterioration has occurred and a portion of the 
wall has actually collapsed. Rising water poses a very 
significant danger to the wells and the safety of the drinking 
water, as well as the access roads, and the operational pumps.
    The funds would be used to rebuild the wall and protect the 
well field. As always, I appreciate your kind attention to 
these three very important matters for my hometown communities. 
Again, I appreciate the opportunity to provide additional 
material for detailed requests or information that you might 
have.
    [The prepared statement of Mr. Roemer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you. Thank you for your statement.
    The issue of home ownership is of preeminent importance to 
me. As a former City Councilman, City Council President, the 
key to any neighborhood is home ownership. The more home owners 
you have in a neighborhood, the stronger the neighborhood is.
    It is an absolute iron-clad rule. So, we want to do more of 
that. On your request for the Environmental Protection Agency, 
those funds would come under--State Tribal Assistance Grants 
which would require a local share. I believe it is 55/45. So, 
you could keep that in mind.
    Mr. Roemer.  Okay. Thank you for that help and advice. I am 
sure our mayor is probably aware of that and also willing to 
commit to a certain amount of local matches too. Thank you, 
Jim.
    Mr. Walsh.  Any other questions or comments?
    [No response.]
    Mr. Roemer.  I thank the gentleman. I appreciate your help.
    Mr. Walsh.  Thank you. Bennie Thompson of Mississippi, 
welcome. It is good to have you with us.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. BENNIE THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSISSIPPI
    Mr. Thompson.  Good morning. Thank you, Mr. Chairman. I am 
here on behalf of a request to this Committee for $2 million 
for Tougaloo College. Very briefly, Tougaloo College is located 
in the Jackson Metropolitan Area. That request for funding is 
to support the repair of a building which will be used to house 
a new science and match facility.
    One of the problems associated with being the second 
poorest State in the United States is that our educational 
facilities are not really up to par. To be honest with you, we 
are not turning out enough teachers. We are not turning out 
enough health professionals.
    We are not really addressing the core needs of our young 
people. Tougaloo College, historically, has been in the 
forefront of turning out individuals in the math and sciences. 
Fifty percent of the African-American doctors practicing in the 
State of Mississippi are Tougaloo graduates.
    Twenty-five percent of the dentists practicing in the State 
of Mississippi are Tougaloo graduates. We have a rich history 
also in being the mover and shaker for progress in our State.
    The first President of the State Bar Association, first 
Chancellor Court Judge, second African-American member at the 
Congress from our State since Reconstruction; a number of very, 
very first in our State.
    Martin Luther King, Robert Kennedy, every individual you 
can name circled through the campus of Tougaloo College. 
Unfortunately, it is a private facility. Like many colleges, we 
had a devastating explosion on our campus that destroyed the 
math and science building.
    This money will serve as a catalyst for the college to 
rebuild its facility. The facility will cost around $6 million 
to construct. We are asking for $2 million here. We believe we 
can raise the rest of the money. In all honesty, for the sake 
of the economics of the State of Mississippi, we have to have 
it.
    It has the support of our delegation. It has the support of 
local elected officials. If I could take you to the campus, you 
would be quite impressed. It is a wonderful facility. As I 
said, the President's office is a former plantation 
headquarters in the Antebellum South.
    We would support and endorse the effort of this Committee 
to fund the $2 million associated. It is our only request that 
we are making before this Committee. There were others who 
asked us to put requests in. We weighed it and said this one, 
by far, carries the highest priority for our presentation.
    I could give you additional statistics associated with it. 
Right now, our students are in a temporary facility. We need to 
do better. We must do better. With the funding for this 
project, I am more than certain that we can get the project 
underway.
    [The prepared statement of Mr. Thompson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much. How many students are 
enrolled in Tougaloo College?
    Mr. Thompson.  Presently, there are 900 and of that 95 
percent are on some type of assistance. It serves a substantial 
under privileged population in our State.
    Mr. Walsh.  It retains its medical school and dental 
school?
    Mr. Thompson.  This last graduating class, 85 percent of 
the students went on a graduate plan to graduate school; 
tremendous academic record. It has been highlighted in a number 
of periodicals across the Country and one that we feel is a 
good investment for our young people.
    Mr. Walsh.  Thank you very much.
    Any other questions or comments?
    Ms. Meek.  Mr. Chairman?
    Mr. Walsh.  Ms. Meek.
    Ms. Meek.  Mr. Chairman, I would just like to comment. 
Tougaloo College is one of the finest Historically Black 
Colleges and Universities. Having come from whence they came, 
they have done an outstanding job. I certainly would like to 
see their proposal evaluated very carefully, just as you do on 
others. I think Tougaloo has a unique need among Historically 
Black Colleges.
    Mr. Walsh.  Thank you. Anyone else?
    [No response.]
    Thank you.
    Mr. Thompson.  Thank you.
    Mr. Walsh.  Sam Gejdenson, Connecticut Number 2; welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                     DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

HON. SAM GEJDENSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Gejdenson.  Thank you, Mr. Chairman. I will be very 
brief. If you look at your Medicare costs, about 28 percent of 
Medicare costs are associated with the effects of diabetes on 
the adult population. So, putting aside our general inclination 
to obviously be concerned about people's pain and suffering, 
from cold economic assessments, if you want to do things to 
help our health care system, find a way to deal with diabetes.
    Diabetes obviously leads to blindness, amputation, organ 
deterioration. Unlike some illnesses, it takes a very long time 
to die from diabetes. So, it is very costly. At Joslin they 
have come up with a program that screens for some of these 
challenges far earlier than anything we could do in the past by 
looking at the back of the eye.
    I am not a scientist. They are able to see some of the 
early signs of diabetes as it impacts the patient and they are 
able to take some of the actions to help prevent what were 
later much more costly procedures. They have started a program 
in the Veterans Administration.
    Mr. Nethercutt and I are asking for $2 million additional 
dollars so that they can expand that program. Everybody comes 
before every committee of Congress and says ``my proposal makes 
more money for the Government and saves more money for the 
Government than it costs.'' I guess I find myself in that same 
trap today.
    At the end of the day, almost 1/3 of our medical costs are 
diabetes-associated. Anything you do that reduces people ending 
up with blindness or what have you will save us costs and we 
will do the right thing. By the people in this case, we are 
doing it for veterans. We how them a particular debt.
    Thank you. I am not going to stay to listen to my friend 
here. If you do not mind, just because I am at a committee 
meeting with Mr. Gilman, there is only one member there at the 
moment. So, unless you have any questions.
    [The prepared statement of Mr. Gejdenson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  No. George, welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                     DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

HON. GEORGE NETHERCUTT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Nethercutt.  Thank you, Mr. Chairman and members of the 
Committee. I am sorry to be late. I apologize. I was delighted 
to have my colleague from Connecticut testify and appear here 
in support of the request of Joslin Diabetes Center for $2 
million under this appropriation subcommittee.
    I have a statement for the record if I may submit it.
    Mr. Walsh.  We will do that without objection. It will be 
entered in its entirety.
    Mr. Nethercutt.  As you may know, Mr. Chairman and members 
of the Committee, I am on the National Security Subcommittee 
with Mr. Frelinghuysen and others. We put money in for the 
Joslin project over the last few years. This year VA is, my 
understanding, wanting to expand its program.
    This is a great way for the veteran population to get a 
good sense of the incidents of diabetes. I do not know what the 
population is that is potentially diabetic. My sense is that it 
is substantial. So, what this unique system does is look into 
the back of the eye and have a chance to detect diabetes in the 
veterans population.
    Thereby, early detection means early treatment and cost 
savings. As you may know, as co-Chairman of the Caucus in the 
House, we have over 240 members. I think maybe all of you are 
on it. I am not sure. It is a great caucus because it has great 
impact on the lives of people of all races, religions, genders, 
and economic circumstances.
    It is a tough, tough problem; diabetes is. The fact that 
this $2 million can be used I think to great benefit of our 
veterans makes it appropriate for inclusion in your mark. I 
know it is going to be a tough year for all of us on 
appropriations. I would urge that it be carefully considered.
    [The prepared statement of Mr. Nethercutt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you. You both make a very strong case. 
Where is Joslin?
    Mr. Nethercutt.  It is in Boston.
    Mr. Walsh.  Boston.
    Mr. Nethercutt.  The DOD testing sites have been in New 
England and in Hawaii. So, it is geographically spread out, 
obviously. We wish it were elsewhere at a lot of different 
places because we think this unique way of looking in the eye 
and detecting diabetes is a great thing. There is great 
potential to help mankind.
    Mr. Walsh.  Thank you, George.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Walsh.  Does anyone else have any questions or 
comments?
    [No response.]
    Mr. Nethercutt.  Thank you so much.
    Mr. Walsh.  Thanks a lot. Jim Clyburn of South Carolina; 
Number 6; welcome.
                              ----------                              

                                           Thursday, April 15, 1999

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. JIM CLYBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA
    Mr. Clyburn.  Thank you so much, Mr. Chairman and members 
of the Committee. I appreciate the opportunity to come before 
you today to discuss projects in the 6th U.S. Congressional 
District of South Carolina that I think are very, very 
important to the Congressional District.
    I have here five projects that I am requesting. That sounds 
like a rather large number for this subcommittee, but I want 
you to know that they are very small projects. We do things in 
this District in small ways. So, I appreciate any consideration 
you can give to that, just to say a little about the projects.
    The South Carolina 6th Congressional District is the 
poorest Congressional District in the State. It is one of the 
poorest in the Country. I have all the parts of 16 counties. Of 
course, I am strictly interested in projects designed to assist 
rural communities develop in a way that will help not just 
economically feel a sense of community.
    So, I am requesting about $500,000 for Lee County which is 
one of the most rural counties in the District. It is a county 
that just passed a school referendum, which is the first time 
in the history of the county that the people of that county 
ever approved a school referendum.
    This was kind of a high school. It was conducting classes 
in the hall ways and in broom closets. We are trying to do 
things in that community that will help add to the momentum 
that has been built as the result of the first time passage of 
a school referendum. So, I am asking for the $500,000 to 
renovate the old school into a community center.
    So that when they build the new school, we want to keep the 
old school there. It was previously a ``white'' school. We want 
to use this school as the community center for the county. 
Everybody seems to be on board with that. Another small request 
goes to the City of Mullins; an old red road community that we 
are working hard to try and help develop a sense of unity 
there, to help them enhance their future in tourism.
    Mullins is a ``tobacco'' town. It is one of those towns 
that grew up around tobacco. You know what transition we are in 
as a result of that. So, we are trying to assist that community 
with another $100,000 for the Town of Santee. It is a small 
town in the heart of my District, for a visit to the Santee 
Cultural Arts Center that will be used by senior citizens, et 
cetera.
    Then Parkers Ferry, we are asking for $500,000 to do a 
community center at Parkers Ferry that you have probably never 
heard of. Parkers Ferry is in Charleston County. Quite frankly, 
it is the site of the first community.
    In fact, the State's first settlement was in Parkers Ferry 
in rural Charlestown County. It has a very strong cultural 
presence there. It transcends racial and other lines. We are 
trying to help them with their community building as well. The 
other projects--I do not need to go into all of them. They are 
there in the communication I have sent to the Committee.
    I appreciate any consideration that you may give for these. 
I will be glad to answer any questions you may have about any 
of them.
    [The prepared statement of Mr. Clyburn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you for your testimony. You shall have 
our full consideration for these projects.
    Mr. Clyburn.  Thank you.
    Mr. Walsh.  Is there any other comment or question for Mr. 
Clyburn?
    [No response.]
    I thank the gentleman.
    Mr. Clyburn.  Thank you, Mr. Chairman.
    Mr. Walsh.  Sheila Jackson-Lee of Texas, Number 18; 
welcome. Good to have you with us.
                              ----------                              

                                           Thursday, April 15, 1999

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms. Jackson-Lee.  Thank you. Let me thank you very much, 
Mr. Chairman and to the Ranking Member Mollohan, for kindness. 
I will try to follow suit of my colleagues that preceded me and 
be brief.
    Let me thank you for an EBI Grant last year for Texas 
Covenant House. That is for homeless youth. I think you are 
familiar with Covenant House. They are most appreciative. We 
are ground breaking. Hopefully we will have a place in the 
State of Texas for homeless youth.
    I have hopefully a narrow and summarized project for my 
District this time around. Let me go immediately to the 
community of Acres Home, which is a community of 7,600 acres 
about 9 miles Northwest of downtown Houston, but it is in 
Houston and it is extremely rural.
    It has a population of 33,900. I think it is closer to 
40,000 right now and very undeveloped. In the community, we are 
organizing or has been organized what we call the Acres Home 
Citizen's Chamber of Commerce which is working with CBCs in a 
collaborative manner to develop economic incentives for people 
moving into the Acres Home area.
    We have large blots of land; undeveloped land. So, it is 
not where you have to level buildings. We have been trying to 
work with them to encourage people to move into that area and 
to give them incentives, economic incentives that would foster 
constructions.
    That means helping them package their loans. This 
collaboration is one that I think we could jump start with a 
$500,000 grant that would help with also the options to low 
income individuals to provide permanent housing. The land is 
inexpensive there.
    This would be more than a shot in the arm. It is 
unbelievable inside of the City of Houston to see such acres of 
land not being utilized. This used to be a city in itself. It 
is predominantly African-American, with a 70 percent Hispanic 
population. It has an opportunity of being a more diverse 
community.
    I would greatly appreciate them being rewarded for what 
they are trying to do. Let me give another disappointment to 
them because they are outside of sort of a contiguous area of 
urban Houston, even though they are in the city limits, they 
were not able to be included in the Empowerment Zone Request or 
the Enterprise Zone request.
    So, this will not be double dipping. They did not get any 
of those opportunities at the City of Houston. The City of 
Houston is the fourth largest city in the Nation. So, they are 
benefitting. These folk are inside the City of Houston, yet we 
are not able to benefit.
    I would greatly appreciate consideration on this enormous 
shot in the arm for them. I would like to move on a more 
generic issue. That is dealing with section 202, certificates. 
There may be a whole list of folks asking for that. I am 
particularly asking for funding of a new Section 202. Again my 
District, the 18th Congressional District, is still claiming a 
large number of senior citizens with a few number of those 
certificates or ability to build those units.
    I would certainly appreciate it if the Committee would 
consider generically the idea of that funding not being 
reduced. That is sort of an easy one in as much as maybe there 
are others who are asking the same thing. I am a member of the 
Science Committee and have worked extensively on this question 
of minority education programs.
    Mr. Golden was not funded or he does not have the budget 
line. This program was cut by over $20 million. My District 
received $700,000. I am in the Johnson area. These programs go 
particularly to the problem that we have talked about in terms 
of the issue of math and science education, and particularly 
with minorities.
    In our hearing with Mr. Golden, several members of the 
Science Committee indicated their commitment to the program. 
Mr. Golden indicated his commitment to working, if he could get 
the funding. It was cut by over $20 million.
    I have in my District Texas Southern University, one of the 
HBCUs and a number of schools that benefit from focusing 
minorities on math and science. To cut those programs off bone 
dry would leave us vulnerable to the same things that we have 
been speaking about; the lack of attentiveness to math and 
science; the lack of scoring in math and science; particularly 
the lack of minorities, including women, going into the math, 
science, or engineering disciplines.
    So, I know NASA is lean and mean, but I have talked about 
this year after year. I have worked in these areas in these 
programs. In fact, some of the programs I have tried to do on 
the Science Committee have been revenue neutral; such as 
getting laboratories to share equipment with our Historically 
Black Colleges; to have them share faculty by using some of the 
Space Center staff to go to these individual colleges and work 
with them.
    I think in this instance, the work that we may have started 
may, of course, falter because of the lack of funding.
    [The prepared statement of Ms. Jackson-Lee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much. We are wrapping up a lot 
of ground with relatively brief statements. This Subcommittee 
is very concerned and aware of the difficulty in interesting 
minority youth in science and math. It is something we have 
talked about when Mr. Golden was in.
    It is something that I am concerned about in my hometown. 
So, we are sensitive to that. The budget is a problem. NASA was 
reduced again. There is some sympathy. I think it is important 
for helping NASA. We will do the best we can. That is the only 
promise I can make.
    Any other comments or questions?
    Mrs. Meek.  Mr. Chairman?
    Mr. Walsh.  Mrs. Meek.
    Mrs. Meek.  I just want to associate myself with the 
Chairman's remarks. This came before our Subcommittee, Full 
Committee, when NASA was there. We certainly realize and we 
expressed equal issues for the improvement of this minority 
program with NASA.
    Ms. Jackson-Lee.  Thank you.
    Mr. Walsh.  Thank you very much. Danny Davis from Illinois; 
District Number 7. Welcome Mr. Davis.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Davis.  Thank you very much, Mr. Chairman.
    Mr. Chairman, let me just thank you and the Ranking Member 
Mollohan, and the other members of the Committee for the 
opportunity to come and share with you some of the projects 
that I have requested funding for from this Committee.
    As you have already indicated, I represent the 7th District 
of Illinois. This District comprises everything from Chicago's 
lake front known as the Gold Coast or the Magnificent Mile that 
I like to visit. It also includes what we call the Soul Coast, 
which is a large stretch of Metropolitan Area that contains 
more public housing than any other District in the Country with 
the exception of one.
    That one is found in New York. We also have great ethnic 
communities such as Greektown, Little Italy, Chinatown. So, it 
is a great place. We have had some of the most severe housing 
problems, public housing problems, that have existed in 
America.
    As a matter of fact, this is a set of newspaper clippings 
that essentially have just come from Chicago newspapers during 
the past year relative to public housing in Chicago. We have 
50,000 residents in family housing, of which 97,000 are Black.
    We have 11,200 residents of scattered site housing, and 
61,000 residents in Section 8 housing. We have over 132,000 
people of which 80 percent are Black that reside in either 
public housing, senior housing, scatter site, or Section 8.
    First, I would like to just mention a couple of projects; 
$2 million to help finance single room occupancy, SRO housing 
units. This is primarily directed towards SRO housing for 
homeless families headed by single women; $1 million to develop 
a pilot program to establish a program that will provide 
supportive services for Chicago Housing Authority residents who 
are transitioning from public housing to new housing 
opportunities in the private rural market via Section 8 
certificates, vouchers, or project-based assistance in new 
mixed income redevelopments and our scattered site 
developments.
    Obviously this program comes as the result of the need to 
change the strategies around public housing. There is a 
tremendous need to provide counseling, training, and support to 
residents in order to ensure smooth and holistic transition to 
their new housing units.
    A million dollars towards the Chicago Low Income Housing 
Trust Fund. Since 1989, the Trust Fund has provided much needed 
rental assistance to the City's lowest income and most 
vulnerable residents. The Trust Fund also includes Affordable 
Rents in Chicago Program which provides non-interest bearing 
loans to developers who have rehabilitated multi-unit rental 
apartments.
    We are asking $1 million for HUD's Economic Development 
Account for the Haymarket Center, which is a tremendous family 
learning center in Chicago. This substance abuse treatment 
center plans to offer expanded child care and pre-school 
program.
    That comes directly from what used to be called Skid Row 
where people have seen individuals who were derelicts living in 
an area. Priest has taken the idea and transformed that whole 
area. We are asking $2 million for Tele-Opportunity Public 
Housing Project that the Community College Board of Illinois 
has planned and put together.
    Needless to say, there is indeed a housing crisis in public 
housing, not only in the 7th District but really in the City of 
Chicago, which sort of has become the--for what has been wrong 
with public housing in America. There is a tremendous effort 
and a tremendous desire to correct some of those ills and 
provide the people in those areas with decent housing that we 
call a necessity and not a luxury.
    So, I would really appreciate your consideration of these 
projects. I know that there are a number of them when we look 
at them. We also have in my Congressional District one of the 
largest compilation of poor people. Over 175,000 people live at 
or below the poverty level in my District.
    So, these projects and programs are reflective of the 
tremendous need. Again, thank you for the opportunity to be 
here and ask for your consideration.
    [The prepared statement of Mr. Davis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much for your comments. As you 
know, this Subcommittee's responsibility is establishing 
funding priorities. We do not really get into the level of 
policy that the Authorizing Committee of the Housing and 
Banking Committee.
    If you had any advice that you would offer to us in terms 
of public housing, and your experience in Chicago certainly has 
been in the press as a symbol of what is wrong with public 
housing, what would your advice be?
    Mr. Davis.  I think it is absolutely necessary to de-
densify areas in terms of ridding ourselves of the tremendous 
high rise developments; just simply too many people in too 
little space.
    Then of course the individuals who would get an opportunity 
to move out would need a tremendous amount of counseling; a lot 
of assistance in making the transition; learning what it is 
like to live in a different environment and how they can become 
a contributing member of that environment, rather than having 
people view them as simply those who bring problems, those who 
bring needs, but also those who have assets.
    So, the transitioning process, I think, is one of the areas 
of great need.
    Mr. Walsh.  Thank you. Anyone else with comments or 
questions?
    [No response.]
    Mr. Walsh.  Thank you very much.
    Mr. Davis.  Thank you.
    Mr. Walsh.  Jim Maloney of Connecticut; Number 5; good to 
have you with us.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. JAMES MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Maloney.  Thank you Mr. Chairman and Ranking Member 
Mollohan, and members of this Subcommittee. Thank you for the 
invitation to be with you today. I would like to testify in 
support of the Brownsfield Program. There is written testimony 
that I provided.
    If I could, I will just summarize that for you. I and my 
colleague from Connecticut, Chris Shays, have been very strong 
advocates of the Brownsfield Program. We appeared in the last 
Congress and sought your support, which you did. I thank you 
for that.
    I am back here today to encourage you with some success 
stories that we have participated in. The first one I would 
like to mention is probably a project that has received some 
national attention. The EPA considers it to be a project of 
national role model, which is a 90-acre factory site in 
downtown Waterbury that was abandoned when the company went 
bankrupt.
    We took that site, and using a little bit of Federal money, 
but a lot of State money. We cleaned the site up. Today, it is 
home for a million square foot regional retail mall; one of the 
largest malls in the State of Connecticut right on Interstate 
I-84.
    It employs 2,500 people. There are another 1,500 jobs that 
are associated with the ripple effect of those 2,500. It has 
added $130 million to the City of Waterbury Municipal tax base. 
Boy, that is a big winner for everybody. It puts a whole new 
face on the City of Waterbury. It employs lots of people and 
helps the tax base.
    It also cleaned up the environment; a 90-acre old factory 
certainly left an environmental legacy. A second example I 
would offer is the EPA and I have worked very closely in 
downtown Derby. We actually have two sites in Derby, 
Connecticut.
    Derby is a part of the Naugatuck Valley which used to be 
known as the ``Brass Valley'' because for 200 years it 
concentrated in metal finishing of one type or another; 
fabrication. Of course, there is quite an environmental legacy 
from that as well.
    One site is 22 acres right in downtown. The City of Derby 
is well on its way now to resuming that for a reexpansion of 
the City's Center of the City of Derby. Right next to it is a 
site that is technically a peninsula. It is called O'Sullivan's 
Island.
    O'Sullivan's Island is right where two major rivers in 
Connecticut, the Husatonic and Naugatuck come together. It is 
going to be used as a marina and municipal recreational 
facility. That happens to be right at the juncture of several 
transportation networks; the rail line, bus line, and highways. 
It is going to be assessable from all around the State of 
Connecticut.
    Together, these two projects are literally going to 
revitalize this older little industrial city; tremendous pay-
off for a very modest amount of money. The third one I would 
mention is in Danbury, Connecticut we are working on two sites.
    What is interesting about that is the technologies that we 
are using in terms of the clean-up, the methods and the 
technologies were developed at other Brownsfield sites. There 
is now learning that has come as the result of the Brownsfield 
investment.
    We are learning how better to do these; how more 
effectively to do them; how more efficiently to do them. So, 
what I would just conclude by is saying that we in the Federal 
Government we spend a lot of money. We make a lot of 
investments.
    Let me tell you, the $92 million that EPA has requested, 
the $50 million that HUD has requested, relatively small 
amounts of money; tremendous investment. This Congress will not 
make a better investment in terms of the pay-off we get. The 
business community supports the Brownsfield Program.
    The environmental community supports the Brownsfield 
Program. We see how tremendously effective it can be. Let me 
just close with an invitation. Any time any one of you are 
traveling in the Northeast through Connecticut, if you want to 
come and take a look at the mall project or any of these other 
projects, but the mall is the one that is now fully occupied 
and all of that. Come take a look.
    You will see that this is something that I think every 
member of Congress has the opportunity to have something like 
this occur in his or her District; not necessarily a mall, but 
the concept of the Brownsfield reuse; a tremendous pay-off for 
the communities that we represent. I would encourage and 
appreciate your support for these items.
    [The prepared statement of Mr. Maloney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much for your testimony and for 
your enthusiasm. Obviously, a part of the reason that you have 
been successful is that level of interest. These are exciting 
projects. There are so many good ideas and so little money is 
our challenge.
    I really see the Brownsfield Program as an asset and a 
development opportunity, especially for us who have older 
cities. You look at what is in place. All of the infrastructure 
is in place; the power, the heat, the lights, the sewer, the 
water. Everything is there. It is just that you have to get the 
site ready. It makes a whole lot of sense.
    Mr. Maloney.  If I could just spin-off from that with just 
another comment.
    Mr. Walsh.  Yes.
    Mr. Maloney.  As you do that, for every acre you reuse, you 
also save an acre of Greensfields which you do not have to use. 
So, it has a double benefit.
    Mr. Walsh.  Absolutely. Anyone else?
    Mr. Mollohan.  Mr. Chairman, this is a good project. It is 
a nice stop-off between I-91 and I-80.
    Mr. Maloney.  I-84.
    Mr. Mollohan.  I-84. It is on 84.
    Mr. Maloney.  It is on 84, right.
    Mr. Mollohan.  But you are heading toward--would you not, 
North-South hit 80?
    Mr. Maloney.  You would if you went up into Massachusetts I 
guess. Is that 80 or is that 90 up there?
    Mr. Mollohan.  Well, 90 is East-West.
    Mr. Maloney.  I-91 is the North-South highway from New 
Haven up through Hartford. Then I-95 is along the coast line.
    Mr. Mollohan.  One of them comes up in the--not very far 
from there. It is up the West.
    Mr. Maloney.  It is 684.
    Mr. Mollohan.  Yes, 684. It is a nice stop-off between 90 
and 684.
    Mr. Maloney.  That is correct. That is correct.
    Mr. Walsh.  Less traffic than 95. Very good.
    Mr. Maloney.  Thanks very much. I appreciate it.
    Mr. Walsh.  Thank you. Mike Doyle I believe was next and 
Frank Mascara, both of Pennsylvania. Is Mr. Coyne coming or 
not?
    Mr. Doyle.  He is not coming.
    Mr. Walsh.  He is not. Well, you are well-represented I am 
sure. It is good to have you with us. We will include your 
entire statements in the record. Feel free to summarize.
                              ----------                              

                                           Thursday, April 15, 1999

                    ENVIRONMENTAL PROTECTION AGENCY


                               WITNESSES

HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
HON. FRANK MASCARA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Mascara.  Thank you, Chairman Walsh. I would like to 
thank you and Ranking Member Mr. Mollohan, and the Subcommittee 
members for giving us the opportunity to testify on behalf of 
the Three Rivers Wet Weather Demonstration Program.
    I would also like to thank this Subcommittee for support of 
this important project last year. In last year's bill the 
Conference Committee provided $2.5 million. The Tree Rivers Wet 
Weather Demonstration Program is a partnership with regulatory 
agencies, municipalities, and other governmental and 
environmental groups.
    The purpose of this partnership is to develop innovative, 
cost effective solutions to eliminate sanitary sewer overflows 
in the Three Rivers area of Pittsburgh and Allegheny County. 
The project spans 40 communities in the Congressional District 
represented by myself and my colleagues Mr. Doyle and Mr. 
Coyne.
    This project will develop a master plan to eliminate more 
than 40 separate sanitary sewer overflows. Population served is 
over 850,000 affecting a 200 square mile area. The program, as 
a vision, will take 6 to 8 years to plan, design, construct, 
and adequately evaluate.
    However, the technologies proven by investing in the 
demonstration program will reduce significantly the overall 
cost of both the region and Federal Government in the long-run. 
Moreover, this technology will be utilized to achieve cost 
effective innovations in other areas of the Country. The 
expansion system was installed in the late 1950s.
    No other region in the United States has a large scale 
sewer system that was designed to construct specifically to 
rely upon the existence of combined sewer and sanitary sewer 
overflow structures as an integral part of its operation.
    In addition, no one has ever attempted to engineer the 
elimination of sanitary sewer overflows from a sewage system of 
this size. We believe this is a unique problem and deserves 
special attention. This year, we are very happy to report that 
the Pennsylvania State Legislature adopted, and the Governor 
signed into law State House Bill 572, which includes the full 
increment of State funding for the Three Rivers Wet Weather 
Demonstration Project.
    The bill authorizes the release of $26.3 million for the 
project. The entire State cost share has therefore been 
secured. Again, we appreciate the Committee's past support for 
this important project. We respectfully request $25 billion for 
fiscal year 2000 under Section 105 of the EPA State and Tribal 
Grants Assistance to allow Allegheny County to continue to make 
progress on this very important project.
    [The prepared statement of Mr. Mascara follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much. You have your State match 
in place.
    Mr. Mascara.  Yes.
    Mr. Walsh.  This is an important project.
    Mr. Mascara.  This is a billion-dollar project.
    This is similar to Boston Harbor. It is similar to what we 
are doing in my home county. It needs to be done. It is a very 
expensive project. Somebody mentioned earlier that in the old 
days when you had 75 percent Federal monies, 18 percent State 
monies, and 7 percent local monies.
    Those were the days. We all should have done it then, but 
we did not. This is obviously competing with a number of other 
projects, but this is important.
    Mr. Walsh.  Mr. Doyle.
    Mr. Doyle.  Thank you very much, Mr. Chairman. I want to 
thank you and Ranking Member Mollohan, and all of the members 
of the Committee for the opportunity to outline my funding 
priorities for the 18th Congressional District of Pennsylvania 
and the surrounding region that fall within the jurisdiction of 
this Subcommittee.
    Please be aware that I recognize the challenges you face 
and greatly appreciate your efforts to prioritize funding in a 
manner that best meets the most serious needs of the American 
people. As been the case in previous years, I am pleased to 
jointly testify with my fellow colleague from Western 
Pennsylvania, Representative Mascara, on the critical need for 
funding support for the Three Rivers Wet Weather Demonstration 
Program. Unfortunately, due to a last minute scheduling matter, 
Representative Coyne is unable to join us this morning.
    Former Subcommittee Chairman Lewis and Ranking Member 
Stokes heard from us on numerous occasions regarding this 
matter. They subsequently provided funding for the program in 
both the fiscal year 1998 and 1999 budgets. You have already 
heard from Representative Mascara about the comprehensive and 
innovative nature of the program.
    So, I will cut to the chase in stating that the program has 
been a tremendous success on a number of fronts. In an area 
which contains one of the largest number of local governments 
in the country, we have seen communities come together to 
tackle the prohibitively expensive problem of eliminating 
sanitary sewer overflows.
    This cooperation and coordinated approach are the direct 
result of this important program. Most importantly, effective 
communities have made a commitment to eliminating the flows as 
quickly as possible.
    As the Subcommittee has been made previously aware in 1997, 
more than 80 communities in Allegheny were brought under EPA 
orders to eliminate sanitary sewer overflows and combine sewer 
overflows from their systems.
    The cost of meeting this goal is perhaps as much as $3 
billion. The Three Rivers Wet Weather Demonstration is program 
of defraying the cost of compliance by as much as 50 percent 
through solutions applied on a regional watershed base level. 
We know that our Nation's waste infrastructure must be 
improved.
    The challenge is doing a better job at assisting 
communities and meeting the standards enforced by EPA. I 
realize this Subcommittee is acutely aware of the great demand 
for assistance with water quality rehab projects and the 
grossly inadequate levels of funding that are available.
    For these reasons and others that we have briefly touched 
upon, it is the utmost importance that you give the most weight 
in your deliberations to initiatives such as the Three Rivers 
Wet Weather Demonstration Program.
    Your support in providing the critical funding at this 
juncture will not only enable effective communities to remedy 
their overflows in the most time efficient and cost effective 
possible, but it will ensure the communities in other parts of 
the Country, which are sure to encounter similar problems will 
benefit from the successes in Pittsburgh.
    Before addressing our technology related funding 
priorities, I want to bring to the Subcommittee's attention the 
need for increased oversight in regard to the expenditure of 
HUD funds. Without question, Congress must take steps to make 
sure that Federal funds are allocated and applied in an 
appropriate and responsible manner. Recently, however, two 
issues of concern have come to my attention in conjunction with 
the Sanders Consent Decree, a Court ordered replacement of 100 
public housing units in Allegheny County, Pennsylvania.
    The issues of concern are the exhaustion of set aside 
Federal funds for the purchase of the 100 units and the 
possible misuse of Community Development Block Grant funds. For 
your review, I have included in my prepared testimony a copy of 
the letter which I sent to Secretary Cuomo which outlines the 
circumstances involving the Sanders Consent Decree and these 
two particular areas of concern in much greater detail.
    Given the current budgetary climate, we cannot in good 
conscious allow any amount of Federal funds to be usurped for 
purposes other than which they were explicitly intended for. I 
also wanted to discuss to look to the high tech future, to the 
very cutting edge of the cities and towns in my District and 
throughout the United States.
    The first project deals with manufacturing small business 
and high tech. In Southwestern Pennsylvania, we have a broad 
base of smaller manufacturers. We also have a thriving computer 
and high tech community. The two groups do not communicate as 
well as they should.
    Many of the smaller manufacturers I have spoken to who are 
computer savvy in terms of accounting and customer service 
operations, but computerized automation of the assembly line is 
not there yet.
    The knowledge base is not there and the return on 
investment is not clear. To address this problem and to provide 
an example for small manufacturing nationwide, we have put 
together a demonstration technology insertion project.
    Small regional manufacturers would be selected and assisted 
by the Software Engineering Institute at Carnegie-Mellon 
University and our local MEP Center. The objectives are success 
at applying existing software to small manufacturing lines and 
a case study to be published by the graduate school of 
industrial administration at CMU.
    To begin this important project, I respectfully request 
$1.2 million as a Targeted Economic Development Grant. I would 
also like to discuss an issue with regard to the 
Administration's IT2, the Information Technology for the 21st 
Century Initiative.
    In early meetings, a number of agency representatives 
declared that open competition would be the order of the day, 
both for access to computing resources and acquisition of new 
equipment. However, some of our academic constituency, 
including the Pittsburgh Supercomputing Center have reported a 
weakening commitment to competition at meetings and in some of 
the IT2 planning documents. The Science Committee, which I 
serve on, which is Committee of Jurisdiction for NSF, approved 
views and estimates for this year that explicitly state our 
concern over the fulfillment of NSF and DOE's commitment to 
open competition and supercomputer contract awards.
    Although expertise in equipment to meet the IT2 Program 
current exist at a wide range of supercomputing facilities 
around the Country, NSF has indicated its first priority may be 
to strengthen its preferred pass-through centers rather than to 
make the best use of all existing resources.
    Half of NSF's $36 million in funds designated for high 
performance computing is reported to be designated for the 
pass-through centers rather than to be distributed 
competitively.
    Mr. Chairman, I respectfully request that the Committee 
members consider report language to NSF on this issue. There 
are also some issues relating to VA health care funding and 
economic development in my testimony, which I would hope that 
members of this Subcommittee will have an opportunity to 
review.
    Mr. Chairman, this concludes my remarks. Again, I 
appreciate having the opportunity to testify before this 
Subcommittee. I will be happy to answer any questions you might 
have.
    [The prepared statement of Mr. Doyle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony. I am 
sensitive to your comments about NSF and IT2. We will consider 
that in report language.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Walsh. Any other comments or questions?
    Mr. Mollohan. I just echo the Chairman's comments. We will 
be as responsive as possible to the gentleman's request. I look 
forward to working with you.
    Mr. Doyle. Thank you, Mr. Mollohan.
    Mr. Walsh. Thank you both. Mike McIntyre from North 
Carolina; District Number 7. Welcome, sir.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. McIntyre. Thank you, Mr. Chairman. Chairman Walsh, Mr. 
Mollohan, and my fellow Tarhill David Price, I appreciate you 
and the other members of the Subcommittee that have been here 
today and that are here now. I am here to testify on a project 
that I would give preeminence as the utmost importance to my 
District which is Southeastern North Carolina, the 7th 
Congressional District.
    I came before this Committee last year and I know the 
difficult decisions you face and that funding was tight. I am 
happy to tell you that in as much as the project, although not 
funded last year by this Committee, we are now in much stronger 
shape because the community has taken ownership of trying to 
begin what is necessary to make a community center for the Town 
of Navassa, North Carolina possible.
    This community has already raised $100,000 on their own in 
initial capital. They have already acquired the necessary real 
estate. They are now in a position to be able to begin 
construction of a facility that I am only asking for the amount 
of $500,000 of a $2.4 million project.
    In realizing the tough decisions you have to make on so 
many projects, but realizing that if we could just get some 
seed money as a Federal contribution, the difference it would 
make for this community. Navassa is a predominantly African- 
American community. It is one of the poorest communities in all 
of North Carolina.
    They do not have a doctor. They do not have a nurse. They 
do not have a senior citizens' center. They do not have a day 
care center for children. They are quite economically 
depressed. What this center would do would not just be simply 
another auditorium for public events, which is what we all 
sometimes tend to think of community centers as being.
    Yes, it would allow that, which they do not have either, 
but it would also allow as a multi-purpose facility the 
opportunity for service by a rural health care initiative. I am 
Chairman of the Rural Health Care Coalition, along with Jim 
Nussle here on Capitol Hill.
    We are particularly sensitive to community needs like this 
one. It would allow a senior citizen day care center, a day 
care opportunity for young children, which all of the 
predominantly, as I have said, Black families who live there 
desperately need; many of them holding two jobs.
    It would allow mobile services that we are trying to work 
out from a nearby university to be able to bring in some folks 
to help with nurses, doctors, and health needs. It would allow 
an opportunity, yes, for civic organizations and communities 
like this one who have taken some pride in trying to help 
themselves by acquiring this real estate and trying to raise 
some money to be able to work together to help those from the 
sunrise to the sunset of life; the young children who need help 
and are not getting the kind of help they need in after school 
care; also, those senior citizens, and also the health needs 
for both young, old, and middle aged as well.
    This would also be a place that they are looking at 
wellness opportunities for good health; not just those who may 
need treatment when they come for sickness needs. It would 
allow the opportunity for recreational programs for people of 
all ages; the older citizens as well as the younger ones.
    It would also, with this being a predominantly African- 
American community, allow there to be a place for there to be 
cultural arts and be able to recognize the contributions of 
African-Americans. This town is located in Brunswick County, 
North Carolina.
    There are approximately six communities in the immediate 
area that would also benefit by this because none of them have 
doctors, nurses, or any kind of community center for recreation 
for senior citizens, for young children, or that can be 
utilized for civic meetings and community organizations.
    I am excited about the possibility of this. Again, I very 
much try to respect the tough decisions you have to make. 
Although it is a $2.4 million project and we would love to be 
able to have that much money, I am coming to you with what I 
believe is a very reasonable request of $500,000 that they 
could use as seed money to begin construction on this very 
worthwhile project that would serve citizens across the 
spectrum, not only in this town, but would have a very positive 
effect for the six surrounding predominantly African-American 
communities as well.
    Thank you very much for your time. I welcome any questions.
    [The prepared statement of Mr. McIntyre follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you for your testimony. How big a town is 
this?
    Mr. McIntyre.  Navassa has less than--it is roughly around, 
I guess about 4,000 people. Then the other communities around 
it each have anywhere from about 500 to 1,000. So, the six 
communities all together, you are probably looking at----
    Mr. Walsh.  Is that central to that area?
    Mr. McIntyre.  Right. You are looking at probably around 
roughly 10,000 people in the area.
    Mr. Walsh.  And no health care.
    Mr. McIntyre.  Right. That is correct.
    Mr. Walsh.  Okay. Any questions or comments?
    Mr. Price.  I would just underscore the nature of the need 
here. I appreciate Mr. McIntyre coming in here. This is a 
county that is predominantly rural area. I gather there is 
sound economic development rationale for this, given the nature 
of the area and the nature of the need.
    Mr. McIntyre.  Yes, sir. In the whole northern part of this 
county, there is a desire to try to approve economic 
development opportunities. Obviously they cannot do it if they 
cannot service the most basic needs for the citizens and for 
their families.
    That is where this comes in. It is not merely a nice 
building to come have a civic meeting in. It serves such a 
variety of needs for this area.
    Mr. Price.  You say that there is $100,000 already in-hand?
    Mr. McIntyre.  Yes, that they have raised on their own 
which, quite honestly, is very hard to do for the blue collar 
workers who most of them are holding down two jobs just to make 
ends meet in this area.
    Mr. Price.  That always makes the proposal more credible.
    Mr. McIntyre.  Yes, sir.
    Mr. Price.  So, that kind of match is already in place.
    Mr. McIntyre.  Yes, sir. They have already acquired some 
real estate also on their own for the site. So, really this is 
the stage they are at. Let me say one other thing.
    These six communities in the area, to try to help one 
another, they have formed what is called the Southeastern Black 
Mayors Association because I am in Southeastern North Carolina.
    They all are in support of this project because they 
realize that what would help this small town of Navassa would 
spill over into these other five predominantly Black 
communities as well.
    Mr. Price.  Thank you.
    Mr. McIntyre.  Thank you all very much.
    Mr. Walsh.  Bob Filner of California; Number 50. Welcome, 
Bob.
                              ----------                              

                                          Thursday, April 15, 1999.

                     DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Filner.  Thank you, Mr. Chairman. I have a written 
statement for the record on the veterans budget. I would just 
like to talk to you colleague-to-colleague and hopefully 
without any partisanship considerations here, and just talk to 
you a little about what the budget does for our veterans whom I 
know you are all concerned about.
    Just to show you that I am bipartisan on this, the 
President's recommendation on veterans was disastrous. He 
recommended a straight line, basically, budget for veterans. I 
am not sure why. The Majority decided to save the President's 
assets on this.
    He was in a precarious position and your budget resolution 
made it worse. I think you and this Subcommittee are the chance 
to sort of makeup for the mistakes on both the budget 
resolution and what the President does and do something right 
for the veterans.
    I think you are all aware that every veterans organization 
came together to submit what they call an independent budget. 
They said that the minimum that you need to keep the health 
system going, and I will just concentrate on health for a 
second, but the same thing applies to the benefits side of the 
VA.
    You needed $3 billion more than what we had been spending. 
If we did not do that $3 billion, you would begin to see 
hospitals closing. The waiting times that people in your 
Districts experience are going to go up from 2, 3, 4 months to 
6, 8, 12 months. Research is going to be stopped. The treatment 
for Hepatitis C will not be made. Pharmaceutical supplies will 
not be in. Buildings will deteriorate.
    They said all of this and they needed $3 billion to keep it 
going just at a minimal level. The budget resolution under 
which you are working with gives half that amount of money for 
this year; about $1.6 more than the base line. That is better 
than the President's budget.
    It is not as good as what the Senate did. It is not as good 
as what even the Majority of the VA Committee said. That was 
for the first year. The $1.6 is this year's recommendation. 
What your resolution does for the out years, that are the years 
2 through 10 is reduce from the 1999 figure enough so you will 
have a basic cut over 10 years.
    I think that is disastrous if we proceed on that basis that 
we are going to have cuts in years 2 through 10 to make up for 
whatever you have to do in your other parts of your resolution. 
I am telling you in each of your Districts, whether you got 
hospitals, or whatever benefits people are waiting for, or 
adjudication of claims, there is going to be cuts in positions.
    There are cuts in hospitals. There are cuts in services. 
There are cuts in quality. You are all going to hear about it. 
The $1.6 billion that your resolution requires you to do here 
is better than nothing, but it is only half of what is needed 
and requires cuts in the out years.
    So, this Committee is really the last stop gap to help our 
veterans. You are going to see a release of patients who have 
Alzheimer's. You are going to see nothing new for Persian Gulf 
War illness that we got to do. I think it is terrible and the 
veterans have got caught up in the budget politics.
    I mean you have to have the power of the resolution, I 
think. I would ask you, and I know you are in a very tough 
position, but if I were on this Subcommittee, I would recommend 
that the caps for this function be lifted. I am not sure if I 
am using the right language here.
    If you do not, and if you want to do something more for 
veterans, you are going to have to play off veterans against 
education, or environment, or housing. That is unacceptable. 
You have got to ask, I think Mr. Chairman, for another $1.5 
billion more above what you are allowed to do.
    I do not know if that is within the purview of your 
Committee. I am not on the Appropriations Committee. Unless 
this cap is lifted, we either have an unacceptable situation 
which you are going to face in the coming year, I think, with 
veterans or you are going to have to play off veterans against 
every other good program within your Subcommittee's 
jurisdiction. So, I would hope that you fix it. You are really 
our last hope to fix this situation.
    I have a more extensive statement. I say this from the 
heart, not as a Democrat or not in a partisan way. I am the 
Ranking Member on the Veterans Benefits Committee. I have met 
extensively with the veterans organizations, both in Washington 
and across the Country.
    I think they made a very responsible budget. I think they 
make a case that if we do not listen to, then we are going to 
be faced in our own Districts with rebellion by the veterans. I 
thank the Chairman.
    [The prepared statement of Mr. Filner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you for your testimony. Thank you for 
your service on the Authorizing Committee. You are right. We 
are the last staff here. That happens to us quite often. I 
think we are all pretty disappointed and frustrated with the 
President's commitment to the Veterans Administration in this 
budget.
    It is not the first time that the Congress has had to back 
fill for the President in the Bush Administration and in the 
Clinton Administration. We tend to be more responsive, I think, 
to the veterans than the Executive Branch does. Five- year 
budgets are just 5-year budgets.
    We fight this battle one year at a time. That is the way 
the Appropriations Committee works. I think the fact that the 
budget steps up to the place increases the President's budget 
by $1.7 billion is a fairly strong statement of where they 
stand.
    The Chairman of the Authorizing Committee asked for $1.9 
billion. There was, I understand, a little bit of partisanship 
on the Veterans Committee this year over the amount. I guess 
what we really need to do is everybody back off and try to work 
this thing out; do the best we can with the resources we have.
    I know the members of this Subcommittee are committed to 
veterans. It will not be easy. There is no magic solution here. 
I think the record of this Subcommittee over the years has been 
pretty good. We will take up that challenge from you.
    Mr. Filner.  I thank the Chairman.
    Mr. Walsh.  Any thoughts or comments?
    Mr. Mollohan.  Yes, Mr. Chairman. I would just like to add 
to that. I think it is like you say, our Committee is certainly 
the last hope of the veterans in regard to their funding for 
this year. It is important for members to come before 
Appropriations Subcommittees and argue very strenuously as you 
have for their primary concerns.
    So, veterans is a primary concern I imagine of every member 
of Congress. While it is important to do that, it is also 
important to understand that the overall environment that you 
are operating in is defined by the budget resolution. It is 
also defined by these caps that we are living under.
    So, as you argue for veterans and those other members argue 
for their primary concerns, they also have to argue for the 
bigger picture, even if you raise these caps. At some point 
along this process, I think that has to happen. That is the 
hope that I have. That is really the only way that we will be 
able to address all of these issues, including veterans.
    Mr. Filner.  Can you educate me? Does your Subcommittee or 
through the Full Committee have the authority to at least 
request it? Can you go beyond the budget resolution in your 
recommendations or not?
    Mr. Walsh.  We get an allocation, a 302B allocation and 
that is it.
    Mr. Filner.  Who can change that, the Committee or the 
Floor?
    Mr. Mollohan.  Congress can.
    Mr. Filner.  But not at the Committee level.
    Mr. Mollohan.  We get an overall allocation that comes from 
the Budget Committee.
    Mr. Filner.  For all of the----
    Mr. Mollohan.  602A allocations.
    Mr. Walsh.  For discretionary spending. There are ways to 
skin the cat. They will present themselves as we go down the 
road. I just hope they do not present themselves too late.
    Mr. Filner.  Okay. I appreciate and I know your concern.
    Mr. Mollohan.  Let me just think. Then the Subcommittees 
get an allocation, a respective allocation that comes down 
through the Appropriations Committee. But you are still 
operating under these caps. The caps issue is the one that has 
to be addressed.
    Just repeat. As you argue for these programs, you need to 
understand what you are really arguing for is raising the caps.
    Mr. Filner.  I understand.
    Mr. Mollohan.  That has to be honestly addressed at some 
point.
    Mr. Filner.  That can only be done by----
    Mr. Mollohan.  It can be done by the Congress or the 
President at some point.
    Mr. Filner.  I thank the Subcommittee.
    Mr. Mollohan.  Thank you, Mr. Chairman.
    Mr. Walsh.  You are welcome. Next is Stephanie Tubbs Jones 
of Ohio. You have the unenviable task of filling in for Lou 
Stokes. Welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
    Ms. Jones.  Thank you, Mr. Chairman. In fact, I am at the 
right Subcommittee. In fact, I bring you greetings from 
Congressman Stokes.
    Mr. Walsh.  Thank you. Send him our regards.
    Ms. Jones.  I sure will. He is doing great.
    Mr. Chairman and Ranking Member Mollohan, and members of 
the Committee, I am a Freshman Congresswoman, as you said 
standing in Lou Stokes' shoes, but standing on his shoulders. I 
appreciate the opportunity to present testimony to you on 
behalf of the Northeast Ohio Regional Sewer District.
    The District seeks a grant to continue its program for 
implementing urban watershed and wet weather pollution 
abatement projects that directly impact the residents of 
Cleveland, Ohio, the Metropolitan Area, and improve the water 
quality in Lake Erie, and protect human health.
    The District is a wastewater treatment agency responsible 
for the collection and treatment of wastewater for the 
residents and industries of the City of Cleveland and other 
communities in Northeast Ohio. The District was created by an 
order of the County Common Pleas Court in 1972.
    Since that time, it has spent over $1.5 billion on 
construction projects to upgrade collection and treatment 
facilities and improve water quality in the Cleveland area. One 
of the results of these efforts has been the tremendous 
improvement of water quality in Lake Erie and the Cuyahoga 
River. The District operates three wastewater treatment plants, 
one of which is Easterly Wastewater Treatment Plant. The 
project for which the District requests assistance encompasses 
the Easterly service area and watershed, which includes Doan 
Brook.
    Doan Brook is a classic example of a natural waterway 
located in a highly urbanized area. Doan Brook and its branches 
begin as the centerpiece of the public park system of two of 
Cleveland's outlying eastern suburbs.
    The Brook then proceeds into Cleveland through University 
Circle, which is the location of Cleveland's Museum of Art and 
Natural History, and the campuses of the nationally-known 
University Hospitals System, Cleveland Clinic Foundation, and 
Case Western Reserve.
    Doan Brook then runs through the Rockefeller Gardens, an 
historically significant and culturally important natural area 
encompassing ethnic gardens and monuments, ponds, public picnic 
areas, and playgrounds.
    Doan Brook and the Rockefeller Gardens are surrounded by an 
urban residential community consisting of single family homes 
and apartment buildings, many of which are inhabited by 
economically disadvantaged families who utilize the Gardens' 
recreational facilities.
    This area has historically been subject to significant 
urban flooding, which presents a public health risk to those 
who use the park and prevents the area from achieving its 
potential as an urban nature preserve and cultural landmark for 
the residents of Cleveland.
    Wastewater from the communities surrounding Doan Brook 
flows through an extensive but aging combined sewer network and 
is then treated at the District's Easterly Treatment Plant. 
Because of the historical and recreational nature of the 
community comprising the Easterly watershed, adequate and cost-
effective sanitary and storm water management is critical.
    The District has already taken the key first step in the 
Doan Brook Watershed Program by initiating a comprehensive 
watershed study, which will result in a plan defining specific 
early-action and long-term capital improvement projects within 
the tributary system, the Doan Brook drainage system, and at 
the Easterly Treatment Plant.
    The goal is to implement an effective watershed management 
program in a severely impacted urban setting, thus providing 
immediate environmental equity and protection for the 
surrounding and downstream urban neighborhoods that are less 
able to address these conditions because of their low average 
income and the magnitude of the problem.
    Inasmuch as all large urban communities in the United State 
are currently experiencing the same strain in addressing public 
health protection and the maintenance of public infrastructure 
with limited financial resources, it is the District's belief 
that its project will as a national prototype for cost-
effective urban wet weather and water quality planning.
    The District has significant experience in developing urban 
wet weather management programs, including the design and 
construction of cost-effect infrastructure projects to prevent 
sanitary sewer overflows, reduce the number of combined sewer 
overflows, and significantly reduce the occurrence of 
neighborhood and residential flooding.
    It is expected that the Doan Brook watershed program will 
result in the reduction of flooding potentials throughout the 
sewer system, improve water quality in the Brook, and 
ultimately lead to a restoration of the recreational nature of 
the area.
    Funds sought for the project for fiscal year 2000 consist 
of a 3-year phased Federal grant in the amount of $20 million 
per year, for a total of $60 million. The total project cost 
exceeds $120 million and may reach $200 million over its 
estimated 5- to 7-year life.
    The requested grant funds would be matched by local funds 
from the user population of the District to the extent required 
by the Appropriations Act. The grant would be administered by 
the U.S. EPA to ensure compliance with all Federal 
requirements.
    I recognize that the funding of specific projects in 
today's legislative environment is difficult because there are 
fewer discretionary funds available. The Doan Brook Watershed 
Program is a prototype for the kind of cost- effective and 
publicly-supported programs needed throughout the Country to 
improve urban water quality and address urban wet weather 
problems.
    I urge you to assist in the development of strategies to 
improve the quality of life in our urban areas by supporting 
this very worthwhile program which will greatly impact my 
constituents. Thank you for granting me this time today.
    I would like to add just briefly, Mr. Chairman and Mr. 
Ranking Member, that in 1973, I was a law clerk for the 
Northeast Ohio Regional Sewer District. I used to take junior 
high school kids on tours of the Wastewater Treatment Plant.
    They hated me every day that I did it, but I did it in fact 
to let them begin to understand the importance of water 
treatment and environmental issues. I subsequently became 
Assistant General Counsel at the Northeast Ohio Regional Sewer 
District in 1974.
    God blessed me today to be able to sit here as a 
Congresswoman to speak on behalf of a project that I have lived 
with over the past few years. So, not only do I come prepared 
with information on the project, but with a little historical 
view of the importance of environmental justice within the 
neighborhoods in the urban centers of our Country.
    [The prepared statement of Ms. Jones follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  We would agree with your assessment. Obviously 
this was a project that was important to Mr. Stokes also.
    Ms. Jones.  Correct.
    Mr. Walsh.  Thank you. Any other questions or comments?
    Mr. Mollohan.  Thank you for your very effective testimony. 
I hope we can help you.
    Ms. Jones.  Me too. Nice to meet you both on this less 
State setting. I appreciate it.
    Mr. Walsh.  We have a beautiful facility here to make 
these----
    Ms. Jones.  Are you suggesting that I can move my office 
over here?
    Mr. Walsh.  You can certainly work at it.
    Ms. Jones.  Okay. Thank you very much.
    Mr. Walsh.  You are welcome. The Delegate from the District 
of Columbia, Eleanor Holmes Norton, welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE IN CONGRESS FROM THE 
    DISTRICT OF COLUMBIA
    Ms. Norton.  Thank you, Mr. Chairman.
    Mr. Walsh.  It is good to have you with us.
    Ms. Norton.  Thank you very much. I am pleased to be with 
you in yet another capacity.
    Mr. Walsh.  Yes.
    Ms. Norton.  One that I am sure you find less burdensome in 
many ways. The Chairman was Chair of the Committee during the 
toughest days in our Century for the District of Columbia.
    Mr. Walsh.  It is just wonderful to see how things are 
coming. It just is so reassuring to me that with good planning 
and cooperation a City of the importance of Washington can make 
a come back. It is delightful to see you. Congratulations to 
you.
    Ms. Norton.  Thank you so much. I appreciate all of the 
hard work you did during the toughest of all days.
    Mr. Walsh.  Thank you.
    Ms. Norton.  It was hard. It was tough and it was always 
fair. You may understand, Mr. Chairman, when I say it has been 
my practice not to come before any Appropriation Subcommittee 
because my overriding priority has to be the appropriation for 
the District of Columbia.
    It takes unique circumstances. In almost 10 years of 
Congress, I think I have done it only once before. Mayor 
Williams has also asked me to come. I would like to submit my 
testimony for the record.
    Mr. Walsh.  Without objection.
    Ms. Norton.  Let me simply tell a story. It is a story of 
one company. I would not be here except for what I believe is a 
quite unbelievable story. The story occurred almost entirely 
during--well, it begins in 1991 when the District was on its 
way down and occurred almost entirely during the time when the 
City was down.
    That means the story was not lead by the District of 
Columbia at all. It was lead by a company. First, let me say 
that I do not know these folks. It is called the William C. 
Smith and Company. I do not know them. I am sure I have met 
them or some of them, but I have no relationship to them.
    The request is for $2.5 million for a $10 million 
recreation center and performing arts center. Now, there are a 
dozen worthy projects in the District. So, I have to confess 
that I am not here because of this particular need. I am here 
because of this extraordinary example.
    It is $2.5 million out of $60 million that has been 
invested in the poorest Ward in the City during the 1990s when 
the City could not have done anything for this developer. It 
happened in the strangest way. Basically, the developer manage 
property in Ward 8; had some ownership, but basically manage 
property.
    Ward 8 is devastated. It has been de-populated. There is 
very little left of it in a real sense. What was left of this 
neighborhood was going so fast that this developer did what 
nobody I know, at least in the District has done and I am sure 
rarely happens in cities.
    Instead of walking away from the properties they had 
managed and owned, it reached to buy the very troubled property 
that was taking the whole neighborhood down. Out of this has 
come the rebuilding of an entire community with tenant 
selection, home owners, and therefore stable tenants, home 
ownership, a small van that runs in and out in order to take 
people to the nearest subway.
    This company has apparently been there since 1969. It 
managed 1,800 units. Now, it has renovated and constructed 
1,110 units of rental housing and purchased housing. It has a 
water park which is kind of a Disneyworld type water park that 
it has put in the development.
    It is totally renovated a public elementary school. It is 
unusual enough that it decided to hold onto its properties 
rather than simply take whatever tax consequences flowed from 
not investing in them. It purchased what was called the 
Villages of Parklands.
    The Villages of Parklands are 54 acres full of crime and 
drugs. In the first 6 months of which it owned the property, 
there were six murders. It partnered with the cops and within 2 
years, it had homicides down to zero. It had eliminated what 
were gang-controlled apartments and blocks. Then it did what 
was virtually unheard of.
    Not only did it kind of clear it out, it decided to invest 
in it and renovated close to 900 apartment units. It assembled 
partners, of course, Fannie Mae, and of course there was some 
low income housing credits and the rest. But it was all under 
their leadership and it was with their private investment.
    To show you how much their private investment came to play 
here, after the bricks and mortars were up, they are very close 
to Prince George's County. So, how do you stable families and 
individuals to move when they can move across the river?
    The place was no insolvent like the District and the rest. 
So, I do not know where it got this idea, but it decided to 
invest in a splash park. They went to the banks and the banks 
would not fund the splash park. So, it put a million dollars of 
its own in the splash park.
    I think what the company was looking for was something that 
was really different. If you just had a recreational facility, 
you can go to Prince George's and get it. So, they put a splash 
park. So, if you are looking for a reason to move to of all 
places the District of Columbia in the poorest Ward, the splash 
park they thought, I believe they thought, would be that kind 
of difference. It was not just another recreational facility. 
So, they financed it themselves. Then they created a non-profit 
organization called Building Bridges Across the River.
    That is where we get this so-called ark. It is an ark 
because they are going to put cultural facilities in it, 
recreational facilities. The Lavine School of Music is going to 
move a teaching facility there. It is located in Northwest 
Washington.
    That is $10 million. They have raised almost half of it 
already. I think the reason they are focusing on this is, 
again, why should you move to Ward 8 at all? If you want to 
rebuild a community you have got to do more there. They have 
reasons. It seems to me a smart business decision.
    They have reasons that you have to do more than have some 
pretty housing to show. There are lots of pretty housing to 
show around the area. This ark has gotten the entire City 
excited. So, if you live across the Anacostia, whether in Wards 
7 or 8, you have no access to anything like the cultural and 
recreational amenities that you think should go with ordinary 
life in any city.
    So, this would be a total departure for that side of the 
Ward all together. They are about to open a $27 million home 
ownership community. What they have done there is to take 400 
units that were boarded up, take them out, and they are going 
to bring in first-time home buyers. Knowing that some of these 
people have not owned homes before but are stable people and 
some of them already live in the Ward, they have established 
and funded a homeowner training program for the first-time 
purchasers to help them deal with credit, savings, debt, and 
the anxiety of owning a home.
    The final story I want to tell about them is perhaps the 
most encouraging to me. I know your emphasis, Mr. Chairman, in 
the schools in the District of Columbia. The company 
representatives went to the local elementary school and said, 
well, what can we do to help? You expect little marginal things 
you can do.
    $200,000 and 8 years later, what they have done was to get 
all of their subcontractors to come into the school. It was a 
1908 building. They have just taken the whole school inside out 
and renovated it. They have rewired it for air conditioning in 
a Southeast school.
    They have installed landscaping, wrought iron fencing and a 
glass front door to highlight the school's openness to the 
community. What is remarkable is that it has so inspired the 
community, it drew staff to the school that this school has 
become academically one of the great public school successes in 
the District of Columbia. When they began this work, the school 
ranked 100 out of 207 schools across this City when you rank 
them in academic ranking.
    Today, it is 13. It is number 13 in the City. This school 
called Garfield Elementary School is one of only two in the 
City that has received the Competitive Middle States 
Accreditation. This is the story of how a private company with 
no leadership from the City essentially has transformed one of 
the poorest neighborhoods in the City.
    When they have done it by themselves investing and 
collecting $60 million, I think that this Subcommittee might 
want to partner with them as well to the tune of $2.5 million. 
I respectfully request that they be funded for that amount.
    [The prepared statement of Ms. Norton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you very much. It is a great story. 
American capitalism at work.
    Ms. Norton.  It really is that.
    Mr. Walsh.  It is great to hear about the school, the 
results.
    Ms. Norton.  You did not hear many stories like that when 
you were Chairman.
    Mr. Walsh.  No, but we knew it was coming. We knew it was 
coming. Any comments or questions?
    Mr. Mollohan.  Yes. It would be interesting to see how they 
did that; how they put that money together, unless they are 
heavily endowed.
    Ms. Norton.  No, my goodness. It was not only their money, 
but they had to go to Fannie Mae. They had to get low income 
interest. They know how to assemble money is what they do. Most 
people do not want to do the grunt work. It is a lot of grunt 
work to do.
    When you do tenant selection, you cannot go say, well, now 
we have got some new housing. You have got to make sure you get 
some folks in there who will not take it down to where it was 
before. So, it is constant effort. What I do not understand is 
where that comes from.
    I think they may be an old line Washington company who has 
seen this City at its best and may have gotten their inner 
dedication.
    Mr. Walsh.  Seen the possibilities.
    Ms. Norton.  Yes.
    Mr. Walsh.  Great. Thank you.
    Ms. Norton.  Thank you, Mr. Chairman. Mr. Miller of the 
13th District of Florida. You are not superstitious, I presume.
    Mr. Miller.  No.
    Mr. Walsh.  It is good to have you with us, Dan. Thanks for 
waiting.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. DAN MILLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Miller.  Thank you very much. I was Chairing the--this 
morning. So, I know what you all have been sitting through 
today. So, I have got a written statement that I would like to 
submit. I hope you did not leave the Ranking Membership of 
Commerce Justice when I joined that Subcommittee.
    Mr. Mollohan.  Totally a coincidence
    Mr. Walsh.  We will include your statement in full in the 
record.
    Mr. Miller.  This is a request of a concern in my area, 
Sarasota County, Florida where we have a serious health and 
environmental concern and problem. It came out of a national 
estuary program. Sarasota Bay was a part of the original NEP 
Program, which is really a very outstanding program back in 
1987.
    As a part of that, they bring together all of the local 
governments together to come up and identify the problems and 
solutions. So, this was completed in 1996. A major problem was 
the area in the south part of Bay. It was the high loads of 
nitrogen flowing into the Bay from Phillipi Creek.
    The problem was all of the old septic tanks in old 
neighborhoods, small lots, septic tanks on low ground. They 
just cannot be replaced. They were built many years ago. As I 
say, there is no solution to it but to put them onto a sewer 
system. The local community has been, you know, I have been 
working with them for years. Now, I am at the stage of asking 
for support.
    They passed a local options sales tax in 1987 to generate 
$30 million. The State Legislature has approved money. It has 
not been finalized in the budget, but both the House and the 
Senate have money. Of course, the residents will be 
contributing some money.
    So, what I am asking for is $18 million over 3 years, as 
much as we can have each year, to help provide--this would be 
18 percent of the total cost of the program. It is something 
that I think is necessary because of the health and 
environmental needs of the Sarasota Bay area. So, I will 
appreciate any support you all can provide. It is my 
understanding it would come out of the Stag Account.
    [The prepared statement of Mr. Miller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Right. I just verified that with Staff. It 
sounds like you got your local match.
    Mr. Miller.  As I said, we are only asking for 18 percent 
of the total cost. One thing, before I was willing to come 
forward, I wanted to make sure that we had plenty of local 
support first. So, I know the constraints that 302Bs provide.
    Mr. Walsh.  Well, we do have a challenge ahead of us. This 
is important. My dad lives in Martin County in Florida in the 
good weather. He is always telling me about all of the 
problems. There was talk about coral degradation in the Keys 
because of the same problem. You just got too many people in 
Florida. That is the problem. The weather is too nice.
    Mr. Miller.  A lot of people did not know about the 
environment back in the 1950s during growth like septic tanks. 
They did not know the problems.
    Mr. Walsh.  Yes.
    Mr. Miller.  We have got to make up for some of that and 
this is one that we need some help from Washington.
    Mr. Walsh.  Sure. Thanks.
    Mr. Miller.  Thank you.
    Mr. Walsh.  We will do our best. Any comments or questions?
    Mr. Mollohan.  I just want to make sure we had a population 
count.
    Mr. Walsh.  We have to count every nose. Thank you.
    Ms. Hooley planned on commenting today before the 
Subcommittee and has had conflicts all morning. She is 
presently not here. We will wait a minute or so.
    Mr. Walsh.  Good to have you with us. Welcome.
                              ----------                              

                                          Thursday, April 15, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Ms. Hooley.  Thank you. It is nice to be here. I will try 
to go very quickly. I know you have been sitting here 
patiently. Thank you for doing that. I will try to summarize 
this.
    There is a small area in my District. It is a community of 
about 380 people. A dam was built in 1952. When the dam was 
built, they literally had to move the whole city. They raised 
the water level. The problem is they did not give them any 
money for infrastructure.
    So, what I am asking for is $400,000 for completion of a 
final design for their new sewer system and their water system. 
What this does is it really works with two other small 
communities. This is an area that supplies all of the water 
down this canyon into the City of Salem, which is about 100,000 
people.
    These pipes are 50 years old. This is a community that 
cannot afford this infrastructure. I mean they just cannot with 
380 people. Most of the people that live in that area, this was 
a timber community. In Oregon, there has been a real down turn 
in timber production.
    So, you have got a very small community, a very poor 
community. They are working with the State Parks, another small 
city, the City of Idanha, U.S. Forest Service, and the City of 
Detroit. They have already put $140,000 into the study.
    Again, they need $400,000 to complete the study. There is 
also a second problem with this community. They are not 
eligible for Block Grants because they have a lot of part-time 
summer residents who are wealthy. That brings their income 
level up.
    So, they certainly have a double whammy. Anything you can 
do; I mean this is really important for the drinking water in 
this whole region. Again, they have tried to find partners to 
help make this possible. I would just be happy to go on about 
that project, but I will try to be brief.
    The other is we have I think one of the best projects I 
have ever seen in terms of using partners. That is the Oregon 
Garden. Last time we got out of the million dollar request, 
$750,000. We are asking for the other $250,000 to complete 
construction of this program.
    It is a partnership, private and public entities. The City 
has been involved. The State has been involved. The Federal 
Government has been involved on one side. It is a $16 million 
project. They are asking for $8 million on one side and they 
have raised $8 million on the private side through donations.
    It has to do with not only building a garden for education 
purposes and economic development purposes, but also to deal 
with treatment of their water system. So, it is a combination 
of one of those programs. Again, it is $250,000. That would 
complete that project. Then the last request is a one-time 
appropriation of a million dollars in support of a group that 
is called ``In Harmony.''
    They have gotten some national grants. What they are trying 
to do is develop a major project for children that are in 
foster care systems. So that it is a village consisting of 
professional parents. In other words, people that know how to 
deal with children and the elderly.
    How do you provide some stability to our children that are 
in foster care that continually have to be moved, and moved, 
and moved. It is a very innovative approach. I would like to 
see this tried, evaluated, held to some standard of 
accountability to see what happens to the children on some kind 
of a long-term level, and see if this is a model that works.
    There you have it.
    [The prepared statement of Ms. Hooley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  Thank you.
    Ms. Hooley.  Thank you very much for your patience and your 
time in waiting for me.
    Mr. Walsh.  We have real challenges here, but you have good 
projects. One of them already has been funded partially. So, we 
will try to help.
    Ms. Hooley.  Thank you very much. I appreciate that.
    Mr. Walsh.  I think we are done. Thank you all.
    [The prepared statements of Mr. Pallone, Mr. Smith, and Mr. 
Coyne follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh.  The hearing is adjourned.
    [The following statements were submitted for the record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

DR. JEROME FRIEDMAN, PRESIDENT, AMERICAN PHYSICAL SOCIETY
DR. EDEL WASSERMAN, PRESIDENT, AMERICAN CHEMICAL SOCIETY
DR. FELIX BROWDER, PRESIDENT, AMERICAN MATHEMATICAL SOCIETY
DR. WILLIAM BRINKLEY, PRESIDENT, FEDERATION OF AMERICAN SOCIETIES FOR 
    EXPERIMENTAL BIOLOGY
    Mr. Walsh. The Subcommittee will come to order.
    Today is the last day of hearings in preparation for the 
development of our VA/HUD Appropriations Subcommittee bill. And 
today we are hearing from outside witnesses. For instance, in 
New York Telephone if somebody is hired from outside the 
company they are hired off the street. So, you are off-the-
street witnesses. [Laughter.]
    But we are delighted to have you here today and what we 
have tried to do is to allocate about 5 minutes or 4 minutes 
and then another minute to change seats and so forth. So, if 
you could stick to that time frame it would be greatly 
appreciated.
    If you would, please, proceed.
    Dr. Friedman. Good morning, Mr. Chairman.
    I am Jerome Friedman, President of the American Physical 
Society which represents more than 41,000 physicists who work 
in academia, industry and national laboratories. I am joined 
today by three colleagues here. Ed Wasserman, President of the 
American Chemical Society, the largest scientific society in 
the world with nearly 159,000 members; Dr. Felix Browder, 
President of the American Mathematical Society representing 
30,000 mathematicians; and Dr. William Brinkley, who is 
President of the Federation of American Societies for 
Experimental Biology, an organization whose 17 member societies 
represent more than 56,000 life scientists.
    We appreciate the opportunity to address you jointly in 
support of the National Science Foundation's fiscal year 2000 
budget. By providing joint testimony, the second year we have 
done so, we are emphasizing that the scientific disciplines 
have grown highly interdependent. Consequently, we must 
continue to raise the funding levels of all--and let me stress, 
all--areas of science to improve the health of our people, to 
sustain economic growth and to enhance the quality of life.
    My colleagues will briefly elaborate on this theme, 
beginning with Dr. Wasserman.
    Dr. Wasserman. Thank you, Mr. Chairman.
    Strong investments in all core disciplines of biology, 
chemistry, physics, mathematics and engineering are necessary 
to guarantee our nation's progress in science and technology. 
Fifty years ago the National Science Foundation was created to 
achieve such a goal with a specific mandate to promote the 
progress of science, to advance national health, prosperity and 
welfare, and to secure the national defense.
    The Foundation's success in carrying out this mission has 
helped the United States to become the world leader in science, 
technology and engineering. The returns on our investment have 
been enormous.
    Consider just a few examples. Since the end of World War 
II, more than half of our economic growth has come from 
technology and scientific innovation. In recent years, 
economists tell us that the number may be closer to 70 percent. 
They also tell us that the annual pay-back ranges from 25 to 60 
percent on every dollar invested in basic research.
    Finally, a recent survey of American business shows that 73 
percent of the citations and patent applications reference 
publicly-supported research. In an era in which more than 
three-quarters of stock market capitalization is in technology 
issues, we can ill-afford to disregard our investments in the 
sciences which drive this sector of the market. That is where 
Americans have replaced their retirement trust. We must deliver 
on their expectations.
    My colleague, Dr. Felix Browder, will continue.
    Dr. Browder. Thank you, Mr. Chairman.
    Among Federal agencies the National Science Foundation is 
unique because it's portfolio spans all the disciplines: 
Physical and life sciences, mathematics, engineering and the 
social sciences. The activities it supports are key to research 
and development performed and underwritten by all other Federal 
agencies.
    While the Foundation's share of the fiscal year 1999 
Federal budget amounts to a little more than two-tenths of 1 
percent, the agency has had a powerful impact on U.S. science 
since the beginning of 1950.
    An impressive percentage of American Nobel Laureates had 
been recipients of NSF support: About 50 percent of all 
Laureates in Chemistry and Physics, 60 percent in Economics and 
30 percent in Medicine and Physiology.
    NSF has also supported approximately 45 percent of 
worldwide recipients of the Fields Medal, the mathematical 
equivalent of the Nobel Prize. Beyond this, the agency has 
played a major role in the development of the Internet which 
generated revenues of about $7 billion in 1998 with an increase 
to $40 billion expected by 2002.
    Dr. William Brinkley will conclude our presentation.
    Dr. Brinkley. Mr. Chairman, you have heard from my three 
colleagues from the areas of mathematics, physics and 
chemistry. I am a biomedical researcher, and today I am 
fortunate in that biomedical research has been well-supported 
recently but I am here today to emphasize my own feelings, as 
well as that of my organization's assertion that continued 
improvement in America's quality of life requires increased 
funding, not only for biomedical sciences but also for other 
major scientific disciplines.
    The innovative technologies that will drive future progress 
in medical research come from interdisciplinary research 
involving chemists, physicists, mathematicians and engineers, 
working in collaboration with biomedical scientists.
    To emphasize and maximize returns on the investment in 
biomedical sciences it is essential that there be robust 
support for fundamental research in physics, chemistry and 
mathematics and engineering.
    I join with my colleagues today to ask you that your 
committee recognize this critical need and provide National 
Science Foundation with the fiscal year 2000 appropriation 
required to accomplish this goal. NSF has had an outstanding 
history of achievement of which all Americans can be proud.
    We thank you for your past support, Mr. Chairman, and we 
urge you to maintain your committee's commitment to one of our 
nation's most important institutions.
    Thank you for according this time for this testimony today, 
sir.
    Mr. Walsh. Thank you, Dr. Brinkley.
    Thank you all very much for your testimony. I am tempted to 
ask questions but I am going to resist because of the time 
limitations. Besides, I would be in over my head with all of 
your work anyway.
    But this committee has always been a strong supporter of 
research and we will continue to be. We are limited by dollars, 
obviously, but the interdisciplinary approach is very much 
appreciated.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. The next witness is Thomas Laurin, Association 
of Local Housing Finance Agencies, League of Cities.
    All right, if you would, please, proceed.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

THOMAS LAURIN, DIRECTOR OF ECONOMIC AND COMMUNITY DEVELOPMENT, SAN 
    BERNADINO COUNTY, CALIFORNIA, AND PRESIDENT OF THE NATIONAL 
    ASSOCIATION FOR COUNTY, COMMUNITY AND ECONOMIC DEVELOPMENT
    Mr. Laurin. Mr. Chairman and members of the subcommittee, 
my name is Tom Laurin, and I am the Director of the Department 
of Economic and Community Development for the San Bernadino 
County, California, and I am also President of the National 
Association of County, Community and Economic Development, 
NACCED.
    Today I am also testifying on behalf of the U.S. Conference 
of Mayors, the National Association of Counties, the 
Association of Local Housing Finance Agencies and the National 
Community Development Association.
    Mr. Walsh. That is quite a portfolio.
    Mr. Laurin. Yes, sir, but a lot of great organizations.
    We thank you, Mr. Chairman and members of this 
subcommittee, for your continued support for priority local 
government programs. We are especially pleased by your increase 
in CDBG in fiscal year 1999 by $75 million to $4.750 billion 
and increasing home funding by $100 million to $1.6 billion.
    However, as we stated in our testimony last year, our 
organizations are concerned about setting aside funds to fund 
special purpose grants that do not deal directly with housing 
and community development. As a result, some of the set-asides 
or an amount that is set aside for entitlements has been cut 
and we are worried if that is brought further, it would further 
dilute the program in the future.
    Mr. Chairman, the local government officials urge you to 
increase the Community Development Block Grant formula grants 
to entitlement jurisdictions by increasing the overall 
appropriation for CDBG in fiscal year 2000 to at least $5 
billion. That is what we would love to see.
    Celebrating its 25th year, the CDBG is probably the Federal 
Government's most successful domestic program. Its success 
stems from its utility to cities and counties and because it 
has an annual predictable level of funding which can be used 
with maximum flexibility to address the unique neighborhood 
revitalization needs that we all have. We are all different 
across the nation.
    Based on HUD's most recent annual report to Congress, 
between fiscal year 1993 and 1996 an estimated 17 million 
households benefitted from the Community Development Block 
Grant Program. And during that same period, an estimated 
114,000 jobs were created through the CDBG funded economic 
development activities. And that is certainly increasing, 
especially in our county.
    The Regional Connections Initiative. Mr. Chairman, we 
strongly support the regional connections initiative proposed 
by HUD. This program will assist localities to work together in 
developing strategic plans that address issues affecting an 
entire metropolitan region. To address these problems in a 
long-term comprehensive way local governments are finding it 
necessary to work together through multi-jurisdictional or 
regional approaches to problem solving.
    Funding for the regional connections initiative, as a 
separate program, will help us achieve our goals of pursuing 
more effective regional approaches to metropolitan problems.
    That is a great initiative and we would like to see it 
strongly supported.
    The Impact of HOME. Like the CDBG, the HOME Program is 
producing very positive results in expanding the supply of 
affordable housing. In fact, the committee report that 
accompanied the House version of the fiscal year 1999 
appropriation bill praised HOME Program and gave it additional 
funding because it, ``Can document results.''
    The report said that ``The program tracks the performance 
of its grantees and measures their performance to determine 
whether the Federal investment is worthwhile.''
    And according to the HUD data, since the HOME Program was 
created in 1990, the HOME Program, it has rehabilitated over 
346,000 affordable homes for low-and-very-low income families.
    Targeting is very deep in the HOME Program. It allows us 
for the first time to get down to very low-income households 
and assist them not only in rental housing but also to help 
them realize the dream of homeownership.
    Since 1990 HOME funds have committed to over 130,000 
homeowner units, and in our community it has effectively 
increased the percentage of homeowners over renters by about 4 
percentage points in some of the neighborhoods.
    HOME is cost-effective and provides the gap financing 
necessary to attract private loans. One study shows that for 
every HOME Program dollar a $1.80 cents of private funds is 
leveraged into the program.
    I close by urging you to fund the HOME Program for fiscal 
year 2000 at a level of at least $1.8 billion.
    Lastly, the Below Market Expiring Section 8 Properties. We 
commend your cosponsorship of H.R. 1336, the Emerging Residents 
Protection Act of 1999. That addresses the loss of affordable 
housing created by the conversion of below-market expiring 
Section 8 properties. To date, over 500,000 Federally assisted 
units have been lost across the nation due to termination of 
low-income affordability requirements and more than 250,000 
additional units are at risk.
    We urge that H.R. 425, proposed by Representative Vento, be 
combined with your bill. And that would authorize HUD to 
supplement State and local government assistance for the 
preservation of Federally assisted affordable housing.
    And that concludes my remarks. I will be happy to answer 
any questions you may have, but you probably do not have any 
time.
    Thank you very much for allowing me to put this into the 
record.
    Mr. Walsh. We are covering a lot of ground in 5 minutes and 
the organizations that you represent are very well respected 
here.
    Thank you.
    Mr. Laurin. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. I am going to ask your deference. Congressman 
Tony Hall from Ohio is here and he would like to introduce 
someone. So, we will just go out of order briefly and I would 
like to welcome my good friend and colleague, Tony Hall, here.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. TONY HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Hall. Thank you, Mr. Chairman.
    Thank you so much for allowing me to come here and 
introduce to you the Mayor of the city I represent, Mike 
Turner. He has spearheaded a number of important economic 
development initiatives that are very important.
    And one of the challenges that cities are facing, like 
Dayton, is to revitalize downtown. And the City of Dayton, 
along with Dayton businesses and all the leaders, have really 
come up with a number of very good ideas: Building a new 
baseball stadium, development of a river corridor, proposing a 
new arts center and I have been a strong supporter of all of 
these.
    And Mayor Turner is going to talk to us about a new 
initiative which I think is very good and interesting. And I 
hope that you can help us and give us every consideration.
    I want to introduce to you Mike Turner.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. MICHAEL TURNER, MAYOR, DAYTON, OHIO
    Mr. Turner. Thank you, Congressman Hall, and thank you, Mr. 
Chairman, for allowing me to come before you to speak about 
this. This is certainly an incredibly exciting project because 
it is a brownfield redevelopment project----
    Mr. Walsh. This is out of Dayton?
    Mr. Turner. Yes, sir. Dayton, Tool Town is the name of the 
project. It is a brownfield redevelopment project that includes 
a job training component and also enhancing our worldwide 
industrial competitiveness in the tool and die industry.
    I wanted to give you just a brief background of the past, 
present and future of this site that Tool Town would be located 
on. In the past this was a site that was previously occupied by 
Delco and Frigidaire and was high-intensity manufacturing.
    Today, presently, it sits largely abandoned and under-
utilized. If you could imagine, Dayton, Ohio, is a city that is 
bounded to its North, West and South by a river that sits as 
almost a horseshoe with 38 acres to its East, which represents 
this site, all abandoned and under-utilized.
    But Tool Town Development Plan would take this 38 acres and 
put it back into productive use. But what is really exciting 
about this project is that our tool and die association for the 
Dayton area has done a real macroeconomic analysis of what 
their potential is to compete in the worldwide markets.
    We are the fourth largest center for tool and die 
manufacturing, which is, as you know, a very high-tech industry 
today. They are facing tremendous amount of competition from 
the Pacific Rim which makes up about 40 percent of the total 
worldwide tool and die manufacturing.
    What they have discovered is that the 400-plus businesses 
in the Dayton area that operate in tool and die do not 
necessarily compete with one another but they are each 
specialized. And that their ability to compete on a worldwide 
basis is by forming joint partnerships and joint marketing to 
allow people to come to the Dayton area and see what they can 
accomplish, A-through-Z, in tool and die.
    To enhance their ability to do that they would like to co-
locate, out of what we have coined as Tool Town, a place where 
the businesses could be located, people could come and tour and 
see their capabilities.
    But also they have identified that they have a work force 
job training issue. Over the next 10 years they will need over 
6,000 employees, even at their current rate of expansion. They 
plan on expanding even greater as they are more successful in 
the markets.
    So, this Tool Town concept includes not only their ability 
to co-locate on the site, but also a job training component 
that has partnerships with our local school board, our local 
community college and the tool and die association.
    So, that people coming to the area who are seeking 
employment would be able to enter the job training programs and 
receive apprenticeships and people who are seeking the tool and 
die services would be able to tour all of the facilities to see 
how their specialization complements one another.
    When you combine that with taking a very important piece of 
real estate that is currently abandoned that represents a 
brownfield redevelopment opportunity you have what is an 
incredible project.
    And we would certainly appreciate your support for funding 
to make this come about.
    Mr. Walsh. Thank you very much. We would like to welcome 
Alan Mollohan, who is the ranking Democrat on the subcommittee 
from West Virginia.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. This is Mayor Michael Turner of Dayton, Ohio, of 
the distinguished member's district, Mr. Hall. I appreciate 
serving with him.
    Mr. Hall. Thank you.
    Mr. Walsh. We all have cities with similar situations 
especially in the Midwest and the Northeast. I am sensitive to 
your request and the subcommittee will do our best with the 
resources we have.
    Mr. Turner. Thank you.
    Mr. Hall. Thank you, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Benson Roberts, Local Initiatives Support 
Corporation.
    Welcome.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

BENSON F. ROBERTS, LOCAL INITIATIVES SUPPORT CORPORATION
    Mr. Roberts. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, and Congressman Mollohan. It is 
a pleasure to speak with you this morning.
    I want to talk about two major programs, two modest 
programs and a new program that has just been proposed. My 
organization, Local Initiatives Support Corporation, works with 
low-income community development corporations around the 
country in urban and rural areas.
    And these community development corporations, CDCs, I think 
represent one of the most hopeful signs of community revival 
that we have ever seen in this country. This is a movement that 
is starting to be discovered.
    Just a few of the journalists that have focused on this 
recently are David Broder and Ron Brownstein and Ted Koppel and 
for very good reason. And we would love the opportunity to take 
you to places in New York or West Virginia or right here in the 
District where you can see this firsthand. It is truly 
encouraging.
    Our organization raises private sector funds to support 
community development corporations. We have raised about $3 
billion in our 20 years and we have used that to help about 
1,500 of these CDCs to develop over 90,000 units of housing, 11 
million square feet of industrial, commercial and community 
facility space. And that is attracted an additional $3.5 
billion from other sources.
    Although, 97 percent of the money we receive is private, we 
cannot do what we do without public participation. And there 
are four main Federal resources that have really driven the 
community development moment. Two of them are under your 
subcommittee's jurisdiction, the HOME Program and CDBG. The 
others are the low-income housing tax credits and Community 
Reinvestment Act.
    The local government representative did a great job talking 
about CDBG, so, I will not spend a lot of time on it, other 
than to say that there is now really such an over-competition 
for this money at the local level that it is really starting to 
hold back community revival around the country.
    Groups that used to be able to do housing development every 
year now have to wait in line two or three years. They are 
having a hard time retaining staff with the capacity to produce 
housing because they just cannot get the money to make projects 
work. And this is a real opportunity for us to fuel an amazing 
recovery out there.
    And I have a letter signed by 1,400 local organizations 
supporting the HOME Program and CDBG: Local government 
officials, community organizations and the like. And supporting 
the funding of $5 billion for CDBG and $1.8 billion for HOME, 
the same numbers the local government folks offered to you.
    Two more modest programs. One is a small community 
development capacity building program that your subcommittee 
has been kind enough to appropriate about $15 million a year 
for. That money principally goes through our organization, 
LISC, as well as the Enterprise Foundation.
    The Urban Institute has recently done an independent 
evaluation of how your funds are being used and in conjunction 
with the private funds they match and other programs, like HOME 
and CDBG. The Urban Institute found that about $38 million in 
funds that you have appropriated through this program have 
generated well over $1 billion in housing and economic 
development projects. That is about a 30-to-1 leverage ratio.
    And I can tell you that every one of our 44 field offices 
is desperate for more of this kind of money because it is so 
scarce and so valuable to the process.
    The other modest program that is very helpful is the 
Community Development Financial Institutions Fund. And we have 
been able to use this money particularly effectively in rural 
areas as well as for economic development and we believe that 
the Fund, under its new management, has tightened substantially 
its administrative systems and is poised to do more. And, so, 
we would support the Administration's request of $110 million 
for that.
    Finally, there is a new proposal that the Administration 
has offered that we think really merits your attention. It is 
called APICs, America's Private Investment Companies. And as we 
know, a lot of these communities have begun to stabilize in 
terms of population and in terms of physical condition through 
housing activities and they are now ready and eager for 
economic development. APICs would help accomplish this.
    Thirty-seven million dollars in credit supports would help 
provide a billion dollars in favorable rate financing for 
APICs, which would go hand-in-glove with another $500 million 
in private equity investors.
    We think this has been very well crafted because the 
private equity investors would have to lose their entire stake 
before the Federal Government would incur any risk exposure on 
losses of the debt financing. And this can go a long way at 
just the right time for economic development. We, alone, have 
been involved in about 20 supermarket projects around the 
country valued at about $250 million. Every one of these deals 
could use this kind of money.
    On Friday, we are part of a grand opening in Harlem, at 
East 125th Street of the first major supermarket in Manhattan 
in a very long time. So, we think APICs is really an unusual 
opportunity.
    I will wind up here and if you have any questions, I would 
be delighted to respond.
    Thank you.
    Mr. Walsh. Thank you.
    Again, I will resist asking questions to keep things on 
track because issues like this, we could spend a lot of time 
on. But, thank you very much for your testimony.
    Anyone else have any questions?
    Mr. Mollohan. No, Mr. Chairman, thank you.
    Mr. Roberts. Thank you.
    Mr. Walsh. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Fred Murphy. Fred is an old friend. He is the 
director of Syracuse Housing Authority in my home town. He has 
been, I think, almost since my dad was mayor, and does a great 
job.
    He is here today representing The Council of Large Public 
Housing Authorities. Good to have you with us, Fred.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

FRED MURPHY, ON BEHALF OF THE COUNCIL OF LARGE PUBLIC HOUSING 
    AUTHORITIES AND THE CENTRAL NEW YORK HOUSING AUTHORITIES
    Mr. Murphy. Thank you, Mr. Chairman.
    As you may remember, your father hired me in August of 1965 
to go and work for him. [Laughter.]
    Mr. Walsh. We have come full circle.
    Mr. Murphy. We have come a long way.
    Mr. Walsh. Good to have you with us.
    Mr. Murphy. Thank you very much.
    Good morning, again. Thanks for the opportunity to testify 
on behalf of CLPHA, and the Central New York Housing Public 
Housing Authorities.
    CLPHA has approximately 60 large housing authority members, 
including Albany, New York, Rochester/Syracuse, Miami/Dade, 
Louisville, Manchester, who are also members. These public 
housing authorities manage about 40 percent of the country's 
public housing.
    Central New York Housing Authority has 68 members: Large, 
medium and small. And in Syracuse we have 2,344 public housing 
units; 1,069 are for families; 1,275 are for mixed populations 
of elderly and disabled people. We also administrator 2,730 
Section 8 vouchers and certificates. We are a high-performing 
PHA, as are many of our CLPHA and CNYHA members. The issues I 
want to summarize for you are the same for all of us.
    Issue Number One. HUD's Under-funding Undermines the 
Promise of Quality Housing and Work Responsibility Act.
    The good news is that Congress, with the major assistance 
of this subcommittee, adopted that Act, opening a vista of a 
more socially and financially successful public housing program 
and heralding a return to local decision making.
    The bad news is that we believe with HUD's under-funding we 
cannot do it.
    Issue Number Two. The Performance Funding System, PFS, for 
Operating Subsidies Will Have Been Shortchanged at Least by 
$1.38 Billion Between Fiscal Year 1994 and the Request for 
Fiscal Year 2000.
    Our problems start with HUD's perennial failure to estimate 
in a reliable way. Every year since at least fiscal year 1994 
HUD has both under-estimated operating subsidy needs and has 
failed to request the makeup supplemental appropriations. To 
give you some idea of the consequence of this inaction, 
Syracuse Housing Authority will lose over $300,000 this coming 
Federal fiscal year with the entire cut coming from the non-
utility part of our budget and as you know, Mr. Chairman, with 
Syracuse weather, we must pay Niagra Mohawk.
    The members of the Central New York Housing Authorities 
will lose between $5 and $7 million because of HUD's under-
estimating operating subsidy needs and they have failed again 
to make a request for supplementals.
    CLPHA and CNY are just the committee to appropriate $3.289 
billion for fiscal year 2000 and that leaves $200 million to 
cover the year-end adjustments that HUD has cut off. Needless 
to say, the other shortfalls through the HUD miscalculation 
should also be covered. Syracuse will lose $100,000 because of 
the failure to request supplemental appropriations.
    Issue Number Three. Adequate Capital is Needed to Preserve 
and Improve the Marketability of the $90 Billion Public Housing 
Stock.
    HUD's modernization request is only $2.5 billion. We urge 
the committee to disregard HUD's inadequate and puzzling 
request of $2.5 billion and return us to the $4.5 billion need 
as indicated in the recent report by the National Commission on 
Severely Distressed Public Housing. This subcommittee can take 
much credit for improving public housing. The former ranking 
minority member, Mr. Bill Green, co-chaired the National 
Commission that identified our needs, and former chair, Mr. 
Jerry Lewis, put us back on course.
    We will not turn our backs on the poor. But if we can 
create more socially diverse developments, over time, public 
housing can become less dependent on Federal subsidies.
    Issue Number Four. Many of our 1.1 million public housing 
elderly and disabled residents are living in apartments that 
should have been modernized many years ago. Over a third of 
public housing is occupied by elderly and disabled persons and 
over two-thirds of it was built before 1970.
    In Syracuse, senior citizens occupy about 55 percent of our 
housing inventory. This public housing program for the elderly 
and for the disabled is rarely referred to in discussions of 
the nation's public housing but has been an extraordinarily 
successful program and is greatly appreciated by its residents 
who find such housing safe and well-supported with services.
    Now is the time to bring our buildings for elderly and 
disabled up to contemporary standards and that are also health 
care friendly. Most importantly, let public housing address the 
health needs of our increasingly aging and frail residents who 
are mainly women.
    Such an initiative would avoid costly institutional health 
and nursing home care and boost the well-being of the aged. It 
is clearly documented that senior citizens live longer and are 
happier in their own residential communities.
    In Syracuse, we are including assisted and enriched 
programs as operated by Loretto Geriatric, as you know.
    CLPHA proposes an Elderly-Plus effort of $500 million in 
rehabilitation funds for projects to have adequate health 
supports as well as structural improvements.
    Issue Number Five. Service coordinators are key for fail, 
aging persons who live in their own apartments. This is also 
true for mixed populations of elderly and the disabled.
    Your own House committee report states, and I quote, ``We 
recognize the value of service coordination as an essential 
tool in elderly housing. The average age of older persons in 
public and assisted housing is now in the late 70s and rising.
    ``These tenants have very high rates of disability which 
threatens their independence and creates difficult management 
issues. The need for service coordinators is especially acute 
in public housing which often includes large numbers of younger 
persons with mental and physical disabilities.''
    We urge an appropriation of at least $75 million for such 
supportive services, plus at least $10 million to support the 
existing Congregate Housing Services Program, which is an 
invaluable service to those in elderly housing and their 
neighbors.
    Issue six. Possible Source of Funds for Our Requests.
    Public housing is an irreplaceable $90 billion asset that 
should be maintained properly and not allowed to deteriorate. 
Please, remember that HUD is our only source of funds. We note 
the testimony of the GAO on March 3rd, 1999, before the Housing 
and Community Opportunity Subcommittee, which points out, and I 
quote: ``To support 19 new programs and initiatives HUD is 
requesting nearly $731 million of its $28 billion total request 
for the year 2000.''
    It is not responsible behavior to start new programs, often 
unauthorized, while existing investments go begging.
    Some of these funds should be deployed for real 
improvements to the $20 million backlog of deteriorated 
properties. It is ironic to us, in public housing, that we seem 
to be in a continuous state of unfunded mandates with little 
clarity for the public benefit.
    Issue seven. Other HUD Programs that Warrant Support. We 
endorse HUD's request for $625 million for HOPE VI. But, please 
take the $100 million Section 8 relocation money from the 
Section 8 funds. We are also adamantly opposed to the 
Department's effort to piecemeal PHDEP, public housing drug 
elimination program, appropriation by earmarking funds for an 
unauthorized and undefined youth anti-drug diversion program.
    Furthermore, we urge that funding for the Inspector General 
programs be under her appropriations.
    Lastly, Central New York Housing Authorities.
    I request that your bill make plain that public housing 
authorities and any other administrators of Section 8 programs 
may deploy their vouchers and certificates in buildings that 
were developed with State or local housing assistance.
    In conclusion, my colleagues at CLPHA and Central New York 
Authorities appreciate very much the support that you, the 
members of this subcommittee and your staffs, especially Ron 
Anderson, Valerie Baldwin, Gavin Clinger and David Reich, have 
given to the Public Housing Authorities and their residents.
    We urge the committee to seize two important opportunities. 
First, to help diversify the economic and social makeup of 
families in public housing as envisaged by last year's reform 
bill and provide adequate funds for improved properties and 
professional real estate operations.
    Second, move to upgrade and make health-care friendly the 
shelter for our elderly and disabled residents by providing a 
$500 million demonstration of elderly/disabled-plus, supported 
by a comprehensive service coordinator program.
    Please help us. Thanks very much.
    Mr. Walsh. Thank you, Fred.
    You are the tour de force of public housing in America and 
we agree with many of the points that you made. Any other 
questions or comments?
    Mr. Mollohan. No, thank you, Mr. Chairman.
    Mr. Walsh. Thank you very much.
    Mr. Murphy. Good to see you.
    Mr. Walsh. Good to see you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. As you probably can imagine, we all have other 
responsibilities today. So, I am going to ask Congressman 
Frelinghuysen, of New Jersey, to take the chair and I 
appreciate him very much doing so. I will be back presently to 
take it back.
    So, the next witness I will call is Jay Golan of Carnegie 
Hall.
    Welcome, nice to see you again.
    Mr. Frelinghuysen [presiding]. Thank you.
    You may begin your testimony and as the Chairman has 
cautioned and I cautioned everybody, we thank you for being 
here but we would appreciate to any degree you can summarize 
and be succinct. Brevity is very much appreciated.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

JAY GOLAN, DIRECTOR OF DEVELOPMENT AND PLANNING, CARNEGIE HALL
    Mr. Golan. I promise to stay within my five-minute limit.
    Thank you, Mr. Chairman, Mr. Frelinghuysen and Mr. 
Mollohan, for providing Carnegie Hall with the opportunity to 
present testimony regarding our third stage campaign. This is a 
project of significance to New York, to the region and to the 
nation.
    I serve as Director of Development and Planning for 
Carnegie Hall. Since the Hall's founding in 1891, its mission 
has been to present the world's finest musicians. In order to 
continue this mission and to bring our programming to a larger 
community, we seek to expand our concert presentations and our 
educational programs into the recently reclaimed lower space 
underneath the Hall.
    We propose to convert this space into a multi-purpose 
center, a state-of-the-art facility which would include a third 
performance hall, an educational complex, and a musical 
laboratory and broadcast studio.
    Reintegrating this space, which has not been used for any 
original purpose since 1896, the third stage would bring this 
hall and the wealth of resources to an expanded, even broader, 
audience.
    Throughout our history, Carnegie Hall has responded to the 
need for the cultural and economic enrichment of its community. 
Congressman Walsh has told me that he attended concerts at 
Carnegie Hall early in his career in New York at special low-
price tickets. Even today we do maintain sections of seats for 
virtually all concerts at $15 or less.
    We also provide music programs for public schools, 
professional development workshops. We train, use master 
teachers to, master artists to train young musicians and we 
provide a lot of programs for the local community; they bring 
Carnegie Hall and its world class artists to people who might 
otherwise not have this opportunity.
    We offer several community and outreach programs. We offer 
something like 80 free neighborhood concerts in our series. We 
provide a variety of musical artists and performances directly 
to families in their own neighborhoods and communities.
    The Family Concert Series that we run provides concert 
programming such as Yo-Yo Ma, Emanuel Acts, the Carnegie Hall 
Jazz Band for children and families throughout the region at a 
highly subsidized ticket price of $5 a seat. We, ourselves, 
lose between $40,000 and $50,000 per concert in the act of 
doing that. But we use these concerts to enrich the community 
and to make sure that the under-represented have access to a 
place as great as Carnegie Hall.
    Our Kaleidoscope program links our neighborhood and family 
concerts to open the Hall to community organizations such as 
Big Brothers, Big Sisters, New York Cares and Young Audiences. 
Approximately 7,000 people attended these outreach concerts 
during last season alone.
    The third stage that I mentioned will provide Carnegie Hall 
with new intermediate-sized venues to accommodate artistic and 
educational programming and it will allow Carnegie Hall to 
further expand our activities mainly in response to the 
community to reach local audiences.
    This Friday--and I should note that the space will be 
outfitted as a broadcast studio for video conferencing and 
long-distance learning--this Friday, for example, we are 
linking groups of teachers from Ithaca, New York and New York 
City to discuss their arts and education programs and what 
Carnegie Hall can and is adding to them. We can extend this 
type to work to, literally, anywhere in New Jersey, West 
Virginia or anywhere in the world. And we are very much 
intending to do that on a programmatic level once this space is 
built and outfitted.
    It will also be accessible as a forum for local, State and 
National cultural and business-related events. To develop and 
construct this new hall, a $50 million capital campaign was 
launched this past January, four months ago. To date, $42 
million has been pledged, including $13 million from the City 
of New York and $2 million from the New York State Legislature.
    In order to open the new hall in the 2000-2001 season, 
Carnegie Hall is seeking $4 million in Federal funding for the 
third stage project from within the fiscal year 2000 
appropriations from Department of Housing and Urban 
Development's EDI program. We know that Congresswoman Maloney 
and Lowey have contacted, and other members of the New York 
delegation will be contacting, the subcommittee regarding 
funding for the third stage project. We greatly appreciate your 
consideration of their request through the EDI account.
    With Federal funding support, Carnegie would be able to 
complete its evolution from a concert hall to an educational, 
cultural and commercial center for music enabling our programs 
and performances to reach a national and even global audience.
    Thank you for the opportunity to present this testimony.
    Mr. Frelinghusen. Mr. Golan, thank you very much for your 
testimony, on behalf of the committee.
    Of course, I live in New Jersey and am well aware of the 
excellent reputation of Carnegie Hall and we will be working 
with your delegation to see what we can do to be of help.
    Mr. Golan. Thanks very much.
    Mr. Frelinghuysen. Mr. Mollohan?
    Mr. Mollohan. No questions.
    Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Next I would like to recognize the 
Reverend T. Bryon Collins, S.J.
    Moving right along, if he is not here, Wesley Vinner, from 
the ARC.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

 WESLEY VINNER, THE ARC OF THE UNITED STATES GOVERNMENTAL AFFAIRS 
    OFFICE
    Mr. Vinner. Good morning, Mr. Chairman.
    Mr. Frelinghuysen. Good morning.
    Mr. Vinner. You know, you are a friend of mine.
    Mr. Frelinghuysen. I am. We are all friends of yours on 
this committee.
    Mr. Vinner. Mr. Chairman, good morning, my name is Wesley 
Vinner. I am here today for the ARC of the United States. I am 
a member of the Board of the D.C. ARC and a member of the Board 
of the National ARC and a member of the ARC Governmental 
Affairs Committee. I am a self advocate. That means that I am a 
person with mental retardation who speaks for myself. I also 
try to speak for other people with mental retardation who 
cannot speak for themselves.
    I am here to talk about housing and people with mental 
retardation. I want to tell you about myself and what I want 
and need. I also want to tell you about what some other people 
might need.
    I live in the District of Columbia. If you read the paper 
you probably saw this story about people with mental 
retardation and the terrible places that they live in the 
District of Columbia. Most of those people move into the 
community from a place called Clark Haven, which was an 
institution that I grew up in, and when I was a child I lived 
at Clark Haven, too, but I am one of the blessed ones. I lived 
there for 14 years.
    I went to school there. I left there when I was 
approximately 21. I lived with different people. I had a job 
with the District of Columbia Government and they closed down 
D.C. Village and that left me, they forced me out. And, so, I 
live off of a small amount. I am not mad with nobody because I 
always took care of myself through my life.
    And now I need a little help and do not expect the 
Government to do that much because I am proud to be a free 
person and proud to take care of myself. I am the kind of a 
person that does not like to go out begging. I do not think the 
country should just give me a hand-me-out, but do help those 
that need help.
    I will stop here. For the past three years I have lived in 
a building on Massachusetts Avenue, N.E., not far from here, in 
the District of Columbia. I have a small efficiency apartment 
in a building with mostly older people.
    I have a pension. I get $770 a month and after they take 
out my taxes and medical, that only leaves me about $650 a 
month, but that is all right. My rent is $209. So, that does 
not leave me with very much money and I thank you all for 
passing that because I had to pay, where I live, I live in 
Capitol Hill and that efficiency I live at it goes for $650. 
And if I had to pay that I would not have no money left.
    I am very appreciative because you helped me. I have wanted 
to have a better apartment where I can have friends over to 
visit. I just found out that I am going to get one of those 
vouchers that you funded. I thank you for me and for all the 
other people with mental retardation out there who will have a 
chance to find a place to live.
    The Arc have a waiting list and I want to give you all a 
calendar for my waiting list.
    Mr. Frelinghuysen. Thank you.
    Mr. Vinner. And you can give that to the rest of the 
committee members. The Arc have a waiting list campaign. There 
are many, many people with mental retardation who are waiting 
for some place to live. Some people need different things. Some 
people like me need a voucher. Other people might need some 
place where they can live together and have someone to help 
them. Other people might need some place different because they 
use a wheelchair. Some people just need a decent place to live, 
like the people in D.C.
    Everybody needs--or let me say and I think we are doing 
better in D.C. since we got new politics. [Laughter.]
    Mr. Frelinghuysen. Thank you for that endorsement.
    Mr. Vinner. Everybody needs to be treated fairly. The Arc 
and I ask you to add funds to the 2000 budget for the Section 8 
and for the Section 811 program. We have more suggestions in 
our written testimony.
    Thank you very much. I will be happy to tell you about my 
new apartment when I get it. I am proud to be American and may 
God bless all of you Republicans and Democrats, especially Mr. 
Frelinghuysen, who is a friend of mine.
    I had the pleasure of introducing him as a speaker at a 
luncheon at the Arc Governmental Affairs Seminar last year.
    Mr. Frelinghuysen. Mr. Vinner, thank you very much and I do 
remember you did introduce me. You did a wonderful job.
    Mr. Vinner. Thank you.
    Mr. Frelinghuysen. And considering how difficult it is to 
pronounce my name----
    Mr. Vinner. I broke it down to four syllables.
    Mr. Frelinghuysen. I know that Mr. Mollohan and I join in 
thanking you for being here as an advocate for Arc and we are 
so proud of the work that Arc does not only in this area but 
across the nation.
    Thank you very much for being here.
    Mr. Vinner. Thank you.
    Mr. Frelinghuysen. Mr. Mollohan?
    Mr. Mollohan. Thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Frelinghuysen. Suellen Galbraith, representing the 
Consortium for Citizen Disability Housing Task Force.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

SUELLEN R. GALBRAITH, DIRECTOR FOR PUBLIC POLICY, AMERICAN NETWORK OF 
    COMMUNITY OPTIONS AND RESOURCES
    Ms. Galbraith. Good morning, Mr. Chairman.
    Mr. Frelinghuysen. Thank you for being with us. Nice to see 
you again.
    Ms. Galbraith. Nice to see you again.
    I am representing the Consortium for Citizens With 
Disabilities Housing Task Force. As you know, the CCD is a 
Washington based coalition of approximately 100 nonprofit 
consumer advocacy provider and professional organizations who 
advocate with and on behalf of people of all ages with 
disabilities and their families.
    Of course, people like Wesley make a persuasive argument on 
their own but not all of them can be here in Washington to make 
the same argument. We are grateful for this opportunity today 
to testify and to thank the subcommittee's leadership in the 
past for taking important steps to address the housing needs of 
people with disabilities, and to report on the acute housing 
crisis facing people with disabilities and HUD's continued 
failure to address the situation.
    As you know, the CCD housing task force strongly believes 
that housing is the cornerstone to independence. However, many 
key players in the affordable housing system including HUD, 
many public housing authorities, and local and State housing 
and community development officials have yet to recognize the 
extent of the housing needs and problems that people with 
disabilities confront. As a result, people with disabilities 
receive a disproportionately small share of Federal housing 
funding.
    CCD believes that HUD's fiscal year 2000 budget falls well 
short of the mark in meeting the housing needs of people with 
disabilities and fails to address the fact that people with 
disabilities are priced out of this nation's housing market.
    In March of 1999, the CCD Housing Task Force in conjunction 
with the Technical Assistance Collaborative in Massachusetts 
published a report ``Priced Out in 1998: The Housing Crisis of 
People With Disabilities''. This report examines the 
affordability of rental housing for people with disabilities in 
all 50 States. While copies have been distributed to you, I 
believe it is important to highlight a few of the major 
findings.
    People with disabilities receiving SSI benefits are among 
the lowest income households in the country. In fact, a greater 
percentage of non-elderly people with disabilities live in 
poverty than do elderly people.
    People with disabilities receive SSI on the average of 
about 24 percent of that of a typical one-person income in the 
country. In fact, in 1998, there was not one county or 
metropolitan area in this country where a person receiving SSI 
benefits could actually follow Federal guidelines for housing 
affordability and pay only 30 percent of their monthly income 
for rent. Instead, as a national average, a person with a 
disability must spend 69 percent of his or her SSI monthly 
income to rent a modest one-bedroom apartment.
    This fact is important because HUD considers people who pay 
more than 50 percent of their income to have a worst case 
housing need. The report's findings are important for several 
reasons. First, they point to the cost of the housing for 
people with disabilities in that it outstrips their ability to 
pay and, so, housing subsidies are needed. And, secondly, these 
findings are the result of the two nonprofits rather than of 
HUD's findings.
    Fortunately, this subcommittee has taken steps over the 
past years to make HUD devote some of the Section 8 vouchers to 
people with disabilities, as we just heard. We are grateful for 
your lease SHIP again, Mr. Frelinghuysen and other members of 
the subcommittee. These subsidies translated last year in the 
fiscal year 1998 budget to 600 people with disabilities in New 
Jersey able to get housing and 400 in West Virginia.
    Last year the subcommittee also included a directive to HUD 
to conduct an inventory of Federally assisted housing. This 
followed on the heels of a GAO report. But CCD must ask again 
what has HUD done to document the real loss of housing to 
people with disabilities?
    HUD's fiscal year 2000 budget summary is entitled, 
``Opening Doors For More Americans'' but CCD questions whether 
HUD includes opening doors for more people with disabilities. 
And it is shocking that their request this year makes so little 
note of the direction that the subcommittee has taken in the 
past three years.
    It is even more disturbing that HUD's failure to leverage 
their own resources in support of several of the 
Administration's proposals to help people with disabilities. 
Three of those are worth pointing out. One, the Work Incentives 
Improvement Act, which you have cosponsored, and the Increasing 
Eligibility for Medicaid, Home and Community Based Supports and 
also proposing a $1,000 tax credit to help elderly and families 
and families with people with disabilities.
    And HUD has not responded in terms of people with 
disabilities on either of these three proposals and has again 
ignored people with disabilities, although it has supported 
requests for incremental vouchers for welfare-to-work, again, a 
goal of people with disabilities to go to work.
    Specifically the CCD asks you to help rectify the 
situation. And in light of the continued worst case house needs 
and the 1.4 million people with disabilities, the housing 
market that out-prices their income, and lost housing due to 
designations, CCD recommends $50 million again for another 
7,500 new Section 8 tenant-based subsidies; $250 million for 
the Section 811 program instead of the $194 million that is 
requested. That level funding of $194 million would translate 
into only 1,140 units nationwide to add to the housing stock 
for people with disabilities.
    We also ask that HUD not use any more than 25 percent of 
the Section 811 program for rental assistance. A higher 
percentage would further reduce the capacity of nonprofits to 
add to the housing stock for people with disabilities. And we 
again ask you to urge HUD to exercise its waiver authority and 
allow nonprofits to apply for these Section 811 tenant 
assistance. We have other recommendations. We again thank you 
for your help and we look forward to working with you.
    Thank you.
    Mr. Frelinghuysen. Ms. Galbraith, thank you very much for 
your testimony. It is most comprehensive and we have actually 
the whole copy of your testimony and you have made a lot of 
excellent recommendations. I know the committee will be working 
hard to fill your expectations.
    Ms. Galbraith. Thank you.
    Mr. Frelinghuysen. Mr. Mollohan?
    Mr. Mollohan. Thank you.
    Ms. Galbraith. Here is some more information on the Section 
8 vouchers for you.
    Mr. Frelinghuysen. Thank you.
    Ms. Galbraith. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Next we will hear from Mark H. Olanoff, 
U.S. Air Force Retired, representing the Retired and Enlisted 
Association.
                              ----------                              

                                         Wednesday, April 28, 1999.

                        VETERANS' ADMINISTRATION


                                WITNESS

MARK H. OLANOFF, U.S. AIR FORCE RETIRED, RETIRED AND ENLISTED 
    ASSOCIATION
    Mr. Frelinghuysen. Good morning.
    Mr. Olanoff. Good morning.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Nice to see you, and welcome to the 
committee.
    Mr. Olanoff. Nice to see you.
    Mr. Chairman, Mr. Mollohan, I am Mark Olanoff and I am the 
Retired Enlisted Association's Legislative Director.
    And we are a chartered veterans service organization with 
over 100,000 members. We represent all uniformed services, 
active, reserve, guard and retired and their dependents and 
families. I have submitted a complete statement and would now 
like to summarize a few key points.
    VA Enrollment. TREA is very pleased with the current VA 
policy of enrolling all veterans for health care. This is a 
positive step towards showing all veterans that their nation is 
thankful for their service. We urge that full funding be 
granted to ensure that the Department of Veterans Affairs will 
be able to continue to enroll veterans in future years.
    We do not want veterans who have enrolled in VA to be told 
in a year or two that the health care they are being guaranteed 
today has come to an end. We are concerned, however, that 
disabled veterans are not receiving their guaranteed health 
care.
    Mr. Chairman, this is fairly anecdotal right now but we 
have been receiving phone calls from our membership throughout 
the country. With the new category 7 priority of veterans being 
enrolled, many of our disabled members are being told that 
because of the high enrollment of the new category 7 that they 
are being told that there is no space available for treatment. 
These are category 1 veterans that are 50 percent or more and 
they should not be being told that space is not available.
    Just as it is important that all eligible veterans have 
access to the VA, it is more important that veterans with 
service-connected disabilities can receive treatment and are 
not told that there is not space available.
    Promising veterans care is wonderful but the new enrollment 
policy did not eliminate the priority system. In order to meet 
the increased demands, VA health care must receive the 
necessary funding to care for all veterans. Eligibility Reform. 
The Retired Enlisted Association supports the efforts of 
Chairman Stump of the VA Committee to provide for eligibility 
reform concerning the enrollment categories in the Department 
of Veterans Affairs.
    Presently, many military retirees fall under category 7, 
the lowest category, which means that retirees who have often 
lost their access to military treatment facilities cannot 
access VA facilities either. Chairman Stump's proposal to 
create a separate enrollment category for retirees is greatly 
appreciated and will go a long way towards increasing health 
care options for military retirees.
    Further, we believe that it is a justifiable benefit for 
those who have dedicated 20 or more years of service to the 
nation and along with the proposed Medicare subvention 
legislation will greatly increase access for health care for 
military retirees.
    Claims Processing. Another area of concern is the existing 
backlog for VA claims. The current wait for award is shameful. 
Veterans with service-connected disabilities should not be 
discouraged from applying for their earned entitlement to 
disability compensation because they know that the system will 
be working against them. TREA was pleased to hear that the 
Department of Veterans Affairs plans to hire more claims 
processors in fiscal year 2000. However, we remain skeptical 
that these editions will have enough of an impact to truly 
correct this problem.
    The most recent figures on claims processing show that the 
existing backlogs make the stated goal of 74 days unlikely. 
Further, the increasing complexity, both medically and legally, 
will continue to have a significant impact on timeliness.
    The Board of Veterans Appeals currently renders a decision 
within 120 days after receiving an appeal. However, the elapsed 
time processing for an appeal in the first quarter of fiscal 
year 1999 was 968 days. And this is an improvement from fiscal 
year 1999 [sic]. A time frame of nearly two-and-a-half years is 
not satisfactory.
    TREA is pleased that the VA is working to correct this 
delay but the fact remains that it still exists.
    The process of filing a claim needs to be reviewed to 
ensure that veterans who deserve compensation receive it in a 
timely and efficient manner. Please, appropriate the necessary 
funding to improve the claims processing in the lives of 
deserving veterans.
    In conclusion, the list of necessary improvements to the 
Veterans benefits structure is long overdue. Certainly, Mr. 
Chairman, you and the members of this subcommittee are aware of 
the debate which developed regarding the budget resolution's 
recommended spending for the Department of Veterans Affairs.
    We are pleased that the conference report on the budget 
resolution recommends a significant increase above the 
Administration's request. We come before you today in order to 
guarantee that the recommendation is made a reality.
    Mr. Chairman, thank you very much for allowing the Retired 
Enlisted Association to come before you.
    Mr. Frelinghuysen. Chief Olanoff, thank you very much for 
your testimony. It is comprehensive. I may say at the risk of 
taking too much time, it reinforces a lot of what we questioned 
as members of the subcommittee when Secretary West was in last 
week.
    Mr. Olanoff. I watched you on C-SPAN. It was on C-SPAN as a 
matter of fact.
    Mr. Frelinghuysen. I think both Mr. Mollohan and I share 
your concerns.
    Mr. Olanoff. Thank you very much, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Olanoff. Thank you, Mr. Mollohan.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Our next witness is Marcelyn E. Creque, 
who is here today to talk about various consumer issues, and 
representing the AARP.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

MARCY E. CREQUE, AMERICAN ASSOCIATION OF RETIRED PERSONS
    Mr. Frelinghuysen. Good morning.
    Thanks very much for being here.
    Ms. Creque. Good morning, Mr. Chairman.
    Thank you.
    Mr. Chairman, I am Marcie Creque and I am a member of 
AARP's National Legislative Council. We want to take this 
opportunity to thank you for the $15 million increase provided 
in the final bill last year for Section 202 elderly housing. 
Funding was increased from $645 million in fiscal year 1998 to 
the current appropriation of $660 million. Given that poverty 
in old age is likely to be permanent, continued support of 
initiatives like Section 202 housing is essential.
    This support is needed now more than ever in light of the 
tight spending limits for programs funded by appropriation 
bills.
    AARP remains concerned about the impact of these spending 
caps on initiatives which help low-income families. The caps 
will lead to extremely difficult choices and may require 
further consideration by Congress.
    The unprecedented growth in the number of elderly Americans 
over the next 50 years will present policy makers with many 
challenges. The Administration reports that by the year 2050 as 
many as 1 in 5 Americans will be elderly compared with 1 in 25 
at the turn of the last century.
    And by 2050 the number of elderly Americans will more than 
double to 80 million with those 85 years and older making up 
almost one-fourth of that population.
    These demographic changes are significant in planning for 
future housing needs of low-income older populations, 
especially for the oldest old. Many of these persons are more 
likely to live alone on limited resources and to suffer from 
multiple diseases.
    In the case of Section 202 elderly housing, new units are 
being added at a very modest rate. We can anticipate that 
without adequate funding at the very least enough to support 
the current production levels under Section 202, there will be 
a marked shortfall in the specialized housing early in the next 
century.
    Section 202 provides housing at affordable rents with 
unique features which can help prevent early admission to a 
nursing home. The Administration proposes to expand the scope 
of Section 202 next year but keep funding at the existing $660 
million level.
    Within this request is a proposed $100 million grant 
program to convert some existing Section 202 units into 
assisted living. Also, included is $50 million for an expanded 
service coordinator program. Funds available for construction 
next year will be reduced accordingly from $660 million to $510 
million.
    The Administration is to be commended for its objective to 
better serve low-income older Americans. It combines 
specialized housing with services that become so critical to 
frail, elderly residents. However, the proposals regarding 
Section 202 would be accomplished at the expense of new 
construction next year.
    The number of new units that would be constructed would 
drop from 8,000 to 5,790. The growing need for assisted living 
facilities in no way diminishes the acute housing supply 
program faced by frail, low-income older persons. Significant 
waiting lists still exist for Section 202 housing.
    AARP strongly urges that sufficient resources are provided 
to guarantee at least current production levels under Section 
202 next year. And that consideration of the Administration's 
two proposals be deferred pending the availability of resources 
and evaluation by the authorizing committee.
    Again, thank you, for allowing us to testify before you 
today and we urge your positive attention to all of the issues 
in our complete statement.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much, Ms. Creque, for your 
testimony today.
    Our next witness is Alan Greenlee representing The 
Enterprise Foundation. Welcome, Mr. Greenlee.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

ALAN GREENLEE, THE ENTERPRISE FOUNDATION
    Mr. Greenlee. Good morning. As you said, I am Alan 
Greenlee, and I am the director of Public Policy for The 
Enterprise Foundation.
    Thank you for the opportunity to offer our views on the 
importance and the impact of HUD programs in the fiscal year 
2000 budget.
    The Enterprise Foundation is dedicated to rebuilding 
neighborhoods and providing opportunities for people to take 
control of their lives and communities. Since 1982, Enterprise 
has raised and committed more than $2.7 billion in loans, 
grants, and equity. Enterprise works with a vast network of 
more than 1,100 nonprofit organizations in more than 400 
locations to improve America's urban neighborhoods through 
housing, job creation and training, child care, safety and a 
variety of support services.
    There are several Federal programs that we have found to be 
vital in encouraging public-private partnerships and 
revitalizing communities. The Home Investment Partnership 
program, the Community Development Block Grant program, and 
HUD's Capacity Building program.
    In your district, Mr. Chairman, HOME, CDBG, and the 
Capacity Building funds are being used together to revitalize 
distressed communities. The Syracuse Model Neighborhood 
Corporation, or SMNC, works on the south side of Syracuse, and 
is working to provide affordable housing opportunities in the 
midst of a community that is trying to recover from an economic 
downturn.
    The Model Neighborhood Corporation has developed over 2,000 
homes in those targeted neighborhoods and HOME dollars have 
been used for purchase and rehabilitation of nearly 300 homes.
    These are properties that were abandoned and contributing 
to urban blight. Community Development Block Grant program has 
provided funds to support the operating costs of SMNC, and The 
Enterprise Foundation has served as a partner for the Model 
Neighborhood Corporation in bringing technical assistance and 
financing to assist the Corporation with its revitalization 
efforts.
    This partnership has allowed us to work in conjunction with 
SMNC to purchase 49 buildings that will provide affordable 
rental housing for moderate and low-income families in that 
area.
    As you can see, Mr. Chairman, and Mr. Frelinghuysen--
welcome back--HOME and CDBG are being put to good use, not only 
in Syracuse but throughout the country. They are a flexible 
source of funding that attract private investment, and in that 
regard we think that HOME is an effective program and we 
request that Congress appropriate $1.8 billion in FY 2000 and, 
in addition, we ask that you provide $5 billion for the 
Community Development Block program.
    The third issue is the Capacity Building program, and as 
you know, or as I have previously stated, The Enterprise 
Foundation serves as an intermediary.
    Congress has recognized the value of intermediaries as 
effective vehicles for community revitalization and 
stabilization. Last year, Congress appropriated $15 million for 
HUD's Capacity Building program. This funding was used to 
provide loans and grants to community-based organizations.
    The Capacity Building assistance has also funded technical 
assistance that Enterprise provides to community-based 
organizations. Through Capacity Building efforts, community-
based organizations are better equipped to partner with local 
governments and private sector in a comprehensive 
revitalization effort.
    Capacity Building is a sound investment in America's 
communities. Recipients are required to raise other private and 
public funds at a three to one match which allows limited 
Federal resources to stretch as far as possible.
    The Enterprise Foundation requests that Congress provide 
$20 million for the Capacity Building program in FY 2000.
    In conclusion, this year, The Enterprise Foundation will 
celebrate the completion of its 100,000th home in low-income 
communities. This milestone marks a new direction in community 
development, setting a very high standard for others in our 
field, allowing Enterprise to continue its work on behalf of 
hundreds of thousands of families needing a decent and 
affordable place to call home.
    The Enterprise Foundation has found the Federal Government 
and HUD's housing and community development programs to be 
vital in our efforts to help low-income families rise up and 
out of poverty and into the economic mainstream.
    Once again, thanks very much for the time and for listening 
to our comments.
    Mr. Frelinghuysen. Mr. Greenlee, thank you very much on 
behalf of Chairman Walsh and all Members for your testimony.
    Mr. Greenlee. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Good to see you. Thank you.
    The next guest is Mary Margaret Overbey, Ph.D.
    Doctor, good morning. How are you?
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

MARY MARGARET OVERBEY, PH.D., AMERICAN ANTHROPOLOGICAL ASSOCIATION
    Ms. Overbey. Nice to be here.
    Mr. Frelinghuysen. Looks like you have got some heavy 
materials with you this morning.
    Ms. Overbey. Right. I am talking about National Science 
Foundation. I am speaking on behalf of the American 
Anthropological Association, the Society for American 
Archeology and the American Association for Physical 
Anthropologists.
    Mr. Frelinghuysen. You are speaking on behalf of three 
organizations. Fantastic.
    Ms. Overbey. Yes; right; right.
    What we are doing, we are supporting NSF, and we are 
seeking $4.3 billion for NSF in FY 2000. That would be a 15 
percent increase and it represents what NSF said its needs were 
in its original request to OMB.
    We want to support two NSF initiatives, the Information 
Technology squared initiative and the Biocomplexity initiative. 
We like the fact that both of those are interdisciplinary 
initiatives, and we want to urge NSF to make sure that they 
develop the human dimensions of those initiatives.
    Anthropologists are working in information technology and 
environment. We think that anthropologists and behavioral and 
social scientists would really contribute a lot to the 
development and the outcome of those projects.
    I wanted to take my time, really, to just give you a few 
examples of some of the anthropological research that has been 
recently, or has been currently funded by NSF, so I would like 
to just mention some of those.
    Mary Stiner at the University of Arizona, with her NSF 
funding, she has been looking at how human populations 
developed in ``pulses'' during the Paleolithic period, and how 
the exploitation of game changed, and how she is able to 
determine when and how rapidly population grew, and also how 
they depleted their resources.
    She looked at two sites, one in Israel and one in Italy, 
and usually the people at this time--human populations are big 
game hunters, so they are hunting for deer and gazelle. About 
half of the faunal remains are small game. But what she found 
is in the middle Paleolithic period, there is a reliance on 
slow-moving game such as tortoises, shellfish, ostrich eggs.
    Then by the Upper Paleolithic period, about 40,000 years 
ago, in Israel, and about 20,000 years ago in Italy, there is a 
shift to fast-moving game such as rabbit and partridges. You 
find just a little bit of the tortoise remains in those sites, 
but they are very small. So the size of the animal is very 
small. So this has led Stiner to conclude that there was a 
dramatic shift in population, that population had grown. They 
had actually wiped out the slower-moving game and were now 
catching this faster-moving game. But it also indicates that 
they had developed technologies such as traps and nets to 
capture those fast-moving game.
    The other project is by Lisa Sattenspiel at University of 
Missouri-Columbia, and her colleague, Anne Herring at McMaster 
University, and they have been looking at the spread of the 
1918 to 1919 influenza epidemic among Native Canadians in 
Central Manitoba, and what they have done is looked at the 
historical records kept at three Hudson Bay posts at the time, 
and also parish data from the churches, where they record the 
deaths, and age, and names of people. The post. Record who is 
coming into the post, who is going out, when are they leaving, 
and patterns of motion, and they have used mathematical 
modeling to actually give a picture of what happened during at 
least the winter of that period.
    In the winter, people were out living in small families, 
fur trapping, and what they have found is that the epidemic 
itself, the influenza epidemic hit some families very hard, and 
other families were missed entirely in this situation. So that 
if you have a family of about five people, at least four, maybe 
all five of those people were killed, but other families were 
not even touched by the influenza.
    So what they have pointed out is that there are social and 
cultural factors that are important to the spread of this 
epidemic.
    The other project is by Mark Shriver at Penn State 
University, and his colleagues. They have been looking at 
classical genetic markers to determine ancestry through the 
study of admixture in populations. They are doing work in the 
United States looking at current populations and they are 
looking at population-specific alleles or PSAs, to determine 
the genetic diversity within those populations. His work is 
actually going on the traditional concepts of race and 
ethnicity to actually look down at the genetics, the biology, 
and the geographic factors in these cases.
    An example I have here is one where they have looked at 10 
populations of African descent in the U.S. and Jamaica. They 
have looked at the European influence, genetic influence, and 
also American Indian genetic influence, and what they have 
found is that the European admixture, it varies in different 
places.
    For instance, it is low in Jamaica yet is is high in New 
Orleans, about 22.5 percent. Then, within cities in the North, 
there is variation. You have a higher level of admixture in 
Pittsburgh than you do in Philadelphia. You have a higher 
admixture in the South, in New Orleans, than you do in 
Charleston.
    So they are looking at these differences, and then the 
other thing is the American Indian----
    Mr. Frelinghuysen. Dr. Overbey, to the extent you can 
summarize, I must--personally, I find it fascinating but we 
have a number of other witnesses.
    Ms. Overbey. All right. The other thing I did want to talk 
about is just Dan Moerman of University of Michigan-Dearborn. 
He has actually used his NSF funding to produce this book, 
``Native American Ethnobotany,'' and it captures about 25 years 
of research on Native American uses of plants, and it has 
44,000 uses of more than 4,000 plants.
    He has also put this book online, so he has made this data 
available to everyone in the public. It is a searchable format, 
so you can look up the plant, you can look up the tribe, and 
determine uses here. He has tried to get private funding to 
distribute this to all 1,100 tribes in Canada and the U.S. He 
has gotten enough money to send it out to 110 tribes, but the 
tribes he has heard from have just really appreciated it and 
are using it to incorporate the knowledge back into the tribal 
culture, but also they are developing the plants now, growing 
the plants on tribal sites, on tribal lands.
    These are just some examples to show you what kind of 
research NSF is funding and we urge your continued support of 
NSF, and to increase that funding.
    Mr. Sherlock. This committee has been very supportive of 
the National Science Foundation and will continue to be, and 
thank you for giving us some specific examples of the NSF's 
work. Thank you very much.
    Ms. Overbey. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. James E. Lokovic, that may be an 
incorrect pronunciation, representing the Air Force Sergeants 
Association.
    Thank you. Good morning. Thank you for being here.
                              ----------                              

                                         Wednesday, April 28, 1999.

                            VETERANS AFFAIRS


                                WITNESS

JAMES E. LOKOVIC, AIR FORCE SERGEANTS ASSOCIATION
    Mr. Lokovic. Sir, good morning. Thank you very much. I am 
going to try to speed this along because I know we are running 
behind.
    I want to ask you, please, to look at our written 
statement. We talked about health care and other aspects of the 
programs that you support. I want to specifically focus during 
this time on educational programs.
    The programs that are administered through the Veterans 
Administration are designed for readjustment, retention, 
readjustment into the civilian community and even as a draw to 
get people to recruit into the services. Unfortunately, there 
are some problems that are correctable, that this committee, 
together with the others that deal with veterans' issues could 
do something about.
    From 1976 to 1985, the program that was supported by our 
veterans appropriators was the Veterans Educational Assistance 
Program. In that program, those members that came in during 
that time period, 1976 to 1985, put in up to $2,700, and it is 
matched by up to $5,400. In other words, about an $8,100 
benefit.
    Starting in 1985, Sonny Montgomery's program, the 
Montgomery G.I. Bill, changed that to where you put in up to 
$1,200, and it is matched by, currently, about $18,000, a much 
better benefit. Back in 1997, through the VA process, the 
authorization process, we got a one-time open window for the 
Veterans Educational Assistance Program participants to move 
into the Montgomery G.I. Bill.
    Unfortunately, those people in the VEAP program were told, 
all along, don't put money into the accounts until you are 
going to take classes because we will match it two for one and 
they are noninterest bearing accounts.
    Unfortunately, when we got that law signed two years ago 
allowing for the conversion, the Veterans Administration ruled 
that only those people that had money in their accounts when 
the law was signed on October 9th would be allowed to convert. 
110,000 DoD people were excluded for following the advice of 
Government counselors.
    We need that window open again. If you can do anything to 
do that, we would really appreciate it. A one-time open window 
to allow any GIs that are currently serving, that are not in 
the Montgomery G.I. Bill, to allow them to transfer, and, 
again, as we did a couple years ago, but this time make it a 
legitimate one.
    The Montgomery G.I. Bill, as you probably know, is an 
irrevocable basic training decision. Under duress, and when 
they can least afford it, the people in basic training in all 
the services are said you need to tell me now you want to be in 
this program. If you do not tell me right now that you want to 
be into it, you can never get into it again. It is irrevocable. 
That is not right.
    A lot of the young families coming in simply cannot afford 
$100 a month. There is legislation. Mr. Evans has proposed 
some. there is other legislation out there calling to waive 
that $1,200 member contribution.
    I think that certainly would be appropriate. Certainly, if 
that cannot be worked out, we need to support anything that 
would allow us to move that decision point from basic training 
into any time during a first enlistment.
    It is unfortunate, there are many, many thousands of 
military members that have no education benefits whatsoever, 
public understanding withstanding.
    The value of the Montgomery G.I. Bill, if you look back to 
1985, it took in educational inflation dollars, and you look at 
today, should be drawing about $800 a month for 36 months 
instead of the $500 and something.
    The request there is anything you can possibly do to 
increase the amount of the Montgomery G.I. Bill's value. We 
would certainly appreciate it.
    Then the final point I want to hit in the time that I have 
is the Montgomery G.I. Bill, by current policy, expires 10 
years after you retire, and I can tell you, as an enlisted, 
retired military member, served 25 years, I had to go to work 
immediately after I retired from the military because you 
simply cannot afford to live on that.
    My 10 year clock is half gone now, and I will no doubt not 
use my G.I. Bill benefit. I am quite convinced that the 
Government defends on that, the fact that most GIs will not get 
a chance to use their G.I. Bill benefit. What I am asking is if 
you can do anything possible to extend or eliminate that time 
limit on when you can use a benefit, or as was suggested by Mr. 
Evans and others, allow a provision whereby GIs can transfer 
their G.I. Bill benefit to family members.
    You cannot do that right now. That would be a boon for 
enlisted members, in particular. That pretty well wraps it up. 
We have folks, as you know, serving in harm's way, all over the 
world right now. I ask you, again, to look at our written 
statement in the areas of health care and home loans. 
Certainly, anything you can do to improve the education 
programs would help us in the area of retention, recruiting and 
certainly readjustment.
    Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Mr. Lokovic, thank you very much for 
articulating several issues, some of which you just alluded to, 
but, certainly, the issue of faulty information is something 
that I am not sure we were aware of, but we are now, and also, 
thank you for your service. Appreciate it. Thank you very much 
for coming.
    Kirk Humphrey, representing the City of Oklahoma City. I 
guess Reverend Collins never showed up, so we will not mention 
his name after this. Is Kirk Humphrey here?
    Dorothy Stoneman, YouthBuild U.S.A.
    Good morning. Thank you very much for being here.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

DOROTHY STONEMAN, YOUTHBUILD U.S.A.
    Ms. Stoneman. Good morning. Nice to meet you. Well, thank 
you for listening to each of us, one after another.
    Mr. Frelinghuysen. This is a time-honored tradition which 
has been occurring for well over a 100 years.
    Ms. Stoneman. I have never done it before myself so----
    Mr. Frelinghuysen. Well, this is a very relaxed session 
here. We do not give you much time, so anything you can do to 
concentrate on your specific concerns would be great.
    Ms. Stoneman. All right. Well, my specific concern is that 
the administration has requested an increase in the YouthBuild 
appropriate to $75 million from $42.5 million, and I am here to 
support that request.
    I started the first YouthBuild program in 1978 and ran it 
for 10 years in East Harlem before it was obvious that it 
should be replicated, and now there are 129, most of them are 
funded by HUD. The increase to $75 million would take it to 
about 170 programs across the country, and we are in about 43 
States at this point.
    The reasons why it should be expanded it what I want to 
focus on. We have no problems with HUD. They are doing a good 
job in administering it. There are no particular regulations or 
laws that are problematic.
    What happens in a YouthBuild program, I should tell you, 
first, since you may never have been to one, is that young 
people who have dropped out of school come into the program, it 
is full time, for about a year, 30 to 50 young people in a 
small, supportive, mini community. They spend half their time 
on a construction site rehabilitating housing for homeless or 
low-income people by doing new construction. The other half in 
a classroom, in a YouthBuild alternative school doing basic 
education, some college prep, but usually GED, and they 
alternate, a week in the construction site, a week in the 
school.
    They govern their own program. There is a lot of attention 
to developing a positive peer group where people are supportive 
of each other's dreams and each other's success.
    So that what evolves is really quite a dramatic 
transformation of identity of young people who have been 
marginalized, who have been going nowhere with no prospects and 
who come into this context and find a path to a good paying 
job, or to college, and any community where they feel safe to 
learn and to grow. And that happens reliably.
    60 percent of the young people stay for the whole year. 85 
percent of them get placed in jobs averaging $7.53 an hour. 
About 15 percent go on to college, and follow-up statistics 
indicate that they are staying employed and that they are 
staying in college.
    There are several particular things about it that would 
make me argue for the increase. First of all, the program 
design is unique for this population. It is the only national 
program with an equal emphasis on all the things that young 
people need. That is, doing something immediately important to 
their neighbors and to their community, where they are 
respected for that, and getting equal emphasis on education and 
job training, with a really explicit positive value system and 
a lot of adult counseling.
    I have Littleton, Colorado, on my mind this week, and of 
course YouthBuild is targeted for young people who have grown 
up in low-income communities, were most in need, not the 
privileged young people.
    But if the principles of YouthBuild were being implemented 
in our schools, where there were small, supportive mini 
communities, where everyone felt cared about and learned to 
respect each other, it would be an improvement in the schools 
as well.
    The population we are reaching is the most at risk, and we 
are reaching more of the minority young men than any other 
national program. It is 70 percent men, about 60 percent 
African American, 21 percent white, 17 percent Latino, about 1 
percent Native American.
    The objective outcomes are good, as I said before, and the 
personal transformation aspects are not only proven by research 
from the Harvard Kennedy School, but also I have witnessed 
thousands, and we all have, of the testimonials of young people 
which move my heart, constantly.
    The fact that young adults are integral to community 
revitalization, strategies in YouthBuild is really the only 
national strategy that deliberately reaches out to young 
adults, to get them committed to their own community and have 
them visible in their community.
    That makes a difference to the adults in the community. So 
if you can have young people who previously were standing on 
the corners, now rebuilding crack houses, and making housing 
for homeless, you change the tone of the community.
    The overall national significance for our Nation to be able 
to reconnect unemployed and undereducated young people is 
important for crime prevention, workforce development, race 
relations, child support, welfare-to-work, and survival in the 
competitive international arena.
    The replication system that is in place is efficient and 
excellent. HUD does a good job at its part. There is no massive 
bureaucracy or any political intervention in the process of 
selecting sites, and then it has a partnership with YouthBuild 
U.S.A. in which we have built an organization that can 
intervene for quality assurance, provide the training and 
technical assistance, and attract the kind of entrepreneurial 
directors.
    This system depends on having great local leadership and we 
have been able to attract it because it's an exciting program.
    The national movement is very young, it has not plateaued 
out yet, it is not corrupt, it is not jaded, it has not given 
up, it is not cynical, it is united, and it is in a very good 
position because it has won a lot of business support, 
bipartisan support, union support.
    We have the beginning, partly through the capacity-building 
support that we have gotten in 1997, to pull in corporate 
support like the Home Depot gave $1.5 million, recently, to be 
matched three to one by other--well, actually, it is the 
Federal money that is matched three to one, but Home Depot is 
part of that match.
    I would like to quote for you an editorial from ``Youth 
Today'' because I liked it so much.
    It says, ``The national replication of proven youth 
development strategies and the art of taking them to scale is 
the avowed goal of politicians, foundations, and social policy 
theorists across the ideological spectrum.''
    ``So what would happen if a brilliant idea, superlative 
leadership, bipartisan political support, and substantial 
foundation and Federal expenditures all coalesced? The results 
would look remarkably like YouthBuild, by all accounts--he 
says--one of the very best programs in the world serving high-
risk youth.''
    Mr. Frelinghuysen. An appropriate editorial.
    Ms. Overbey. Right. I thought it was good.
    Ms. Stoneman. I also want to quote from a couple of 
statements by young people. This is from a young man named 
Michael Baez made at a ribbon-cutting ceremony in New York. 
They were celebrating the completion of a four-story tenement 
in East Harlem, and he said to the crowd:

    Dreams inside YouthBuild are reality. Being in this program 
lifts my spirit and brings sweet music to my ears. The music 
that I hear is the applause and success of being successful for 
our community.
    Here in Youth Action YouthBuild, we can bring forth each 
and every race to fight for what we believe in. That means 
building a force--a force of justice, dignity and respect for 
all human beings.
    As a whole, we have come forth to offer a skill of our own: 
hard work and sweat for our community. Now we know that we have 
accomplished something in our life.
    We, the trainees, are being taught to train others and to 
encourage our peers to know that they are intelligent and have 
special qualities, such as being good communicators, strong 
leaders who can show the way of valuing human life, and valuing 
human life is at the top of the agenda today, I think.

    And another poem from a different young person who said:

Imagine a child captured in his rage;
Anger, Violence----
It seems to be the only way.
When he feels down . . . It is as if no one's around.
When the world closes in on him, he only breaks down.

To live in a world where ignorance nourishes a baby,
Death is given by the handful,
And sanity seems to be crazy.

Searching and searching * * * it seems to never end * * *
For what? No one knows until it's found, my friends.
That's why I'm glad YouthBuild is made of family and friends.
In an unstable world it gives me stability.
YouthBuild, my extended family,
I'll love you till infinity.

    Mr. Frelinghuysen. Ms. Stoneman, I have got to stop you 
there. I think that is a very good place to stop, since that 
young person was a witness to the excellence of your program.
    Ms. Stoneman. Right. And they move us all. We promise that 
if you appropriate the $75 million, we will do everything we 
can.
    Mr. Frelinghuysen. We will do our best to help. Thank you 
for your work. Obviously, you have your passion.
    Ms. Stoneman. It is nice to meet you.
    Mr. Frelinghuysen. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Bill Primus, William D. Primus, 
representing the Morris County Urban League. Bill, from my neck 
of the woods. Thank you very much for being here. That does not 
give you any advantages.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

WILLIAM D. PRIMUS, PRESIDENT/CEO, MORRIS COUNTY URBAN LEAGUE
    Mr. Primus. Thank you for the opportunity to be here.
    Mr. Frelinghuysen. The more succinct you are, the probably 
more advantageous it would be for your request. [Laughter.]
    A copy of your full testimony and any, for those who 
follow, will be put in the record. So we would appreciate it if 
you could begin.
    Thank you.
    Mr. Primus. Thank you very much. Good morning, Mr. Chairman 
and members of the committee. With me this morning I have two 
board members, Mr. Thomas Jackson, and Dr. Dwight Pfenning.
    We are delighted to be here to give testimony before this 
committee, and to you our thanks, Mr. Frelinghuysen.
    Mr. Chairman, for more than 55 years, the Morris County 
Urban League has dedicated its efforts towards providing 
necessary tools for achieving self-reliance and economic 
stability to persons and communities in need. With a diverse 
group of county residents comprising its volunteer Board of 
Trustees, community volunteers and staff, the Morris County 
Urban League provides programs intended to strengthen the 
growth and development of individuals and families.
    The programs and services are customized to meet the 
special needs of Morris County and are focused on the areas of 
job training, employment, education, housing, social services 
and economic development.
    In summary, in the history of minority organizations, the 
Morris County Urban League has the distinction of being the 
first to work with high school guidance departments to 
encourage education beyond high school, serve as a liaison 
between corporations and minority community to gain employment 
as well as promoting for minorities, direct a survey of housing 
needs in blighted areas which resulted in the first low-income 
housing in Morris County.
    Over the past several years, the Urban League observed a 
significant increase in the number of clients seeking 
employment, day care and elder care. Our programs assisted more 
than 1,900 individuals and families last year. Some of the 
programs include Housing Counseling and Mortgage Assistance, 
Youth Leadership and Development, English as a Second Language, 
Beginners Computer Training Courses, Tutorial and Mentor 
Programs and, yes, we own a Boy Scout Troop, 331.
    The primary reason for our request to bring this proposal 
before you is to explain our needs to expand existing programs 
and create two new programs. These programs will provide 
assistance in preparing those exiting the public assistance 
systems in gaining employment. The Work Readiness and Training 
Program, the Child Day Care Program, the Elder Day Care/Healthy 
Lifestyles Program will provide essential services to enhance 
the employability of participants while attending to the basic 
needs of the family. We have observed that workers are more 
productive and are encouraged to improve their employment 
options when they feel their immediate families are being cared 
for.
    The objective of the Work Readiness Program is to 
transition unemployed, socially dependent individuals to self-
reliance within two years. The targeted groups are persons who 
historically are harder to employ--long-term welfare 
recipients, persons lacking high school diplomas, persons with 
varying degrees of literacy in reading, writing, math, 
recovering substance abusers, former felons, and persons with 
poor work histories.
    Through a rigorous pre-employment preparation program that 
stresses self-motivation and behavior modification, the Work 
Readiness Program will deliver three core employment 
components--employment development plans, job readiness, and 
job placement--over a 12-week period of time.
    There are several growth occupations according to the New 
Jersey Department of Labor, and they are: guards, retail 
clerks, home health aides, nursing aides, waiters, waitresses, 
salespersons, cashiers, building maintenance, truck drivers and 
office clerks. The salaries of these occupations range from 
$5.15 an hour to $11 an hour.
    In New Jersey, economic self-sufficiency is relatively easy 
to maintain at $8 an hour. Upon completing an unsubsidized 
internship, the Work Readiness Project will transition 
participants to unsubsidized employment opportunities.
    The day care segment of the program is a very important 
factor in the success of the workforce development transition. 
More than 85 percent of the persons seeking assistance from our 
office are females, and 90 percent of that percentage are 
single parents. It is increasingly apparent that in order to 
assist these women in their quest for full-time employment, we 
must provide comprehensive day care service. We project a 
requirement for approximately 500 to 700 day care slots by the 
year 2000.
    The Morris County Urban League proposes a day care center 
that would operate two shifts to enable us to accommodate as 
many working parents as possible. Currently, there are no 
facilities that provide two shifts in the county.
    We recognize the majority of these individuals who are 
seeking our services will not get the 9:00 to 5:00 jobs, as 
they are already taken. However, there will be a greater demand 
for the services in the 4:00 to 11:00 slot; thus, the rationale 
for these shifts.
    Our Elder Day Care/Healthy Lifestyles is the third portion 
of the program, and it is designed to coordinate seniors with 
providing health maintenance services, preventive health care, 
elderly care services to the county's senior citizens. The 
program also serves as a vital link to developing inter-
generational relationships while enhancing opportunities for 
personal fulfillment. The vision of a senior citizen sharing a 
story with a preschool child or assisting youth in homework and 
special assignments is one that transcends traditional youth-
senior citizen relations.
    With a burgeoning economy and record low unemployment 
nationwide, it is easy to fail to notice the neediest of our 
populations. Efforts must continue to ensure that disadvantaged 
persons are provided a program that services and serves to 
empower them, improve their well-being and foster economic 
stability.
    The total cost of our program is estimated to be slightly 
over $1 million. In addition to private funds, which we will 
raise to support this effort, the Urban League is seeking 
congressional funding support to assist us in implementing 
these community outreach initiatives.
    We thank you, Mr. Chairman, for the opportunity to be here.
    Mr. Frelinghuysen. Thank you, Mr. Primus. I can assure you 
that I will bring your request to the attention of my 
colleagues, and I want to thank you, all of you, for taking 
time to be here today and for your testimony.
    Mr. Primus. Thank you very much.
    Mr. Frelinghuysen. Thank you for coming.
    Mr. Primus. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. It is my pleasure to recognize one of my 
colleagues, Congressman Weiner, from the Ninth District of New 
York. Congressman, I am going to have you introduce our guest 
because I certainly cannot pronounce that name, that college.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. ANTHONY D. WEINER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Weiner. Oh, okay. I actually had to ask for it myself.
    Mr. Frelinghuysen. Oh, great. Thank you very much.
    A full copy of whatever your remarks are.
    Mr. Weiner. Yes, and I have some extra copies. I am not 
going to present all of that.
    I just want to thank you, Mr. Chairman, for giving me the 
opportunity to introduce Rachel Davids from Neve College, which 
is an institution that takes at-risk young people, young women, 
and in kind of an on-campus environment provides support 
services. They have done a remarkable job raising funds in the 
private sector and are now seeking Federal assistance through 
an EDI grant to help them continue to do their work.
    Ms. Davids can speak, obviously, from firsthand experience 
about the value of the program, this subcommittee has done 
remarkable work in responding to these types of things, given 
some very difficult constraints that I know exist and so do my 
constituents. It is my great honor to introduce Rachel Davids, 
who will give you a little insight into what Neve College does 
and what they will do with these additional funds if this 
subcommittee is kind enough to grant them.
    Mr. Frelinghuysen. Ms. Davids, the floor is yours for a few 
minutes, and you have a good supporter, and I think it is nice 
that he is here to introduce you.
                              ----------                                


                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

RACHEL DAVIDS, NEVE YERUSHALAYIM COLLEGE, NEW YORK, NEW YORK
    Ms. Davids. Thank you, Congressman Weiner, for your kind 
introduction, for your commitment to Neve College and for being 
here with me today.
    Members of the VA/HUD Subcommittee, thank you for providing 
me with the opportunity to appear before you. My name is Rachel 
Davids. I am a former student of Neve College.
    I am proud to sit before this subcommittee today and tell 
you that my life has been transformed because of Neve 
Yerushalayim College. As a teenager, my life was in crisis. By 
age 18, I had been involved in more serious problems than most 
people could experience in a lifetime. My life was surrounded 
by negative forces. I abused drugs to the point of an overdose, 
I was arrested for credit card fraud and forgery, I was morally 
and spiritually bankrupt to the point of being promiscuous with 
several boyfriends and completing rejecting my religion.
    Before all of this happened, I was like so many of my 
peers. I was raised in a ``nice'' Jewish home in Brooklyn by my 
mother who is a rabbi's daughter from Morocco, and my father 
who is a Holocaust survivor from former Yugoslavia. But my 
parents divorced when I was young, and my siblings and I were 
dragged through an ugly custody battle. This left emotional 
scars. We felt unloved, angry and resentful. We turned to drugs 
and crime to escape reality.
    Before my hope ran out, I met a wonderful rabbi who put me 
on a plane and sent me to Neve Yerushalayim College's home 
campus in Jerusalem. That is where I began to turn myself 
around. Now, thanks to Neve, I have a healthy life, I have a 
wonderful husband, two beautiful little children and I am 
emotionally, physically and spiritually sound. You see, Neve 
College is more than just an academic institution for women. It 
is an environment of love, care, warmth and stability.
    Neve College was created in Israel in 1970 to provide 
women, ages 16 to 23, with a high-quality, faith-based 
education. Neve's campus was expanded in the 1980s with Federal 
grants totaling $2.8 million.
    Today, Neve College is in four countries and in eight major 
cities, including New York; Lakewood, New Jersey; Baltimore; 
and Detroit. It serves as an intellectual mecca, a spiritual 
center, a physical and emotional safe-haven.
    Neve offers ten distinctive educational programs geared to 
meet the diverse needs of young women from all walks of life 
and from every background. While my story is not common among 
Neve students, the number of troubled women is growing. There 
is an increased urgent need for a facility designed to devote 
special care to at-risk women and other young women who need 
the security of a loving environment to continue moving ahead.
    On behalf of Neve College faculty, students and alumni, I 
have come to this subcommittee to ask for your strong support 
of Neve's development of a residential community center for 
young women in Brooklyn. This center will be available to 
approximately 100 young women each year between the ages of 16 
and 23.
    The center will serve several different groups of women 
using a strong mentoring component. Specifically, it will serve 
at-risk young women from the local community, young women who 
have gone through Neve's programs at its U.S. facilities and 
throughout the world, and Neve students, graduates and staff 
who can serve as mentors and counselors.
    There is no center or mentoring program that is especially 
devoted to young women in the New York area. Had there been a 
center like this when I was in trouble, I most likely would 
have been helped. I would not have turned to a destructive 
lifestyle.
    I am here because I do not want other young women to 
continue to go through what I had gone through years ago. I 
know, for a fact, that there are many women who are caught in a 
destructive cycle who could be saved by the center. Some are 
people I spent time with when I was doing drugs; one, in 
particular, is close to me but, unfortunately, still involved 
in crime and drugs. She could be helped by a residential center 
for young women.
    Neve has worked for more than 30 years to help, nurture and 
care for women. They have an outstanding track record, as 
evidenced by the successes of thousands of Neve alumni who work 
and live throughout the United States and the world.
    Neve College is committed to providing more than $2 million 
in private and donated funds for the development of a 
residential community center for young women. Therefore, 
members of the subcommittee, Neve College seeks a Federal 
investment of $2 million for the development of a residential 
community center for young women in Brooklyn. It will serve 
young women from all walks of life who are on the brink of 
giving up hope, including individuals like my former self.
    Thank you for your serious consideration of this vital 
initiative.
    Mr. Frelinghuysen. Ms. Davis, thank you for being here and 
Congressman Weiner as well.
    Mr. Weiner. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. We appreciate it. We will do the best we 
can to be of help.
    Mr. Weiner. My pleasure. We appreciate your consideration.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Congressman Jefferson, front and center. 
Thank you very much for being here.
    Congressman Jefferson is going to introduce Father Val 
Peter, representing Boys Town USA; is that correct?
    Father Peter. Yes, sir. That is correct.
    Mr. Frelinghuysen. I saw that collar, and I figured that 
you two must be together. Thank you for coming.
    Father Peter. Thank you. Thanks for having me here.
    Mr. Frelinghuysen. We are pleased to have you. You have a 
good advocate right here. He is one of the best.
    Father Peter. Thanks, Congressman.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. WILLIAM J. JEFFERSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF LOUISIANA
    Mr. Jefferson. Mr. Chairman, I really appreciate the time. 
I know you do not have much time, and I do not want to step too 
much into Father Peter's time, so I will just make my remarks 
brief.
    Mr. Chairman and members of the committee, I am here today 
to support Boys Town of New Orleans and their request for $4.6 
million to expand their facilities which will help countless 
more boys and girls from my State.
    I have prepared a statement that I would like to place into 
the record.
    Mr. Frelinghuysen. Consider it done.
    Mr. Jefferson. Boys Town is a national treasure, as you 
know, and serves thousands of troubled boys and girls from all 
walks of life. Eight out of ten of the children they serve, 
this is important, get better, and they do it with a majority 
of private funds.
    We have a strong need in New Orleans and throughout the 
entire State for an expanded facility of Boys Town of New 
Orleans, but it would take them years to raise the money they 
need, and we want the committee to help them to get a jump-
start on the project. After that, they are committed to raise 
the private funds to continue the project's existence.
    Let me introduce Father Val Peter, who is the executive 
director of all of Boys Town's operations. He is a remarkable 
man who has devoted his life to helping to transform the lives 
of troubled boys and girls. He is the guardian of Father 
Flanagan's dream, who founded Boys Town in 1917 with a $90 loan 
from a friend.
    I would appreciate the subcommittee support of the project. 
And thank you very much for the chance to introduce this 
outstanding American, Father Peter.
    Mr. Frelinghuysen. Thank you, Mr. Jefferson.
    Father, the floor is yours for a few minutes.
                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

FATHER VAL J. PETER, EXECUTIVE DIRECTOR, FATHER FLANAGAN'S BOYS' HOME, 
    BOYS TOWN, NEBRASKA
    Father Peter. Thanks, Congressman. Thanks.
    I am going to talk louder. I do not know why everybody 
talks so softly.
    Mr. Frelinghuysen. There is no reason to talk softly here.
    Father Peter. You are a famous fellow. Frelinghuysen, they 
have got an avenue in New Jersey named after you.
    Mr. Frelinghuysen. Several.
    Father Peter. Newark.
    Mr. Frelinghuysen. Several.
    Father Peter. We are building a shelter right on your 
place.
    Mr. Frelinghuysen. I am glad to hear that.
    Father Peter. On the way to the airport. At any rate, I did 
not come here to talk to you about that.
    It is a little boring, so I thought I would make it a 
little more exciting.
    Mr. Frelinghuysen. It is not boring. Boys Town work is 
exciting. Thank you.
    Father Peter. It is exciting. Thank you.
    First, just a couple of things would be helpful to the 
committee. I appreciate the consideration that you will give 
us. Boys Town is not just boys, it is boys and girls. Boys Town 
is not sectarian, it is not Roman Catholic. Father Flanagan was 
a very wise man. He said, ``I do not want to get involved in 
anybody's religious politics, so I made it nonsectarian right 
from the start.''
    We changed, in the late 1960s, because of the kind of kids 
that were coming across the American scene; drugs, alcohol 
abuse, abandonment, all of those things that you know. We 
started to expand in the eighties across America. We are in 18 
States. Last year we took care of more than 30,000 kids.
    The reason we want to go and expand in New Orleans is 
simple and straightforward. One out of every four Louisiana 
children is abused and neglected. Half the kids in New Orleans 
live in poverty. Forty-five percent of New Orleans' kids never 
graduate from high school.
    You are familiar with the District. It is sort of like the 
District in certain aspects. Our hotline receives twice as many 
calls from Louisiana as they do the neighboring States; 
Mississippi, et cetera.
    What we want to do is we want to expand what we are already 
doing. To expand what we are already doing, it will take us 10 
years. If you folks could help us, jump-start us, we are going 
to do it, but if you could jump-start us with a grant of $4.6 
million, we could get started. We could take care of twice as 
many kids. So that is what I am asking you, sir. It is a 
program that will help these kids. What the Congressman said is 
correct. We have an 82-percent success rate. Now, that is eight 
out of ten kids get better. That is quite a thing.
    The last thing, simple and straightforward. We have the 
support of the whole Louisiana delegation.
    Mr. Frelinghuysen. That is important.
    Father Peter. And, for us, it is very important. We want to 
thank you very much. I cannot tell you how many kids are out 
there who are very similar to the kids who are going to cause 
troubles in the future, and we need to take care of them. We 
are good at it. We hope you will do this for us.
    We say God bless you.
    Mr. Frelinghuysen. We will take that, definitely. Right, 
Ms. Meek?
    Mrs. Meek. Yes. [Laughter.]
    Mr. Frelinghuysen. We will take the God bless, won't we? 
[Laughter.]
    Father Peter. I have three rules: Be clear, be brief and be 
gone. [Laughter.]
    I tried to be clear. I have been brief, and now I am gone. 
Thank you.
    Mr. Frelinghuysen. I am speechless. But thank you both. 
[Laughter.]
    Ms. Meek, do you have any comments?
    Mrs. Meek. No. Pleased to see you, Father.
    Father Peter. Thanks. Nice to see you, too. Thanks and God 
bless.
    Mrs. Meek. You brought a good man in here with you.
    Father Peter. Thank you. Oh, he is an awfully good man.
    Mr. Frelinghuysen. Thank you both for coming.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Knowing this is a very tough act to 
follow, let me introduce Nan Roman. Is she here?
    Nan Roman, National Alliance to End Homelessness. Thank you 
very much for being here. We are pleased to have you. A copy of 
your full remarks will be included in the record.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

NAN ROMAN, PRESIDENT, THE NATIONAL ALLIANCE TO END HOMELESSNESS
    Ms. Roman. Thank you. Great. I will try to be brief, clear 
and--what was the other thing?
    Mr. Frelinghuysen. Thank you.
    Ms. Roman [continuing]. As well.
    I am going to focus on the homeless programs at HUD. Over 
the years, these programs have become very much more effective 
through the continuum of caring. Really, because of the support 
that has been given to them largely now, we are able to keep 
people off the street, not entirely, but we have a system that 
is pretty good at keeping most people off the street.
    But having said this, we still do not feel that the program 
is sufficiently focused on outcomes; that is, it is really not 
getting enough people into housing, lack of housing being the 
reason that people are homeless. So we have relied upon the 
leadership of this subcommittee over the past couple of years 
to help us on making the program more outcome oriented, and we 
think that that can be done. If it is not done, we think we are 
going to really be paying for shelter and transitional housing 
forever and mitigating the effects of homelessness on people, 
but not ending their homelessness.
    And the good news I think is that we can make this program 
more outcome oriented. Let me explain a little bit about that. 
The major users of emergency homeless assistance are people who 
are chronically ill and chronically homeless. And we are 
serving them now largely through a fairly expensive system of 
housing, which includes shelters, hospitals, and jails and 
prisons. This is not terribly cost-effective. But there is a 
very cost-effective solution available to us, which is 
permanent supported housing, and we should be using more of the 
HUD homeless assistance to end homelessness for this group of 
people.
    On the other hand, there are many families that are 
experiencing homelessness through an economic crisis. These 
families tend to get long-term transitional assistance with a 
variety of services. The services I am sure are good, but 
recent research has shown us that most people would probably do 
just as well with shorter term housing assistance or long-term 
housing assistance, but just housing assistance.
    The allocation of HUD's homeless assistance has not 
reflected this reality. Last year, 55 percent of the HUD 
homeless assistance money went to services; only about 24 
percent went to permanent housing. The 24 percent is up from 18 
percent the year before and, frankly, I think that is because 
the appropriations bill that passed through Congress, as well 
as Mr. Lazio's reauthorization bill, targeted 30 percent of 
that money to homeless assistance. And just the idea that that 
was going to happen I think changed HUD's mind and the field's 
mind enough to start to make a difference. So that is the kind 
of a difference I think that can be made in this system that is 
doing a good job, but is just a little bit out of kilter.
    So to address that problem, first, we definitely are very 
supportive of the administration's request for funding, for an 
increase in funding for this program and for 18,000 incremental 
vouchers that are targeted to homeless people. That is 
definitely an exit from homelessness for an awful lot of 
people.
    Second, we would ask your continued support for the 30 
percent set aside for permanent housing. In fact, we would very 
much like to see that made permanent so that we do not have to 
come back to you on that every year. That is going to allow us 
to make progress toward ending homelessness for people who are 
chronically homeless.
    Third, we would urge you to consider shifting the Shelter 
Plus Care renewals, which now come out of this pot into the 
Section 8 pot, that is permanent housing, for people who are 
homeless. Just because someone has once been homeless I do not 
think it is going to work for us to pay for their permanent 
housing forever out of the homeless assistance pot. We are 
never going to be able to make progress on reducing the number 
of homeless people if we do that.
    And, finally, I know that this subcommittee has been very 
interested and supportive of the Emergency Food and Shelter 
Program run through FEMA. Terrifically effective program. The 
chairman has been very supportive of it. That is meeting 
emergency needs that nobody else meets for food and shelter and 
prevention of homelessness, and we would like to see that go up 
to $150 million this year.
    Thanks so much for your consideration and your leadership 
in the past, the leadership of the subcommittee on this issue.
    Mr. Frelinghuysen. Ms. Roman, thank you for touching a lot 
of things which are important to members of this committee, and 
we will resist editorializing about HUD, but obviously we are 
going to work with them to make them, shall we say, more 
outcome oriented.
    Ms. Roman. As you have done in the past. Thank you.
    Mr. Frelinghuysen. Ms. Meek?
    Mrs. Meek. I am pleased to see you again.
    Ms. Roman. Good to see you, too.
    Mr. Frelinghuysen. Thank you very much for being here.
    Ms. Roman. Thanks a lot.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Our next guest is Liza K. Bowles, 
representing the NAHB Research Center.
    Ms. Bowles, thank you very much for being here.
                              ----------                              


                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

LIZA BOWLES, PRESIDENT, NAHB RESEARCH CENTER
    Ms. Bowles. Thank you. I appreciate the chance to testify. 
And as my written statement will be introduced for the record, 
I just wanted to make a few brief remarks.
    I am here today to testify in support of the PATH program 
at HUD. That is the Partnership for Advancing Technology in 
Housing. The committee sponsored this program last year in its 
initial year, and we would like to see that support continue.
    The PATH program has a number of sort numerical goals that 
it would like to achieve by the year 2010. But broadly 
speaking, its goal is to improve the quality and the durability 
of housing, both existing housing and the new housing that is 
being built. In order to do that, we need to incorporate the 
missions of other agencies that bear on housing. EPA wants to 
make housing that improves indoor air quality and gets rid of 
radon, and DoE wants more energy-efficient housing, and FEMA 
wants more disaster-resistant housing. And if you load all of 
these on the new housing stock, pretty soon you do not have 
affordable housing any more.
    So the mission of PATH is really to take all of these sort 
of societal goals and challenge industry to come up with 
technologies that can achieve those goals without impacting 
affordability, and I think we can do that.
    So we have kind of a three-pronged approach. One is to look 
at the existing technology and get better utilization of 
existing technology. And to do that, we have developed a CD-ROM 
that we distribute to builders and remodelers that has on it a 
variety of technologies--right now we are up to about 350--and 
tells builders what the features are; will it improve quality, 
will it affect affordability, how do you install it correctly, 
which is a big problem within the industry, and what are the 
warranties. So they can kind of compare across product ideas. 
Then they can always call us on a hotline if they want more 
specific information or if they want sort of builder-remodeler 
testimonials.
    The second approach is to look at technologies that are out 
there, but may not be appropriate yet for the marketplace. A 
good example of this is steel. Steel has been in the 
residential market forever, but still has a very low 
penetration, and the reason for that is it is a lot more 
expensive than wood, which is the primary material that 
builders use for structures, but that does not mean it has to 
continue. The quantity, the quality of wood has deteriorated 
over the years. So we want to look for good substitutes. Steel 
is a good substitute, concrete is a good substitute, the wood 
industry has good engineered products coming on line, but none 
of those meet the affordability tests. They need new fastening 
systems, they need new tools. There are a lot of things that we 
can do to make those materials better. So that is kind of the 
second approach PATH is taking.
    The third is to look at entirely different technologies 
that may not even be in the housing industry today. An example 
is this product from Dow Chemical, which is used in packing and 
shipping. It has a very high insulation value. You know, you 
would have to have a product that would be this thick in order 
to have that sort of R value. So looking at applications for 
that, where could you use a product that has a very high 
thermal insulation, but only needs a small space? Well, we are 
looking at things like windows, and doors and places where we 
have energy problems in houses and have never had a product 
that could really be extruded into those and make a difference.
    So those are the sorts of things that we are doing in this 
first year of PATH. It is a long-term program. We have a lot of 
the other agencies involved beyond just HUD. We like having HUD 
take that leadership role because of their focus on 
affordability and would like to see it continue.
    Mr. Frelinghuysen. Thank you. You certainly have covered a 
lot of ground. I think we are excited by the work that you are 
doing in terms of PATH. It is long overdue, and we look forward 
to being updated and be supportive.
    Ms. Bowles. Good. Thank you.
    Mr. Frelinghuysen. Ms. Meek?
    Mrs. Meek. Thank you for being here.
    Mr. Frelinghuysen. Thank you very much for being here.
    Ms. Bowles. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Our next guest is John Vitikacs, 
representing The American Legion.
    Thank you very much for being here.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     DEPARTMENT OF VETERANS AFFAIRS


                                WITNESS

JOHN VITIKACS, ASSISTANT DIRECTOR, NATIONAL VETERANS AFFAIRS AND 
    REHABILITATION COMMISSION, AND THE AMERICAN LEGION
    Mr. Vitikacs. Thank you very much, Mr. Chairman. Good 
morning.
    My name is John Vitikacs. I am a Vietnam veteran, and I 
have spent the past 17 years working with The American Legion 
protecting and promoting veterans' benefits and services.
    Mr. Congressman, as you may know, the Balanced Budget Act 
of 1997 froze VA health care appropriations at the FY 1997 
level from the fiscal year 1998 through FY 2002.
    The impact of the Balanced Budget Act on VA programs and 
services, especially in the area of health care, has had a 
devastating impact.
    In just the past 3 years, VA has reduced full-time-
employee-equivalent positions by 30,000, have closed 45,000 
hospital beds, has had numerous program reductions and affected 
mission realignments, as well as additional projected mission 
realignments, to include the potential of the outright closure 
of various VA medical centers.
    VA will tell you today that even in spite of the freeze in 
VA medical care funding of the past several years that the 
workload is still increasing. However, at the same time that 
you hear about workload increases, what VA will not tell you is 
about the increased appointment and waiting times and the 
virtual inability to secure a specialty-care appointment, 
clinic appointment, within a reasonable period of time. The 
quality of care within VA also comes into question with all of 
the recent reductions.
    From 1991, during the Operation Desert Storm to today, with 
the military actions in Yugoslavia, the VA has reduced its 
operating beds from approximately 70,000 to the current 25,000 
level. Neither the Department of Defense or VA today could 
adequately treat returning combat casualties, and this is 
something that concerns us tremendously.
    Under current program initiatives, VA will require in FY 
2000 additional funding for emergency care services, additional 
funding to cover medical inflation and cost-of-living pay 
raises, additional funding to deal with the epidemic of the 
hepatitic C virus, particularly among veterans, and additional 
funding to address new long-term care initiatives.
    It is hard to believe that VA can provide their current 
level of services in fiscal year 2000, as well as absorb all of 
the additional necessary cost increases with the budget that is 
proposed by the President for VA medical care for the year 
2000. Therefore, the President's fiscal year 2000 budget 
request for VA medical care is totally inadequate.
    The American Legion recommends for FY 2000 an additional 
$1.4 billion just to meet the current services' levels of care, 
as well as the new initiative needs, and interestingly enough, 
our additional funding request for VA medical care in the year 
2000 is even a little bit lower than what the budget resolution 
recently passed by Congress calls for. The President proposes 
$18.1 billion for VA medical care in FY 2000. The budget 
resolution recently passed calls for an increase of $1.7 
billion, and The American Legion is simply asking at a minimum 
$1.4 billion additional funding for VA medical care.
    I think this will definitely help alleviate a lot of the 
current funding problems in VA. It will help keep the ship 
steady for next year, and lastly, VA reforms need to expand 
into the areas of attracting new revenue sources for VA medical 
care, such as Medicare subvention and some other innovative 
ideas.
    We cannot keep coming back to Congress each and every year 
asking for exorbitant increases. We know that it is fiscally 
impractical to do so, and with your support in the short term 
with our FY 2000 budget request, we hope that Congress as a 
whole will provide VA the tools to be able to meet its funding 
request in the future without totally relying on Federal 
appropriations.
    So, with that, thank you again for the opportunity, and I 
am sure that you will do the best possible job for the veterans 
of this country.
    Mr. Frelinghuysen. Mr. Vitikacs, thank you very much for 
being here on behalf of The American Legion, but let me say 
that in the interest of full disclosure, I am a member of The 
American Legion. I am also a Vietnam veteran, and after the 
VA's performance last week--and that gets incumbent on all 
veterans to watch closely to see what will happen when Congress 
in a bipartisan way does increase that medical care account. We 
want to make sure there is enough money, and I think where 
there is a will, there is a way, and I think this could be 
bipartisan support to increase that all the way around.
    Mr. Vitikacs. We appreciate your efforts.
    Mr. Frelinghuysen. Thank you very much. We appreciate it.
    Mr. Vitikacs. Thank you. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Our next guest is James Tabron.
    We are going to wait for Congressman Price.
    Dr. Jasjit Minhas?
    Dr. Minhas is representing the American Indian Higher 
Education Consortium.
    Doctor, thank you for coming. Thank you for your patience. 
We are a little behind schedule, but we are moving right along. 
A copy of your full testimony will be put in the record, and if 
you could be good enough to summarize.
                              ----------                              

                                         Wednesday, April 28, 1999.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM


                                WITNESS

DR. JASJIT MINHAS, PRESIDENT OF LAC COURTE COMMUNITY COLLEGE IN 
    HAYWARD, WISCONSIN
    Dr. Minhas. Members of the committee and the staff, my name 
is Jasjit Minhas, and I served as the president of Lac Courte 
Community College in Hayward, Wisconsin, for 12 years, and with 
Indian Higher Education for 25 years.
    The AIHEC is composed of 31 privately controlled community 
colleges in the country, and these colleges started from a 
meager start. In 1972, only six colleges were chartered on 
remote reservations by their respective tribal governments.
    The colleges started with very little money and support in 
abundant and often condemned Government buildings. Let me tell 
you about my college.
    I joined the Lac Courte College in 1987. It was housed in 
one pole building, 40 by 50 size, one room which was my office, 
the college office, the library, the classrooms, the coffee 
room, and the storage room. There were four full-time staff 
people in that college, including myself as president and my 
secretary.
    To date, that college has over 450-square-feet building, 
over 60 full-time staff people, and over 500 students going 
today. In the last 12 years, we have graduated 350 students 
from the college, and I am very proud to tell you that all 350 
students are working today. They were the people on welfare and 
now they are paying taxes.
    The story of the college is very miserable because we had 
no support at all. Just like historically black colleges and 
universities, we started from nothing. The per-student cost 
which was given to us was $1,800 per student, which will not 
cover even the cost of the books, and these students were not 
paying anything, no tuition, nothing at all.
    When I started that college building up, I got the full 
support of my community. The people, the carpenters, the masons 
came in, put in free service to build that college. We got some 
money from the local community from businesses and built up 
this building. We brought in people who were retired and who 
offered to work free for this college and teach these students 
in the evening.
    The BIA which was supposed to support this college did very 
little to help this college. The main problem was there was no 
Federal support coming up for this college.
    Tribal colleges in general now serve more than 25,000 
students, from 250 federally recognized tribes and located in 
12 different States.
    We have successfully brought greater access to higher 
education opportunities in some of the most remote and 
depressed areas in this country, offering primary 2-year 
degrees and some colleges offering 4-year and graduate degrees. 
The colleges together represent the most significant 
development in American Indian higher education history, 
promoting achievement among students who would otherwise never 
know the education success.
    All the tribal colleges are fully accredited by the 
mainstream accrediting agencies, except three colleges which 
are pending accreditation.
    Let me tell you one story. One time, I took my students to 
the nearest University of Wisconsin campus to show them the 
university. They were telling me that those are the real 
schools and we are kind of not real schools, and when we went 
there, the chancellor of the university is a good friend of 
mine. He alerted all the teachers that they should give us a 
good reception, they should talk to the students, and really 
tell them what they are doing over there.
    The students are so much impressed. They came in there, and 
in a group, they told me, ``Oh, we can do it.'' That was first 
time I heard from those students that we can also do it, and 
after that, they stopped saying this is a real school and this 
is not a real school. We become a real school.
    In the effort to promote tribal colleges' access to 
programs throughout the Federal Government, several years ago, 
Congress took the lead in urging each president to sign an 
executive order on tribal colleges and universities, and 
finally, in 1996, Executive Order No. 13021 was signed.
    The primary purpose of this order is to promote the tribal 
colleges' participation in programs throughout the Federal 
Government and bring more recognition to our accomplishments as 
accredited or educational institutions.
    It will greatly assist our college in our struggle to 
promote high-quality education and self-sufficiency. However, 
we still are only at the beginning of the executive order's 
implementation, and Congress must continue to provide oversight 
on all the different departments dealing with the order's 
mandates.
    We come here today to seek appropriations, appropriations 
report language promoting the tribal colleges participation 
initiatives and existing higher-education programs through the 
Federal Government.
    Specifically, we request under the authorization of the 
following departments and agencies----
    Mr. Frelinghuysen. Doctor, I am afraid you are going to 
have to summarize that last page, please.
    Dr. Minhas. We would like the Congress to promote us with 
the National Science Foundation, National Aeronautics and Space 
Administration, Department of Veterans Affairs, and Department 
of Housing and Urban Development. If those Departments can work 
closely with us, I think we can achieve a lot.
    Mr. Frelinghuysen. We will do our best to make sure, 
Doctor, that they do that, and thank you very much for being 
here on behalf of the consortium.
    Dr. Minhas. Thank you.
    Mr. Frelinghuysen. We appreciate your testimony, and your 
entire testimony will be put into the record.
    Dr. Minhas. Thank you.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Dr. Peter Lennie, representing New York 
University.
    We are taking people out of order. We are waiting for a few 
members to make introductions.
    Welcome. Thank you very much for being here.
                              ----------                              


                                         Wednesday, April 28, 1999.

                          NEW YORK UNIVERSITY


                                WITNESS

DR. PETER LENNIE, PH.D., DEAN FOR SCIENCE, PROFESSOR OF NEURAL SCIENCE
    Dr. Lennie. Thank you, Mr. Chairman. I am speaking on 
behalf of New York University as its Dean for Science. I 
appreciate this opportunity to discuss a project that will 
enhance national welfare by advancing the scientific 
understanding of the brain and its development and activity.
    Our project addresses the interest of this committee in 
supporting basic research to serve the national welfare. I am 
proud to report that NYU was previously approved for funding by 
the Environmental Protection Agency, and that its performance 
in using the funds to strengthen the infrastructure for neural 
science was highly reviewed.
    Neural science is an area of exceptional significance, 
indeed one in which NYU has great strength, and I thank the 
committee for its willingness to support the research being 
conducted in this field.
    I would like to say a little bit about investments in 
research that would greatly increase our understanding of how 
the brain matures and functions. At NYU, we are promoting such 
research by establishing a Center for Cognition, Learning, 
Emotion and Memory Studies.
    To establish this center, NYU seeks support to expand its 
work in cognitive science, visual science, and computational 
neural science. We seek to attract investigators from the range 
of contributing disciplines and to provide the technical 
resources needed to create a world-class scientific enterprise.
    Researchers at our center will substantially increase our 
understanding of the neural mechanisms of learning and memory. 
They will probe fear and its impact on learning and 
performance, and they will study perception and information 
processing.
    These areas of research have important application to 
education, teacher training, job training, and the treatment of 
memory disorders.
    I would like to offer you some examples. First, our 
research can lead to advances in health and well-being. The 
center will explore how memory is altered by aging and how 
biological malfunctions in the emotional system can cause 
disorders like panic attacks and post-traumatic stress. Our 
research in the neurobiology of fear will help us understand 
the source of fear and other emotions, why they are hard to 
control, and ultimately whether the unconscious neural 
circuitry of emotions can be altered or inhibited.
    Second, our research will have important implications for 
job training and vocational rehabilitation. One productive 
focus is on learning technologies that can rationalize the way 
we train new workers, like returning veterans or retrained 
workers in emerging technologies.
    Third, our studies in computational neural science will 
enhance technological development by investigating intelligence 
and information processing in the brain and its computer 
analogs in data imaging, processing, and retrieval.
    Many of the studies to be undertaken have a common focus on 
the changes in the nervous system that occur when we remember 
new things or learn new skills. Understanding this neural 
plasticity is essential to understanding and improving the 
flexibility of human behavior. If we understand this 
flexibility and harness it, we can work better and learn 
better, even as we age.
    NYU is particularly well positioned to create and operate 
this major cross-disciplinary research and training center. As 
the largest private university in the Nation, NYU has 
outstanding researchers and major strengths in the disciplines 
that need to be brought together to tackle these complex 
problems.
    We have a powerful presence in neurobiology, cognitive 
science, behavioral science, educational psychology, 
mathematical modeling, and computer simulation. We are in a 
special position to develop these strengths to attack major 
issues in cognition, learning, emotion, and memory, and to 
successfully meet our national goals on this committee's 
priorities.
    Mr. Chairman, this concludes my testimony. I thank you for 
the opportunity to appear today.
    Mr. Frelinghuysen. Dr. Lennie, thank you very much on 
behalf of the committee for being with us and for going through 
your testimony pretty rapidly, but also allowing us an 
opportunity to look it over after you leave, and we will share 
it with our colleagues.
    Dr. Lennie. Thank you.
    Mr. Frelinghuysen. Ms. Meek?
    Mrs. Meek. Thank you for coming.
    Mr. Frelinghuysen. Thank you very much for your time.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Frelinghuysen. Ms. Ellen Futter representing the 
American Museum of Natural History in New York City. I think I 
have heard of you.
                              ----------                              

                                         Wednesday, April 28, 1999.

                   AMERICAN MUSEUM OF NATURAL HISTORY


                                WITNESS

ELLEN FUTTER, PRESIDENT
    Ms. Futter. Thank you. Glad to hear that.
    Mr. Frelinghuysen. Absolutely. We cannot give 
advertisements in this committee, but we can certainly thank 
you for coming here.
    Ms. Futter. Thank you very much.
    Mr. Frelinghuysen. We will give you a plug if we can do it 
indirectly.
    Ms. Futter. I appreciate it very much, as do my colleagues.
    Good morning, Mr. Chairman and members of the committee. My 
name is Ellen Futter. I am president of the American Museum of 
Natural History, and I very much appreciate the opportunity to 
appear before you today.
    Most of all, before I begin, I want to thank this 
subcommittee for the contributions that it has made to 
scientific research and education in this Nation.
    Founded in 1869, the American Museum of Natural History is 
one of the Nation's preeminent scientific and educational 
institutions drawing 4 million on-site visitors annually and 
another 4 million to our web site.
    Early in the year 2000, the museum will begin a new chapter 
in its history with the opening of a new Rose Center for Earth 
and Space, including a completely rebuilt and scientifically 
cutting-edge Hayden Planetarium, a new Hall of the Universe, 
and a new Hall of Planet Earth.
    The Rose Center will better enable the museum to join 
science and education, our twin missions, and to provide a 
seamless educational journey, taking visitors from the very 
beginnings of the universe to the formation of the earth and 
its processes to the extraordinary and irreplaceable diversity 
of life and cultures on our planet.
    With the leadership and encouragement of Congress, the 
American Museum of Natural History has fostered a close and 
important scientific and educational partnership with NASA. The 
fiscal year 1998 congressional appropriation enabled the Museum 
to launch the National Center for Science Literacy, Education, 
and Technology, in cooperation with NASA.
    In the National Center, NASA and the Museum have joined 
resources to address a shared goal of fostering enhanced 
science literacy throughout our Nation.
    Here are a couple of examples of the programs. First, the 
Educational Materials Lab develops materials and programs to 
bring cutting-edge science to formal and informal science 
education settings nationwide. One such program, Biodiversity 
Counts, an environmental curriculum, is now in more than 100 
middle schools nationwide.
    Second, the electronic science bulletins gather and 
interpret data and images into comprehensive digital snapshots 
for display in the Museum's halls and on our web site.
    Third, the Digital Galaxy brings together diverse datasets 
to create the first scientifically accurate three-dimensional 
map of the Milky Way Galaxy.
    The Hayden Planetarium Space Theater is part of the 
principal motivation for that galaxy and will feature the most 
advanced real-time digital dome projection system in the world.
    We have recently expanded our work with NASA to meet the 
common goals of developing ways to better understand the earth, 
its relationship to the larger universe, and the history of 
life.
    The Museum now seeks to extend and broaden the relationship 
between the National Center for Science Literacy and NASA in 
the upcoming year to support an expansion of the Educational 
Materials Lab which is accessed by millions of Americans. This 
is a vital objective in our partnership with NASA to enhance 
science literacy nationwide.
    The preponderance of the Museum's support for research, 
exhibition, and education comes from foundations, corporations, 
and individuals. However, it is significant that Federal 
funding, such as that from NASA, has leveraged private dollars 
exponentially. We seek a similar public/private partnership now 
from this further Federal collaboration.
    Most of all, we thank you for your support, for this 
opportunity to speak to you today, and the opportunity to work 
with you.
    Mr. Frelinghuysen. Ms. Fuller, thank you very much for 
moving so rapidly, and wearing my heart on my sleeve, those of 
us in the New York/New Jersey metropolitan area and all 
visitors to our area are proud of the type of things you do and 
the type of collaborations.
    Ms. Futter. Thank you very much.
    Mr. Frelinghuysen. Ms. Meek?
    Mrs. Meek. Thank you for coming.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Mr. Price, you wanted to introduce one 
of our guests?
                              ----------                              

                                         Wednesday, April 28, 1999.

            PUBLIC HOUSING AUTHORITIES DIRECTORS ASSOCIATION


                                WITNESS

HON. DAVID E. PRICE, A REPRESENTATIVE FROM THE STATE OF NORTH CAROLINA
    Mr. Price. Yes. I will do so with great pride and with 
great brevity because I want him to have his full 5 minutes of 
time to elaborate his testimony.
    Mr. James Tabron is the director of the Durham, North 
Carolina Housing Authority. He has served in that position for 
a number of years.
    He is testifying today on behalf of the Public Housing 
Authorities Directors Association, of which he has recently 
been elected the president.
    So it is with particular pleasure to welcome Mr. Tabron to 
the subcommittee. We know about his good work in North Carolina 
and look forward to having that leadership exerted now on a 
broader scale with this national position.
    Mr. Frelinghuysen. Mr. Tabron, that is a very good 
endorsement. It does not get any better than that. So the floor 
is yours for a few minutes to share with us anything you wish.
                              ----------                              

                                         Wednesday, April 28, 1999.

            PUBLIC HOUSING AUTHORITIES DIRECTORS ASSOCIATION


                                WITNESS

JAMES TABRON, PRESIDENT
    Mr. Tabron. Thank you very much, and I will endeavor to be 
quite brief.
    I do want to first of all say that when I think in terms of 
the membership of the organization that I am representing, we 
have a number of persons, approximately 200, in terms of the 
New Jersey, the Florida, the North Carolina area.
    Mr. Frelinghuysen. So you are right on target today.
    Mr. Tabron. We have a large constituency base, and I would 
be remiss if I did not convey on the record to our Congressman 
how much we appreciate his efforts. He sticks very close to 
home, not just during the election period, and we do appreciate 
that. Thank you very much, Congressman, for coming out.
    I will be very, very brief. As indicated, my name is James 
Tabron, and I am the director of the Durham Housing Authority 
in North Carolina, and we provide through our public housing 
and Section 8 programs housing assistance to approximately 
4,000 families in the Durham area.
    I am here, as the Congressman indicated, in my capacity as 
currently--I am president-elect, actually, but I am looking 
forward to that vote getting me over the hump.
    When I think in terms of the Public Housing Authority 
organization, we are serving approximately 1,700 administrators 
around the country. Approximately half of those organizations 
we represent are housing authorities with fewer than 250 units. 
Because you do have our written testimony, I will be quite 
brief, but let me just, first of all, say that our major 
concern has to do with the issue which is confronting you as it 
relates to the recently adopted budget resolution which place 
some very, very significant restrictions on the amounts of 
money that you will be able to apply to domestic matters.
    The Housing Authority on programs was one that caused us to 
be quite concerned in terms of the impact of those potential 
cuts.
    Operating expenses is a major area of concern. This year, 
we experienced what amounts to a $264-million shortfall as it 
relates to our operating subsidy. During the course of the past 
two fiscal years, the combined economic impact was 
approximately $400 million. Why did this occur?
    We think that there were obviously some HUD miscalculations 
which created this circumstance, and this is not to be critical 
of HUD because we have had the occasion to work with States 
like North Carolina, Alabama, Tennessee, Florida, New Jersey. 
They have impressed us as it relates to their commitment, but 
there were some miscalculations which have created some very 
significant negative impacts on what we do.
    Approximately 35 percent of all the persons we serve are 
elderly, older, adult, and disabled persons, but as we look at 
our total population, we are talking about a number of families 
being affected by this shortfall, and the Housing Authority has 
had to reduce staff, borrow from reserve, rob Peter to pay 
Paul, to in fact compensate for those changes.
    So we ask that when you look at the operating fund needs of 
housing authorities, that you will keep $3.2 billion in mind 
because that is a major number-one priority of ours.
    With regard to the modernization program, the modernization 
program, as I am sure you are familiar, is that particular 
activity which allows us to address the major physical 
improvement needs of our complexes, replacing roofs on 
complexes, dealing with lead-based paint abatement activities, 
and things along that line.
    With regard to that particular program, HUD had recommended 
that it be funded at $2.5 billion last year, but based on the 
soundness of other decisions, it was funded at a $3-billion 
level.
    We would ask that as you look at the modernization program 
that you would look at considering a 3.8--again, maintaining 
the same level as last year--$3 billion, which we feel would 
allow us to address many of the needs which are confronting us.
    The concerns in this regard have to do also with the fact 
that HUD has identified $100-million set-aside as it relates to 
a portion of those program dollars being used for 
administrative purposes. This in fact concerns us because you 
are taking money from the heart of our program to address some 
administrative needs, which we fear should be, again, in 
another portion of the HUD budget.
    Let me talk very briefly about the public housing drug 
elimination program and the public housing drug elimination 
program, PHDEP, has been a very successful HUD initiative. We 
want to give credit where credit is due.
    This particular program has allowed us to make some 
substantial impacts as it relates to dealing with a number of 
physical improvements and crime-related issues which affect, 
again, our population.
    We are asking that you consider funding that this year at 
the same level as last year, even though inflation has raised 
its continuing head. We recognize the limits, and we would like 
for you to consider a $290-million allocation for public 
housing drug elimination.
    With regard to the Section 8 program, I will only make one 
statement and that is that we are not asking for an increase or 
anything at all like that. We would merely ask you consider 
renewing the expiring Section 8 contracts in FY 2000.
    The very last point I would make in addition, just thanking 
you all for this opportunity, because we do in fact appreciate 
it, is to ask that you would give some consideration in the 
protracted way in which HUD announces its various awards for 
programs, public housing drug elimination, HOPE VI. Sometimes 
it takes maybe several weeks for these announcements to comie 
out. It creates a great deal of anxiety for housing authorities 
not knowing whether or not they are going to be funded a 
particular year.
    So if, for example, some statutory consideration could be 
given, too, however that can be compressed and we go back to 
the traditional process of it being announced through our 
congressional leaders and a way which allows everyone to 
benefit.
    I could say much more, but you do have our testimony.
    Mr. Frelinghuysen. I suspect many of us may share your 
concerns about one of your last comments. These things have a 
way to be announced without any members of Congress knowing 
what is going on, and I think it is totally inappropriate.
    Mr. Tabron. Well, your help would be appreciated in that 
regard.
    My son called me this morning, my last statement, and he 
recognized the uniqueness of this kind of a privilege. Again, 
we have come before you in the past, and it is something that 
we still consider as a very, very special opportunity, and 
thank you all very much.
    Mr. Frelinghuysen. Well, thank you for being here. We 
appreciate it.
    Mr. Tabron. My pleasure. Thank you as well.
    Mr. Price. Just a quick, quick question.
    Mr. Tabron. Certainly.
    Mr. Price. If you can take off your national hat and give 
us a couple of examples or one example from your local 
authority about the impact of this operating subsidy shortfall. 
How has it affected you? Can you give us a feeling for that?
    Mr. Tabron. It has had an impact. Approximately $300,000 
had to be found somewhere as a result of the budget cuts we 
experienced. It did affect the overall level of services we 
provided. It did affect certain programs that we try to provide 
above the basic housing opportunities, and we have had a number 
of residents saying, well, what is going on here? We have had 
to also withhold increases for staff in terms of some of the 
fringe benefits that those persons are entitled to because we 
had to make sure that we were able to put the proper level of 
money into maintaining an adequate basic program, but it has 
touched us in a very significant way.
    If this were to continue next year, we do not think we 
would have the financial wherewithal to be able to absorb this 
cut at the same level.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tabron. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. All right. Next on the list is our colleague 
from New Jersey, a good friend, Don Payne, and Don is going to 
introduce someone to us. Welcome.
                              ----------                              

                                         Wednesday, April 28, 1999.

                     HOUSING AND URBAN DEVELOPMENT


                                WITNESS

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Payne. Thank you, Mr. Chairman. It is good to be here. 
I thought Congressman Frelinghuysen was going to chair while I 
was here, and figured we could do a coup, but you came back in 
time. [Laughter.]
    Mr. Walsh. We will empower him to work with you on that 
coup.
    Mr. Payne. Well, thank you very much, and to the Ranking 
Member, Ms. Meek. It is a pleasure for me to be here to present 
to this subcommittee testimony on behalf of the University of 
Medicine and Dentistry of New Jersey.
    We, in New Jersey, are very proud of the internationally 
recognized work of UMDNJ, the Nation's largest public 
university of health sciences, which has five regional campuses 
throughout our great State.
    Joining me today to present testimony about this 
outstanding institution is the recently appointed president of 
UMDNJ, Dr. Stuart D. Cook. Dr. Cook has been at the college for 
a number of years, but has stepped up into the CEO, so to 
speak, and we have had some interesting meetings in my office, 
in Newark, where he talked about his new vision, and so we are 
very pleased to have him as our new chief officer.
    A renowned physician, scientist, and leader in academic 
medicine, Dr. Cook was chair of the Department of Neurosciences 
at UMDNJ, New Jersey Medical School, for more than a quarter of 
a century, building a program recognized as one of the 
strongest clinical and basic research programs in the Nation.
    He is a nationally recognized expert on the origins and 
development of multiple sclerosis and Guillian-Barre syndrome. 
He also served as co-medical director of the Neurological 
Institute of New Jersey, which was established to expand 
research and treatment programs in a variety of fields, 
including Alzheimer's disease, neuro-oncology, neurogenetics, 
epilepsy, pain management and stroke therapy and prevention.
    A native of Massachusetts, Dr. Cook received his 
undergraduate degree from Brandeis University, his master's and 
medical degree from University of Vermont.
    He has been named to the list of Best Doctors in America.
    It is my pleasure to introduce to the subcommittee a very 
fine professional whom I am pleased to know, Dr. Stuart D. 
Cook.
    Mr. Walsh. Welcome, Doctor. It is good to have you with us.
                                         Wednesday, April 28, 1999.

                  CHILD HEALTH INSTITUTE OF NEW JERSEY


                                WITNESS

STUART D. COOK, M.D., PRESIDENT, UNIVERSITY OF MEDICINE AND DENTISTRY 
    OF NEW JERSEY
    Dr. Cook. Thank you very much.
    Mr. Chairman, and Members of the committee, I am Dr. Stuart 
Cook, president of the University of Medicine and Dentistry of 
New Jersey, UMDNJ.
    You have a written statement before you, so I would like to 
highlight some of that testimony for you.
    UMDNJ is the largest public health sciences university in 
the Nation with three medical schools, the State's only dental 
school, and schools of medicine and health-related professions, 
public health, and a graduate school of biomedical sciences.
    We are a statewide system for higher education, research, 
health care and community service. I am here to testify on 
behalf of two priority projects. The Child Health Institute of 
New Jersey of the UMDNJ Robert Wood Johnson Medical School in 
New Brunswick is a comprehensive biomedical research center 
focused on the health and wellness of children.
    The institute will meet unmet needs of children and their 
families in the areas of prevention, treatment, and cure of 
environmental, genetic, and cellular diseases.
    The institute will focus its research on the molecular and 
genetic mechanisms that direct development and growth. The 
institute will be linked to the medical school and the 
Children's Hospital of Robert Wood Johnson University Hospital, 
the core teaching hospital of the medical school.
    Located in New Brunswick, the institute will promote the 
development of new partnerships with other affiliated hospitals 
and with the multinational pharmaceutical, biotechnology, and 
chemical interests throughout New Jersey.
    The institute will serve as a magnet for additional growth 
in research and health care in the region. The institute will 
encompass 83,000 square feet with more than 40 research labs 
and support facilities.
    The institute is expected to attract 7- to $9 million of 
new research funding, annually, and its total annual operating 
budget is projected to be between 10- to $12 million.
    The economic impact on the New Brunswick area is estimated 
to be between 50- and $60 million per year. The Child Health 
Institute has received grants totalling $11.8 million from the 
Robert Wood Johnson Foundation, one of the largest 
philanthropic foundations in the world, and from Johnson & 
Johnson, the largest manufacturer of health care products.
    We respectfully request $10 million for infrastructure 
development for the Child Health Institute of New Jersey.
    The Neurological Institute of New Jersey has been 
established by the UMDNJ-New Jersey Medical School and UMDNJ-
University Hospital in Newark as an umbrella under which 
clinical research and educational efforts in the neurosciences 
will be focused. The Department of Neurosciences at the medical 
school is ranked sixth nationally in research funding, with 
about $4 million annually.
    New Jersey Medical School offers the only fully accredited 
neurosurgical residency training program in the State. The 
university hospital, the core teaching hospital of the medical 
school, is the major provider of tertiary neurologic and 
neurosurgical services to the state, including patient care, 
education and research.
    Neurologic diseases and disorders, including stroke, 
epilepsy, multiple sclerosis and Alzheimer's disease are a 
leading cause of death and disability in the United States, 
affecting some 50 million Americans. Five million new cases of 
neurological disorders are diagnosed every year, five times the 
number of cancer cases.
    An estimated 4 million Americans suffer from Alzheimer's 
disease. That number could triple in a few short years as the 
baby-boom generation reaches retirement age.
    Experts say that Alzheimer's is the fastest growing disease 
of the new millennium.
    Veterans are another group at risk for neurological 
diseases because of post-traumatic syndrome, and exposure to 
chemical agents, as well as degenerative disorders.
    New Jersey is particularly affected, with a large number of 
senior citizens. We rank about ninth in the United States in 
the number of seniors, and about 500,000 veterans living in our 
State.
    Neurological diseases and disorders account for about $400 
billion in health care costs and lost productivity.
    The employment of new MRI technology can aid in the 
diagnosis and treatment of neurological diseases. The institute 
seeks a major step forward in this research area with the 
acquisition of a state-of-the-art Magnetic Resonance Imaging 
instrument. This MRI, with a rated field strength of 3-4 Tesla, 
would place New Jersey in the forefront of neuroimaging groups 
nationally. Instruments with this strength are expected to 
provide resolution in the millimeter range and have great 
significance at physiological levels.
    Areas of research include language, learning, memory, 
visual processing and spatial representation. Clinical 
applications will include Alzheimer's disease, multiple 
sclerosis, tumor characterization, epilepsy, fibromyalgia, 
chronic fatigue syndrome and post-traumatic stress syndrome.
    UMDNJ has established programs in neurosciences at the 
medial school and at the Veterans Administration Center in East 
Orange, New Jersey. We are well-positioned to conduct research 
of direct relevance to veterans. We would collaborate with the 
VA Medical Center and our research partners, Rutgers University 
and the New Jersey Institute of Technology.
    Before assuming the presidency of UMDNJ, I served as 
chairman of the Department of Neurosciences at the New Jersey 
Medical School and chair of the East Orange VA Medical Center 
Neurology Service for a 10-year period.
    I am well aware of the strong link between UMDNJ and the VA 
Medical Center.
    We respectfully request $1.5 million toward the capital and 
instrumentation costs for the Neurological Institute of New 
Jersey.
    Thank you for the opportunity to appear before you today 
and for your support of biomedical research at universities and 
research institutions in this country.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you, Dr. Cook, and thank you, Congressman 
Payne, for your leadership.
    Mr. Frelinghuysen. Mr. Chairman, I just want to welcome Dr. 
Cook as a fellow New Jerseyan, and I will be working with 
Congressman Payne and our entire delegation, to work on the 
university's behalf. We thank you for testifying.
    Mr. Walsh. Mr. Tom Lewis and Mr. Raymond E. Bye, Jr., 
Florida State University.
    Welcome.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      CITY OF TALLAHASSEE, FLORIDA


                               WITNESSES

THOMAS LEWIS, CITY OF TALLAHASSEE, FLORIDA
RAYMOND E. BYE, JR., FLORIDA STATE UNIVERSITY
    Mr. Lewis. Mr. Chairman, we are pleased to be here today to 
speak with you and also to bring birthday greetings from all of 
those friends in Tallahassee, Florida, to Congressman Meek.
    Mrs. Meek. Thank you.
    Mr. Lewis. It is our pleasure to do that.
    I would like to thank the Members of the subcommittee for 
the opportunity to speak with you about a partnership that the 
City of Tallahassee and Florida State University has formed to 
be involved in a comprehensive revitalization of the oldest 
historically African American community in the capital of the 
State of Florida, Tallahassee.
    We are requesting your support for $3.5 million for an 
economic initiative grant to assist us in our efforts to 
rebuild the employment and the economic base of this community 
through the development of a $80 million Urban Entertainment 
District.
    The history of Frenchtown, the community that Congressman 
Meek is all too familiar with, was founded by the French in 
1841, but after the Civil War, it was taken by freed slaves, 
and for the next 100 years, it served as the center for the 
economic, social, cultural foundation of the black community in 
Tallahassee, and with the onset of integration, the closing of 
the historic black high school, and the fact that the younger 
generation opted to exercise some of the options presented to 
them, the Frenchtown community began its demise, and the City 
of Tallahassee has made a substantive effort to comprehensively 
revitalize that community and we have joined with Florida State 
to do that.
    As a matter of fact, I would also like to enter into the 
record this, Congressman, and it is an update that I presented 
the city commission with on Wednesday of our progress in the 
revitalization of this community.
    It is a comprehensive approach to the rebuilding of the 
housing base, the economic base, and the employment base.
    This plan for redevelopment is all-encompassing. It 
consists of a concentrated effort to rebuild the home ownership 
base, to revitalize the main commercial thoroughfare of the 
community and to preserve the historic and cultural 
institutions in the community through partnerships with Florida 
State in the development of the Frenchtown Arts Entertainment 
District.
    This comprehensive strategy, in order to be successful, we 
must create partnerships amongst the Federal, State, local 
Governments, and private sector, community organizations, and 
the neighborhood residents.
    In keeping with this approach, the City of Tallahassee and 
Florida State have formed a partnership combining their major 
development efforts.
    Florida State University's development of a $40 million 
performing arts center, and the City of Tallahassee's 
development, directly across the street from that facility, of 
a $45 million urban entertainment complex.
    This will create an economic engine for this community that 
will provide over 300 temporary jobs and over 500 permanent 
employment and training opportunities for individuals who are 
transitioning off of welfare to work, and other low- and 
moderate-income individuals in Tallahassee.
    Mr. Chairman, and committee Members, your support of this 
effort will enable us to complete the economic revitalization 
of this community, returning it, once again, to a viable 
commercial, cultural and residential community.
    Dr. Bye is here and can speak specifically to the progress 
that they have made in the development of the entertainment 
complex.
    Ray.
    Mr. Bye. Thank you, Tom. Thank you very much, Mr. Chairman.
    My name is Dr. Raymond Bye. I am the interim vice president 
for research at Florida State University.
    I would like to enter my entire statement into the record, 
if I could.
    Mr. Walsh. Without objection.
    Mr. Bye. It is a real pleasure for me to appear before this 
subcommittee, Mr. Chairman. I, in previous positions----
    Mr. Walsh. Dr. Bye, could you speak up just a little bit, 
so the lady trying to keep the record can hear you.
    Mr. Bye. It is a real pleasure to appear before this 
subcommittee with you in the chair, Mr. Walsh. I have been 
before this subcommittee on a number of occasions when I was at 
the National Science Foundation, appearing before Chairman 
Boland, Chairman Stokes, and, more recently, Chairman Lewis. So 
it is a real pleasure to be here in front of this group today.
    I just wanted to take a few minutes to point up some of the 
points that Mr. Lewis made. First of all, I wanted to focus, 
very quickly, on the city-university private sector partnership 
proposal to HUD to revitalize this Frenchtown area in 
Tallahassee.
    First, I can compliment the city, specifically, the mayor, 
Mayor Scott Maddox, and Mr. Lewis, in particular, for their 
comprehensive plan to breathe new life into this economically 
impaired area.
    Our joint proposal is only one part of an overall plan but 
a very key part of the economic development strategy to use 
funds from this grant to assist in efforts that will create new 
jobs for residents by bringing people back into this area as 
customers for new services provided by new, and hopefully, 
minority-owned businesses.
    A revitalized Frenchtown will renew the pride of these 
citizens in their historic neighborhood, provide opportunities 
to locate small businesses in the midst of this area, and in 
the process create new jobs and enhance the tax base as a 
result of this investment.
    A final point. We expect this grant to be matched by more 
than 10 private and non-Federal dollars for every dollar that 
we are asking for from HUD.
    We are committed to make this Frenchtown redevelopment 
project a true public-private partnership.
    Ms. Meek was wished a happy birthday today, and we 
certainly join in that. She is a long-time friend of 
Tallahassee.
    I would like to get a jump on tomorrow's date by wishing 
Mr. Frelinghuysen a happy birthday as well.
    So, thank you very much, Mr. Chairman.
    Mr. Walsh. Thank you very much for your testimony.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mrs. Meek. May I say a word?
    Mr. Walsh. Mrs. Meek. Absolutely.
    Mrs. Meek. I just want to say that Tallahassee is my home, 
and I think that this is a very excellent university and town 
partnership, which they are talking about. It is a historical 
district. It deserves to be rehabbed and brought up to par. So 
I strongly endorse the proposal.
    Mr. Walsh. Mrs. Meek always makes her presence known on 
these decisions, so I suspect that you will be pleased with our 
resolve. Thank you very much.
    Our next witness is Linda R. Williams, American Association 
of Nurse Anesthetists.
    Mr. Frelinghuysen [presiding]. Welcome. Thank you for your 
patience, and for being here.
                              ----------                              


                                         Wednesday, April 28, 1999.

                            VETERANS AFFAIRS


                                WITNESS

LINDA R. WILLIAMS, CRNA, J.D., AMERICAN ASSOCIATION OF NURSE 
    ANESTHETISTS
    Ms. Williams. Thank you. My name is Linda Williams. I am a 
certified registered nurse anesthetist, or known as a CRNA. I 
am also president of the American Association of Nurse 
Anesthetists. I appreciate the opportunity to present my brief 
testimony to you and to the committee today on behalf of the 
27,000 nurse anesthetists of the AANA and the 450 nurse 
anesthetists of the VA, of their association.
    Today, we will offer some brief recommendations on how 
nurse anesthetists can save the Department of Veterans Affairs 
money without any sacrifice in quality of care provided to our 
Nation's veterans, of which I am one. So I have a personal 
interest in this as well.
    CRNAs administer approximately 65 percent of the 
anesthetics given to patients every year in this country. We 
perform many of the same functions as physician 
anesthesiologists.
    Both groups, nurse anesthetists, and physician 
anesthesiologists deliver anesthesia for all types of cases, 
from the simplest to the most complex.
    No studies, to date, have found any difference in outcomes 
and quality of care between the two groups.
    Now, while we do provide many of the same services, nurse 
anesthetists cost the DVA much less to retain, and when you 
compare the salaries, nationwide, the physician salaries in the 
general community go over $200,000 a year, and you look at the 
average salary of the CRNA employed by DVA, you will find that 
it is approximately $81,000.
    So we draw far lower salaries, so therefore we would cost 
less to retain. Now retention of nurse anesthetists should be a 
high priority for the DVA because, in the past, shortages of 
this critical provider have proven to cost the DVA unnecessary 
resources.
    We think that the key to retaining nurse anesthetists is 
competitive salaries and effective utilization.
    The salaries of nurse anesthetists in DVA have been 
determined by the locality pay system since 1991, and this 
system has allowed the medical directors to survey hospitals in 
order to determine competitive salaries. The provisions were 
intended to assist in recruitment and retention of CRNAs by 
keeping their salaries competitive with the private market 
area. But, lately, in recent years, this locality pay system 
has faltered.
    There is increasing evidence that some DVA medical 
directors are utilizing the locality pay system as a method to 
actually deny pay increases to nurse anesthetists and to other 
nurses.
    There are reports that some facilities have nurse 
anesthetists whose salaries had been completely frozen for over 
six years, while working all along, side by side, by other DVA 
employees who have gotten general increases that have been 
afforded to all Government workers through the year.
    To make those matters worse, the authorization for a CRNA 
specific locality pay provision has allowed medical directors 
to expand their salary survey areas for nurse anesthetists. 
That has expired as of April 1st this year.
    So the AANA, the American Association of Nurse 
Anesthetists, and the Association of VA Nurse Anesthetists, 
strongly recommend that you urge your colleagues on the 
authorizing committee to seriously consider proposals to 
restructure this locality pay system for the DVA nurses, 
including the expanded survey provision for CRNAs, in 
particular, in order to reduce the risk of another costly CRNA 
shortage in the very near future.
    In addition to the salary considerations, however, it is 
physically important to utilize CRNAs in appropriate practice 
situations with our physician anesthesiologist counterparts.
    Many of our nurse anesthetists work in a team concept 
setting in conjunction with anesthesiologists to provide these 
services to our veterans.
    According to VHA handbook 11-23, there is no requirement of 
anesthesiologist supervision of nurse anesthetists. Therefore, 
any attempt by either the national anesthesia service or by 
local DVA medical directors to mandate supervision by 
anesthesiologists for all anesthesia care would undermine the 
cost-effectiveness, without any increase in the quality of care 
provided to our Nation's veterans.
    Thank you for the opportunity and I am happy to answer any 
questions, and you do have our written testimony.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you very much for your testimony. I met 
with some nurse anesthetists from home yesterday, so I asked 
them all my questions.
    Ms. Williams. Oh, okay. I hope they were answered to your 
satisfaction.
    Mr. Walsh. They were very good.
    Ms. Williams. Thank you.
    Mr. Walsh. Thank you very much.
    The next witness is Andrea Sheldon, Traditional Values 
Coalition. Is Ms. Sheldon here? Okay. We will keep going, then.
    Ronny B. Lancaster, the Association of Minority Health 
Professions Schools.
                              ----------                              


                                         Wednesday, April 28, 1999.

           ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

RONNY B. LANCASTER, M.B.A., J.D., THE ASSOCIATION OF MINORITY HEALTH 
    PROFESSIONS SCHOOLS
    Mr. Lancaster. Good morning, Mr. Chairman.
    Mr. Walsh. Good to have you with us.
    Mr. Lancaster. Thank you. It is an honor to be here.
    Mr. Walsh. Please proceed.
    Mr. Lancaster. Thank you, sir.
    Good morning, Mr. Chairman. I am Ronny B. Lancaster, senior 
vice president for Management and Policy at the Morehouse 
School of Medicine in Atlanta, but appear this morning as 
president of the Association of Minority Health Professions 
Schools.
    Mr. Chairman, this is an association whose members comprise 
12 health profession schools located around the country at some 
of the Nation's leading HBCUs, and these institutions, 
collectively, have trained fully more than half of the Nation's 
black physicians, pharmacists, veterinarians, and dentists.
    I am pleased and privileged to appear before you this 
morning, Mr. Chairman, in support of the budget request for the 
Agency for Toxic Substances and Disease Registry.
    I have submitted testimony for the record, but, with your 
permission, Mr. Chairman, I will summarize, very briefly.
    Mr. Walsh. Without objection.
    Mr. Lancaster. ATSDR, as you know, performs critical work 
in the area of environmental and toxicological study which 
directly affects public health. A cooperative agreement exists 
between ATSDR and members of our association to identify and 
examine the effects of the exposure to hazardous substances on 
at-risk populations who live in medically underserved 
communities.
    This work is yielding important information which will 
substantially improve the lives of poor and minority citizens.
    You may know, Mr. Chairman, that poor children are eight 
times more likely to suffer the effects of lead poisoning than 
non-poor children and fully one out of five African American 
children, as an example, living in housing constructed before 
1946, are adversely affected by lead poisoning.
    Much of the data needed to more fully understand the 
effects of environmental and toxicological poisoning on these 
populations are being supplied through the research conducted 
at our member institutions.
    To continue this important research, we recommend and 
request a funding level of $76 million for fiscal year 2000.
    Mr. Chairman, this represents an increase of $2 million. 
While a modest increase, Mr. Chairman, the funds would support 
a number of very important initiatives.
    These include funding research into 87 of the 188 priority 
data needs. Fully half of the data needs identified by ATSDR, 
Mr. Chairman, have not had research conducted with respect to 
those issues.
    It would also permit preliminary research findings to be 
validated and expanded. It would allow funding to permit two of 
our member institutions, Howard University and Hampton 
University, to participate in the research.
    It would also allow full and direct funding, or fuller 
indirect cost for several of our institutions, including my 
own, which have waived indirect cost in order to support the 
research.
    Finally, it would fund internships in environmental health 
and other student training in order to increase the number of 
minority researchers with expertise in environmental health.
    Mr. Chairman, our relationship with ATSDR has served as a 
national model between a Federal agency and institutions at 
various locations with varying degrees of expertise.
    In closing, two very brief points. First, the work that our 
institutions have conducted in cooperation with ATSDR is very 
important, and is likely to aid some of our most important and 
some of our most vulnerable citizens, particularly women and 
children at risk.
    Our second point, Mr. Chairman, is simply to thank this 
subcommittee for their support for this research, for the 
privilege, for my privilege of attending this morning, and I 
regret that Ms. Meek stepped out to vote, although I understand 
the importance, but I did want to thank her, and I would ask 
the Chairman to express our appreciation to her for her support 
for this research as well.
    Mr. Walsh. I will make sure that I do that and thank you 
very much for coming in and making your presentation.
    Mr. Lancaster. Thank you.
    Mr. Walsh. Good to have you with us.
    Mr. Lancaster. Thank you, sir. With your permission, I will 
submit for the record a report that summarizes the work that 
many of our institutions are conducting.
    Mr. Walsh. Very good. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Our next witness is Fran Du Melle, American Lung 
Association.
    Mr. Peter Eischen is going to make that statement on behalf 
of the American Lung Association.
    Welcome.
                              ----------                                


                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

PETER EISCHEN, AMERICAN LUNG ASSOCIATION
    Mr. Eischen. Good afternoon.
    Mr. Chairman, my name is Peter Eischen. I live in Syracuse, 
New York.
    Mr. Walsh. I know it well.
    Mr. Eischen. Yes.
    I am here today to speak on behalf of the American Lung 
Association and its medical section, the American Thoracic 
Society. First of all, let me congratulate you, Mr. Chairman, 
on your becoming Chair to VA-HUD Appropriations Subcommittee.
    Mr. Walsh. Thank you.
    Mr. Eischen. I am very pleased that my representative in 
Congress chairs such an important committee. I am especially 
pleased because I do have a favor to ask. I need your help to 
stay alive. A little dramatic.
    I suffer from a rare pulmonary disease called sarcoidosis. 
Sarcoidosis is a disease where the lungs develop noncancerous 
fibrotic growths. Over time, these growths diminish the 
capacity of my lungs to breathe. Scientists do not know what 
causes this. There is no cure.
    However, scientists do know that exposure to harmful 
pollutants in the air make sarcoidosis worse. Quite frankly, I 
really do not need scientists to tell me that. I feel it in my 
lungs. When the air quality is bad, I can't breathe. Sometimes, 
I feel like I am dying.
    Exposure to air pollution is not just bad for me; it is bad 
for the people with asthma. It is bad for the people with 
emphysema. It is bad for people with chronic bronchitis. 
Basically, air pollution is bad for all of us.
    While sarcoidosis may eventually kill me, I am in no hurry 
to go. Keeping the air clean will go a long ways towards 
keeping me alive longer and improving my quality of life.
    Here comes the favor. I am asking you to resist any 
attempts to include legislative riders in the VA-HUD 
appropriations bill that would weaken the Clean Air Act, reduce 
the EPA power to enforce the Clean Air Act, or delay 
implementation of standards of the Clean Air Act.
    As you are probably are aware, from time to time, the VA-
HUD appropriations bill has contained legislative riders that 
essentially weaken the public protection for clean air 
established in the Clean Air Act.
    While those legislative riders might be making some people 
happy, I can tell you, they are not very good for me. They are 
killing me.
    Literally, these legislative riders that weaken the Clean 
Air Act could jeopardize the health of 15 million Americans 
with asthma. They could put the 16 million Americans with COPD 
at risk too. Essentially, legislative riders that weaken the 
Clean Air Act put all Americans at risk.
    So as a favor to me, and the more than 30 million Americans 
with lung diseases, I ask you to do everything in your power to 
keep the VA-HUD appropriations bill free of legislative riders 
that would weaken the Clean Air Act and EPA's power to enforce 
it.
    With a little help from you, I hope to be around a long 
time, to thank you for a long time. Thank you, sir.
    Mr. Walsh. Thank you very much for your testimony, very 
effective, very direct, and we will do the best we can to make 
sure there are no legislative riders on this bill, and it will 
make our lives easier too.
    Mr. Eischen. I hope so.
    Mr. Walsh. Thank you. Nice to see you.
    Mr. Eischen. Have a good day.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Before we go to the next, I would like to pass 
along Mr. Ronny B. Lancaster's comments to Mrs. Meek. Well, 
here he is, right here. He is doing it myself. I was just going 
to pass that along to you.
    Mr. Lancaster. It is much more effective coming from you.
    Mr. Walsh. I am not sure about that.
    Mrs. Meek. Thank you.
    Mr. Lancaster. Thank you for your support.
    Mr. Walsh. All right.
    Mr. Michael Paque is not here.
    The representative of the National Rural Water Association 
I believe is here. Mr. O'Connell from Weedsport, New York. Good 
to have you with us, John.
    John and I were together last Monday night, this past 
Monday night, until about 10:30 at night, helping a small town 
resolve their water problem.
                              ----------                                


                                         Wednesday, April 28, 1999.

                             SOUTH ONADAGA


                                WITNESS

JOHN O'CONNELL, NATIONAL RURAL WATER ASSOCIATION
    Mr. O'Connell. As part of our presentation, I wanted to 
thank you, and I am sure that your involvement is going to help 
give these people decent water to drink. As you all know, they 
have got a problem.
    As the congressman said, my name is John O'Connell. I am 
the superintendent of Public Works in the village of Weedsport, 
a small New York municipality serving 750 homes. I am also on 
the town council of the Town of Sennett, New York. This is my 
first time before the subcommittee, and for that matter, this 
is the first time I have ever testified before Congress, so I 
am a little nervous.
    Mr. Walsh. You are doing just fine.
    Mr. O'Connell. Each year, the subcommittee approves 
hundreds of millions of dollars for the EPA, much of which is 
used to increase regulatory burden on small towns. My message 
today is that we believe that the funding for rural water 
technical assistance and small community groundwater 
protections is the most effective use of EPA funds you 
appropriate from the drinking water program.
    Every community wants to provide safe water and meet all 
drinking water standards. After all, local water systems are 
operated by people whose families drink the water every day, 
and who are locally elected by their communities, and who know, 
first-hand, how much their community can afford.
    Numerous studies have concluded that a majority of the non-
compliance with EPA regulations is not due to the actual water 
contamination, but is caused by the complexity of the 
regulations.
    What works in small towns is providing common-sense 
assistance in a form they can understand and afford. It takes 
someone sitting down with them, evening after evening, and 
working with them through the entire process.
    Giving them a copy of the Federal Register and a phone 
number to call is really not helping. There is also a list of 
over a 1,000 on-site visits carried out in New York State, last 
year, that you will be provided.
    A similar list is provided to all other Members of the 
Committee for their States, so you will also be given that too.
    The need for technical assistance is increasing with the 
dramatic increase of new Federal regulations, including 
consumer confidence reports, radon, groundwater rules, operator 
certification, source water protection, disinfection 
byproducts, and et cetera. It goes on.
    Our rural water technical assistance staff will get 
thousands of calls for help for each one of these regulations.
    Mr. Chairman, in order that you may keep on schedule, I 
will keep my remarks brief, and simply close with our request 
that the committee include $8.6 million in EPA's budget for 
rural water technical assistance and groundwater protection, 
and $7.5 million for a grassroots source water program.
    Thank you for the past support and opportunity to appear 
here today before this committee.
    Mr. Walsh. Well, it is good to have you with us, Jack. You 
did real well for your first time before Congress, and you are 
welcome to come down any time.
    Mr. O'Connell. And I can come back?
    Mr. Walsh. Our bark is a lot worse than our bite. But I do 
want to say thank you to you, and to the people at the National 
Rural Water Association, New York Rural Water Association. 
Those are some of the basic necessities of life, water is 
certainly ranked at the top of those, and we need to make sure 
that all Americans have a good safe supply of water.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Mrs. Meek, any comment?
    Mrs. Meek. Thank you.
    Mr. Walsh. All right. Our next witness is David Nemtzow, 
Alliance To Save Energy. Did somebody go out to see if he was 
there? Okay.
    Mrs. Meek. Mr. Chairman.
    Mr. Walsh. Yes, Mrs. Meek?
    Mrs. Meek. How far is Weedsport from Yorktown Heights? My 
daughter is from Yorktown Heights.
    Mr. Walsh. Yorktown Heights. I do not know where Yorktown 
Heights is. It is in New York?
    Mrs. Meek. It is in New York, in the same county that Nita 
Lowey is from.
    Mr. Walsh. All right. Nita is Westchester County.
    Mrs. Meek. That is where my daughter is.
    Mr. Walsh. So Westchester is a suburb of New York City, so 
you probably have to come on the throughway to Albany and then 
west to Syracuse, and Weedsport is about 30 miles west of 
Syracuse. So it is probably three and a half hours.
    Mrs. Meek. I see. From Manhattan?
    Mr. Walsh. It is probably about four and a half hours from 
Manhattan.
    Mrs. Meek. All right. Thank you.
    Mr. Walsh. It is a small town just northwest of Auburn, New 
York.
    Mr. Nemtzow.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

DAVID NEMTZOW, ALLIANCE TO SAVE ENERGY
    Mr. Nemtzow. Yes. How are you?
    Mr. Walsh. good.
    Mr. Nemtzow. I brought props. I hope you do not mind.
    Mr. Walsh. You have five minutes to do pretty much anything 
you want.
    Mr. Nemtzow. All right. I hope to educate and explain.
    Thank you very much for the opportunity to testify before 
you today on the energy-related programs at the Environmental 
Protection Agency.
    I am here today to recommend three things to the 
subcommittee and explain three things.
    Number one is that energy efficiency has been very 
successful in helping our Nation meet our environmental and 
economic goals over the past 20 years.
    Number two, that consumers need information if they are to 
make intelligent, rational decisions about energy use and 
energy efficiency, and number three, that EPA's Energy Star 
program is doing a very nice job in helping consumers by 
providing that information to make those decisions.
    I am David Nemtzow. I am the president of the Alliance To 
Save Energy. We are a bipartisan nonprofit coalition of 
business, Government, consumer and environmental leaders.
    We were founded in 1977 by Senators Charles Percy and 
Hubert Humprhey, and today, we are chaired by Senator Jeff 
Bingaman and co-chaired by Jim Jeffords, and your colleagues, 
Ed Markey and John Edward Porter. We have 70 member companies 
who participate in our activities.
    We have a very long history of researching and evaluating 
Federal energy efficiency programs, especially those programs 
that promote energy efficiency, not by relying on mandatory 
regulations and not by relying on higher taxes, but by relying 
on voluntary public-private partnerships to solve goals in a 
consensual and effective way.
    EPA's Energy Star of course is the prime example. It is 
really the poster child of the Federal Government's approach to 
a voluntary, consensual approach to environmental regulation. 
They do a very good job at that.
    First, I would just like to say, briefly, tell you about 
our success in energy efficiency over the past 20 years.
    You can see, from this chart, energy efficiency in 1997--
and the data would be quite close for this year--is the number 
two energy source in this country, and we have to just take a 
minute to understand what I mean, because it is not really a 
source. But if we look at how much energy we would have 
consumed without the great progress we have made in the past 20 
years, and then look at the actual numbers, it is a very big 
difference, and once we back out some structural changes in the 
economy, changes in steel, et cetera, that is all attributable 
to energy efficiency.
    So you can see we are the number two energy source in this 
country, after only oil. We are ahead of natural gas, we are 
ahead of coal, we are ahead of nuclear and hydro. We are number 
two to oil, and we like to think of ourselves as the ``Sammy 
Sosa of energy resources,'' and we are going for number one 
here.
    If we keep in mind, too, if we look at domestically 
produced sources, that reminds us that more than half our 
petroleum is now imported from the Persian Gulf.
    If you look at domestically produced, we are actually the 
number one source. So that is a great sign of success and 
before you conclude that that if it has been so successful, why 
do you have to keep funding it, I do not want to let that 
thought get into your mind, even for a second, if I could, Mr. 
Chairman.
    Mr. Walsh. Perish the thought.
    Mr. Nemtzow. Thank you.
    It has been successful and what is not shown on that graph 
is that the United States produces 18 percent less air 
pollution than we would have if we were not more efficient, 
which of course burning energy produces air pollution of all 
sorts. So we are low in pollution; we are lowering the Nation's 
bill.
    The reason these programs are so important is that American 
equipment, capital equipment, homes, offices, is turning over 
at a very rapid rate.
    If we think about carbon dioxide, one important pollutant, 
in the year 2010, over 60 percent of the carbon pollution that 
will be emitted in 2010, so three-fifths of 2010's pollution is 
from equipment that hasn't even been purchased yet.
    It is from motors and air conditioners and refrigerators 
that are still yet to be bought, and that is why this program 
is so important.
    The decisions consumers make over the next 10 years will 
affect more than half of our carbon pollution in 2010. So it 
shows you how much is left.
    Consumers do not really understand the connection between 
energy and the environment. I think you all know, you have seen 
this yellow label that we have had since the 1970's. I hope you 
are smiling, because like me, you do not understand this. I 
have been in this field for over 20 years, almost as long as 
Mr. Cushing, and it is a very hard label to understand.
    It says this air conditioner is a 13.0 SEER. Well, you have 
got to know what a SEER is. Most consumers have no idea what a 
SEER is. So this label is good for energy professionals and 
engineers, but it doesn't always help consumers understand. 
Many of them get it backwards. That is where EPA showed up. 
They recognized this a few years ago, and not to take anything 
away from the FTC, who oversees that program, they created this 
Energy Star label, that I hope you have also seen in the 
stores, and it is a very simple label.
    If it is on a product, the consumer can be sure this is an 
efficient product. It does not give you the precise numbers; it 
does not do that. It just says it is efficient or inefficient.
    So, for the average consumer, this is much more helpful. 
They get to see that label. They know they are getting a 
product that will have lower utility bills and will emit less 
pollution and that is the heart of this.
    The EPA has worked on a voluntary basis, nobody is required 
to have this label, but what we see now is that companies are 
fighting, they are competing with each other to earn that 
label, whether it is a York, a Trane, or a Carrier in the air 
conditioning business, Whirlpool, Maytag or GE in the white 
goods business, and on and on, and that is, I think, a very 
successful sign.
    Many organizations work with EPA, they participate, from 
Carrier in your district to many in Florida. I do not have that 
list but I know there are many, and these programs are 
preventing carbon dioxide pollution, other pollution and saving 
Americans $600 million a year.
    It is a tested and true program. In fact this program, for 
every dollar it spends of your money, that this subcommittee 
gives it every year, for every dollar it spends it has been 
getting $20 in investment by consumers and companies and home 
builders, in upgrades, and saving $70 in energy bills.
    So your dollar is getting another $20 of investment and 
saving the national economy $70 in energy costs. Of course 
there is a reduction in pollution.
    In conclusion, it is a very well-run program. They know 
what they are doing. I think you can have complete confidence 
that whatever money that you allocated to it, especially in 
this year of tight budget caps, it will be well spent.
    I think it really does deserve a doubling. I testify 
frequently before Congress on Federal programs, not just at EPA 
but at other agencies. We have been analyzing them for 20 
years. There is no other program that I would come before this 
Congress and say it deserves a doubling.
    It is really an impressive program and one that I think you 
can be quite proud of, and I hope you will be able to find it 
within your other challenges this year, to be able to support a 
big increase.
    Thank you very much for the opportunity to testify.
    Mr. Walsh. Thank you very much for a very effective 
presentation.
    Mr. Nemtzow. Thank you. Glad you were illuminated. That is 
our goal.
    Mr. Walsh. Low energy illumination!
    Mr. Nemtzow. And I forgot this, but Mobil put an ad in the 
Washington Post a little while ago. I do not think they are 
singing EPA's praises every day at Mobil, but this is one of 
the programs that they like, and I hope that also gives you 
confidence in this program.
    Mr. Walsh. Very good. Thank you very much for your 
testimony.
    That concludes the morning session and we are all allowed 
to take a break, for perhaps 15 minutes. The staff is going to 
have to be back pretty quickly. 12:45. Very good. Thank you 
all.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg [presiding]. The committee will come to 
order, and we will continue with the order that I have, which 
indicates that Elizabeth Clarke, the American Society of Civil 
Engineers, is next. I beg your pardon. I reversed that. It is 
going to Mr. James Davis, Executive Director of the American 
Society of Civil Engineers.
    Mr. Davis, you are free to proceed. Your statement will be 
included in the record in its entirety if you have a written 
statement.
                              ----------                              

                                         Wednesday, April 28, 1999.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

JAMES E. DAVIS, EXECUTIVE DIRECTOR
    Mr. Davis. We have handed it in already.
    Mr. Knollenberg. And your 5 minutes is starting.
    Mr. Davis. Thank you, Mr. Chairman. I am a civil engineer, 
and I am executive director and chief executive officer of the 
American Society of Civil Engineers. As you know, civil 
engineers design, build, maintain, and operate the Nation's 
infrastructure. That infrastructure includes roads and bridges 
and tunnels and wastewater treatment systems, fresh drinking 
water systems, airports, mass transit, et cetera.
    The American Society of Civil Engineers, through its 
123,000 members worldwide, works daily to advance the art, 
science, and the profession of engineering for the betterment 
of humanity. Today, in our humanitarian role, we are here to 
support the administration's budget for the Federal Emergency 
Management Agency, FEMA. You were also talking about EPA. We 
would also support the EPA request.
    The reason we are here today on the part of FEMA is for 
three programs: first, the Flood Hazard Mapping Program. Flood 
zone mapping is extraordinarily important to civil engineers 
and planners. It is also important to insurance agents, to 
mortgage lenders, and anyone that is looking at building in 
flood plains.
    The administration has asked for $113 million for this 
program. It is up over the $40 million they asked for last 
year. We feel that this is a sufficient level of funding in 
that there is a requirement that it is going to take $900 
million over the next 7 years to get our flood mapping in the 
proper order.
    One of the things that you will note is for every dollar 
spent to maintain, to get the flood hazard zones mapped 
properly will bring back $2 to the taxpayer. So we feel that 
this is extraordinarily beneficial.
    The second program that I want to speak in favor of is the 
American Lifelines Alliance. Lifelines are the transportation 
and utility systems that are disrupted, normally in a natural 
disaster like an earthquake. And FEMA's budget request is 
asking for $1 million to bring this alliance together. This is 
where you are putting academia, business, the private sector, 
and governmental entities together to work through a plan for 
dealing with earthquake and other natural disasters and bring a 
plan for mitigation and develop a strategy for prioritizing how 
to address natural disasters when they happen so that we can 
get the lifelines back open as effectively and efficiently as 
possible.
    The third program I would like to speak in favor of is the 
National Dam Safety Program. As you know, in this country we 
have over 93,000 dams, and most of them or a good percentage of 
them are over 50 years old. We can prevent dam breakage and the 
problems that it cause, which gets to be enormously expensive. 
But what we are asking for is the support of the 
administration's budget of $5.9 million in support of their dam 
safety program. It is important that we go forward and try to 
bring these dams up to acceptable standards. Our estimate is 
that it will take $1 billion in the next 10 to 20 years to 
bring these dams up to standards, but it is worth it.
    So, in sum, we are here today on behalf of FEMA; we believe 
that we want support for the administration's mapping program, 
Hazardous Flood Mapping Program, $113 million; we want support 
for the American Lifelines Alliance, which is a $1 million 
program; and we want support for the National Dam Safety 
Program for FEMA to the tune of $5.9 million.
    I would address any questions on any one of these programs 
if you want.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mr. Frelinghuysen, any questions?
    Mr. Frelinghuysen. No questions.
    Mr. Knollenberg. I think you have been very thorough and 
decisive. We appreciate that. Thank you very much, Mr. David.
                              ----------                              

                                         Wednesday, April 28, 1999.

              EL PASO WATER UTILITIES PUBLIC SERVICE BOARD


                                WITNESS

EDMUND G. ARCHULETA, P.E.
    Mr. Knollenberg. The next individual is Mr. Edmund 
Archuleta of the El Paso Water Utilized Public Service Board. I 
presume he is approaching.
    Again, we welcome you, and your written testimony and/or 
oral will be included in its entirety, so you are free to begin 
at the moment.
    Mr. Archuleta. Thank you very much, Mr. Chairman, members 
of the committee. For the record, my name is Ed Archuleta. I am 
the general manager of the El Paso Water Utilities Public 
Service Board. We provide regional water and wastewater 
services in the greater El Paso area. I am also here as the 
program manager for the El Paso-Las Cruces Regional Sustainable 
Water Project. The primary reason why I am here is to more 
fully acquaint you with this project and the progress that we 
made in the development of planning of this particular project.
    At the back of my testimony, there is a map that shows the 
region, but we began in 1991 as part of the New Mexico-Texas 
Water Commission which consists of seven member agencies, the 
city of El Paso, Texas, the city of Las Cruces, New Mexico. 
There are two irrigation districts, one in New Mexico and one 
in Texas. And there are two universities in one county that are 
involved in regional planning through the New Mexico-Texas 
Water Commission.
    We are the largest city in the region on the United States 
side. Of course, just across the river is the city of Ciudad 
Juarez, Mexico, Chihuahua, which is about 1.5 million, so we 
have about 2 million people in the region, and the region is 
growing very rapidly, as I am sure you are well aware.
    We began planning this project, as I mentioned, called the 
El Paso-Las Cruces Regional Sustainable Water Project about 2 
years ago, and we are well into the final engineering planning. 
We are preparing the environmental impact statement at this 
time, and we feel that we will have the draft EIS completed by 
the end of this year. So, in order to continue with the 
execution of the project, we are asking you to consider the 
appropriation of $13.5 million out of the BEIF, the Border 
Environmental Infrastructure Funds for the border in order to 
allow this project to go into design, and then take it to the 
next step, which would be, of course, construction.
    As I mentioned, this project involves several New Mexico 
entities. The project, as it is being developed, would involve 
at least two water plants in New Mexico and a major water plant 
in El Paso in our upper valley. There would be an aqueduct 
system, and it consists of storage tanks and the ability to 
store water, you know, when there is sufficient water in the 
river through aquifer storage and recovery, and then extract 
the water during periods of drought.
    One of the major problems that we have in this particular 
region is, as these cities have grown, they rely heavily on 
ground water for municipal supply and surface water from the 
river primarily for agricultural supply. Although El Paso built 
its first surface water plant in 1943, but over the years, as 
the population has grown, these aquifers, which receive very 
limited recharge because we receive very little precipitation, 
have been mined. You know, they are basically--one of the 
aquifers which shared entirely with Juarez, Mexico, is expected 
to deplete fully by the year 2025 unless the process is 
reversed. So you have got a city 100 percent dependent on the 
wakable soil, which is Juarez, Mexico, and El Paso, which is 
about 40 percent dependent on aquifer that is being seriously 
mined.
    So the Public Service Board, my agency, took the lead, has 
taken the lead through this commission to do the relevant 
planning and try to bring all the agencies together in a 
regional approach toward water management.
    Now, the only other source of water in the region aside 
from the Mesilla bolson, which is primarily in New Mexico, is 
the river. The river, of course, is fully appropriated as a 
treaty between the United States and Mexico on delivery of 
water. There is a compact among Colorado, New Mexico, and 
Texas. And so it is a very delicate issue with a fully 
appropriated river.
    However, we are working with the irrigation districts as 
the area urbanizes and a transfer of agricultural to municipal 
industrial uses, investing in the district through canals and 
finding ways to provide for supply-side conservation. So we 
have a situation where we have a rapidly growing area, 
depleting ground water resources, high unemployment, as you are 
probably aware, in this particular area, and yet we feel that 
we probably have the most sophisticated planning and organized 
approach to managing water along the U.S.-Mexican border.
    Mr. Knollenberg. Mr. Archuleta, could you wrap up your 
comments?
    Mr. Archuleta. In summary, as I mentioned, we are asking 
for $13.5 million to be appropriated for this particular 
project out of the Border Environmental Infrastructure Funds.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much. That was the number I 
was looking for.
    Mr. Archuleta. $13.5 million.
    Mr. Knollenberg. Thank you very much. We appreciate you 
being here.
                              ----------                                


                                         Wednesday, April 28, 1999.

                 PASSAIC VALLEY SEWERAGE COMMISSIONERS


                                WITNESS

ROBERT J. DAVENPORT, EXECUTIVE DIRECTOR
    Mr. Knollenberg. The next individual is Mr. Robert 
Davenport of the Passaic Valley Sewerage Commissioners. You 
may----
    Mr. Frelinghuysen. Mr. Chairman, I would also like to 
welcome one of our former colleagues, Congressman Bob Rowe of 
New Jersey. His presence here is a good sign.
    Mr. Knollenberg. You are both very welcome, and we 
appreciate former members especially coming back. Thank you 
very much.
    Mr. Mollohan?
    Mr. Mollohan. Mr. Chairman, I just want to welcome Chairman 
Rowe back. I very much enjoy seeing him here. He looks like he 
belongs here. Seeing him in this context, it is like he has 
never been gone. And I want to take the opportunity to publicly 
thank him for all the things that he did for me when I was a 
young Member of Congress.
    Mr. Knollenberg. Thank you, Mr. Mollohan.
    You may begin.
    Mr. Davenport. Mr. Chairman and members of the committee, 
my name is Robert Davenport. I am executive director of Passaic 
Valley Sewerage Commissioners. First, I would like to thank you 
for the opportunity to testify.
    The Passaic Valley Sewerage Commissioners own and operate 
one of the largest wastewater treatment plans in the Nation. We 
treat wastewater from 1.3 million people in 47 towns and cities 
and from over 300 large industries in northern New Jersey.
    When I addressed this distinguished committee last year, 
our Passaic River/Newark Bay Restoration Program was just 
getting started. This year I would like to thank you for your 
past support and update you on the progress and the 
achievements that the program has made during the last year.
    The Passaic River and Newark Bay are now faced with 
recreation prohibitions and fishing and shellfishing bans. 
Dredge material disposal options are limited due to 
contaminated river sediments. While we are in the process of 
discovering impacts of combined sewer overflows on the 
environment, the economic base of our combined sewer 
communities has experienced dramatic erosion. The cities of 
Newark, Jersey City, and Paterson are among the poorest 
communities in New Jersey, and each has a combined sewer system 
which threatens the water quality of the Passaic River and 
Newark Bay during wet weather events.
    For the last 30 years, New Jersey has been struggling to 
find a solution that is both economically viable and 
environmentally acceptable to the problem of CSOs. Passaic 
Valley feels that we have found just such a solution. The 
Passaic River/Newark Bay Restoration program has a three-
pronged approach to alleviate the ongoing pollution to these 
resources.
    The first element of the program is the implementation of 
plant-wide improvements to increase the treatment plant's wet 
weather capacity from 368 million gallons per day to 700 
million gallons per day.
    The second element is a trackdown of toxic discharges to 
the sewer system. This work is being implemented in conjunction 
with the New Jersey Department of Environmental Protection.
    The third element is the shoreline cleanup portion of the 
program. We provide coordination and support to municipalities, 
counties, citizens, service groups, and local businesses to 
remove trash along the riverbanks in their communities.
    I would now like to share the results of last year's 
efforts with you, if I could. Last summer we assisted in 42 
cleanups and helped remove more than 226 tons of trash from the 
Passaic River. So far this year, in two Earth Week cleanup 
projects, we assisted over 500 volunteers whom we presented 
with cleanup crew tee shirts as a thank you for their efforts.
    At this time, I would like to show what is being--we are 
going to leave some with the committee, but these are the 
shirts that the people who assist on Saturday morning cleanups, 
these are--and, you know, here's the great falls in Paterson, 
where we know a lot of economic history started, and, you know, 
we have our own loved one, and we would like to present these 
to the committee, if we could.
    Mr. Knollenberg. Thank you very much.
    Mr. Davenport. And so the real key for improving the water 
quality of Passaic River and Newark Bay is to reduce combined 
sewer overflows. Our solution will cost $82 million, compared 
the traditional way of doing solutions, which cost over $5 
billion.
    The State of New Jersey awarded Passaic Valley a $15 
million grant for the engineering design for the plant 
improvements needed to implement the program. An application 
was submitted to the U.S. EPA for three projects to be funded 
by the grant authorized by your committee in the fiscal year 
1999 appropriations bill. Local funds will be used to provide 
the match for the special appropriations grant. In an effort to 
accelerate the program, we applied for a $25 million State 
revolving loan to finance the construction of a major component 
of the plan. We look forward to a late summer ground-breaking 
for these projects.
    In spite of all the progress we have made, the program is 
just beginning. Passaic Valley has exhausted its ability to 
fund additional work without continued Federal assistance. We 
are respectfully requesting $10 million in Federal funds for 
this year to begin construction of the next elements in the 
plant improvements program. The completion of the next element 
will get us halfway to our goal of doubling our wet weather 
flow.
    Once again, I would like to thank you and the committee for 
your continued support for the Passaic River/Newark Bay 
Restoration Program. We strongly believe that this program will 
restore the Passaic River and Newark Bay as a recreational and 
economic resource for the region.
    Again, I would like to thank you very much for permitting 
us to give testimony.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much. I am going to defer 
to my colleague from the State of New Jersey to----
    Mr. Frelinghuysen. To endorse the distribution of the tee 
sheets.
    Mr. Knollenberg. And/or whatever is appropriate.
    Mr. Frelinghuysen. And also say that the Passaic Valley has 
been extremely aggressive working to capitalize using State and 
local resources. It is a bi-State effort with New York City, 
and they brought, I think, a measure of innovation which I 
think serves us well because it also saves the taxpayers money 
because you have been aggressive and used innovative 
technology. So I certainly heartily endorse your work, and I am 
sure that given whatever means we have here, we will try to be 
of as much help as we possibly can.
    Mr. Davenport. Well, thank you very much.
    Mr. Frelinghuysen. You are very welcome. Welcome back.
    Mr. Knollenberg. Thank you very much.
    Just making inquiry, is Michael Marvin in the room? Did I 
get an aye?
    Apparently not.
                              ----------                              

                                         Wednesday, April 28, 1999.

               ASSOCIATION OF METROPOLITAN WATER AGENCIES


                                WITNESS

DIANE VAN DE HEI, EXECUTIVE DIRECTOR
    Mr. Knollenberg. Diane VanDe Hei? Is Diane in? She is. And 
I believe, if I am not wrong, you are with the Association of 
Metro Water Agencies, is that right?
    Ms. VanDe Hei. Correct. Metropolitan Water Agencies.
    Mr. Knollenberg. Yes, Metropolitan. You are on, so thank 
you very much for appearing. We look forward to your testimony.
    Ms. VanDe Hei. Thank you very much for the opportunity to 
testify. For the record, my name is Diane VanDe Hei. I am 
executive director of the Association of Metropolitan Water 
Agencies, a non-profit organization that is made up of the 
Nation's municipal and publicly owned water supply agencies.
    More than ever before, the public is keenly aware of how 
the Federal, State, and local governments spend their money. 
The Federal Government, by making its regulatory requirements 
cost-effective and based on sound science, can help to make 
State and local dollars go further and assure the public that 
the benefit they receive is worth the cost they are asked to 
pay for those regulations. Indeed, through modest investment, 
the Federal Government can deliver significant benefits to the 
public.
    Our request to the subcommittee outlines six such 
investments. We recommend that Congress, the subcommittee, 
appropriate EPA's $41.4 million budget request for research. We 
also request that this subcommittee ask the administration for 
a blueprint of the health effects research they are conducting 
on future contaminants.
    As you know, in 1996 Congress with EPA's support 
established a new way for EPA to develop regulations by 
requiring a new focus on good science, which includes an 
increased reliance on health effects research. In section after 
section of that statute, EPA is required to look at things 
differently. The statute requires the agency to utilize health 
effects data to identify contaminants for future regulation and 
for setting drinking water goals and standards. And for the 
first time, the law gives EPA the discretion to consider risk 
trade-offs and to set standards based on such data.
    In August of 2001--27 months from now--EPA will select at 
least five unregulated contaminants and determine whether to 
regulate them. EPA may choose from a list of 60 contaminants 
that comprise the Contaminant Candidate List. According to the 
1996 amendments, the Agency must undertake the same process 
every 5 years.
    I guess to put that in a nutshell, our concern is that the 
Agency spend the resources to develop the health effects data 
to make decisions on those future contaminants. In 1986, EPA 
didn't have any discretion about which contaminants to 
regulate. The statute told them which ones. And in 1996, you 
gave them the discretion to figure out which ones were 
important. Our concern is that they spend the money to do the 
health effects research so they make good decisions on that. 
And so what we are asking you is that you ask them what--they 
say they have enough money for the year 2000 to conduct that 
research. We have not seen that information, and we would like 
for you to ask them for it to make sure that the health effects 
research is being conducted.
    We also support the request that $4 million be earmarked 
for the American Water Works Research Foundation, including $1 
million for continued research on arsenic. We also ask that you 
set aside $2 million for perchlorate research.
    The American Water Works Association Research Foundation is 
an organization dedicated to conducting much needed research to 
satisfy research needs expressed by Congress, EPA, and the 
drinking water community. Like other drinking water 
associations, AMWA strongly supports the foundation and its 
research efforts. Last fiscal year, Congress provided $4 
million for AWWARF. The drinking water community matched that 
amount by $10.5 million in cash. Over the last 15 years, water 
suppliers and EPA have worked well together, with water 
suppliers putting in $115 million in cash and in-kind 
resources.
    In conclusion, Congress, EPA, the States, and drinking 
water suppliers have before them a monumental job: to ensure 
the American public continues to receive high-quality drinking 
water. To meet that objective requires an investment previously 
not seen in this arena. Infrastructure is aging, water systems 
require new and better technologies to meet the challenges 
presented by contaminants found in our rivers and streams, and 
to meet future regulatory objectives. And regulators must 
expect to base future requirements on highly accurate research 
data. The Nation's water suppliers look to Congress for help in 
meeting these challenges.
    Thank you, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much, Ms. VanDe Hei. I 
believe Mr. Mollohan--Mrs. Meek, do you have any questions?
    Mrs. Meek. No. Thank you.
    Mr. Knollenberg. With that, thank you very kindly.
    Ms. VanDe Hei. Thank you.
                              ----------                              

                                         Wednesday, April 28, 1999.

   NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND-GRANT COLLEGES


                                WITNESS

ROBERT J. HUGGETT, VICE PRESIDENT FOR RESEARCH AND GRADUATE STUDIES, 
    MICHIGAN STATE UNIVERSITY
    Mr. Knollenberg. Next in line is Dr. Robert Huggett, who, 
as a Michiganian, I have the privilege of introducing another 
Michigan connection, and we welcome Dr. Huggett, who is here as 
Vice President for Research and Graduate Studies. Actually, he 
is the Vice President for Research and Graduate Studies at 
Michigan State University, but his real role today is the 
National Association of State Universities and Land-Grant 
Colleges, of which MSU is one, Michigan State University. So, 
Dr. Huggett, welcome. You are on.
    Mr. Huggett. Thank you, sir. I appreciate this opportunity 
to present testimony of the appropriations for fiscal year 2000 
for the Environmental Protection Agency. As you mentioned, I am 
representing the National Association of State Universities and 
Land-Grant Colleges, NASULGC. I have had a long association 
with them. In addition, I am a former EPA Assistant 
Administrator for Research and Development and have appeared 
before this committee in the past.
    Founded in 1887, NASULGC is the Nation's oldest higher 
education association, currently with over 200 member 
institutions and 3 million students in all 50 States. The 
association's overriding mission is to support high-quality 
public education through efforts that enhance the capacity of 
member institutions to perform traditional teaching, research, 
and public service roles.
    Competitive, peer-reviewed extramural research is 
fundamental to developing the science-based technologies which 
ensure safe food, safe water, a health environment, sufficient 
energy resources, better medical care, improved communications, 
improved transportation systems, a stronger national defense, 
and tools to mitigate against natural hazards. Federally 
sponsored research is cost-effective and advantageous for 
several reasons, including:
    University research funds are awarded through peer-reviewed 
processes, and competition ensures that the best science is 
supported by the tax dollar;
    The costs of university research to the Federal Government 
are borne only for the duration of that research and duration 
of the grant or contract, and they are not permanent 
entitlements and do not increase the size of the Federal 
workforce;
    And sponsored research in universities supports the 
training of the next generation of scientists and engineers for 
industry, academia, non-governmental organizations, as well as 
a variety of State, Federal, and local agencies.
    I will focus my comments specifically on the Office of 
Research and Development's STAR program within EPA, Science to 
Achieve Results. NASULGC recommends $120 million for 
competitively awarded extramural research grants and $15 
million for 300 graduate fellowships. We believe that the 
relatively small amount the Agency invests of its $7.2 billion 
requested budget is one of the most important uses of its 
resources. While high-profile regulatory actions make the 
headlines, the basis for those decisions must rest on the 
Agency's science. And without sound science, the Agency will 
not be able to correctly identify and develop sound management 
and mitigation strategies.
    A typical grant under the STAR program is $150,000 to 
$200,000 and lasts for 3 years. Today, there are active grants 
in 49 States, Washington, D.C., Puerto Rico, and Guam. In 
regards to the fellowships, the Office of Research and 
Development awards about 100 new graduate fellowships yearly.
    I would submit that the evidence clearly indicates that the 
STAR program has been a resounding success, not only in terms 
of response from the academic community, but also because it 
assures the highest quality of science.
    Before the inception of STAR, the quality of EPA's science 
was questioned by many authorities, including this 
subcommittee. However, the STAR program is helping to restore 
credibility to the Agency's research and science activities. It 
is proving to be a highly cost-effective way for EPA to provide 
a balanced, long-term capital investment for improving 
environmental research and development.
    Finally, we are encouraged that the Office of Research and 
Development is employing a long-term program of hiring post-
doctoral scientists and engineers into the Agency for 3-year 
appointments. NASULGC strongly supports this initiative because 
we think it will provide for a continued scientific renewal and 
maintenance of a strong research relationship so essential to 
regulatory integrity.
    I thank you for this opportunity to testify and welcome any 
questions that you may have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Dr. Huggett, thank you very kindly.
    Does anybody have questions for Dr. Huggett?
    Mr. Mollohan. I just thank the doctor for his testimony. 
Thank you very much.
    Mr. Knollenberg. Thank you.
    I am going to bring up Congressman Bob Goodlatte, who I 
believe--are you making two introductions or one?
    Mr. Goodlatte. I will do two at once.
    Mr. Knollenberg. Two at once? Welcome. We are glad to have 
you here. If Alma Lee and David Conner would come forward? We 
have two chairs, a place for each. Welcome.
    Congressman?
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Goodlatte. Mr. Chairman, I thank you very much for 
allowing me to introduce two of my constituents who are here to 
testify about two completely separate matters before your 
committee, and I thank you for the indulgence of all the 
committee members.
    First, I am delighted to introduce Ms. Alma Lee. She is the 
head of the American Federation of Government Employees 
National Council, president of the National Council, and also 
head of the union at the very important Department of Veterans 
Affairs medical facility in Salem, Virginia, in my district, 
here to testify, I am sure, about the VA budget, which, as you 
know, in the budget bill we increased substantially the amount 
of money available for health care for veterans. I hope the 
Appropriations Committee can come in as close to that budget 
figure as you possibly can. I am sure she is going to address 
that.
    I am also delighted to have with us Mr. David Conner, who 
is the president of E.C. Pace Company and the regional vice 
president for the National Utility Contractors Association, who 
is going to testify to you regarding the State revolving loan 
fund under the Environmental Protection Agency.
    I am very proud of both of these constituents, and I am 
going to get out of the way and let them tell their story.
                              ----------                              


                                         Wednesday, April 28, 1999.

          AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO


                                WITNESS

ALMA LEE, PRESIDENT, COUNCIL OF DEPARTMENT OF VETERANS AFFAIRS LOCALS
    Mr. Knollenberg. Thank you very much. Then if you would, we 
will turn to Alma Lee to begin first. As you know, you have 
your allotted time, as you know, the prescribed time, so I will 
let you begin. Thank you.
    Ms. Lee. Thank you. Mr. Chairman and subcommittee members, 
my name is Alma Lee, and I am president of the National 
Veterans Affairs Council of the American Federation of 
Government Employees, AFL-CIO. AFGE represents some 125,000 
workers at the Department of Veterans Affairs. Many of our 
members are themselves veterans. Roughly one in four employees 
at the agency has served in the armed forces. These employees 
are the caretakers and caregivers for our Nation's 25 million 
living veterans.
    It is the daily dedication, compassion, and professional 
attention of these front-line health care workers and other 
staff to keep the Government's promise to our Nation's 
veterans. I know you understand that even the most caring and 
dedicated staff cannot be expected to deliver high-quality 
health care without adequate resources. DVA staff depends upon 
a sound budget.
    Last week, you heard Secretary Togo West and Under 
Secretary for Health Dr. Kenneth Kizer testify that under the 
administration's budget--even with the proposed staffing cuts 
of 1,300 for this fiscal year and with the drastic anticipated 
8,000 reductions in force for fiscal year 2000--the quality of 
health care would not be affected. Indeed, they tried to 
convince you that the quality of care for veterans would 
improve.
    I must tell you that AFGE members, from nurses and doctors 
to janitors and food-service workers, know that that is not 
true.
    We are embarrassed that the administration--be it Secretary 
West, Dr. Kizer, or the Office of Management and Budget--is 
willing to ignore the toll that 4 years of a frozen budget has 
taken on staff, supplies, and medical services.
    Because of our existing budget, the DVA is grossly 
unprepared to meet veterans' needs.
    We know medical facilities have already cut back on the 
quantity and quality of food and nourishment provided to 
veterans. We know prescriptions are not being filled in a 
timely manner because the pharmacy lacks medicine and staff. We 
know that veterans are being denied surgical operations or 
those surgeries are being postponed due to funding. We know 
that psychiatric patients are being pushed out into the 
community without adequate support and case management. We know 
veterans are being denied adequate physical therapy and 
treatment. We know some facilities are purchasing lower-quality 
medical equipment to save dollars.
    The administration is trying to balance the DVA's already 
insufficient budget by cutting back on services and cutting an 
already stretched thin and overworked staff, all the while 
claiming that it is somehow good for veterans.
    DVA employees are embarrassed because we know firsthand 
what the administration refuses to acknowledge. Proposed 
staffing cuts, furloughs, the elimination of medical services, 
reductions in food service, reductions in supplies and 
equipment can only place veterans in greater jeopardy. Veterans 
will have less access to care and the care they manage to 
receive will not be high quality. Even the most dedicated 
professional and committed staff cannot provide quality care if 
their resources are stretched too thin and the supplies and 
equipment they rely on are inadequate.
    The administration's funding proposal for DVA generates so-
called savings by reducing the DVA's in-house workforce by 
roughly 8,000 direct patient care workers. The administration 
labels such drastic staffing cuts as ``management 
efficiencies.'' Such cuts are neither prudent management nor an 
efficient means of assuring veterans high-quality health care. 
Moreover, it is demeaning to staff who dare to care and 
advocate for veterans.
    Cuts in staff have already forced the remaining health care 
workers to try frantically to do more and more for veterans 
with less and less staff and resources. Because of shortages in 
staff--but not beds--DVA often turns to the contractor of the 
month on a costly fee basis to get veterans----
    Mr. Knollenberg. Ms. Lee, would you conclude in a moment or 
two?
    Ms. Lee. Yes, I will.
    Mr. Knollenberg. Thank you very much.
    Ms. Lee. For example, in fiscal year 1998, the Minneapolis 
VA Medical Center paid roughly $3 million to hospitals because 
the facility lacked the staff to perform basic inpatient care.
    That concludes my statement, and I thank you for the 
opportunity to testify on behalf of VA employees.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you.
    Questions for Ms. Lee?
    Mrs. Meek. I just want to say it is a very compelling 
testimony.
    Mr. Knollenberg. This kind of reflects on what we heard 
last week, if you recall, so thank you very kindly. Any other 
questions?
    [No response.]
    Mr. Knollenberg. Thank you very much.
    Ms. Lee. Thank you.
                              ----------                              


                                         Wednesday, April 28, 1999.

                NATIONAL UTILITY CONTRACTORS ASSOCIATION


                                WITNESS

DAVID R. CONNER, VICE PRESIDENT
    Mr. Knollenberg. Now, the gentleman that was introduced by 
Mr. Goodlatte, Mr. Conner, is here. So you are on. If you want 
to come front and center to pick up better on the microphone, 
it might help.
    Your testimony will be entered into the record in its 
entirety, both written and oral.
    Mr. Conner. Good afternoon. I really appreciate the 
introduction by Congressman Goodlatte.
    I was surprised that the National Utility Contractors asked 
me to come speak on their behalf. I am not a public speaker. I 
really think the reason they asked me to come is because of 
what I am. I am a small utility contractor in southwest 
Virginia, and we have given you the written statement of our 
needs and our opinions about the SRF funds, but I am not going 
to try to recount that. You have the written statement.
    I want to stress that funding of these wastewater projects 
brings work to all the areas. As a contractor, the majority of 
our work comes from projects or, at least in part, funding from 
the SRF programs.
    The city of Lynchburg, Roanoke City, Montgomery County--all 
have had projects recently as a result of funding. These 
projects provide jobs to people in their areas. They bring 
water and sewer to people that definitely need these public 
services. Instead of a sewer being dumped in the rivers and 
streams, it is collected and taken to wastewater treatment 
facilities.
    These improvements basically contribute to the improvements 
to the environment. They contribute to the overall improvements 
to the quality of life and people in the area.
    Bill Hillman, who is with me--this is a list composed in 
1996 of the needs of all our States, composed by the EPA, 
roughly $139 billion of needs. Currently, that has been 
upgraded to over $200 billion of needs.
    Virginia alone has 213 facilities that have 20-year 
projected needs as far as upgrades and improvements at an 
estimate cost of $4.3 billion.
    In the statement that NUCA has provided, we basically have 
stressed it is critical that current funding be maintained. The 
proposed cuts are really dangerous to us. The Clean Water SRF 
Program is doing a superb job in the projects it helps fund. 
The EPA assessment reaffirmed the need for the programs.
    We also strongly support the Drinking Water SRF Program.
    In summary, basically I am just asking you to consider the 
statements we have made. I thank you for the time you have 
given us. I am speaking as a contractor and saying, hey, I am 
out there in the field, I see the good it does.
    I appreciate your time.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. And you are a good public speaker.
    Mr. Conner. Thank you very much.
    Mr. Knollenberg. Any questions?
    [No response.]
    Mr. Knollenberg. Thank you.
    I want to recheck. Is Michael Marvin in the room?
    [No response.]
                              ----------                              


                                         Wednesday, April 28, 1999.

                         PUBLIC UTILITIES BOARD


                                WITNESS

ROBERT H. LACKNER, CHAIRMAN, PUBLIC UTILITIES BOARD
    Mr. Knollenberg. The next gentleman would be Robert 
Lackner, chairman of the Public Utilities Board. Mr. Lackner? 
You may begin. We welcome your testimony.
    Mr. Lackner. Thank you. Mr. Chairman, committee members, my 
name is Robert Lackner. I am the chairman of the Public 
Utilities Board of the city of Brownsville. To my right is 
Oscar Garcia, a board member, and John Bruziak, who is our 
general manager.
    Our purpose for being here today is to first thank you for 
the assistance last year in providing $2.5 million to allow for 
the initial studies and regional coordination needed to 
initiate the Brownsville Weir and Reservoir project and, 
second, to request an additional $3.5 million from the Border 
Environmental Infrastructure Fund to provide the Federal share 
of the design and engineering for the next stage of the 
implementation for the Brownsville Weir and Reservoir project. 
The lack of a stable, long-term water supply in Brownsville and 
other lower Rio Grande communities is the top environmental 
need in the entire south Texas region.
    The Brownsville Weir and Reservoir project is the most 
feasible way to meet this need. It provides a means for 
capturing Rio Grande water that has passed all other river 
water users and which now flows directly into the Gulf of 
Mexico. The Weir is the most efficient way to conserve water 
for the use of the local communities.
    We cannot build the project without Federal environmental 
funding assistance. The Brownsville Public Utility has spent $3 
million on hydrology and preliminary environmental studies for 
this project. As a multi-jurisdictional bi-national effort, we 
need one source of funding for this initial design and 
engineering phase. This is exactly the type of project that the 
Border Environmental Fund was designed to help, but we have 
found that in order to move this project along in a timely 
manner, there must be congressional direction given on 
expenditure of the funding in the appropriations bill.
    We believe that EPA, NADBANK, and the Border Environment 
Cooperation Commission staff agree that a congressionally 
mandated provision is the most effective approach. Thus, we are 
asking you to earmark $3.5 million out of the BEIF $100 million 
in funding requested by the administration.
    Thank you again for your kind support. This committee has 
already done more to assure a long-term water supply for over 
half a million people in the South Rio Grande area than any 
other organization or resource. We urge you again to assist us 
in completing the engineering and design for the Weir.
    I would be happy to take any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much, gentlemen.
    Anybody on the committee have a question?
    Mr. Mollohan. Thank you for your testimony.
    Mr. Knollenberg. We appreciate your coming forward.
                              ----------                              


                                         Wednesday, April 28, 1999.

            AMERICAN COUNCIL FOR AN ENERGY-EFFICIENT ECONOMY


                                WITNESS

HOWARD GELLER, EXECUTIVE DIRECTOR
    Mr. Knollenberg. Mr. Howard Geller? Very good.
    Mr. Geller is with the American Council for an Energy-
Efficient Economy.
    Mr. Geller. That is correct.
    Mr. Knollenberg. We welcome you and look forward to your 
testimony. You may begin.
    Mr. Geller. Thank you. Good afternoon. I am the executive 
director of the council, which is a non-profit group dedicated 
to advancing energy efficiency both for economic and 
environmental reasons.
    I am here to speak on behalf of the climate change 
technology programs, particularly the energy efficiency and 
pollution prevention programs, run out of EPA's Air Office.
    These programs are quite a success. Thousands of businesses 
are receiving information training, recognition, and support in 
their efforts to upgrade the energy efficiency of their 
facilities. Something like 13 percent of the commercial and 
public sector floor space of the country has signed up for 
these programs. About 4 billion square feet of floor space has 
been retrofit. The program is also engaged in labeling energy-
efficient products: personal computers, printers, copiers, 
appliances, heating equipment, windows. They are starting to 
label energy-efficient TVs, VCRs, cable boxes. You name it, 
they are working on labeling energy-efficient products, making 
it easy for consumers to identify and purchase energy-efficient 
products. I think something like 1,200 manufacturers have 
products that are now labeled. Consumers--as you can see from 
the press release we put out, we did a survey recently and 
found that consumers indeed are aware to a high degree of these 
labels and are using them to help them make a sensible 
purchase.
    These are voluntary programs. There are no subsidies 
involved. Consumers are spending their own money. Businesses 
are spending their own money on these upgrades. They make 
sense. They are reducing energy use, which reduces pollution at 
the source. All kinds of pollutants are reduced, 
NO<INF>X</INF>, SO<INF>2</INF>, greenhouse gas emissions. Very 
cost-effective. EPA estimates that these programs have led to 
about $4 billion investment in energy-efficiency improvements 
since their start-up around 1991. And the investments will save 
consumers something like $19 billion over the life of these 
measures in reduced energy bills. So a five to one return for 
consumers.
    For every dollar spent by EPA on these programs, consumers 
are reducing their energy bills by about $75. We believe that 
is a great deal for taxpayers, 75 to 1 return. It is taxpayers' 
dollars going in and energy bills being reduced 75 to 1.
    There is a requested increase in these programs in order to 
expand the coverage. There are still additional products that 
they are trying to label, working with more and more companies 
every year. They need to adequately serve the participants with 
the training and so forth. And we urge the subcommittee to look 
kindly upon these programs. We realize it is a very tight 
budget year, but in terms of environmental programs, I think 
there is a lot to say for these programs as a high priority in 
our Nation's strategy for meeting our environmental goals. This 
is saving money. It is not like putting scrubbers on power 
plants that cost money for protecting the environment or 
putting catalytic converters in cars. I am not opposed to those 
things, but I just want to point out that this is a way of 
cutting pollution that is cost-effective, that has a positive 
economic return, not just a cost. There is a cost for improving 
efficiency, but you reduce your energy bills.
    So they are doing a great job at EPA, very creative, 
talented people running these programs. I urge your strong 
support.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Let me just ask one question. And, 
incidentally, I would say to any member that if they want to 
submit their questions in writing, they can. That will afford 
us a little more time and a little less of a question of time 
here.
    But I do have this question, which you can respond to in 
writing, the ratio of 75 to 1, if you would get that 
information to me as to how you architected that relationship.
    Mr. Geller. Sure, let me just tell you----
    Mr. Knollenberg. If you can get 75 to 1, you get a little 
suspicious.
    Mr. Geller. Right.
    Mr. Knollenberg. But you also----
    Mr. Geller. That is EPA's number. I will submit some 
background for it. They just put out a 1998 annual report on 
the programs, and that number is straight out of there, the 
annual report. Hopefully they are doing the numbers right.
    Mr. Knollenberg. If you can detail that----
    Mr. Geller. I would be happy to do that.
    Mr. Knollenberg. Thank you very much. We appreciate your 
testimony, Mr. Geller.
    Mr. Geller. Thanks for your time.
    Mr. Knollenberg. Anybody?
    Mr. Mollohan. I appreciate your testimony.
    Mr. Knollenberg. Thank you.
                              ----------                              

                                         Wednesday, April 28, 1999.

  CLEAN WATER STATE REVOLVING FUND AND DRINKING WATER STATE REVOLVING 
                                  FUND


                                WITNESS

VIC WESTON, THE ASSOCIATED GENERAL CONTRACTORS OF AMERICA
    Mr. Knollenberg. Mr. Vic Weston with the Associated General 
Contractors of America. Welcome, Mr. Weston.
    Mr. Weston. Good afternoon, Mr. Chairman.
    Mr. Knollenberg. We appreciate you coming forward. So you 
are on.
    Mr. Weston. Thank you. I appreciate the opportunity.
    As the chairman mentioned, my name is Vic Weston. I am a 
contractor from Baton Rouge, Louisiana, and I am also the 
chairman of the Associated General Contractors Municipal 
Utility Division. I am addressing the Clean Water State 
Revolving Fund, and AGC appreciates the opportunity to present 
testimony in strong support of this and the Drinking Water 
State Revolving Fund.
    These two revolving funds, based on assessments taken 
before they started, have been tremendously successful programs 
that were established to meet Federal mandates.
    AGC is proud of the significant role the construction 
industry has played in improving water quality. Our members 
build and rehabilitate these facilities that are funded by 
these two programs, which have been responsible for needed 
water quality improvement.
    However, the needs are still staggering. In the 
Environmental Protection Agency's first report to Congress in 
January of 1997 entitled ``Drinking Water Infrastructure 
Needs,'' the EPA reported that the Nation's 55,000 community 
water systems--that's a whole lot of systems--must invest a 
minimum of $138 billion over the next 20 years to install, 
upgrade, or replace this infrastructure. Of this total, $12.1 
billion is needed immediately to meet the current Safe Drinking 
Water Act as it mandates. The EPA's report is a conservative 
estimate because many of the systems surveyed were unable to 
identify their needs for the full 20-year period, which is 
understandable with some of the smaller systems.
    In fact, a more complete and independent study released in 
October of last year by the American Water Works Association 
found that the capital investment needs for the water supply 
community over the next 20 years is actually $325 billion as 
opposed to $138 billion. That is nearly four times the 
conservative estimate generated by EPA and updated in 1998 
dollars.
    In addition to the extensive capital needs, the American 
public is very concerned about water quality, and there is 
broad-based support for the Federal Government investing in the 
effort to clean up our water supply. In a recent study 
commissioned by the Rebuild America Coalition, which I think 
you are all familiar with--that is quite an outfit, and I know, 
Congressman, you like numbers--66 percent of the American 
people from all areas of the country describe spending on 
America's infrastructure as a ``strong investment in America.'' 
This next percentage--and keep in mind this was done by the 
Rebuild America Coalition--even more, 74 percent of those 
people surveyed were willing to pay 1 percent more in taxes if 
it meant you could guarantee a safe and efficient sewer and 
water treatment system. The support transcends party lines, 
carrying overwhelming support from Republicans, Independents, 
and Democrats.
    Despite the extensive needs and tremendous support from the 
American people, President Clinton's fiscal year 2000 budget 
proposes cutting the Clean Water State Revolving Fund from 
$1.35 billion to $800 million, a $550 million cut or a 41 
percent reduction.
    Equally disturbing is a new proposal by Senator Ron Wyden 
to direct a significant portion of the Clean Water State 
Revolving Fund money to promote ``smart growth'' of cities and 
suburbs. Senator Wyden has said the plan would set aside a 
portion of clean water dollars and then invite applicants to 
produce creative homegrown solutions to urban sprawl. With 
mounting wastewater needs, it is hardly time to divert the 
precious and limited funding from these important State 
revolving funds. The issue is too important to be shortchanged 
in favor of the latest political campaign fad.
    AGC believes in these times of economic prosperity, with 
the increasing need in our Nation's drinking water and 
wastewater, now is not the time for the Government to lessen 
its commitment to clean water. Towards that end, the Associated 
General Contractors urges Congress to appropriate stable--and I 
believe that is the key word--annual funding of at least $1.5 
billion for the Clean Water State Revolving Fund and $1.2 
billion for the Drinking Water State Revolving Fund.
    Mr. Chairman, that concludes my remarks, and not reading 
from the paper, but telling you I sincerely I appreciate the 
opportunity to address this group today.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mr. Weston, thank you very much. We have 
your statement, and the written statement will be included, 
obviously.
    Any questions from the committee for Mr. Weston?
    [No response.]
    Mr. Knollenberg. Thank you.
    Mr. Weston. Thank you for your attention.
    Mr. Knollenberg. Thank you very much.
    Mrs. Meek, would you want to introduce the next two 
individuals? You can do it in tandem. You can do it right now. 
They will appear one at a time, of course.
    Mrs. Meek. All right.
    Mr. Knollenberg. Why don't we have you do that?
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. CARRIE MEEK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mrs. Meek. Thank you, Mr. Chairman, for allowing me the 
opportunity to introduce these two individuals.
    The first one is Cyrus Jollivette from the University of 
Miami, and, of course, we have worked with him over the years, 
Mr. Chairman, and he has done an outstanding job at the 
University of Miami. I must say I am a little biased when 
people come before us from the University of Miami.
    And you wanted me to do both at one time, and I will do 
that. Sitting in the rear waiting--he is on deck waiting, he is 
not Sammy Sosa but he is on deck--is the mayor from Miami 
Beach, Mayor Kasdin, who is here to make a presentation to the 
subcommittee. And I wish very, very optimistic results, Mr. 
Chairman, for both of them.
                              ----------                              

                                         Wednesday, April 28, 1999.

                          UNIVERSITY OF MIAMI


                                WITNESS

CYRUS JOLLIVETTE, VICE PRESIDENT FOR GOVERNMENT RELATIONS
    Mr. Knollenberg. We will start with Mr. Jollivette. We 
welcome you here.
    Mr. Jollivette. Thank you very much, Mr. Chairman, and 
thank you, Mrs. Meek. I really appreciate this opportunity to 
talk with you today on behalf of the Rosenstiel School of 
Marine and Atmospheric Science at the University of Miami. Our 
marine school is the only oceanographic research institution 
that is located in the continental U.S. in the subtropical 
climate. What we are seeking your support for are two important 
initiatives: the National Center for Atlantic and Caribbean 
Coral Reef Research, and the Advanced Tropical Remote Sensing 
Center.
    What we are trying to do is seeking to build on our long 
history of leadership in both of these areas, in coral reef 
research and in satellite remote sensing. We are very hopeful 
that the committee will continue the support it provided last 
year through the Environmental Protection Agency for the Coral 
Reef Research Center.
    As you well know, coral reefs are the only ecosystem on 
Earth constructed entirely by the secretions of a complex 
assembly of marine animals and plants. These are very, very 
important economic resources for us and sources of food, 
medicinals, building materials, and coastal protection.
    Unfortunately, changes in water quality due to coastal 
development, environmental changes, potentially brought about 
by global climate change and over-exploitation of coral reef 
fisheries resources, are contributing to what really is a 
worldwide coral reef deterioration situation at an alarming 
rate, particularly in the Caribbean region.
    U.S. coral reef research has been historically piecemeal, 
with few attempts at interdisciplinary, process-oriented 
research. And with the establishing of the Coral Reef Center 
last year, it has provided the opportunity for the coordination 
of the Nation's coral reef policy research and the ability to 
assemble major national and international initiatives 
pertaining to coral reefs.
    The long-term implementation strategy for the center 
involves agencies already working along with core Florida 
institutions in the Rosenstiel School on one or more components 
of the reef challenge.
    For fiscal year 2000, we respectfully request that you 
allocate $2 million through the EPA to continue this important 
initiative and to expand the reach of the coral reef research 
program.
    Next, Mr. Chairman, my colleagues are seeking your support 
for the Advance Tropical Remote Sensing Center in south 
Florida. We are seeking to establish a state-of-the-art data 
station with multi-satellite, multi-sensor capability that 
would include NASA's EOS platforms and synthetic aperture 
radar, or SAR, capability that will fill a glaring gap in the 
Nation's satellite downlink capability.
    SAR is a powerful remote sensing system operating in all 
weather, day or night, and it has a host of civilian and 
scientific applications, really too diverse to discuss in the 
limited time available today, but my colleagues and I certainly 
are willing to provide additional information to you if it is 
required.
    Unfortunately, the Nation's current infrastructure 
precludes most applications for the southeastern U.S. and the 
Caribbean. Our area, our region, lacks its own ground receiving 
station, so even though satellites frequently pass over, data 
must now be downlinked by complicated means, making real-time 
operations impossible.
    The proposed ground station would greatly enhance SAR-based 
research and operational monitoring in the southeastern U.S., 
the Caribbean Basin, the Gulf of Mexico, Central America, and 
northern South America.
    We respectfully request, Mr. Chairman, that you provide $3 
million through NASA so that the agency and the Rosenstiel 
School can cooperate in the establishment and operation of a 
needed SAR ground facility.
    My colleagues and I understand what a very difficult year 
it will be and the difficult decisions that you will face. But 
we hope you will give serious consideration to these requests 
for support of these initiatives. We believe that they have 
great implications and will provide exceptional benefits to the 
well-being of the Nation.
    I appreciate the opportunity to appear before you today, 
and now, Mr. Chairman, I want to ask if I may have a personal 
moment as I end.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you very much.
    Mr. Jollivette. Okay. If I could have a personal moment?
    Mr. Knollenberg. Sure.
    Mr. Jollivette. I would like to wish the gentle lady from 
Florida, the 17th Congressional District, a happy birthday 
tomorrow.
    Mrs. Meek. Thank you. [Laughter.]
    Mr. Jollivette. Mrs. Meek is my mentor and my friend of 
very, very longstanding, long before her time in the Congress, 
long before even her time in Florida's Legislature. And I want 
to say happy birthday.
    Mrs. Meek. Thank you so much.
    Mr. Knollenberg. I presume that--I am sorry, Mrs. Meek?
    Mrs. Meek. I just want to thank him very much.
    Mr. Knollenberg. Incidentally, that is the piece of cake 
that is waiting for you in the back room?
    Mrs. Meek. Yes, there is a cake for me today, and the young 
man sitting to your right, his birthday--we are both Tauruses, 
Mr. Frelinghuysen and I----
    Mr. Frelinghuysen. That is why we are so well behaved. 
[Laughter.]
    Mr. Knollenberg. Well, Mr. Jollivette, thank you very 
kindly, and we appreciate your testimony.
                              ----------                              

                                         Wednesday, April 28, 1999.

                          CITY OF MIAMI BEACH


                                WITNESS

HON. NEISEN KASDIN, MAYOR OF THE CITY OF MIAMI BEACH
    Mr. Knollenberg. We will now turn to the mayor.
    Mrs. Meek. Mr. Chairman, we have another colleague here, 
esteemed colleague.
    Mr. Knollenberg. We do, indeed. Mr. Shaw?
    Mr. Shaw. I am here simply to back up the mayor. Whatever 
he says, I agree with. [Laughter.]
    I have been through many hearings, and I know what you 
want.
    Mr. Knollenberg. Mr. Mayor, we appreciate you coming before 
us. We look forward to your testimony.
    Mr. Kasdin. Mr. Chairman, members of the committee, thank 
you very much for giving me the opportunity to speak, and also 
I would say that it feels very good to be introduced by 
Congressman Shaw and to be received by Congresswoman Meek makes 
my visit to the Capitol feel very good.
    We have presented our testimony to you, so I will try to 
summarize the key points given the amount of time that we are 
allotted.
    We have a number of projects, very interesting projects, 
that have been thought out by the city over a long period of 
time and are in the processes of implementation as we speak 
right now.
    The first project is the North Shore Open Space Park in the 
North Beach Recreational Corridor Project. The Recreational 
Corridor Project is part of a project linking the entire city 
and the entire coastline area in a series of recreational 
corridors which people can use to either bicycle, rollerblade, 
walk, job, both for recreation but also for transportation, as 
we are in a city where many people use alternate means of 
transportation due to our high density.
    The North Beach Recreational Corridor Project is a 
significant portion of that which would link the North Shore 
Open Space Park, the city's largest park, 35 acres on the 
Atlantic Ocean, with a series of other parks in the North Beach 
area of Miami Beach, which would in turn link up the entire 
Recreational Corridor Project with the city.
    The North Shore Open Space Park is an area of ecological 
interest. It has one of the last remaining dune systems. It has 
a wonderful beach, a turtle hatchery. It is a tremendous 
recreation resource, and we are seeking funds for making this 
into a full recreational resource. We have secured $3.1 million 
from the County Park Fund Improvement Program and $840,000 of 
ISTEA enhancement funds. Another $3.2 million appropriation 
which we are seeking from you would enable us to complete this 
project.
    We also have before you a water and sewer revitalization 
project. The City of Miami Beach is in the process of redoing 
its entire storm water and water and sewer system, which 
basically have not been redone since the system was first 
built, in some instances, as much as 70 or more years ago.
    This is being done for environmental reasons. Storm water 
runoff into Biscayne Bay, which is one of the major regional 
resources of all of South Florida is creating environmental 
problems that have to be dealt with.
    In addition, the old system had a tremendous amount of salt 
water intrusion which was leading to a lot of wasted use of 
water in our system. We are in the midst of a five-year capital 
improvement program, $105 million program, to redo the city's 
entire water and sewer system to deal with all of these issues 
that I have described to you.
    The city is committed to fund and has already funded a 
substantial portion of that and will be funding in excess of 
$90 million. We are looking for a $10 million match from the 
Government.
    The next project that we have brought before you is the 
Indian Creek Waterway Revitalization and Greenway Project. This 
would actually tie into the North Beach Recreational Corridor 
Project because when you come down the beach from North Beach 
you enter into the area which is Indian Creek. That is a main 
waterway that runs through the heart of the City of Miami 
Beach.
    You might be familiar with it because many of the great 
hotels in the city line Indian Creek, such as the Fountainbleu 
Hotel.
    Mr. Knollenberg. Mayor, this time thing gets away from us 
but if you would kindly complete your remarks. We are trying to 
keep on a timetable here.
    Mr. Kasdin. Okay.
    Mr. Knollenberg. Thank you.
    Mr. Kasdin. What this would do is allow us to clean up 
environmental problems at the Creek resulting from bulkheading 
and water runoff into the Creek would recreate a natural 
shoreline which would be good for the wildlife that is within 
Indian Creek as well as serve as a recreational amenity.
    And the other project is a Coastal Erosion Initiative which 
I have submitted to you information on. It is a plan which 
would get us out of the cycle of constantly having to replenish 
the sand on the beach which is very expensive and which the 
Federal Government has paid most of. This project would allow 
us to recapture the sand by creating a series of artificial 
coves and, therefore, have perhaps a permanent solution to the 
problem of beach erosion.
    Thank you very much for the time you have afforded me and 
we look forward to your positive actions.
    Mr. Knollenberg. Do either Mr. Shaw or Mrs. Meek care to 
make any comment?
    Mrs. Meek. I just can say amen, Mr. Chairman.
    Mr. Shaw. I love that lady.
    Mrs. Meek. Mr. Chairman, I call Clay Mr. Beach Erosion. He 
has been working on this for so many years, these environmental 
problems. I appreciate that.
    Mr. Shaw. I just have to jump in here one second to say 
that the beach erosion, and particularly, when people are 
trying to look for a permanent solution, this is something we 
desperately need to find a cure for because it is a constant 
problem. And the washing that occurs and it occurs for many 
reasons, not only the construction on the land but also where 
inlets are put and what not and it is just a huge problem.
    And down in Dade County, the problem is particularly acute 
because we are running out of sand. So, I think that any of 
these programs that help to find another way to do this is 
something that this committee ought to take a very, very hard 
look at and in a very favorable light.
    Mr. Knollenberg. Thank you both.
    Mr. Mayor, thank you, very kindly.
    Mr. Kasdin. Mr. Chairman, thank you.
    Mr. Knollenberg. Your entire testimony, obviously, will be 
in the record.
    Mr. Kasdin. I would also like to say, happy birthday, as 
well, if I might.
    Mrs. Meek. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Congressman Payne from New Jersey is here. 
So, we would like to welcome him for his testimony.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Knollenberg. Congressman Payne, I believe, is going to 
be speaking on behalf of Sharpe James, the Mayor of the City of 
Newark, New Jersey.
    So, Congressman, please proceed and welcome to the 
subcommittee.
    Mr. Payne. Thank you very much.
    Mrs. Meek. Mr. Payne, we have already seen you once today.
    Mr. Payne. Some of these others were not here.
    Give me an Amen before we start and maybe that will start 
us in prayer.
    But I will certainly conserve time. I would have given a 
lavish introduction to the Mayor. So, I saved a lot of time for 
that and I will just get right into the testimony.
    Mr. Chairman, thank you.
    I am here to talk about four projects in the City of Newark 
and I will try to get through them. Newark is a great city. It 
is moving forward. There is a lot of revitalization going on. 
Many in the town call ourselves the Renaissance City. But we do 
need help.
    Newark is the largest city in New Jersey with about 275,000 
people. It ranks 63rd in the nation. Only 24 square miles. So, 
it is the smallest of the country's top 100 cities and it is 
the fifth highest densely populated city in the country.
    We have very little livable space. Medium income is just 
$25,000, although our State is close to $50,000. So, we have a 
lot of poverty.
    And 29 percent of the people are under the age of 18 and 
one-fourth of the people in my city live below the poverty 
level.
    The first project I would like to talk about is the Urban 
Parks Restoration Initiative. The second will be the Southside 
Interceptor, the third is Newark's Sports and Entertainment 
Complex, and the last is the Newark Museum Science Initiative.
    The Urban Parks Restoration Initiative is designed to 
restore the city back to its former beauty. And we think that 
by using parks, landscaping, creating jobs, we will be able to 
move the city forward. So, this project will restore vital 
recreational areas in our city, improve the quality of life and 
green space and most importantly put communities in control of 
their own parks.
    We are seeking the support of the subcommittee for a $5 
million allocation for that project.
    The second project is one that will have a tremendous 
impact on the redevelopment of industrial properties close to 
the Newark International Airport known as the Airport Support 
Zone. This area is located immediately adjacent to the 
Northeast Corridor Rail Line, the airport monorail extension, 
and a proposed hotel and conference center is sought for that 
area.
    In order to accomplish this the businesses must have 
certain drainage. We have flooding there and I will not go into 
the problems it caused but the South Side Interceptor Queens 
Ditch are the principle storm water drainage system. And for 
that project we are asking $10 million, the combined costs of 
that project.
    The third project I would like to briefly mention is the 
Newark Museum Science Initiative. The museum is recognized as 
one of the nation's leading cultural institutions and serves 
almost half a million adults and children each year. Science-
related programs draw visitors from all over.
    Realizing the opportunity to attract large audiences, the 
museum has embarked on a new science initiative. In planning 
the program, the museum staff is guided by our principles of 
Goals 2000 and other programs that we think we can bring many 
people to the city. We would like to ask the committee for $2 
million in support of the Science Initiative. The city is going 
to put up that amount. And the museum, itself, will raise $5 
million.
    And the final project that I will briefly mention is a 
major economic development initiative that will create a 
professional sports and entertainment center in the center of 
downtown Newark. It is being planned by a consortium of private 
businesses, nonprofit representatives, and the city 
administration. It will be a focal point for sports, 
entertainment, conventions and jobs.
    The complex will be a catalyst to the evolving creation of 
a vibrant downtown corridor. It will have as anchors the New 
Jersey Performing Arts Center, Gateway Complex, the Newark 
Museum, the main library and the new Penn Station refurbished 
and a new Joseph Minish Waterfront Park and the North Bears 
International League Baseball Team will come back.
    Also, the sports center will include a coveted multi-
purpose sports arena with 19,000 seats, parking, a new 
television and broadcast complex, up to 2 million square feet 
of new commercial and retail space, including hospitality 
facilities. We expect to draw 2 million fans a year to this 
entertainment events, such as NBA Basketball, MLS Soccer, 
circuses, conferences and trade shows.
    So, a unique aspect of this particular project is that the 
persons who are going to put this up have made an investment 
and 40 percent of their profits will go to nonprofit groups 
helping children and so forth.
    So, we would also appreciate if you would consider support 
for this particular project. I do not see a dollar amount. But 
$15 million is what we would request.
    And as you see, I have tried to rush through in the four 
minutes allocated. The entire testimony, as I mentioned, will 
be put in for the record for your close perusal.
    Mr. Knollenberg. Congressman Payne, thank you very much. 
Questions, Mrs. Meek?
    Mrs. Meek. I like the concept of the park neighborhood city 
revitalization plan. It appears to me that strategy would 
really work to give them a sense of pride and really rebuild 
the neighborhood.
    And I think it is a small investment that you are asking.
    Mr. Payne. Thank you very much, I agree.
    Mr. Knollenberg. Congressman Payne, thank you, very kindly.
    Mr. Payne. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Out next witness will be Ms. Pegeen 
Hanrahan on behalf of the City of Gainesville, Florida.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

PEGEEN HANRAHAN, CITY OF GAINESVILLE, FLORIDA
    Mr. Knollenberg. Welcome.
    Did I do injustice to your name in pronouncing it?
    Ms. Hanrahan. Thank you, Mr. Chairman.
    No, you did it perfectly.
    Mr. Knollenberg. Well, good, we are glad to have you here.
    Ms. Hanrahan. I am Pegeen Hanrahan and I am the Mayor Pro 
Tem of the City of Gainesville, Florida. Gainesville is a city 
of about 100,000 and this subcommittee has been very 
instrumental in helping us with a number of our initiatives and 
we thank you very much for the help you have given us in the 
past and certainly Congresswoman Thurman has been very helpful 
as have Senator Mack and Senator Gramm.
    I have a little bit of multi-media presentation. We have 
two projects we are asking for your assistance on today. The 
first is one you are familiar with. It is the Sweetwater Branch 
Payne's Prairie Project. Sweetwater Branch is an urban creek 
that drains some of the oldest and most industrialized areas of 
our city. It is a creek that goes through the major core of the 
city and then enters Payne's Prairie which is a 20,000-acre 
State preserve that has a number of important species.
    But, perhaps more critically, it then enters into the 
Floridan Aquifer which is the primary drinking water source not 
only for our part of the State but essentially throughout the 
State of Florida.
    Last year you did allocate $500,000 toward a $2 million 
project to assist us. We are also, of course, putting our own 
efforts into making this project happen. We have a storm water 
utility fund that raises about $3.6 million a year. And we need 
up to $1.3 million additionally to assist in the land 
acquisition, the design and construction of this storm water 
park.
    It is also very important to economic development because 
as you know most of the older urban areas were built without 
storm water management facilities and today in order for those 
construction projects to go forward we need additional 
assistance in terms of providing that.
    I am going to go ahead and hand out these photographs. 
These are two separate piles of photographs that show some of 
the vision that we have on this project and also on a related 
project. The second project I would like to talk about which is 
the Depot Avenue Project.
    Many of you know, Gainesville, because of the University of 
Florida but, in fact, we have a great deal of our city which is 
living in poverty. In the census tracts which this project 
addresses we have about 35 percent poverty.
    And what we are hoping to do on Depot Avenue is build a 
storm water treatment facility that would actually be an urban 
park that would have, similar to some of the other projects you 
have heard today, a neighborhood component.
    We have a project that was, I am sure many years ago, 
funded through this committee. It is a HUD project right near 
by. We also have our new transit system station which will be 
going right next door.
    And I am going to thank Congresswoman Thurman for joining 
me. And then we also are putting, the City is putting a $40 
million investment into re-powering the Kelly Power Plant. It 
is a turn of the century power plant that we are increasing the 
power output by 5 times while cutting the air emissions in 
half. And it will help us to continue. About 40 percent of our 
city budget comes from our publicly-owned utility.
    But what we really are asking for assistance from you on is 
construction of the Depot Wetlands Park. The park will front 
on--it is a contaminated site now. It is a brownfield which we 
have gotten an EPA brownfield designation from. And there is 
also a National Register of Historic Places train depot there 
and we are working with our DOT to renovate the train depot. We 
did recently get a sustainable development challenge grant for 
that.
    And you can see from the architectural renderings, which 
were done from a design firm out of Miami, in fact. I would 
also like to wish Congresswoman Meek a happy birthday. Since I 
am from Florida, I will join in the voices from Florida doing 
that.
    And I would like to thank Congressman Mollohan for helping 
us out on a number of criminal justice issues. We do have a 
very high crime rate in Gainesville. Per capita, we have one of 
the highest crime rates unfortunately, and we will have a 
police substation in the new transit system.
    The purpose of the map is really just two-fold. One is to 
point out that on our City Seal there is a train. So, Depot 
Avenue is very important to our history. And, as you hopefully 
have seen from the photographs, the old historic depot is 
currently basically in terrible shape. And because it is on the 
National Register we do wish to restore it.
    And also all of the projects which I have just mentioned 
including a $13 million private investment, which the city has 
helped out with $2 million, are within a six-block area.
    So, with that I will conclude.
    Mr. Knollenberg. Great. You came within just a spec of the 
mark. That is good.
    Congresswoman Thurman, you are here. Do you have any 
comments?
    Mrs. Thurman. Just fund it. I will be real happy and I will 
not say a word. [Laughter.]
    I thank you for your help in the past.
    Mr. Knollenberg. I am going to relinquish the chair to--
thank you very much, Congresswoman--to Mr. Wicker.
    And it is yours.
    Mr. Wicker [presiding]. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Mr. Michael Hooker of the American Water Works 
Association.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

MICHAEL HOOKER, EXECUTIVE DIRECTOR, ONONDAGA COUNTY WATER AUTHORITY, ON 
    BEHALF OF THE AMERICAN WATER WORKS ASSOCIATION
    Mr. Hooker. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman.
    My name is Michael Hooker and I am the Executive Director 
of the Onondaga County Water Authority. We are located in 
Central New York. Onondaga County Water Authority serves four 
central New York counties. We have about 335,000 residents that 
we serve potable water to.
    I am here on behalf today of the 3,800 utility members of 
the American Water Works Association and its 56,000 individual 
members. Combined the members of the American Water Works 
Association provide about 80 percent of the nation's drinking 
water throughout the country.
    You have our written information from the American Water 
Works Association and the American Water Works Association's 
Research Foundation. I would just like to hit on some of the 
key elements in the written testimony.
    The American Water Works Association is advocating support 
for research as one of our principle focuses of our submittal 
and our testimony. As you are aware, with the Safe Drinking 
Water Act Reauthorization in 1996, five additional contaminants 
will have to be regulated every five years. And the first go 
around is coming in 27 months. So, it is important that we have 
good, sound research that we can apply to making good 
regulations in that respect.
    Also, there is going to be a lot of emphasis on additional 
research that is going to be coming up in the next few years 
and the American Water Works Association and its membership 
have offered its resources and its expertise in this area to 
work with EPA in a stakeholders-type of forum in the future 
year to try to develop some kind of program where we could work 
towards research projects.
    The American Water Works Association is supporting the 
President's request for $41.4 million for EPA for its research 
projects in the coming year. Also, I have had conversations 
with Congressman Walsh over the past couple of years in regard 
to support for the American Water Works Association Research 
Foundation, AWWARF.
    One of the things we are asking for is the continued 
earmark for AWWARF. There was a $4 million request for them 
this year. Of that $4 million, $1 million is specifically for 
research in regard to arsenic, which is a very prominent 
contaminant that we are looking at right now. It is in the 
forefront of things.
    The other $3 million will go to various research projects 
for AWWARF. And over the past four years, AWWARF has had a 
continuing matching program where we have exceeded more than 
dollar-for-dollar the research money that we get from this 
committee. And we have got a commitment from the Research 
Foundation to match dollar-for-dollar the $3 million on that 
side.
    Also, there is a special request for an earmark for $2 
million for East Valley Water District in California for 
studying perchlorate which is solid rocket fuel. And apparently 
there has been a contamination program there and they are doing 
ongoing research in that and we would like to see that 
continued.
    The other thing that is very important to the water 
industry is a State revolving fund, which is part of the Safe 
Drinking Water Act Reauthorization. Over the past 5 years the 
total authorized amount was $5.6 billion. However, to date, 
only $2.4 billion has been appropriated. There has been a 
shortfall of $3.2 billion. Therefore, we are asking that the 
authorized $1 billion again be appropriated for fiscal year 
2000 so that we can not let that gap widen any further.
    Part of the Safe Drinking Water authorization also was $100 
million earmarked for supervision of public water supplies. 
That is for the State Drinking Water Administrators to oversee 
these programs that are being implemented and we strongly 
support that.
    And, finally, the one thing that we also want to support is 
that there is a request for the Clean Water Action Plan of 
$25.8 million. And we feel that that is very important that 
that be supported as well because that goes directly towards 
protecting the drinking water sources throughout the nation.
    And that was my testimony that I had to offer and I would 
be glad to answer any questions or if you need any additional 
materials I will be glad to provide them to you.
    Mr. Wicker. Thank you very much. I will note that Mr. 
Walsh, the chairman of this subcommittee, has a conflict this 
afternoon and regrets that he could not be here with his 
constituent. He wishes you well.
    Mr. Hooker. Thank you very much.
    Mr. Wicker. I thank you for your testimony. I know the 
folks back home in my State, of Mississippi, are very pleased 
with the way the Safe Drinking Water State Fund is working. And 
I hope we can accommodate a number of your requests.
    Mr. Hooker. Thank you very much.
    Mr. Wicker. Mrs. Meek?
    Mrs. Meek. Thank you very much.
    Mr. Wicker. Thank you so much for being with us.
    Mr. Hooker. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Dr. Joseph Mauderly, of the Lovelace 
Respiratory Research Institute of Albuquerque, New Mexico.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

DR. JOSEPH MAUDERLY, LOVELACE RESPIRATORY RESEARCH INSTITUTE OF 
    ALBUQUERQUE, NEW MEXICO
    Mr. Wicker. Now, tell me, did I pronounce your name right?
    Mr. Mauderly. Yes, you did.
    Mr. Wicker. Wonderful.
    Mr. Mauderly. You did very well.
    Mr. Wicker. I practiced all morning. [Laughter.]
    Mr. Mauderly. I am sure you did.
    Mr. Wicker. We are glad to have you here.
    And, please, proceed.
    Mr. Mauderly. Well, thank you, congressman.
    I am here to testify on behalf of the National 
Environmental Respiratory Center which is a research and 
information program focused on developing an improved ability 
to understand and manage mixtures of air pollutants. Now, this 
center was conceived by a number of people in response to the 
growing dilemma which is rapidly becoming identified as the 
single most important air pollution problem and that is that 
our air pollution regulations and our research in response to 
those regulations tend to focus on one pollutant at a time or 
one source at a time, in a repeating, revolving door manner.
    But people do not breathe pollution that way. People 
breathe mixtures of pollutants and that is not a new concept 
but it is a concept that has been ducked by the research 
community and the regulatory community in view of its 
complexity.
    Well, until this center was established there was no 
program in the United States funded to address the air 
pollution mixtures problem. The center was established with 
funding in the fiscal year 1998 EPA appropriation and 
continuation funding was provided in the 1999 appropriation. 
The work is well underway. All the funds that have been 
provided are either spent or committed. And the first thing 
that we did was to establish this scientific advisory committee 
that represents a cross-section of academia, industry, EPA and 
other organizations such as the American Lung Association, to 
develop a strategy. There are many possible strategies that one 
might take.
    The strategy that was developed will not only pass 
scientific muster, but it should generate a great deal of 
consensus among the scientific, regulatory and regulated 
sectors. This strategy consists of a group of studies, 
interrelated studies of real world, man-made air pollution 
mixtures and applying to those mixtures a uniform set of health 
assays that encompass the main health outcomes of concern. And 
those are described in the written testimony in more detail.
    Now, this first matrix of data, upon which subsequent 
research that adds reaction products and natural pollutants 
such as pollens and toxins in the environment, will allow for 
the first time the development of a matrix of data that can be 
rigorously analyzed statistically to determine the 
contributions of each of the hundred individual pollutant 
constituents and the dozens of families of constituents to each 
type of health effect. And that really has not been possible 
before, because such a data base has existed.
    Now, of course, it will also provide a direct comparison 
among these mixtures which will have great utility in 
developing regulatory strategies.
    Now, the work is well underway. We are presently defining 
the details of the first core set of studies. The details of 
the exposures, selecting among the many health assays that 
might be used, which ones are most appropriate.
    Five pilot projects recommended by the advisory committee 
to provide information which would help us design this matrix 
of studies are also underway. Our website information resource 
already contains over 22,000 citations and references on these 
mixtures and their effects which we would hope that Congress, 
as well as others, would find useful.
    Now, an important effort that we have been undertaking is 
raising complementary funding from other sources. It was 
conceived in the beginning that there are many stakeholders in 
this issue and EPA is just one of them. And that most 
appropriately other stakeholders would also share in funding 
this activity. And, so, we committed to trying to develop 
complementary funding.
    We have established meaningful dialogue with approximately 
60 organizations, primarily in the United States but also in 
Europe and Japan, and contributions are beginning to come in. 
We have six organizations that have contributed to the center 
but we are a long way from having the resources that we really 
need to implement the plan our committee recommends. And that 
will take approximately twice what the EPA appropriation has 
been.
    So, I respectfully ask that $2 million be included again 
for the center in the fiscal year 2000 EPA appropriation.
    Thank you.
    Mr. Wicker. We thank you very much.
    Let me just ask. The Lovelace Institute has been going on 
for how long?
    Mr. Mauderly. Well, over 50 years. It started as a health 
clinic in the Southwest. If you saw the movie, ``The Right 
Stuff'' that is where they were pestering the first astronauts 
with their physicals. In the 1980s, when managed care swept the 
country, the health care activities were sold and are operated 
by a for profit organization. The research activities then 
became a separate, not for profit, independent research 
organization, with an emphasis on lung health research and 
environmental research.
    Mr. Wicker. I see.
    Very interesting testimony.
    We thank you very much.
    Mr. Mauderly. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Next we will hear from Professor Kerry 
Sublette, University of Tulsa, IPEC.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

KERRY SUBLETTE, PROFESSOR, UNIVERSITY OF TULSA, IPEC
    Mr. Wicker. We are happy to have you here.
    Mr. Sublette. Thank you, Mr. Chairman.
    On behalf of the Integrated Petroleum Environmental 
Consortium I would like to take this opportunity to thank the 
subcommittee for providing $1.5 million in funding for IPEC in 
fiscal year 1998 and fiscal year 1999 through the EPA Science 
and Technology account.
    Specifically this funding was provided for the development 
of much needed, cost-effective environmental technology, 
specifically for the domestic petroleum industry. I am also 
pleased to report that as envisioned and promised, the 
Consortium has also obtained matching funds for both fiscal 
year 1998 and 1999 of $375,000 from the State of Oklahoma.
    Since December of 1997, Integrated Petroleum Environmental 
Consortium has worked closely with the EPA to meet all of their 
internal requirements for funding a research center. These 
efforts have resulted in a good working relationship with the 
Environmental Engineering Division of the EPA and our grant for 
the fiscal year 1998 appropriation was finally issued in 
September of 1998. So, basically we have been in operation for 
about 8 months.
    I would also like to point out that our EPA project officer 
stated that we were the best organized new EPA research center 
that they had ever seen.
    Integrated Petroleum Environmental Consortium, even prior 
to finalizing our grant with the EPA, we were in the process of 
soliciting and reviewing proposals so that we would be in a 
position to fund these proposals as soon as our grant with EPA 
was finalized. I am happy to report that, thus far, we have 
funded 8 research proposals that promise to help ease the 
regulatory burden of the domestic petroleum industry.
    I would like to point out these projects were first 
reviewed by an industrial advisory board to determine their 
relevancy to our mission and then finally a science advisory 
committee to determine their scientific quality.
    Also, I am happy to report that these first 8 research 
proposals have been funded for a total of $761,000 but the 
investigators on these projects have also brought in another 
$630,000 in matching funds. And this does not include the State 
matching funds.
    When we first came to Congress to ask for an appropriation 
we promised to work for a one-to-one match of all Federal 
dollars and as you can see we are exceeding that promise. In 
fact, Integrated Petroleum Environmental Consortium's history 
so far is one of promises made and promises kept: Promises to 
this subcommittee and to Congress and to the State and to the 
domestic industry.
    Mr. Chairman, a crisis in the domestic petroleum industry 
that I have described in my testimony before this subcommittee 
for the last two years has only gotten worse as the price of 
crude oil continues to fall. With the price of crude oil this 
low, the independent producer is extremely vulnerable to the 
cost of environmental compliance. And this latest drop in oil 
prices is sure to create another wave of business closures and 
plugging and abandonment of wells and reduced new well 
completions.
    The problem is so acute that the Oklahoma legislature in 
special session passed a reduction in the gross production tax 
on the price of oil. However, legislators and independent 
producers, alike, recognize that this measure only delays the 
inevitable if the price remains depressed.
     Mr. Chairman, Integrated Petroleum Environmental 
Consortium is well on its way to fulfilling our pledge to you 
of responsiveness to the needs of the domestic petroleum 
industry and we are continually probing the industry for new 
ways of assisting the industry, continually seeking out cost-
effective technical solutions through an aggressive research 
program. And with the current price of oil, these solutions are 
all that much more critical.
    Mr. Chairman, we are respectfully requesting continued 
Federal support for Integrated Petroleum Environmental 
Consortium in the fiscal year 2000 budget and the State of 
Oklahoma has again pledged significant matching funds against 
the fiscal year 2000 appropriation.
    Thank you, sir.
    Mr. Wicker. Thank you Professor Sublette.
    I am told that a number of my colleagues have already 
approached the subcommittee in support of your request.
    Mr. Sublette. Good.
    Mr. Wicker. And we are glad that we have been able to 
accommodate this program in the past.
    Mr. Sublette. Thank you very much, sir.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Our next witness is Ann Soltis, Great Lakes 
Indian Fish and Wildlife Commission.
                              ----------                              

                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

ANN SOLTIS, GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION
    Mr. Wicker. Now, did I pronounce that correctly?
    Ms. Soltis. You did, Mr. Chairman, thank you.
    Mr. Wicker. We are glad to have you with us.
    Ms. Soltis. Well, thank you.
    Mr. Chairman, my name is Ann Soltis and I am a policy 
analyst with the Great Lakes Indian Fish and Wildlife 
Commission. And Mr. Schlender, our Executive Administrator, 
extends his regrets that he is unable to be here today. But I 
am honored to be here on behalf of our 11 Chippewa Tribes in 
Michigan, Minnesota and Wisconsin. And I want to thank you for 
the opportunity to appear regarding the EPA fiscal year 2000 
and our appropriations request.
    I want to briefly highlight the written testimony that we 
have provided and reinforce why this requested funding is 
important both to provide sound scientific data to assist our 
member Tribes and to ensure their continued involvement in 
Great Lakes policy making.
    Really the thrust of my testimony is to seek Congress' help 
in ensuring that the EPA carries out its trust responsibility 
regarding Chippewa treaties with the United States. And we have 
two priorities for fiscal year 2000.
    The first one is that we are requesting approximately 
$167,000 to assess the impacts of a proposed mine near Crandon, 
Wisconsin. It is proposed as an underground zinc and copper 
mine and it is within the territory that was ceded to the 
United States by the Chippewa Tribes in 1842.
    We are currently participating in the State process and 
also in the Federal 404 Clean Water Act process. We are trying 
to do our part to raise issues. I think the State and Federal 
agencies see the Tribes as a necessary participant in that 
process. And we are providing some valuable input.
    There is really no question that if the mine is permitted 
it will impact resources that are very important to the culture 
and the lifeway of these Chippewa Tribes and that were recently 
reaffirmed by the United States Supreme Court. They said that, 
yes, those rights are, indeed, protected by treaty.
    We have a couple of uses that we want to put this money to. 
One of the main issues in this area where the mine is proposed 
is that it is very water-rich. Hence, the Army Corps involved 
with the Section 404 permit under the Clean Water Act.
    There is a lot of modeling going on trying to assess what 
the impacts of this mine are going to be when they draw-down 
the groundwater underneath the mine to pump the mine dry as 
they do mining. And, so, modeling is a very important aspect of 
the predictions that are being made. And there are in the 
vicinity of the mine wild rice beds that are very important to 
the Tribes. And they really need to have good information about 
what kind of impacts the mine might be expected to have on 
those wild rice beds.
    So, that is one of the uses we are going to make of the 
money. The other use is to gather baseline information. It is 
very hard to say what the impacts on the environment are going 
to be if you do not really know what the environment looks like 
before you do anything to it.
    And, so, we are trying to gather some baseline data to get 
the best picture we possibly can, both to assess impacts and, 
also if the mine does to in, to be able to tell mine-related 
impacts from natural variation within the environment. And that 
is not always an easy thing to do.
    So, we would like to provide some extra focus on wild rice 
and some of the resources that are important to Tribes and this 
money would assist us in doing that.
    That brings me to our second priority for fiscal year 2000 
which is to commend Congress and EPA for recognizing that the 
Tribes are governments that need to be involved in Great Lakes 
Basin programs. Tribes really need to be at the table early and 
often and the Commission has received some funding through the 
Coastal Environmental Management Funds, the Great Lakes 
National Program Office, and through EPA's Environmental 
Justice Small Grants Program.
    And these funds promote two real important goals. The first 
of which is to enable Tribes to be full participants in 
decisions that are going to affect the natural resources that 
they think are important. Secondly, it enables Tribes to 
generate the science that really allows for good policy making.
    CEM funds have been used by the Tribes to continue their 
participation in initiatives such as the Bi-national Program to 
Restore and Protect Lake Superior. This is the body that is 
implementing and developing the lake-wide management plan for 
Lake Superior and also implementing zero discharge 
demonstration zone on Lake Superior for 9 persistent toxic 
pollutants.
    Tribal participation needs to be there both at the policy 
and the technical level so that Tribes can assure that issues 
of concern to them are adequately addressed from their 
perspective.
    Am I running out of time already?
    Mr. Wicker. I think we already have.
    Ms. Soltis. All right.
    Two brief points. In addition to that, the Great Lakes 
National Program Office funding is very important in assisting 
Tribes in doing things in the ecosystem actual projects. Last 
year, Congress provided an add-on in an earmark for GLNPO 
funded projects: Emerging issues projects for $300,000 and 
Exotic Species at $300,000. And we urge them to do that again 
this year.
    The Environmental Justice Small Grants Program was cut in 
fiscal year 1997 by 36 percent. It is a unique program and it 
has done a lot of good and unique work for Tribes and we would 
urge Congress to restore that funding to $2.5 million so that 
some of these new programs can go on, and they are more fully 
explained in the written testimony.
    Thank you.
    Mr. Wicker. Thank you very much for your testimony.
    Let me just ask with regard to this mining assessment. You 
request $167,000, plus. Are other agencies doing technical and 
scientific work on this project also?
    Ms. Soltis. Absolutely. The State is doing scientific and 
technical work and the Army Corps is doing some work, too. But 
we found that they are strapped as well and they are not always 
able to look into some of the Tribal issues as deeply as we 
wish they would. We have a groundwater modeler on staff that 
has been providing comments but we would like to expand that. 
We would like to look a little more in depth at some of these 
wild rice issues and we think that we can only help the 
process.
    Mr. Wicker. Thank you very much.
    Ms. Soltis. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Mr. Robert Peacock, Fund du Lac Band.
    Oh, he is not here today.
    We will move then to Laura Schwingel, of the Coalition of 
Community Development Financial Institutions.
                              ----------                              --


                                         Wednesday, April 28, 1999.

              COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS


                                WITNESS

LAURA SCHWINGEL, THE COALITION OF COMMUNITY DEVELOPMENT FINANCIAL 
    INSTITUTIONS
    Mr. Wicker. Ms. Schwingel, we are glad to have you today.
    Ms. Schwingel. Well, thank you.
    Mr. Chairman and Mrs. Meek, thank you so much for making 
the time for me to have an opportunity to testify today. I am 
here on behalf of the Coalition of Community Development 
Financial Institutions which represents more than 465 CDFIs 
working in all 50 States. And I am here to urge you to support 
the President's request for $125 million for the CDFI Fund.
    In the interest of brevity and time limits, I am just going 
to highlight some key points from my written testimony and that 
will be in four key areas.
    What CDFIs do, why is the Fund important to us, what has 
the Fund accomplished and why we think it is a good idea for 
you to continue supporting the Fund.
    What do CDFIs do? Well, CDFIs are a private sector, locally 
controlled financial intermediaries that create new economic 
opportunity for businesses, individuals and communities that do 
not have access to the mainstream economy.
    CDFIs are based on bipartisan principles of building 
private markets, creating partnerships and providing tools to 
enable poor individuals and communities to become self-
sufficient and stakeholders in their own future.
    Why is the Fund important? Because the Fund invests in 
institutions not just projects. The Fund helps CDFIs better 
able to respond to their markets by increasing their ability to 
manage risk, to enhance capacity and to be flexible in their 
financing, and it helps create permanent community 
institutions.
    The CDFI Fund uses relatively small amounts of Federal 
money to leverage significant amounts of private and non-
Federal dollars, promoting entrepreneurship and self-
sufficiency. In addition to the dollar-for-dollar match 
required of the program for awardees, every dollar of equity 
capital that is invested in a CDFI can leverage between $50-
and-$100 in low-income communities according to trade 
association estimates. And the Treasury Department just said 
that they think it is even more like $100-plus-to-one.
    What has the Fund done so far? In its first three CDFI 
program rounds the Fund has invested or assisted more than 380 
CDFIs in 43 States, Puerto Rico and Washington, D.C. Through 
its Bank Enterprise Award Program, which is an incentive 
program to encourage banks, thrifts and depository CDFIs to 
invest in low-income communities, the Fund has leveraged more 
than $700 million in direct financing services and has 
encouraged $271 million of investment in CDFIs.
    So, why are we asking you to continue to support the Fund? 
The CDFI industry, itself, is experiencing substantial growth 
and demand. Almost 40 percent a year and that is increasing 
partly due to the leverage that the Fund has been able to get 
from private sector investments.
    The Fund programs are consistently over-subscribed. In the 
first three rounds, the Fund has been able to meet less than 20 
percent of applicant demand.
    And although the Fund has begun to penetrate the markets 
that it serves, it can reach farther. The Coalition has 
proposed another window of opportunity for CDFIs through the 
Fund and what we are calling the Small and Emergency CDFI 
Access Program or SECAP. Basically what this program proposes 
is to provide access to limited capital assistance, with a 
streamlined business plan, flexible matching requirements and 
training in technical assistance funding. So, we kind of 
provide a gap between the TA program and the core program that 
is now in place.
    There is no additional set-aside required for this but it 
certainly bolsters the case for an increased appropriation from 
last year.
    And the National Federation of Community Development Credit 
Unions and the Association for Enterprise Opportunity, which 
represents micro-enterprise lenders and micro-enterprise 
organizations, strongly endorse this proposal.
    We urge you to support report language in the appropriation 
bill to make this happen.
    And I just want to close by saying that in this era of 
scarce resources everyone wants the government to use its 
resources strategically and effectively and to maximize impact. 
And given the demand and success of the Fund so far, the Fund 
can really use this support to enable organizations with proven 
track records in the community to expand and diversify their 
services, grow responsibly and sustain themselves.
    I would be happy to answer any questions and thank you for 
your time.
    Mr. Wicker. Thank you very much, Ms. Schwingel.
    I am looking through the written testimony for any mention 
of a loan repayment rate. Are you able to quantify?
    Ms. Schwingel. Well, in general, I mean because there are 
different sectors, kind of the general way that CDFIs across-
the-board, it is comparable to the best banks. I think the 
average for affordable housing, there is a default rate of less 
than 1 percent. So, more than 99 percent repayment rate.
    For business, when they are lending to small business 
entrepreneurs, the average is a little bit higher. I think it 
is closer to between 7-and-10 percent.
    Mr. Wicker. Could you get us something specific on that?
    Ms. Schwingel. Oh, sure, definitely.
    Mr. Wicker. Thank you very, very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. I now hand the gavel to Mr. Sununu, who will 
introduce Mr. Cox.
    Mr. Sununu [presiding]. Thank you, Mr. Wicker.
    Our next witness will be Christopher Cox, the Vice 
President for Development and Communications of Mystic Seaport 
Museum.
    Welcome, Mr. Cox.
                              ----------                              


                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

CHRISTOPHER COX, VICE PRESIDENT FOR DEVELOPMENT AND COMMUNICATIONS FOR 
    THE MYSTIC SEAPORT MUSEUM
    Mr. Cox. Thank you, sir.
    Good afternoon.
    Mr. Sununu. We are pleased that you could join us.
    Mr. Cox. Pleased to be here, thank you for letting me speak 
today.
    I brought some visual aids just because it is sometimes 
hard to see what it is that we are talking about. But Mystic 
Seaport is the largest maritime museum in the United States, 
and it is in New England, of course, and has become the teller 
of the story of America and the sea.
    We have grown as a place to visit but we are also becoming 
a virtual world, and in order to do that we have to organize 
our materials in one place and to make them accessible on the 
Web.
    We have managed several interesting activities that are now 
on the Web. I am certain that if Mr. Gates were here he would 
make a much more colorful testimony than I am able to make 
myself. But we have had some successes in organizing our 
stories of America and how we all got here, not the least of 
which, of course, is that we managed to talk Mr. Spielberg into 
making the movie ``Amistad'' after we got the money to build 
the boat, which we are now building, and she will travel the 
East Coast telling the story of the first civil rights case in 
the United States Supreme Court.
    We are finding that when a museum experience, a learning 
cultural organization is in the world and providing programs it 
sometimes comes down to parking. And you sometimes run out of 
parking. We have run out of parking in the busy time of the 
year. So, that this $25 million project, which we hope to have 
the Federal Government participate in 20 percent--it has 
already had invested $4.5 million in this project and the State 
has responded handsomely as has individuals.
    We are getting close to the time where we can finish the 
first part of this renovation of the historic Velvet Mill to be 
the American Maritime Education and Research Center. And we 
have done, the University of Connecticut Center for Economic 
Analysis and Economic Impact, and it is extraordinary the 
amount of dollars that we can generate, that we have, in fact, 
submitted to you in our written testimony that Mr. Gejdenson 
has sent forward.
    So, in conclusion, for fiscal year 2000 we are seeking $1 
million, the remaining Federal share of approximately this 20 
percent, through the Housing and Urban Development Economic 
Development Initiative. And if you have the money, we would 
like to have you participate some more in our project.
    Thank you.
    Mr. Sununu. Thank you very much, Mr. Cox.
    Mrs. Meek, any questions?
    Mrs. Meek. No, Mr. Chairman.
    Mr. Sununu. Thank you very much, Mr. Cox.
    Mr. Cox. Thank you very much.
    Mr. Sununu. I appreciate you taking the time to testify.
    Mr. Cox. It is always good to speak in front of another New 
Englander. [Laughter.]
    Mr. Sununu. The same here, thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Our next witness will be Paul A. Hanle, 
representing The Academy of Natural Sciences.
                              ----------                              


                                         Wednesday, April 28, 1999.

                      ACADEMY OF NATURAL SCIENCES


                                WITNESS

PAUL HANLE, PRESIDENT AND CEO, ACADEMY OF NATURAL SCIENCES
    Mr. Sununu. Mr. Hanle, welcome to the committee.
    Mr. Hanle. Thank you very much, Mr. Chairman.
    Mr. Sununu. I appreciate your being here and we will yield 
you the floor.
    Mr. Hanle. Well, thank you very much for giving me the 
opportunity to testify about a project of national 
significance. I am the President of the Academy of Natural 
Sciences in Philadelphia, which is the oldest operating natural 
history museum in America, founded in 1812. And we believe it 
is considered one of the world's leading research institutions, 
research museums.
    The Academy's mission is to expand knowledge of nature 
through discovery and to inspire stewardship of the 
environment. And both discovery, that is research, and 
stewardship are strongly linked and we expect are strongly 
linked in a project that I would like to describe to you which 
we are asking for support for.
    I should mention also that since 1948 under the leadership 
of Dr. Ruth Patrick, the Academy has--who, I should also say is 
a National Medal of Science Recipient in 1996--the Academy has 
operated an internationally renowned water quality assessment 
program and that program continues strongly until this day.
    The program that I would like to present today is an 
integrated research and education program that focuses on urban 
watersheds in Pennsylvania and Maryland and other neighboring 
Middle Atlantic States. And our goal is to reach out and engage 
the public in recognizing the importance of maintaining 
watersheds that affect the Delaware and the Chesapeake Bays. 
So, the Urban Rivers Awareness Project is designed to educate 
the public about the importance of watersheds in general and it 
has a goal of getting students and teachers and the general 
public, ordinary citizens pro-actively involved in protecting 
the water.
    And I wanted to mention that it has four components. But 
perhaps the number one component that is most exciting is that 
we want to bring students to the riverbanks, right up to the 
edge of the river, and we will bring our research vessels, 
black-bottom boats that we use for doing the science and 
monitoring the water, up to that riverbank and get those 
youngsters on the river, taking water samples, working side-by-
side with our scientists and with volunteers to appreciate what 
the condition of this water is.
    That if there is life in there that is teeming, we have 
reason to believe that it is healthy water. But if there is 
nothing there, it is dead, then that water is probably pretty 
badly polluted. And that this is relevant to their lives, 
because that water provides the sustenance for them and it is 
the drinking water, it is the water that lets them live in this 
place that they live in surrounded by or has running through it 
this river that they are on.
    We also want to have an in-museum and public outreach 
program that takes this experience to others who will come to 
our museum and to community centers and schools and engage and 
enable students and families to develop an awareness of urban 
environments.
    And, incidentally, that will be enabled through an 8,000-
square foot watershed exhibit and learning experience in the 
Academy's Public Museum in Philadelphia, as well as a watershed 
education website that offers interactive learning experiences 
right on the site in a virtual resource center.
    This project will provide a comprehensive and, we believe, 
spectacular presentation on watersheds and water-related 
topics. The topics are consistent with two themes of the Clean 
Water Action Plan: Encouraging natural resource stewardship and 
better informing citizens and officials about the quality of 
water that surrounds them. And I should add that EPA Region III 
has been supportive and continues to support this initiative.
    The Academy is excited to begin this Urban Rivers Awareness 
Project and at the present time the program is designed to 
study specific watersheds where the Academy's research 
laboratories are located but we hope and expect that 
communities throughout the nation will adopt the program.
    The total cost of the project is $4.3 million. In fiscal 
year 1999 this subcommittee generously provided the Academy 
with $500,000 to begin piloting the Urban Rivers Awareness 
Project and I am aware that the Southeastern Pennsylvania and 
Southern Maryland Delegations have sent a letter of support 
requesting that the subcommittee provide $2 million in fiscal 
year 2000 through the EPA's environmental programs and 
management account. And I would respectfully ask that the 
subcommittee support the request of the Delegations.
    These funds, if provided, would complete the Federal share 
of the costs of operating this innovative public/private 
partnership; we would raise the additional private dollars.
    And thank you for giving me the opportunity to present the 
testimony. I would be happy to answer any questions.
    Mr. Sununu. Thank you very much.
    The facility is located, is it in Philadelphia proper?
    Mr. Hanle. The Academy of Natural Sciences has two 
facilities. One is in Philadelphia at the Patrick Center for 
Environmental Research; the other is our Estuarine Research 
Center on the Patuxent River in the Chesapeake Bay.
    Mr. Sununu. Is the Chesapeake Bay the name of the town?
    Mr. Hanle. No. Excuse me, on the Chesapeake Bay in the town 
of St. Leonard's, Maryland, which is Southern Maryland, Calvert 
County.
    Mr. Sununu. Thank you very much.
    Any other questions from the committee members?
    Mrs. Meek. No, thank you.
    Mr. Sununu. Thank you, Mrs. Meek.
    Mr. Hanle. Thank you very much for giving me the chance to 
testify today.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Our next witness is Jonathan Harwitz, Program 
Officer for Public Policy, Corporation for Supportive Housing.
                              ----------                              


                                         Wednesday, April 28, 1999.

                  McKINNEY HOMELESS ASSISTANCE GRANTS


                                WITNESS

JONATHAN HARWITZ, PROGRAM OFFICER FOR PUBLIC POLICY, CORPORATION FOR 
    SUPPORTIVE HOUSING
    Mr. Sununu. Welcome, Mr. Harwitz, good afternoon.
    Mr. Harwitz. Good afternoon, Mr. Chairman.
    Mr. Sununu. I thank you for being here, and, please 
proceed.
    Mr. Harwitz. Thank you.
    I am here today to discuss the McKinney Homeless Assistance 
programs. As I am sure this subcommittee is aware, despite our 
nation's booming economy at least 600,000 people in this 
country are homeless on any given night.
    The 30 cities survey of hunger and homelessness conducted 
by the U.S. Conference of Mayors has shown increases in the 
demand for emergency shelter every year since its inception in 
1985, including an 11 percent jump in 1998.
    Now, sadly, the continued presence of the homeless as a 
fixed part of the American landscape has been accompanied by a 
decrease in media attention to this tragedy.
    In 1987, the year the McKinney Act was enacted, the four 
largest daily newspapers in the United States published 847 
stories on homelessness. In 1996, those newspapers ran just 200 
stories on the issue.
    But I am here to talk about good news concerning 
homelessness. While the picture is grim, it is by no means 
hopeless. In fact, we now know more than ever not only about 
who the homeless are but, more important, how we can end their 
homelessness permanently and cost-effectively.
    This subcommittee's past decisions in setting 
appropriations levels and guiding the distribution of McKinney 
funds have been critical to the development of this technology 
and capacity. And I want to thank you all at the outset for 
your efforts in this regard.
    I urge you today to ensure that Federal homeless assistance 
plays an equally crucial role in the next phase of our struggle 
to end homelessness. Let me give you a few specifics.
    Research and on-the-ground experience has shown that many 
homeless individuals and families wind up in emergency shelters 
on a regular basis or essentially live in such shelters, on the 
street or in institutional settings not fit for permanent human 
habitation.
    What distinguishes people who cannot escape this tragic 
cycle? Well, the persistently homeless are likely to exhibit 
what is called a special need--a chronic health condition such 
as mental illness, substance addiction or HIV-AIDS. Nearly 
three-quarters of the homeless at any point in time have one or 
more of these special needs in addition to a lack of housing.
    Now, this cycle of chronic or persistent homelessness is 
not only personally debilitating but enormously costly to the 
public systems. In the State of Connecticut, for example--and 
there are many more statistical examples in the written 
testimony--a psychiatric hospital bed costs $127,000 per year 
and a prison cell costs in excess of $50,000 annually.
    But there is good news on this front of persistent 
homelessness. Over the past decade, community-based nonprofit 
organizations, innovatively combining public and private 
resources, have developed housing that has proven a cost-
effective strategy for ending the homelessness of those with 
special needs. Supportive housing links permanent affordable 
housing with flexible, accessible support services.
    As a national intermediary dedicated to helping local 
nonprofits develop high-quality supportive housing, CSH has 
found, as well as Federal and academic researchers have found 
that not only does supportive housing actually end 
homelessness, it does so cost-efficiently.
    Supportive housing costs between $10 and $15,000 per year 
per tenant, a mere fraction of the costs I described before 
when the homeless with special needs are warehoused in 
alternative settings--emergency shelters, hospitals, and even 
jails.
    Now, the critical role of McKinney Act funds, which is what 
we are discussing today, cannot be overemphasized in its role 
in developing permanent supportive housing. For example, the 
long-term operating subsidies or rental subsidies under the 
McKinney programs are quite simply the engines that drive the 
development of high-quality permanent supportive housing.
    And these McKinney funds successfully leverage large 
amounts of non-Federal resources. For example, in HUD's 
supportive housing demonstration program every Federal dollar 
attracted $4.50 in local services funding and $2.20 in housing 
development funds.
    In conclusion, I strongly urge you to look carefully at the 
very important tools provided through the McKinney programs and 
to take two concrete steps to ensure further success.
    First, please, appropriate the full $1.02 billion requested 
for fiscal year 2000 McKinney programs. In recent years funding 
applications exceeded grants by a ratio of levels of 2 to 1. 
The current funding level is simply inadequate to the task of 
taking permanent solutions to homelessness, which we have, to 
the next level.
    Second and finally, CSH strongly urges the subcommittee to 
make renewal of McKinney funded shelter-plus-care projects 
eligible for funding under the main Section 8 budget as is 
currently the case for renewals of McKinney SRO projects.
    Simply put, the renewal of excellent, needed McKinney 
projects is literally strangling the development of new 
programs for the homeless. As the GAO has repeatedly pointed 
out, the McKinney programs were never intended to be the sole 
ongoing source of subsidy for formerly homeless persons. Rather 
these programs were designed to demonstrate effective 
strategies which could then be incorporated by mainstream 
programs.
    Only if this process is accelerated across Federal agencies 
will we truly make progress in combatting homelessness. For its 
part, HUD must provide for the transition of formerly homeless 
tenants of McKinney-subsidized housing into mainstream housing 
programs making a shelter-plus-care renewals eligible for 
funding from such a mainstream program. Section 8 would achieve 
this goal.
    Thank you very much, Mr. Chairman.
    Mr. Sununu. Thank you very much, Mr. Harwitz.
    Unfortunately, our time has expired but I very much 
appreciate you taking the time to make your presentation before 
the committee.
    Mr. Harwitz. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. I would like to call our next witness, please.
    Mr. Alan Kraut of The American Psychological Society.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

ALAN G. KRAUT, PH.D., EXECUTIVE DIRECTOR, AMERICAN PSYCHOLOGICAL 
    SOCIETY
    Mr. Sununu. Dr. Kraut, welcome to the subcommittee and you 
may proceed.
    Mr. Kraut. Thank you, Mr. Chairman.
    Thank you for allowing me to testify today.
    Mr. Sununu. It is my pleasure.
    You will have 5 minutes.
    Mr. Kraut. All right. I will do this in 4 minutes.
    Mr. Sununu. I would appreciate your brevity.
    Mr. Kraut. The 15,000 members of the American Psychological 
Society that I represent are scientists and academics 
conducting research on the basic behavioral processes involved 
in cognition, in memory, auditory and visual perception, 
decision making, human development, emotions, and group 
behavior, just to name a few.
    First, I want to express our appreciation for the 
substantial increase you gave to the National Science 
Foundation this year. We hope this growth will continue. As a 
member of the Coalition for National Science Funding, APS 
supports the coalition's recommendation of a 15 percent 
increase for fiscal year 2000 at the National Science 
Foundation.
    Within the context of NSF's overall budget, I want to turn 
to the agency's behavioral and social science research where 
this subcommittee has had such a strong history. The 
subcommittee was instrumental a few years ago in the 
establishment of the Social, Behavioral and Economic Sciences 
Directorate at National Science Foundation, known as SBE, and 
in expanding the Directorate's human capital initiative 
program.
    Most recently you expressed strong support for the 
reorganization of SBE's single research division into two 
separate divisions, a behavioral and cognitive sciences 
division and a social and economic sciences division. The 
reorganization is now in place. It brings the National Science 
Foundation a step closer to accommodating the explosive pace of 
discovery in these fields; however, there is still more to do.
    The President's budget includes an increase for National 
Science Foundation's behavioral and social sciences program 
that would bring them to just about $106 million next year. We 
appreciate that proposed increase but more is needed if the two 
new divisions are to sustain the scientific momentum that led 
to their reorganization in the first place.
    Behavioral sciences now rank below those of other National 
Science Foundation fields on measures ranging from grant size 
to grant duration, to the number of grants, even to the 
probability of getting a grant.
    This lack of funding of our field jeopardizes issues beyond 
those investigators whose proposals are not being funded. It 
jeopardizes the supply of high-quality future researchers who 
otherwise would receive research training under these grants. 
In order to protect the seed corn level of our investigators, 
we call them, we think National Science Foundation could use a 
mechanism such as NIH's B/START grants. That stands for 
Behavioral Science Track Awards for Rapid Transition. These 
provide small amounts of funding specifically to sustain new 
investigators at that critical time in their careers.
    Mr. Chairman, my written testimony describes specific 
initiatives at National Science Foundation that are being 
funded this year. Some National Science Foundation researchers 
will be mapping brain function onto cognition. Others will be 
refining ways that virtual environments can be used to study 
perception, learning, ever social interactions.
    Still others will be working on models of decision making 
that cut across humans, animals, even computers, yielding 
knowledge that will be relevant to many disciplines.
    In other initiatives, psychological scientists are 
investigating the individual and social processes that 
influence learning, ranging from brain processes in memory and 
perception, to such issues as peer pressure, family, and what 
cultural factors affect learning.
    Other activities will involve large-scale surveys, 
electronic databases, archives that can be assessed through the 
Web, and interdisciplinary research centers that develop 
innovative methods of collaborative research activity.
    Mr. Chairman, our request will allow National Science 
Foundation to increase the number of grants funded under these 
initiatives and it will allow National Science Foundation to 
launch additional initiatives. One is in cognitive neuroscience 
and that would combine the latest behavioral science theories 
and techniques with modern neuro-imaging to broaden our 
knowledge of mental processes and brain function. But, this, 
too, needs the subcommittee's support.
    That concludes my statement. Thank you again for the 
opportunity to be here.
    Mr. Sununu. Thank you very much, Mr. Kraut.
    To what extent would the National Science Foundation 
program in behavioral science, the new program you described be 
duplicative of the programs that already exist in NIH?
    Mr. Kraut. Well, NIH would be focused strictly on health-
related issues. And at National Science Foundation we are 
talking about the basic research: How children learn, what the 
basic processes of memory are. NIH programs might use that 
learning to then develop an effective means of preventing some 
kind of disorder or disease.
    Mr. Sununu. Thank you very much.
    Mr. Kraut. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Our next witness will be Mr. Richard McCarty, 
of the American Psychological Association.
                              ----------                              

                                         Wednesday, April 28, 1999.

      NATIONAL SCIENCE FOUNDATION, NATIONAL AERONAUTICS AND SPACE 
             ADMINISTRATION, VETERANS HEALTH ADMINISTRATION


                                WITNESS

RICHARD McCARTY, PH.D., EXECUTIVE DIRECTOR FOR SCIENCE AT THE AMERICAN 
    PSYCHOLOGICAL ASSOCIATION
    Mr. Sununu. You will have 5 minutes to present your 
testimony and your entire written statement will be made a part 
of the record.
    Mr. McCarty. Thank you, Mr. Chairman, Mrs. Meek.
    It is a pleasure to be here today before you and I serve as 
the Executive Director for Science at the American 
Psychological Association, a scientific and professional 
organization with more than 159,000 members and affiliates.
    And I would like to draw your attention to three of the 
agencies that you have purview over with regard to the fiscal 
year 2000 budget. That includes the National Science 
Foundation, NASA, and the Veterans Health Administration.
    The National Science Foundation celebrates its 50th 
anniversary next year and we urge this committee to reinvest in 
its basic research mission as set forth in the National Science 
Foundation policy study. This study calls for maintaining and 
improving our nation's preeminent role in basic science and 
technology.
    To this end, APA enthusiastically endorses the 15 percent 
increase for National Science Foundation requested by the 
Coalition for National Science Funding and mentioned by Mr. 
Kraut.
    This increase would support National Science Foundation's 
three multidisciplinary initiatives in information technology, 
biodiversity, and science education, as well as ongoing 
research in all of the scientific disciplines, especially the 
Directorate for Social, Behavioral and Economic Sciences.
    While NSF-funded psychologists play an important role in 
understanding behavior here on earth, NASA-funded psychologists 
are playing a vital role in space exploration and also in 
aviation safety.
    NASA has gained valuable insights into the human dimensions 
of extended space flight. The problem of our astronauts coping 
with long-term space flight has now been recognized as a 
research priority by the National Academy of Sciences. APA 
heartily endorses the NAS recommendations to conduct future 
research on psychosocial and environmental stressors, decision 
making processes, crew cohesion, and development of measures to 
optimize crew performance in preparation for permanent presence 
on the International Space Station.
    We also recommend a fiscal year 2000 budget of $303 million 
for the Office of Life and Microgravity Sciences.
    Another arm of NASA makes good use of psychological science 
closer to earth. One of the stated goals of NASA Administrator 
Goldin is to drastically reduce the aircraft accident rate by 
the year 2007. This is certainly something that influences many 
Americans.
    Human factors psychologists track decision making processes 
that affect aviation safety and have played a critical role in 
our understanding of why mistakes happen when humans are 
required to operate in complex environments.
    This past year, NASA has strengthened its existing ties 
with the Federal Aviation Administration to advance the common 
human factors research interests of both agencies in the areas 
of aviation capacity and safety.
    APA recommends at least level funding of $425.8 million for 
fiscal year 2000 for the research and technology base within 
the Office of Aero-Space Technology.
    The third agency I would like to highlight is the Veterans 
Health Administration, which sponsors research across the full 
spectrum of health research. This includes medical, 
rehabilitation and health services research.
    VA's psychological researchers have made great strides in 
developing more sensitive diagnostic tests to detect the early 
stages of Alzheimer's disease as well as other dementias, 
problems increasingly seen both in our veterans and the aging 
population in our society at large.
    Psychologists are also playing a critical role in 
evaluating the effectiveness of the VHA Health Services as the 
health care system continues to evolve.
    APA joins with the many veterans service organizations in 
recommending an fiscal year 2000 budget of $360 million for VHA 
health research.
    Now, the VHA also manages the Medical Care account where 
funds for the Education and Training Programs of health care 
professionals are located. As the health profession must focus 
on behavioral issues, psychology has been an essential partner 
in providing high-quality, cost-efficient health care for our 
nation's veterans for more than 50 years.
    Now, in closing, I would like to bring up one other issue 
that is of grave concern. That is OMB Circular A-1-10, which 
would require that Federally research data be made available 
under the Freedom of Information Act. Such a provision would 
have a devastating impact on a variety of research projects and 
could likely impede legitimate lines of scientific inquiry.
    And I hope that we can count on the many champions of 
science in the Congress to support legislative repeal efforts 
currently underway or, at least, to delay and study carefully 
this change in the rule.
    Thank you, Mr. Chairman.
    Mr. Sununu. Thank you very much, Mr. McCarty. I appreciate 
your time and testimony. Your time has expired and it was used 
very efficiently.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sununu. Could I call our next witness, please, Mr. 
David Johnson, Ph.D., of the Federation of Behavioral, 
Psychological and Cognitive Sciences.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

DAVID JOHNSON, PH.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES
    Mr. Sununu. Mr. Johnson, you may proceed. I am pleased to 
yield you 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, Mrs. Meek, the night before last at a banquet 
honoring the 1999 recipients of the National Medals of Science 
and Technology, Secretary of Commerce William Daley noted that 
half of our economic growth in the past 50 years is 
attributable to advances in science and technology. An 
indispensable, Federal/private sector partnership has enabled 
those advances. Government has supported basic exploratory and 
pre-development research; industry has supported advanced 
development and production.
    In one area, however, Federal agencies have been nearly the 
sole supporters of research. I am referring to research aimed 
at understanding human behavior, human cognition and human 
interaction.
    The most important purpose of this research is to deepen 
understanding of how we, ourselves, function and how we can 
function better. Despite the modest support from the private 
sector this research enables services essential to both private 
sector and to society, in general.
    Without this research and its application, for example, 
industry will not have new workers prepared to do tomorrow's 
jobs, the world will take longer to recover from recessions, 
socioeconomic inequities will increase, and we will put 
hundreds of thousands of our young adults in prisons rather 
than in universities and we will invest heavily in finding 
cures for diseases that could have been prevented.
    The value of human-centered research and its application 
has long been under-estimated. Although Federal agencies fund 
more than 90 percent of all research on children, for example, 
it amounts to less than 2 percent of the Federal budget for 
research. The Federal Government is the primary supporter of 
education research, yet, the research investment amounts to 
about one-hundredth of a cent for every dollar spent on 
education nationwide.
    This subcommittee has jurisdiction over the budgets of four 
agencies that provide for behavioral and social science 
research and its applications: National Science Foundation, 
NASA, the VA and HUD.
    With respect to the National Science Foundation 
appropriation we join with the other members of the Coalition 
for National Science Funding in recommending a $4.3 billion 
fiscal year 2000 budget. We are particularly supportive of the 
$25 million requested for the Interagency Education Research 
Initiative and the $10 million request for behavioral and 
social science research under the Information Technology for 
the 21st Century Initiative.
    Although, we urge the subcommittee to direct that those 
funds be administered by the Social Behavioral and Economic 
Sciences Directorate where the relevant expertise exists, 
rather than by the Computer and Information Sciences and 
Engineering Directorate, which would administer the funds under 
the current plan.
    NASA supports behavioral research relevant to sending 
humans into space and to assuring the safety of those who use 
our civil aeronautics system. Space-related research is 
administered by the Office of Life and Microgravity Sciences 
and Applications and we recommend a funding level of $303 
million for that office.
    Civil aeronautics research is administered by the Office of 
Aeronautics and Space Transportation Technology. For the 
research and technology-based programs of that office, we 
recommend maintaining the fiscal year 1999 funding level of 
$425.8 million.
    The HUD research programs are contained in the Office of 
Housing Research. Among other things, this office is monitoring 
the effects of welfare reform on the poor. We recommend 
maintaining funding for this office at its current level of $49 
million.
    And, finally, the Veterans Health Administration 
administers a broad array of health research programs vital, 
not just to the care of veterans, but to advancing general 
medical knowledge. We recommend a funding level of $360 million 
for the VHA health research program, a 14 percent increase that 
we think will quicken the pace of discovery in the health 
sciences.
    Thank you.
    Mr. Sununu. Thank you very much, Mr. Johnson.
    I will note, for the record, your timing is excellent. The 
committee or the House has called for a vote and we will take a 
recess subject to the call of the chair and allow members to 
vote.
    Again, I appreciate your time.
    Mr. Johnson. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Recess.]
    Mrs. Northup [presiding]. Thank you.
    Dr. Felice Levine, Ph.D., Executive Officer of the American 
Sociological Association.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

FELICE J. LEVINE, PH.D., EXECUTIVE OFFICER OF THE AMERICAN SOCIOLOGICAL 
    ASSOCIATION
    Ms. Levine. Thank you, Mr. Chairman.
    Congresswoman Northrup and members of the subcommittee, I 
am Felice Levine, a social psychologist and Executive Officer 
of the American Sociological Association. The ASA is the 
national scientific and professional association for more than 
13,000 sociologists dedicated to producing scientific knowledge 
in fields ranging from health education and the family to work 
and occupations, population and demography and organizations.
    We very much welcome the opportunity to testify here today 
about the fiscal year 2000 appropriations for the National 
Science Foundation.
    I would like to say that I am particularly pleased to be 
here having served for 12 years as a program director at 
National Science Foundation where I saw firsthand how much it 
matters to have a Federal agency that is dedicated to the 
advancement of science.
    As a member of the Coalition for National Science 
Foundation Funding, the ASA strongly recommends you recognize 
the National Science Foundation's critical work and increase 
the Foundation's budget by 15 percent. We are convinced that a 
15 percent budget increase is needed to allow the National 
Science Foundation to have sufficient resources to invest in 
basic science for the next century.
    We hope that a 15 percent increase would also allow the 
National Science Foundation to make a more serious investment 
in social and behavioral science, which has lagged behind for 
several decades. Now more than ever we must encourage basic 
research in the social and behavioral sciences. As a nation, we 
are searching for answers to the tragedy of school violence, 
struggling to understand the barriers to effective education, 
seeking to overcome the obstacles that prevent some families 
from making a successful transition from welfare-to-work, and 
trying to solve other problems that rely on fundamental 
research in the social and behavioral sciences. Much of this 
work is supported through the Directorate for Social, 
Behavioral and Economic Sciences.
    One example of the critical importance of NSF's investment 
in basic science is the work underway through the National 
Consortium of Violence Research. We like to think of it as a 
virtual consortium. Though it is located and run out of 
Carnegie-Mellon University, it involves 70 or more researchers 
and pre-doctoral and post-doctoral trainees across the country. 
It was launched just three years ago largely due to the efforts 
and encouragement of this committee to think about that kind of 
enterprise.
    One product of this project as the work has begun to come 
to fruition is a video that reviews what research has taught us 
today on violence in the schools. It was released last summer 
and it is being disseminated to school systems and 
administrators throughout the nation. And I am pleased that I 
have the privilege to serve on the Advisory Panel to the NCOVR 
effort.
    And I know that the NCOVR group would be happy to 
distribute it widely to members of Congress.
    The National Science Foundation, as you know, has announced 
two major institution-wide initiatives: Information Technology, 
we affectionately call IT Square, and Biocomplexity. The Social 
and Behavioral Sciences are fundamental to both of these.
    I want to address one point though made by my predecessors 
and that is that we believe that the $10 million earmarked for 
research on the social, economic and ethical implications of 
the information revolution is better situated not in size but 
specifically in the Directorate for Social, Behavioral and 
Economic Sciences.
    The SBE Directorate has specialized in these issues for 
decades and has the technical expertise to ensure the maximal 
use of these resources and to monitor their impact. And unlike 
my predecessors, I directed the law and social sciences program 
for those 12 years and, I think I have a good sense of the 
capacity of the scientific community out there that relates to 
this Directorate to do this job effectively.
    I would hope that were the CNSF recommendation of 15 
percent to be realized that that would result in much more of 
an investment in the social and behavioral sciences. If, for 
example, Congress increased National Science Foundation's 
appropriation by 15 percent, the National Science Foundation 
could enhance its investment in research on children.
    The fiscal year 2000 request includes $25 million for 
National Science Foundation's lead role in the Interagency 
Education Research Initiative, being undertaken in partnership 
with the Office of Education, Research and Improvement and the 
National Institute of Child, Health and Human Development. This 
initiative will fund important work on school readiness, on 
kindergarten through third grade learning and reading, and also 
really on better understanding the nature of the teaching 
enterprise, particularly in mathematics, reading and science.
    Beyond this initiative, however, there needs to be much 
more of an investment in basic research on children. Two years 
ago, a highly distinguished interagency committee issued a 
powerful and important report, ``Investing In Our Future: A 
National Research Initiative for America's Children for the 
21st Century.''
    Investing in our children called for government-wide 
initiative to conduct research on children. What has happened 
is that National Science Foundation on its own in the SBE 
Directorate has inaugurated two initiatives. One on child 
learning and development and another, a series of supplements 
to ongoing National Science Foundation grants on children's 
learning and transitions to the work force.
    These allocations, however, come from within the 
Directorate and are hardly enough. A 15 percent increase will 
help make what we need to know about children a reality, 
government-wide and R&D investment-wide.
    For a critically important report, which I commend you all 
read or reread, on Investing In Our Future to languish and to 
remain under-utilized, a wonderful template for R&D, 
Investments In Children and the Future, would be a problem and 
a shame.
    Thank you.
    Mrs. Northup. Thank you so much.
    I am glad that it is my turn to chair this meeting for your 
presentation.
    Ms. Levine. Thank you.
    Mrs. Northup. I do believe that we are just now 
understanding the value of that research.
    Thank you, Doctor.
    Ms. Levine. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Next we have Jim Czub of the National Corn 
Growers Association.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

JAMES P. CZUB, MEMBER OF THE BOARD, NATIONAL CORN GROWERS ASSOCIATION
    Mrs. Northup. Thank you, Mr. Czub.
    Please, proceed.
    Mr. Czub. Thank you, Madam Chair and members of the 
subcommittee. My name is Jim Czub and I am a corn and soybean 
farmer from Schaghticoke, New York.
    I am testifying today on behalf of the National Corn 
Growers Association and appreciate the opportunity to discuss 
the importance of the National Science Foundation Plant Gnome 
Initiative. I want to thank you, Madam Chairman, for your past 
support for this vital program.
    We are at a critical juncture in plant gnomics; one 
comparable to the one that faced the human gnomics last year. 
Last year, two companies announced that they were going to 
sequence the human gnome and obtain patents on that data. In 
response, the NIH pumped an additional $80 million into the 
human gnome project. They accelerated the work to ensure that 
vital gnome data and materials remain publicly available.
    Many other countries and companies have announced major 
initiatives in plant gnomics and have announced intentions to 
file patents on fundamental plant gnomics data. Earlier this 
month, a private company announced that it planned to sequence 
the entire rice gnome and create a commercial data base for 
which companies would be required to pay $30 million to have 
five years of access to that data base. That scares me.
    Because of the similarities between crops the patenting of 
the rice gnomic data will affect research on every crop 
including corn. Most companies and public sector scientists at 
universities and within the Federal Government will not have 
the financial wherewithal to have access to the data unless 
Congress acts swiftly to increase the Federal funding effort in 
plant gnomics.
    We urge Congress to respond to the recent announcement in 
the same manner that the NIH did last year by providing a 
significant increase in funding for the NSF Plant Gnome 
Initiative. We urge you to provide not less than $70 million. 
We recognize that this will be extremely difficult due to 
budgetary constraints, however, we believe that we cannot be 
complacent about maintaining public access to fundamental plant 
gnomic data.
    In 1998, an interagency working group report on the 
National Plant Gnome Initiative called for $400 million in 
funding over 5 years. Actual funding for the initiative has 
fallen far short of that needed to meet the $400 million level. 
Fiscal years 1998 and 1999 provide only $90 million for the 
effort. If full funding had been provided from the very 
beginning it is possible that we would not be faced today with 
losing the accessibility to vital plant data.
    The Plant Gnome Initiative is critically important to the 
nation's corn growers and the nation's consumers. While world 
population continues to expand and protein demand increases 
exponentially, there is an expectation of higher quality, 
safer, more nutritious food.
    Significant increases in funds will help to ensure that the 
U.S. remains on the cutting edge of plant gnomics and will help 
to ensure that we have continued access to fundamental plant 
gnomic data. This is a number one appropriation's issue for the 
National Farm Growers Association.
    We urge you to provide not less than $70 million for the 
Plant Gnome Initiative to ensure that our growers have the 
tools to meet the challenges and the demands of the 21st 
Century.
    I appreciate the opportunity to testify before you today 
and we will be happy to answer any questions.
    Thank you.
    Mrs. Northup. Thank you, Mr. Czub.
    We are trying to stretch every dollar.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. Howard J. Silver, from the Consortium of 
Social Sciences Associations.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

HOWARD J. SILVER, PH.D., EXECUTIVE DIRECTOR, CONSORTIUM OF SOCIAL 
    SCIENCES ASSOCIATIONS
    Mr. Silver. Thank you, Madam Chairman.
    Madam Chair, Mrs. Meek, I am Howard Silver, the Executive 
Director of COSSA, the Consortium of Social Sciences 
Associations, which represents over 100 professional 
associations, societies, universities and research institutes 
concerned with the promotion of and funding for research in the 
social, behavioral and economic sciences.
    I also currently serve as the Chairman of the Coalition for 
National Science Funding, a group I think you have heard about 
all day. An ad hoc umbrella organization of over 75 groups 
across all the sciences, engineering, higher education, and 
even some from the industrial world.
    On May 19th, CNSF will sponsor an exhibition in the Rayburn 
House Office Building, Rooms B-338 and 339 and 340, at which 30 
scientific societies and universities will display the results 
of NSF supported research, provide an opportunity to engage 
scientists, educators and students in discussions of their 
important studies. And I hope you and your staffs can all 
attend.
    I want to express COSSA and CNSF's appreciation to the 
subcommittee for its past strong support for National Science 
Foundation. As always, you face difficult choices among 
competing programs and interests in a budget situation 
constrained by the desires of some to limit Federal spending.
    The COSSA strongly believes that investing in National 
Science Foundation's research and education efforts will help 
determine this country's future economic well-being and 
national security. Therefore, COSSA, in agreement with CNSF, 
strongly recommends the fiscal year 2000 budget for National 
Science Foundation at $4.3 billion, a $562 million boost for 
the agency that is the fulcrum of the nation's investment in 
science and technology.
    This 15 percent increase represents National Science 
Foundation's judgment of their needs and their requests to OMB. 
This budget enhancement will return many-fold its worth in 
economic growth, it will help save lives, promote prosperity, 
improve society and provide more excellent science for more 
excellent scientists.
    As the Council of Competitiveness has noted, investment in 
discovery research creates the seed corn for future innovation. 
COSSA supports significant increases for the Research and 
Related Activities account, so that SBE and the other 
Directorates can continue to fund researchers searching for 
scientific breakthroughs, to answer the many challenges posed 
by society and its people.
    The proposed 4.2 percent or less than $6 million increase 
for SBE in the President's budget is totally inadequate to 
support the fundamental ideas that social behavioral and 
economic scientists want to explore to help create better lives 
for people and the societies in which they live.
    In the SBE sciences, there is a tremendous need to improve 
the infrastructure. This year the Directorate has committed $10 
million to grant 5 years of support for new database 
collections, co-laboratories and Web-based survey research to 
provide the tools for more advanced and complex research.
    In this competition, over 100 proposals were received, and 
only six to eight will be funded. This is a success rate of 
less than 5 percent. It cannot continue. The needs are too 
great, and the resources are totally inadequate.
    The SBE sciences are also ready to take advantage of the 
new information technology. Social scientists at Harvard and 
MIT are collaborating with other scientists to create digital 
libraries of databases that are easily accessible and usable on 
the Web. The President's Information Technology Advisory 
Committee has recommended significant funding for research on 
socioeconomic issues.
    The President has recommended $146 million for NSF as part 
of the IT Squared initiative. Of that amount, $10 million would 
support research on the socioeconomic and workforce 
implications of the information revolution. We urge the 
subcommittee, along with my colleagues, to move this $10 
million into the SBE Directorate, which has the programs to 
foster this kind of research.
    My written testimony describes an enhanced focus for SBE on 
human origins research to understand complex interactions 
between human biological, geological and climatic systems over 
long periods of time. I pay tribute to the National Center for 
Geographic Information and Analysis that has NSF has supported 
for many years. NCGIA has helped create the $10 billion-a-year 
geographic information system industry.
    The written testimony also presents highlights of SBE-
funded research that continues to examine the ever more complex 
and important human dimensions of issues, and generates new 
knowledge and insights to help us understand human 
commonalities and human differences.
    Along with my colleagues, COSSA strongly supports the 
requested fiscal 2000 funding for the Interagency Education 
Research Initiative. There appears to be a consensus that the 
country needs to spend more on education research from PCAST 
report to the OSDP, discussions in Congress, to Dr. Caldwell's 
testimony this morning in the House. People want to know why 
students achievement, as measured by international test scores 
and other indicators, are not where we think they should be.
    In conclusion, let me say we urge the subcommittee to 
significantly enhance their support for NSF so that the SBE 
Directorate can boost its ability to meet the needs of the 
country and the world for answers to the complex problems 
affecting us all.
    As we have learned so painfully in the last few weeks, both 
at home and abroad, any basic research policy must include 
significant investments to explain the behaviors of human 
beings as they interact with each other and with their social, 
political, economic and technological environment.
    In 2002, NSF, the leading Federal agency supporting 
fundamental scientific and engineering research across all 
fields will be 50 years old. As we approach the new millennium, 
our country and our futures depend more than ever upon science 
and technology for continued progress, health and productivity. 
The time is now for Congress to recognize, celebrate and build 
boldly upon the 50 years of successful NSF-sponsored research. 
The sparks that will ignite from a significant increased 
investment in NSF will grow throughout the next century to 
improve the lives of all Americans and people around the world. 
We urge you to support the major increase for NSF.
    Thank you.
    Mrs. Northup. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. The next presenters are Mr. James Siedow and 
Mr. Price. Excuse me. Congressman Price--I thought that was 
another presenter----
    [Laughter.]
    Mrs. Northup. Coming in, I did not look down and see that 
you were here.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

HON. DAVID E. PRICE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Price. Thank you, Madam Chairman. I just want to add a 
word of welcome.
    I also want to thank Dr. Silver for his presentation, on 
behalf of the National Science Foundation. I also want to 
welcome Dr. James Siedow, the former chairman of the faculty at 
Duke University and a professor of botany at Duke, a good 
friend of longstanding, who is testifying today on behalf of 
NSF's Plant Genome Initiative. He is appearing here today as a 
representative of the American Society of Plant Physiologists.
    So, Jim we are glad to have you here and welcome to 
Washington. We will await your testimony with interest.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

JAMES SIEDOW, AMERICAN SOCIETY OF PLANT PHYSIOLOGISTS
    Mrs. Northup. In view of the fact that I am from Kentucky 
and have strong ties to the University of Kentucky, it will not 
be held against you. [Laughter.]
    Mr. Siedow. Given that you won the one year-before-last 
that counted, I do not think it should be. [Laughter.]
    Thank you, Mrs. Congresswoman.
    As Congressman Price said, my name is James Siedow, and I 
am a professor of Botany at Duke University, and I am here on 
behalf of the American Society of Plant Physiologists, of which 
I have served as president, and I am now on its Committee of 
Public Affairs.
    Basic plant research supported by the National Science 
Foundation contributes significantly to consumer benefits in 
savings in all major sectors of the national economy. For 
example, American consumers pay less than 11 percent of their 
personal disposable income for food compared to 17 percent 
spent by people of other developed nations such as Germany and 
Japan and more than 50 percent spent by many developing 
nations.
    In the clothing sector, basic plant research has helped 
increase yields in America's cotton fields for fiber used in 
clothes worn by each of us here today. Cotton crops modified 
using plant biotechnology are now more resistant to pests. This 
has significantly reduced the amount of chemical pesticides 
used on farms that can potentially reach groundwater sources.
    In the transportation sector, we see plant research 
bringing continued efficiencies in the production of bio-fuels. 
The availability in the U.S. of plant-produced fuel at prices 
near the costs of petroleum helps keep to keep the cost of 
imported oil down. Further, an increase in more efficiently 
produced plant-based biofuels will also cut down on the 
emission of greenhouse gases into the atmosphere.
    In the medical care sector, more than half of all 
prescription drugs are modeled on natural compounds, and one-
fourth either come directly from plants or are chemically 
modified versions of plant substances.
    A particular area of plant research that I would like to 
address today, however, is the way that changing plant research 
is being conducted. Thanks to the work of this committee and 
the Senate committee, NSF is moving plant science into the 
genomic era, an era in which we can design plants that will 
provide many more benefits for Americans and for our world 
neighbors.
    In January of last year, the White House-appointed 
Interagency Working Group on Plant Genomes completed its report 
at the request of Senator Bond. The Interagency Working Group 
included representatives from the National Science Foundation, 
the Office of Management and Budget, and several other Federal 
agencies. The IWG report notes that major challenges facing 
humanity in the 21st Century are the need for increased food 
and fiber production, a cleaner environment and renewable 
chemical and energy resources. The report points out that 
plant-based technologies can play a major role in meeting each 
of these challenges. The report states, ``In order to reap the 
benefits of plant-based technologies, however, we must greatly 
expand our understanding of numerous fundamental aspects of 
plant biology and how these relate to desirable economic and 
environmental genetic traits. Therefore, the IWG recommends the 
development of the National Plant Genome Initiative.''
    The IWG recommended investment of an additional $320 
million over 5 years to make significant progress on the 
scientific objectives it outlined for plant genome research. A 
copy of the coverage page and executive summary of the IWG 
report is included with my testimony.
    The support of this subcommittee for genomic and nongenomic 
plant research supported by NSF helps plant scientists make 
basic research breakthroughs needed to address the enormous 
nutrition, health and energy needs of this Nation and the 
world. We deeply appreciate the strong support and commitment 
of this committee which enables the U.S. science community to 
lead the world in plant research in this new age of biology.
    Mrs. Chairman, I would also like to comment on the Office 
of Management and Budget's proposed revision of OMB Circular A-
110. The proposed revision would make some confidential 
information relating to published research findings subject to 
disclosure under the Freedom of Information Act. The drafted 
revision was written by OMB at the direction of Congress in 
Public Law 105-277. As you know, this provision was not the 
subject of hearings in Congress. Questions of rights to 
privacy, confidentiality and patent rights were not studied or 
resolved at that time.
    We fear that under this revision, scientists could be 
subjected to nuisance requests for information. Research-based, 
fact-finding efforts could be stymied by fears of lost 
confidentiality or lost privacy. U.S.-based industry partners 
in research may become reluctant to collaborate with Federally 
funded scientists if overseas and domestic competitors could 
access sensitive confidential data through a Freedom of 
Information Act request.
    We encourage the subcommittee to recommend revision of this 
statute in order to preserve the world-leading research 
capability of the Nation's research community.
    I thank you and other members of the committee for taking 
the time to listen to my testimony.
    Mrs. Northup. Thank you very much. We are delighted to have 
you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. The next presenter is Dr. Gilbert Strang from 
the Joint Policy Board for Mathematics.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

GILBERT STRANG, JOINT POLICY BOARD FOR MATHEMATICS
    Mr. Strang. Thank you very much. I am Gilbert Strang. I am 
a professor of mathematics at MIT and doing a 2-year turn as 
president of the Applied Math Society, SIAM, and it happened to 
be SIAM's year to chair the joint board of three math 
societies. So I am speaking for all three about NSF funding for 
mathematics. I really have three points to make.
    The first is to give this committee its share of the credit 
for something good, which is the flourishing of mathematics in 
America. This is really a time when pure, and applied and 
computational mathematics is doing its job, and let me give 
examples later of what we do. So thank you for that history of 
support.
    My second point is about the future. It is the young 
mathematicians I am thinking about, ones who have this special 
gift and need to find a career that can unfold where they can 
serve the country. So the Joint Policy Board is requesting a 
15-percent increase in support for mathematics, where the 
budget request was 2 percent. I feel that 15 percent is forward 
and 2 percent is backward. Maybe I could give--every 
mathematician could give you examples from his own work. May I 
do that from my own? You will see, as a professor, I am 
departing from my prepared script, of course.
    So I work on wavelets that turned out, the mathematics 
turned out right for compressing images. So when the FBI takes 
my fingerprints, they compress them using wavelets, 14-to-1 
reduction, and it is a big saving. When you go in for an MRI 
scan, that produces scads of data, and it has to be compressed. 
In fact, science is really flooded with data, and compression 
is critical. So this math idea that turned out to work is in 
the new JPEG 2000 standard that electrical engineers will use. 
So that is one example; others from information technology, 
from biology, from earthquake prediction, many more.
    My third point is that this investment of a 15-percent 
increase--that is $15 million--is an extremely wise investment. 
Mathematics is at the core of science and technology in this 
country, and that amount makes an enormous difference in 
whether young mathematicians can find a career or whether they 
go to become doctors or lawyers, all good, but they have that 
gift, and I would be sorry if they did not have a chance to use 
it.
    So thank you, Madam Chairman. I also thank my colleagues 
for taking my engineering math class, which I enjoy too, and I 
am very grateful to be here.
    Thanks.
    Mrs. Northup. Thank you, Dr. Strang. Please excuse me for 
mispronouncing your name.
    Mr. Strang. That is fine.
    Mrs. Northup. As someone who absolutely loved advanced 
math--I do not have an ounce of artistic talent in my body--I 
would be tempted to----
    Mr. Strang. We are even.
    Mrs. Northup [continuing]. Transfer all of the money to 
you, but luckily there are people with diverse talents in this 
world.
    Mr. Strang. Of course, there are.
    Mrs. Northup. We feel blessed for all of them.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Northup. I am going to turn the chair over to 
Representative Hobson. Thank you.
    Mr. Hobson [presiding]. Mr. Bill Doumas, American Institute 
of Chemical Engineers.
    Welcome, Mr. Doumas.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

BASIL C. ``BILL'' DOUMAS, AMERICAN INSTITUTE OF CHEMICAL ENGINEERS
    Mr. Doumas. Thank you, Mr. Chairman, Mrs. Meek.
    My name is Bill Doumas, and I am chair of the Government 
Relations Committee of the American Institute of Chemical 
Engineers. I am pleased to appear before you today to present 
AIChE's recommendations for the fiscal year 2000 budget for the 
National Science Foundation.
    Federal investments in science and engineering research 
have produced vast benefits for the Nation's productivity and 
living standards. We, therefore, support a doubling of Federal 
support for nondefense research over 10 years.
    Mr. Chairman, AIChE supports the administration's fiscal 
year 2000 request for $4 billion for NSF, a 6-percent increase 
over fiscal year 1999. We particularly support the $3 billion 
request for NSF research activities, a 7-percent increase.
    The proposed increases for NSF are reasonable and would 
advance our goal of doubling Federal support for nondefense R&D 
over a decade. NSF is responsible for strengthening and 
advancing science and engineering research and education across 
all disciplines. It also plays a major role in developing the 
science and engineering workforce for the future and helping to 
educate the public about science and technology.
    These are critical activities if our Nation is to continue 
to generate the discoveries that improve our lives, produce the 
world's best scientists and engineers and prepare our citizens 
to participate fully in a technological society.
    Mr. Chairman, while the administration proposed a 7-percent 
increase overall for NSF's research activities, it proposed 
only a 3-percent increase for the Engineering Directorate 
portion of those activities. AIChE believes that engineering 
research deserves equal emphasis within the research budget. 
Accordingly, we believe the Engineering Directorate should also 
receive a 7-percent increase, from $369 million to $395 
million.
    The Engineering Directorate advances fundamental 
engineering research, a critical, but often overlooked 
function. It funds a wide range of well-coordinated, value-
added engineering research activities. While the breadth of the 
Engineering Directorate's programs is one of its main assets, 
the span of activities demands sufficient funding to meet the 
varied missions.
    NSF's establishing statute grants engineering equal status 
with science. Despite this, the Engineering Directorate 
continues to represent only about 10 percent of NSF's budget. 
Considering the Engineering Directorate's integral role in 
advancing NSF's statutory mission, we believe the relative size 
of the Engineering Directorate should not be decreased.
    Mr. Chairman, it is appropriate for the Nation to 
recognize, celebrate and build upon the success of NSF over the 
past half century. We can do that best by providing adequate 
support for NSF to continue the work that has contributed so 
much to our Nation.
    While recognizing the caps onto which the Appropriations 
Committee must work, we hope you will provide the 
administration's overall budget request for NSF. And because 
science and engineering go hand in hand in furthering the 
complex and dynamic innovation process, we believe that support 
for engineering research should not be de-emphasized.
    The chemical engineering professionals of AIChE look 
forward to continuing to provide our expertise on Federal 
programs and research areas that impact the profession as well 
as our Nation's technological strength.
    Thank you for this opportunity. I would be happy to answer 
any questions.
    Mr. Hobson. Mrs. Meek, do you have any questions?
    Mrs. Meek. No.
    Mr. Hobson. We thank you very much.
    My father-in-law was an engineer, but I do not know 
anything about engineering. I am a lawyer. [Laughter.]
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Next, we will hear from a representative from 
the Computing Research Association, and I am going to let you 
pronounce your own last name, so I do not goof it up.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

EDWARD LAZOWSKA, COMPUTING RESEARCH ASSOCIATION
    Mr. Lazowska. Thank you. My name is Ed Lazowska.
    Mr. Hobson. I was going to say it pretty close to that.
    Mr. Lazowska. You would have been the first.
    Mr. Hobson. Well, I was worried about the ``o.'' Other than 
that, I would have gotten most of it.
    Mr. Lazowska. It is the ``z.''
    So I am happy to be here today. I would like to speak about 
the National Science Foundation's critical role in the 
Information Technology Squared Initiative, IT for the 21st 
Century. And I would like to urge the subcommittee to fully 
fund the $146 million fiscal year 2000 increment.
    I am representing the Computing Research Association. I am 
also the chair of the NSF Advisory Committee for CISE, the 
computer science part of NSF. I serve on the National Research 
Council's Computer Science and Telecommunications Board, and I 
am----
    Mr. Hobson. I should have called you the other day. My 
computer broke, and I needed help. [Laughter.]
    Mr. Lazowska. I do not do that one, sorry. [Laughter.]
    Mr. Hobson. You are on the computer science side.
    Mr. Lazowska. Only for my family. And I am also, worse than 
that, on the Technical Advisory Board for Microsoft Research, 
so I should know how to do this stuff.
    So here is what I have: I have five short questions and 
five short answers about the IT Squared Initiative.
    The first question is: Where did the initiative come from? 
And the answer actually is from Congress. So in 1991, Congress, 
in the High-Performance Computing Act, said that there should 
be an Advisory Committee created to advise the Government on 
high-performance computing.
    In the 1998 Next Generation Internet Act, Congress directed 
that committee to look at the health of the Nation's computing 
research program. That committee has delivered its report, and 
the White House is responding to that report. So it is really 
not a White House initiative. It is a response to a 5- to 10-
year perception that computing research is being undersupported 
and to recommendations from a committee that Congress directed 
to look into this.
    The second question is: What did the committee say? And 
what the committee said is we are in trouble. To quote from 
them, ``Federal support for research in information technology 
is dangerously inadequate.'' They referred to research that 
will replenish the reservoir of ideas for generations to come 
that will produce educated people to drive the Nation forward. 
I want to emphasize that this initiative is really about two 
things, ideas and people. One of the great things about the 
university system in America that NSF supports is research and 
education to really tie it together. So the phrase about this 
initiative is it is the people.
    The third question is why the Government has to have a role 
here anyway. Companies are making so much money in information 
technology, why don't they do it.
    There are lots of answers. Here is the easiest one to 
understand from my point of view. It is shareholder behavior. 
When I invest in companies, it is not as a social act, it is 
because I have two kids who are headed for college. And to be 
honest, the companies I invest in are the ones that are going 
to hit it big within 4 or 5 years because that is my time 
horizon. I did not start early enough.
    Mrs. Meek. Do you want to share that information with us? 
[Laughter.]
    Mr. Lazowska. And fundamental research is, first of all, 
unpredictable and, secondly, when it does pay off, it is 10 to 
15 years in the future. So companies, in general, do not do 
this on a large scale.
    America's companies spend a lot of money on R&D, but it is 
on D. That is product engineering, for example. So I serve on 
the Board of Microsoft Research. Microsoft spends 20 percent of 
its revenue on R&D, but only 3 percent of that 20 percent is on 
Microsoft research. So the rest is product engineering
    This is great. When a company becomes successful based on 
the fruits of Federally sponsored public research, it pays us 
back in jobs, and taxes and world leadership. So things are 
working as they should.
    Here is the fourth question: Why should the National 
Science Foundation play a central role? And the reason is that 
the mission agencies--Defense, NASA, Energy--tend to take a 
narrower and shorter term role of computing. This is a 
generalization, but it is not badly misleading. Mission 
agencies have got problems to solve. They need to apply today's 
computing technology to solve their problems, and that is where 
they focus. It is where they should focus.
    So as with corporate behavior, it is entirely appropriate, 
but it does not lay the groundwork for tomorrow's computing, 
for the breakthroughs it will create in tomorrow's computing.
    Finally, the NSF director, Dr. Rita Colwell, has said she 
plans to focus the additional funding on the CISE Directorate, 
the Computer and Information Science and Engineering 
Directorate. And a natural question is why is that appropriate? 
There are lots of directorates within the National Science 
Foundation, and they are all doing first-class science and 
engineering.
    I think there are several answers here, but the most 
important one is that computer scientists and computer 
engineers are the people who are inventing tomorrow's 
computing. They drive the field forward so we can answer 
tomorrow's questions. So speaking as a computer engineer, it is 
exciting that there is so much pressure to use today's 
computing. This is sort of the fruits of yesterday's computing 
research. Computer scientists and computer engineers are proud 
to be tool builders. And there will be lots of partnerships 
between CISE and other directorates at NSF, but the Nation 
needs more than this.
    First of all, we need the breakthroughs in computing that 
lay the groundwork for tomorrow's computing for science and 
engineering.
    Secondly, computing impacts much more than science and 
engineering. If you think about health care, information 
access, communication, you think about--you are a lawyer--the 
neat areas of the law; contracts----
    Mr. Hobson. I don't tell anybody I am a lawyer. Usually, I 
lose votes when I do that. [Laughter.]
    Mr. Lazowska. Contracts aren't what they used to be. 
Intellectual property isn't what it used to be. This is all 
fundamentally changed by digital technology.
    Third, like any field of science, lots of computer science 
you do not actually know what the payoffs are going to be. Our 
field has a 40-year history of guessing wrong about what was 
going to be worthwhile and what was not going to be worthwhile. 
So it is not unlike other fields in that respect.
    So looking across the entire Federal research portfolio, 
even after this initiative, support for computing and 
communications research would still be less than half of what 
we spend on the physical sciences and less than 20 percent of 
what we spend on the life sciences.
    So, in our view, IT Squared is a balanced, well-conceived 
initiative. It is crucial to the Nation, and we urge you to 
support it.
    Thanks very much.
    Mrs. Meek [presiding]. Thank you for your testimony.
    Mr. Lazowska. You bet. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Meek. Now, we will hear from Mr. Mitch Gipson, 
executive director of the Audubon Biomedical Science and 
Technology Park.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

MITCH GIPSON, EXECUTIVE DIRECTOR, AUDUBON BIOMEDICAL SCIENCE AND 
    TECHNOLOGY PARK, COLUMBIA UNIVERSITY
    Mr. Gipson. Good afternoon, Madam Chairperson and members 
of the subcommittee. I am Mitch Gipson, executive director of 
the Audubon Biomedical Science and Technology Park at Columbia 
University. I appreciate the opportunity to appear before you 
today to update you on the progress of development of Audubon. 
I am here on behalf of Dr. William Polf.
    As you know, the Audubon Biomedical Science and Technology 
Park, located on the Health Sciences Campus of Columbia-
Presbyterian Medical Center in New York City, is one of the 
first urban scientific research parks dedicated to biomedical 
research and development of emerging new biotechnology 
industry. It is the first research park in New York City and 
one of the few in the Nation devoted specifically to housing 
both academic and commercial research to help create a synergy 
between university research and the development of commercial 
applications in pioneering new medical technologies, 
pharmaceuticals and diagnostics.
    Development of the Audubon Park is supported by a 
partnership among Columbia University, New York City, New York 
State and the Federal Government. Past support of this 
subcommittee has been critical in ensuring the success of 
Audubon.
    Audubon houses New York City's only biotechnology business 
incubator, the Mary Woodward Lasker Research Facility, home to 
12 companies, and the Russ Berrie Medical Sciences Pavilion, 
with research programs in genetics, cancer, diabetes, and other 
disciplines and new medical services to the community. 
Together, these first two buildings constitute a major resource 
for discovering important new medical science in a host of 
diseases, transferring new knowledge to new diagnostics and 
medical treatments, developing revolutionary pharmaceuticals 
based on breakthroughs in biotechnology and applying those 
benefits to people who need health care throughout the world.
    The Audubon Research Park is also a vital economic 
development engine for New York. Located in an economically 
distressed area of Manhattan, Audubon has been a major factor 
in developing new facilities, new jobs and stimulating the 
business development in Washington Heights and in northern 
Harlem. Continued development of Audubon is essential for 
stimulating the biotechnology industry in New York, creating 
new jobs and companies.
    The commercial biotechnology incubator facility, for 
example, now has approximately 250 people employed by the 
biotech companies, the retail businesses located on the street 
level and the building operations and management team. The 
majority of these are New York City residents, many of them 
from the immediate neighborhood.
    The second Audubon facility will house approximately 400 
jobs when complete. It is estimated that the entire Audubon 
project, once completed, will create approximately 2,500 jobs. 
In addition to the jobs created, the second Audubon facility 
also houses an innovative new community primary health care 
program designed to meet the needs of the medically underserved 
neighborhoods.
    Audubon will provide a center for enabling American 
biomedical science to generate new business in advanced 
pharmaceutical and medical technologies, two cornerstones upon 
which the American economy can hold its own and grow in an 
increasingly competitive international business setting. By 
helping build the research and development base that provides a 
scientific and technological foundation for American business, 
Audubon will create new American jobs. In addition to this 
important economic stimulus, the health benefits from new 
discoveries at the Park will flow to the surrounding community 
which is characterized by high rates of illness associated with 
poverty, inadequate health care and urban distress.
    The next phase of the development of Audubon will create 
space for the expansion of new science, new mechanisms of 
technology transfer, new opportunities for research 
collaborations and new locations for biotech companies. The 
Audubon Park is proving that medical breakthroughs are enhanced 
when academic and commercial research move forward together.
    As your subcommittee works to establish its funding 
priorities for fiscal year 2000, I respectfully request that 
$10 million be dedicated from the Department of Housing and 
Urban Development's Economic Development Initiative for the 
continued development of Audubon.
    Thank you, again, Mr. Chairman, for the opportunity to 
present testimony on behalf of this important and exciting 
initiative to the subcommittee. I would be happy to answer any 
questions you may have.
    Mr. Hobson. Any questions?
    Mrs. Meek. Yes. This is a very interesting initiative. 
You've already begun. Did the subcommittee fund you the last 
session?
    Mr. Hobson. Yes; you got $10 million.
    Mr. Gipson. Yes.
    Mrs. Meek. That is right.
    Mr. Gipson. It was $1.4 million.
    Mr. Hobson. And your average is ten?
    Mr. Gipson. Ten.
    Mrs. Meek. And how many jobs did you create?
    Mr. Gipson. Well, so far, in the two buildings, we are 
housing about 400 people.
    Mrs. Meek. I see, and this at the hospital there, the 
Columbia Medical----
    Mr. Gipson. Yes; it is an expansion of the medical center 
territory.
    Mrs. Meek. That is where my granddaughter was born, Mr. 
Chairman.
    Mr. Gipson. My son was born there too. [Laughter.]
    Mrs. Meek. It is an interesting concept. Thank you.
    Mr. Hobson. Any other questions?
    Mrs. Meek. No; thank you.
    Mr. Hobson. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Next will be a representative from the Joslin 
Diabetes Center. Dr. Bursell.
                              ----------                              
                                         Wednesday, April 28, 1999.

                            VETERANS AFFAIRS


                                 WITNESS

SVEN-ERIK BURSELL, JOSLIN DIABETES CENTER
    Mr. Bursell. Mr. Chairman, Members of the committee, thank 
you for this opportunity to present the statement for the VA 
concerning fiscal year 2000 funding. The purpose of the 
statement are for Joslin Diabetes Center, (1) to provide the 
committee a status report on the VA's participation in the 
joint Joslin/DOD/VA Diabetes project funded through DOD 
appropriations for the past two years; and (2) to request 
direct funding through this bill of $2 million for fiscal year 
2000 for the VA to expand the pilot program into new VA regions 
and facilities.
    At this point----
    Mr. Hobson. Would you explain that part to me. Where do you 
plan to expand?
    Mr. Bursell. Basically, what we are planning on doing is 
expanding the program beyond the funding that is provided 
through the DOD to open up additional sites in the VA network 
system. The VA is very supportive of moving forward at a faster 
rate than we can through funding through the DOD initiative and 
that's why we are requesting funding directly through the VA.
    Mr. Hobson. Well, since two Members of this committee have 
VA facilities I know of in their district, you're proposal 
would open up a number of diabetes sites throughout the nation.
    Mr. Bursell. Yes.
    Mr. Hobson. It would be interesting to know, at some point, 
where they plan to go.
    Mr. Bursell. Yes. I think that is basically what we are 
working through Dr. Patel in this project, under Dr. Kizer, and 
they will make the decisions on where the need is greatest in 
the network.
    What I would like to do is just to give you a flavor of 
what is coming out from the existing initiative and I will 
diverge from my written testimony.
    I would just like to give you some results that are 
emerging from the studies that we currently have done in the 
first phase of the program.
    The results are very exciting and also very encouraging. 
The first step was a requirement to demonstrate that the video 
images that we acquire for assessing diabetic retinopathy 
through a nondilated pupil were comparable to the accepted 
medical gold standard which is 55 millimeter slides from 
dilated pupils.
    We have been able to show that, so that the level of 
agreement is substantial. We have done the statistics. We will 
be publishing that paper and we anticipate that it will meet 
the acceptance criteria for the American Academy of 
Ophthalmology and American Diabetes Association for standards 
of care.
    The one piece of information that came out of this study, 
that for me was very interesting, was the fact that of the 
patients that were going through an ophthalmology office, that 
we put through the program before they went to see the 
ophthalmologist, we determined, from the images that we took, 
that 61 percent of those patients did not need to see an 
ophthalmologist at that time.
    That, for us, was tremendously exciting because it meant 
that we, at Joslin, needed to consider reengineering our 
practice, and basically what it meant was that we didn't need 
to spend money on patients to see an ophthalmologist.
    We could essentially triage those patients out. So the 
money that we saved there, we could spend on the patients that 
needed the appropriate treatment, so that we could maintain a 
high quality basis of care for these patients, without 
jeopardizing overall, the care of patients, and potentially we 
could save some money over this.
    So this I think was, for me, was probably the most exciting 
piece of information that came out of our preliminary studies, 
because it basically meant that we could save on the front end, 
spend it on the back end, where it was really needed, and 
without compromising the care.
    So basically I think we were very excited with the project 
and we disseminated these results at the local American 
TeleMedicine Association meeting in Salt Lake City last week. 
We had meetings with the VA and they were tremendously excited 
as well.
    So, in summary, the proposed expansion of this project with 
the VA will provide continuing improvement of health and costs 
related to diabetes for the Department of Veterans Affairs for 
a wider population group.
    We are grateful that we have had the--that the policy and 
the programmatic support of the Veterans Administration in our 
efforts and we understand that the VA supports this request for 
an additional $2 million, and indicates a desire for more 
direct ownership of this project.
    So instead of everything coming out of the DOD, but the 
Veterans Affairs, I think, are interested in actually seeing 
some ownership of this project themselves.
    Thank you very much for your attention.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Well, let me ask a question, if you don't mind. 
Why do not they put it in their budget?
    Mr. Bursell. Well, this is, this is I think--ultimately, 
this would come in as a line-item in their budget.
    Mr. Hobson. It is not. You are asking for an add-on, if I 
am not correct. Am I correct?
    Mrs. Meek. I did not hear this from the VA up here before 
us.
    Mr. Hobson. No.
    Mrs. Meek. Maybe it was there but I did not hear it.
    Mr. Bursell. I was just told that the results from this 
came in after the budget for the VA had been submitted. That 
was why it is coming in as an add-on; yes.
    Mr. Hobson. Okay. Any other questions?
    Mrs. Meek. No. Thank you.
    Mr. Bursell. Thank you very much.
    Mr. Hobson. Thank you.
    David Pritchard, Optical Society of America.
                              ----------                              


                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

DAVID PRITCHARD, OPTICAL SOCIETY OF AMERICA
    Mr. Pritchard. Mr. Chairman and Members of the 
subcommittee, I am David Pritchard, a professor at MIT, where I 
lead a research group on atomic and molecular and optical 
physics. I am also designing an innovative Web-based homework 
tutor for high school and college students.
    I am testifying today as a director of the Optical Society 
of America whose 12,000 members are mostly optical scientists 
and engineers.
    Our society was founded 80 years ago by lens makers who 
employed the wave picture of light up through World War II. 
They did not notice that Einstein and other European scientists 
had proposed light particles called photons and developed 
quantum field theory of light using these particles.
    The war, however, invigorated basic research in the United 
States and U.S. scientists were able to invent the laser in 
1960, building on these ideas in basic science from Europe.
    The laser has created modern optics and revolutionized the 
use of light in science and engineering. Their light is so 
strong, that its mechanical effects have important 
applications. Military weapons, cutting and shaping metals, 
even micro machining of the cornea to permanently improve 
vision, and other eye surgery.
    Everybody uses lasers and laser printers, supermarket 
scanners and compact disk players.
    Fiber optics, carrying laser light, have reduced the cost 
of transmitting information by a factor of a 100 since 1975.
    So, today, the Worldwide Web spreads across the United 
States on 30 million miles of fiber optic cables. Combined with 
nonlinear and integrated optics, this has created a new 
technology called photonics, which taken together with 
electronics and computer science, are the technologies that 
enable the Information Age.
    These developments have all made modern optics and today's 
optical society incredibly diverse, but our diverse membership 
agrees on one thing. That all of these tremendous achievements, 
both societal and scientific, had their origins in basic 
research.
    We therefore thank the subcommittee for this opportunity to 
testify on the NSF fiscal year 2000 budget.
    Our members views on the fundamental importance of basic 
research are shared by Government agencies as well.
    The 1998 House report, ``Unlocking Our Future: Toward A 
National Scientific Policy,'' says, ``The United States of 
America must maintain and improve its preeminent position in 
science and technology.''
    The Council on Competitiveness 1999 report says, 
``Increasingly, the prosperity of advanced nations will depend 
on their rate of innovation.''
    Given the many scientific and technical challenges faced by 
the United States in today's global economy, many argue that 
the percentage of United States Gross Domestic Product devoted 
to research and development should increase.
    In fact it has declined 12 percent since 1991, and the most 
significant factor in this decline is the drop in Federal R&D 
support, especially for basic research, where its support has 
dropped from 70 percent of the total in the early 1980's to 56 
percent today.
    Our members have noted this erosion with great concern and 
endorse the recommendation of the Coalition for National 
Science Funding, that NSF's budget be increased to $4.3 billion 
for fiscal year 2000.
    It should also be emphasized that the typical optical 
science basic research is an individual investigator, very 
often the ones who spawn truly new ideas. Unfortunately, their 
support comes from the NSF core programs where funding has not 
kept pace with inflation.
    In summary, basic research is a public good but the private 
sector cannot justify supporting it. That is why Federal 
investment in basic research is so important.
    We understand that there are many competing priorities that 
the subcommittee must consider and that NSF enjoys neither the 
largest nor the most vocal of constituencies.
    It is, however, a cornerstone of the U.S. science and 
engineering community and the prime source of support for 
pathbreaking research in the optical sciences and engineering.
    Increasing NSF's fiscal year 2000 budget will repay itself 
many times over in our 21st Century. We urge the subcommittee 
to keep this in mind in its deliberations.
    Mr. Chairman, thank you for your attention, and I would be 
pleased to answer any questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Thank you. Any questions?
    Mrs. Meek. No; thank you.
    Mr. Hobson. I do not have any questions. The title of your 
thesis that you wrote for your Ph.D., if you could explain that 
to me sometime.
    Mr. Pritchard. It was about bouncing one kind of atom off 
another kind of atom, in layman talk.
    Mr. Hobson. Thank you. Yes. Obviously, I am not going to 
get into an argument with you. [Laughter.]
    Thank you very much, sir.
    Mr. Pritchard. You are welcome.
    Mr. Hobson. Okay. Craig Peterson, National Institute for 
the Environment. I do not know whether you wrote a Ph.D. or 
not. I do not have your vita here.
                              ----------                              

                                         Wednesday, April 28, 1999.

                      NATIONAL SCIENCE FOUNDATION


                                WITNESS

CRAIG A. PETERSON, NATIONAL INSTITUTE FOR THE ENVIRONMENT
    Mr. Peterson. I am a humble engineer. I am not a Ph.D.
    Mr. Hobson. I looked at that title and I thought, boy, I am 
in trouble if I start asking this guy any questions.
    Mr. Peterson. I did understand a few of the things he said 
and that scared me a little bit. [Laughter.]
    I am pleased to be here before this subcommittee this 
afternoon, Congressman Hobson, and Members of the committee, 
Congresswoman Meek. Glad to be here.
    Thank you for providing me the opportunity to speak to you 
today.
    The Committee for the National Institute for the 
Environment has been working since 1989 to improve scientific 
basis for environmental decision making. The CNIE is a 
nonpartisan organization that takes no position on particular 
environmental issues, other than the recognized need for better 
connection between science and the decision making process.
    We do not receive any Federal money and we are not here 
today to seek any money that will go to our organization.
    We have testified before this committee for several years 
on the need for a trusted source of scientific information on 
environmental issues that is separate from the regulatory 
agencies of the Federal Government.
    This source should provide objective peer-viewed science 
that answers the key questions of decision makers and affected 
parties inside and outside the Government.
    We believe that an opt to create such a trusted source now 
exists in the context of the National Science Foundation.
    Our testimony today is to encourage the committee to take 
advantage of this opportunity to fund NSF at a level above the 
President's budget, for the purpose of improving the scientific 
basis for environmental decision making, a need, I know, that 
all of us recognize.
    The core principles that we advocate are three in nature. 
First, a non-regulatory science body with a mission to improve 
the scientific basis for environmental decision making.
    Second. Integration of knowledge assessment, research, 
information distribution, and education.
    And thirdly, involvement of all the stakeholders in its 
activities equally, inside and outside of the Federal 
Government.
    Our effort to create a source of credible scientific 
information has been developed and has been endorsed by more 
than 440 organizations, including such organizations as the 
State and local Government groups, National Association of 
Counties, Conference of Mayors, and so on.
    Included in your own State, a member of our committee, the 
Science and Energy Chair for National Conference of State 
Legislators, Representative Bill Shook, from the State of Ohio. 
Dorothy Height, Chairman of the National Council of Negro 
Women, and numerous other people, from a diverse group of 
people, have come together to support this cause.
    Our board of directors reflects this diverse support and I 
am one of three elected State and local Government officials on 
the CNIE board. As an environmental engineer, and as the 
recently retired majority leader for the Utah State Senate, I 
have seen far too many examples of legislators and 
administrators needing to make a decision when the science was 
not sufficient.
    Aside, apart from my testimony, I have seen even worse than 
that.
    Many decisions cannot and should not be deferred but we 
also need a process to insure the adequacy, quality, and the 
independence of the science that we need. This Nation needs to 
increase its investment in environment, science, and 
engineering.
    Frankly, as a society, we need to make better decisions 
based upon better science.
    We greatly appreciate the past support of your committee 
for the proposal known as the National Institute for the 
Environment or NIE. As part of your report to accompany fiscal 
year 1998 appropriation to the National Science Foundation, the 
House committee approved the following amendment.
    ``The committee has been greatly impressed by the proposal 
for a non-regulatory National Institute for the Environment 
with a mission to improve the scientific basis for making 
decisionson environmental issues,'' and so on.
    Last April, the National Science Foundation reported to 
this committee that it was ``committed to environmental 
research and education in all areas of science and engineering, 
and is eager to expand its role in a manner consistent with 
overall national goals and with its mission and strategic 
plan.''
    NSF has not developed a plan of action, as committed to do 
in past legislation. This last summer, the National Science 
Board did create a Task Force on the Environment ``for the 
purpose of assisting NSF in defining the scope of its role in 
environmental research, education, and assessment, and in 
determining the best means of implementing activities related 
to this area.''
    The board is scheduled to accept the task force report at 
its meeting this coming May 7th.
    Although we are not aware of the details of the task force 
report, we are very encouraged by the workings of the task 
force. We have been given considerable opportunity to work with 
the task force and have been impressed by its significant 
efforts to go beyond the status quo and provide genuine 
leadership for the Nation on this issue.
    We understand that they will propose an ambitious 
initiative for NSF, which we hope will be consistent with the 
NIE principles and goals that we have outlined previously.
    In addition to the work of the Foundation's Task Force on 
Environment, new NSF Director Rita Colwell, is making science 
for understanding the environment one of her top priorities, 
and in her budget includes a $40 million request for integrated 
environmental science, under the theme ``biocomplexity''--a 
term coined by Dr. Colwell to describe the complex 
interrelationships between living beings and the environmental 
systems they live in.
    In conclusion, today we wish to make the following points.
    That Congress should take advantage of this excellent opt 
to place environmental decision making on a more scientific 
basis by giving a clear sign of its support for the NSF's 
initiatives and efforts to connect its environmental science 
funding to the decision making needs of this Nation.
    We encourage the committee to fully fund the NSF's 
biocomplexity and environmental initiatives.
    Thirdly, we encourage the committee to add additional 
funding above the President's request for NSF to implement the 
principles for a National Institute for the Environment through 
the Foundation.
    We support the proposal of the Coalition for National 
Science Funding, of which we are a member, for $562 million, or 
a 15 percent increase over the 1999 budget, and we would 
recommend that in the context of providing funding over the 
President's request, that this committee give special attention 
to an increase in environmental science funding to implement 
the recommendations of the task force, consistent with the 
principles of the NIE.
    Since we do not yet know the details of these 
recommendations, we would like to keep that option open and 
coming back to this committee as you would suggest or you would 
allow.
    I, the board and the staff of CNIE, and many others support 
this effort, and are ready to work with the committee and 
others in achieving this goal.
    I would be glad to answer any questions the committee might 
have, and would appreciate the support.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. I would just say that I think one of the 
frustrations--and I was a former State senator myself, 
president pro tem in the Ohio Senate, and I think Ms. Meek was 
in the Florida legislature.
    Mrs. Meek. Yes.
    Mr. Peterson. Well, we came from good roots, then. 
[Laughter.]
    Mr. Hobson. I think one of the things that frustrates 
legislators, at all levels is the lack of science in certain 
environmental decisions that we all have to make or are called 
upon to make.
    Mr. Peterson. Constantly.
    Mr. Hobson. I have got one in my district, right now. One 
of the problems is getting good science on this and making 
decisions that we can rely upon, based upon the science. I 
personally am hoping that we can do much in this area because I 
think it helps us all govern better, and creates less 
divisiveness within the communities that we represent.
    Mr. Peterson. You know, I had some existing experiences 
being--you know--having an engineering and environmental 
background, and certainly as a legislator, how often I was 
faced with issues that required some science experience. A good 
colleague and friend of mine, Congressman Vern Ehlers----
    Mr. Hobson. I know him.
    Mr. Peterson. Congressman Ehlers was kind of my mentor at 
the National Conference of State Legislators, and I have great 
respect for his scientific mind.
    Mr. Hobson. Did you ever meet Chuck Horn?
    Mr. Peterson. Chuck Horn; good friend.
    Mr. Hobson. He is an engineer too.
    Mr. Peterson. We did not always agree, but, yes, Chuck, and 
I got along very well. I can remember having people make what 
looked like beautiful, scientifically-based presentations, and 
then Dr. Ehlers quickly tore them apart, because he had the 
knowledge to do it. But so many of us do not, and to have this 
kind of ability available--we have the science out there, we 
have the opportunity for peer review out there. We just do not 
have a repository for it to happen.
    Imagine a mental health professional, or someone else 
saying we can no longer have the National Institutes for 
Health, or the Centers for Disease Control, or other centers 
that we have found as repositories for valuable commingled, 
nonpartisan, nonregulatory information, would be incredibly 
valuable and would serve both sides of our houses, would serve 
the environmentalist that is in me, while, at the same time, 
the engineer that is in me.
    Mr. Hobson. Thank you very much.
    Mr. Peterson. So thank you so much for the opportunity to 
testify.
    Mrs. Meek. So the two are compatible.
    Mr. Peterson. Absolutely compatible.
    Mrs. Meek. Thank you.
    Mr. Hobson. Thank you very much.
    Mr. Peterson. Thank you.
    Mr. Hobson. Now I am going to call on a representative of 
the Committee on Environmental Microbiology and American 
Society for Microbiology, and you can say your own last name 
because he cannot do it and neither can I, so----
                              ----------                              

                                         Wednesday, April 28, 1999.

  ENVIRONMENTAL PROTECTION AGENCY AND THE NATIONAL SCIENCE FOUNDATION


                                WITNESS

JAMES M. TIEDJE, COMMITTEE ON ENVIRONMENTAL MICROBIOLOGY, AMERICAN 
    SOCIETY FOR MICROBIOLOGY
    Mr. Tiedje. Okay. Mr. Chairman, and----
    Mr. Hobson. Please say your name for the----
    Mr. Tiedje. Yes. I am James Tiedje.
    Mr. Hobson. Tiedje.
    Mr. Tiedje. Tiedje. T and a g. I am professor of 
Microbiology at Michigan State University and I direct one of 
the National Science Foundation science and technology centers.
    My testimony is presented on behalf of the American Society 
for Microbiology, which is the largest single life science 
organization in the world with over 43,000 members.
    ASM appreciates the opportunity to provide the following 
recommendations on funding for EPA and NSF.
    First of all, I would like to thank the Chairman and the 
subcommittee for your strong support of basic research in 
scientific discovery. Research on environmental microbiology is 
essential for maintaining our air, our water, and our soil 
quality, and for assuring the safety of potable water supplies, 
and providing for a safe means of waste disposal.
    Support of applied research in the field of environmental 
microbiology can lead to enhanced environment quality and help 
protect human health.
    ASM urges Congress to fully fund EPA's Science To Achieve 
Results program, known as STAR, at the $110 million level. The 
STAR program is an important mission-driven extramural, peer-
reviewed research initiative that funds environmental research 
proposals from outside the Federal Government and has done much 
to strengthen EPA's research quality.
    ASM is concerned, however, that the exploratory grants 
program within the STAR budget has dropped to only 10 percent. 
This portion is too small to meet the many needs within EPA's 
mission that are not targeted in a limited number of RFAs.
    ASM applauds EPA's support of such program initiatives as 
drinking water safety standards, cost-effective water treatment 
technologies focusing on microbes, and other initiatives under 
the goal of clean and safe water.
    ASM has been concerned about the rising problems of 
microbial safety of our waters.
    ASM strongly urges Congress to fully fund EPA's graduate 
fellowship program which is under STAR. This program has had a 
major impact in attracting exceptionally talented young people 
to pursue careers in environmentally related fields.
    With regard to NSF, the ASM supports an increase of $562 
million, or 15 percent for the NSF for fiscal year 2000, and as 
recommended by the Coalition for National Science Funding, of 
which we are a member.
    Within NSF's budget, I would like to focus on specific 
recommendations in three areas. Genomics research, microbial 
diversity, and microbial systematics and data bases.
    Genomics research has resulted in the complete sequencing 
of more than 20 microbial genomes and many more are underway. 
This information fundamentally changes the approach to research 
and what can be learned about an organism.
    NSF should expand its research in functional genomics, so 
we can understand the meaning of the genomics research in 
associated genomic areas, and especially in the environmental 
areas.
    NSF's Microbial Observatories Program provides a tremendous 
opportunity for microbial diversity discovery, that we hope 
will be realized under NSF's proposed initiative on discovery 
of new species.
    We now know only a few percent of the microorganisms on 
Earth. This leaves microorganisms as the largest untapped 
source of biodiversity. I think many of you probably recognize 
that most of our antibiotics today have come from such diverse 
organisms.
    ASM strongly supports NSF's initiative on species 
discovery.
    Finally, microbial systematics research has not kept pace 
with the research and application needs, and NSF must recognize 
that biological data bases, such as the microbial data bases, 
are a central and vital infrastructure needed to support modern 
day biological research, and they should be treated as a major 
national facility.
    NSF is the appropriate agency to support microbial 
systematics research on the many organisms that do not cause 
human disease, and we ask that NSF address this fundamental gap 
in microbial knowledge in its future programs.
    Mr. Chairman, on behalf of the American Society for 
Microbiology, I thank you for the opportunity to testify before 
your committee on the fiscal 2000 budget for EPA and NSF, and I 
would be happy to answer any questions now, or in writing, 
later.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Any questions?
    Mrs. Meek. No.
    Mr. Hobson. Thank you very much.
    Susan Skemp from the American Society of Mechanical 
Engineers International. Welcome.
                              ----------                              

                                         Wednesday, April 28, 1999.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION


                                WITNESS

SUSAN H. SKEMP, AMERICAN SOCIETY OF MECHANICAL ENGINEERS INTERNATIONAL
    Ms. Skemp. Good afternoon. Thank you.
    Mr. Chairman, Members of the committee, I want to thank you 
very much for the opportunity to present the collective 
thoughts of the members of the Aerospace Division of the 
American Society of Mechanical Engineers with respect to the 
NASA R&D activities and funding for fiscal year 2000.
    My name is Susan Skemp and I am a mechanical engineer 
employed by Pratt & Whitney in Florida, a division of United 
Technologies Corporation.
    I am here today on behalf of the Aerospace Division of 
ASME.
    Mr. Hobson. That is in Palm Beach, right?
    Ms. Skemp. It is in Palm Beach; right.
    Mr. Hobson. I sit on the Defense Appropriations Committee.
    Ms. Skemp. Oh, okay. Then you may appreciate some of the 
comments I have in here.
    I am here, today, however, on behalf of the Aerospace 
Division of ASME. ASME is an international organization of 
125,000 members worldwide, and the Aerospace Division has 
15,000 members from industry, academia, and Government, all 
involved in aspects of aeronautical and aerospace engineering.
    There are some points that the Aerospace Division believes 
needs further attention and I would like to comment on those.
    The X-33 program, which is an ambitious engineering 
development project with substantial technical risk, is very 
important to the future of reusable launch vehicle technology, 
and although NASA's fiscal year 2000 budget requests indicate 
that no additional funding would be required, it is the 
division's view that the X-33 program must include sufficient 
resources to accommodate a smooth transition to a commercially 
viable vehicle.
    Even small investments could achieve a huge payoff in 
reducing the risk for a full-scale launch vehicle.
    It is also important to note that the full-scale, single-
staged orbit launch vehicle relies very heavily on industry 
investment, and we believe in the division, that within the 
2000-2001 time period, NASA must be allocated the resources 
needed to develop essential risk reduction technologies.
    Also, proposed reductions of fiscal year 2000 funding for 
aeronautics R&D will profoundly inhibit high speed and subsonic 
aeronautics and air propulsion research.
    Although a planned new incentive would develop long-range 
high-risk technologies for future gas turbines for a wide range 
of aircraft speeds, the scope of the effort would not be 
adequate to maintain the NASA, industry, and university 
partnership needed to address aeronautics and aeropropulsion 
needs of the future.
    With insufficient resources applied to U.S. aeronautics and 
air propulsion research and technology programs, the growth 
could be stifled in the U.S. air transportation system, which 
is an enabler of U.S. economic growth.
    The Aerospace Division also notes that NASA, in concert 
with other Federal agencies, has embarked on a program to 
revolutionize design environment for aeronautical and 
astronautical vehicles and platforms, depending upon wise use 
of information technology as well as high-speed computing and 
its application to human activities such as design.
    NASA has a unique perspective and industrial focus to lead 
such activities. We believe the modest amount of funding 
requested for this activity should be supported, if not 
augmented.
    The division understands the tremendous pressure that your 
committee is undergoing this year to constrain spending; 
however, with these fiscal constraints in mind, the Aerospace 
Division recommends that NASA implement the following action 
items to foster commercial development of space, and continued 
advances in aeronautics and air transportation.
    First, the use of metrics to define the scientific and 
technology shortfalls and to reduce risks for advanced RLVs, 
including the X-33.
    Second, in addition to the need for lower cost commercial 
access to space, there is also an associated need for lower 
cost military access to space, and we recommend that NASA work 
with the Department of Defense to define collaborative programs 
that facilitate economical access to space.
    And third, it is recommended to support core competencies 
within NASA's aeronautics enterprise activities. Use NASA's 
long-term vision in commercial aeronautics to undertake the 
necessary fundamental engineering research and to support the 
use of information technology for advanced future aerospace 
design.
    I thank you for the opportunity to have been here this 
afternoon and I would welcome any questions that you may have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Thank you. I do know that Director Goldin and 
Acting Secretary of the Air Force Peters have met on some of 
these issues, and there is a good dialogue between both of 
them. They have a mutual intellectual respect for each other, 
and I think that will bode well. I am hoping that Secretary 
Peters is confirmed as Secretary of the Air Force because I 
think the synergy between the two works very well, which is 
what you are talking about.
    Thank you very much.
    Ms. Skemp. Thank you very much.
                              ----------                              

                                         Wednesday, April 28, 1999.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION


                                WITNESS

KAREN HACKNEY, ASSOCIATE DIRECTOR OF THE KENTUCKY NASA EPSCOR PROGRAM
    Mr. Hobson. Karen Hackney, welcome.
    Ms. Hackney. Thank you, Mr. Chairman. I am associate 
director of the Kentucky NASA EPSCoR program. I represent the 
Kentucky EPSCoR Committee and the Kentucky NASA EPSCoR 
Subcommittee. I am here today to give testimony in support of 
funding for the NASA and NSF Experimental Programs to Stimulate 
Competitive Research. The Coalition of EPSCoR States 
respectfully urges the subcommittee to appropriate $20 million 
for NASA EPSCoR to fully implement this productive and 
effective program and to appropriate $55 million for NSF EPSCoR 
to maintain its effectiveness in developing scientific 
capabilities for the Nation, including new high-performance 
computing and networking activities.
    To illustrate the potential, I will cite some measures of 
the outstanding results achieved in the first 5 years by the 
ten States with NASA EPSCoR funding:
    More than 250 faculty at 88 universities are involved in 42 
research clusters. Hundreds of students have been trained for a 
technological future. More than 100 collaborations have been 
developed with NASA, and more than 200 others have been 
initiated. Numerous invention disclosures, patent applications, 
and patents have been developed. More than a thousand 
scientific and technological presentations and articles have 
been produced.
    NASA EPSCoR researchers in the ten States funded thus far 
have achieved competitive follow-on funding that represents a 
ten-fold return on the Federal investment, contributing 
ultimately to economic development and increased tax revenues 
in the participating States and conduct of obviously 
meritorious research for the agencies and specific research 
areas.
    In Alabama, in collaboration with the Marshall Space Flight 
Center, advanced materials are being developed for high-
performance coatings.
    From my involvement in Kentucky's EPSCoR programs, I would 
like to cite projects from both NASA and NSF EPSCoR. Kentucky 
NASA EPSCoR researchers at the University of Louisville 
established the Electro-optics Research Institute. Their 
results will be widely applicable for robotic vision, space 
exploration, defense systems, surveillance, and medical 
imaging.
    Mr. Hobson. Too bad you missed Representative Northup. She 
was here.
    Ms. Hackney. Yes.
    Mr. Hobson. It would have been a great picture for you.
    Ms. Hackney. Actually, we did get a picture. Thank you.
    NASA EPSCoR support in Kentucky for the research projects 
of a young African American man and a young Hispanic woman led 
to the recognition of their outstanding research performance in 
the form of prestigious NSF CAREER awards.
    University of Kentucky researchers are concerned with 
cardiorespiratory responses with implications for heart attack 
and stroke prevention. The interests to NASA are response to 
weightlessness in space and effects on return to Earth.
    Kentucky NSF EPSCoR enabled the University of Louisville 
researchers to upgrade their research facilities and establish 
a molecular neurobiology research and training program.
    Thank you for your considerations on behalf of the 
Coalition of EPSCoR States. I welcome this opportunity and am 
ready for questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hobson. Thank you.
    Anybody have any questions?
    Mrs. Meek. No.
    Mr. Hobson. Thank you very much.
    Ms. Hackney. Thank you.
                              ----------                                


                                         Wednesday, April 28, 1999.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

ALISON A. KERESTER, URBAN TOXIC RESEARCH CENTER
    Mr. Wicker [presiding]. Our next witness is Alison A. 
Kerester, Urban Toxic Research Center.
    Ms. Kerester, we are glad to have you.
    Ms. Kerester. Good afternoon. Thank you. I am glad to be 
here. Thank you for the opportunity to appear and to update 
you.
    My name is Alison Kerester. I am the executive director of 
the Mickey Leland National Urban Air Toxics Research Center. We 
have a long name. We are located in Houston, Texas.
    As you may be aware, the Leland Center was created by 
Congress in the 1990 Clean Air Act Amendments as a public/
private partnership to sponsor research on the potential human 
health effects of the 188 listed compounds or air toxics in the 
Clean Air Act. We were specifically created by Congress to be 
an objective scientific organization. We have no vested 
interest in the regulatory outcome. However, what we are 
designed to do is sponsor research that will fill the critical 
data gaps in air toxics.
    This research is becoming even more important because the 
Environmental Protection Agency has initiated two new major 
regulatory efforts: the Integrated Urban Air Toxics Strategy 
and Residual Risk.
    One of the most critical research gaps has been in personal 
exposure to air toxics. There is a great deal of information on 
what is being emitted into the air, but little information on 
what people are actually exposed to, what people are breathing 
in.
    Our first research effort fostered the development of this 
small badge, which is a passive monitoring system that picks 
out certain volatile organic compounds and other air toxics. 
This badge is now being used in three major research projects 
that we are sponsoring. The first is being conducted by 
Columbia University and involves high school students in Harlem 
and Watts. The second one is being conducted by the 
Environmental and Occupational Health Sciences Institute 
affiliated with Rutgers. They are examining the personal 
exposures in 100 homes in Houston, Texas, in Elizabeth, New 
Jersey, and in Los Angeles. And the third major study is we are 
working with--collecting samples from a thousand participants 
in the National Health and Nutrition Examination Survey.
    Our future research will include the development of a more 
active system for particulate matter. Particulate matter cannot 
be measured using a passive system. And, again, we want to 
foster the development of this technology. This technology has 
enabled much larger-scale studies of personal exposure.
    The next link is to determine if there are health effects 
associated with these exposures, particularly respiratory and 
cardio effects. We would like to support research on novel and 
innovative air toxics health issues, particularly effects in 
children.
    We also would like to develop a protocol to respond to 
incidents of very high levels of air toxics such as occurred in 
Houston last spring when the smoke and the haze came in from 
South America. Unfortunately, there was no mechanism in place 
to collect that kind of data, which is needed.
    In summary, we believe that the Leland Center is 
functioning as Congress intended us in providing peer-reviewed, 
objective science to assist in the national debate over air 
toxics. With EPA's initiation of these two new major programs, 
we feel that our contribution is more vital than ever.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Thank you.
    Mrs. Meek. Mr. Chairman?
    Mr. Wicker. Mrs. Meek?
    Mrs. Meek. Just one quick question. Tell me a little bit 
about the many small grants you have given to these minority 
investigators in Houston for helping the environment standard.
    Ms. Kerester. Yes, it will. Part of our congressional 
charge is to reach out and involve communities, and the initial 
mechanism we have chosen is small grants to new and minority 
investigators. These scientists often have a difficult time 
obtaining grants, and we would like their research to focus on 
involving the community, as do the larger-scale studies, so 
that the community is aware of and involved in the research.
    Mrs. Meek. I see the program is new, so you have not given 
out any grants?
    Ms. Kerester. Not yet. We are going to be letting some 
shortly.
    Mrs. Meek. All right. Thank you.
    Mr. Wicker. We very much appreciate it.
    Ms. Kerester. Thank you very much for your time.
                              ----------                              


                                         Wednesday, April 28, 1999.

                        NUCLEAR ENERGY INSTITUTE


                                WITNESS

RALPH BEEDLE, SENIOR VICE PRESIDENT AND CHIEF NUCLEAR OFFICER
    Mr. Wicker. Ralph Beedle, Nuclear Energy Institute. Mr. 
Beedle, nice to have you.
    Mr. Beedle. Mr. Chairman, thank you. It is a pleasure to be 
here.
    Mr. Chairman, Mrs. Meek, good to see you again this year.
    Mrs. Meek. Good to see you.
    Mr. Beedle. My name is Ralph Beedle. I am the chief nuclear 
officer and senior vice president for the Nuclear Energy 
Institute. The institute sets policy for the U.S. nuclear 
energy industry and represents more than 275 companies, 
including every U.S. utility that operates clean-air, electric-
generating nuclear power plants.
    I want to first thank you and the members of the 
subcommittee for your commitment to careful oversight of the 
Environmental Protection Agency, and in particular the Agency's 
administration of the National Priorities List. I appreciate 
the invitation to testify this afternoon and ask that you 
include my full remarks in the record.
    Mr. Wicker. They will be.
    Mr. Beedle. Last year, this committee instructed the EPA to 
continue its longstanding policy of deferring to the Nuclear 
Regulatory Commission for cleanup of NRC-licensed sites and to 
spend no funds to place NRC-remediated sites on the National 
Priorities List. I am here today to tell you that the EPA 
continues to disregard your direction. The Agency is still 
wasting time and resources. It is still interfering with NRC's 
regulatory process without any benefit to public health and 
safety.
    There are three reasons why the industry respectfully urges 
this committee to prohibit the EPA from expending any further 
effort with regard to the remediation of NRC-regulated sites.
    First, the NRC has successfully employed its regulatory 
program to protect public health and safety in the 
decommissioning of more than 70 major sites.
    Second, the EPA continues to escalate its involvement in 
the remediation of NRC-licensed sites, contrary to this 
committee's direction. For example, when NRC called for public 
input on an NRC licensee's plan for a license termination, the 
EPA took advantage of that opportunity to attack NRC's 
regulatory program rather than to provide meaningful input and 
comment on the licensee's termination plan.
    More recently, the EPA contacted an NRC licensee and 
requested detailed information regarding the licensee's 
remediation plan. EPA did this without contacting the NRC. This 
places the licensee in a very awkward position, caught between 
two Federal regulatory agencies.
    And, third, the duplicative effort of the EPA diverts NRC 
licensee resources and increases the cost of safe site cleanup, 
not to mention the fact that it increases the cost and reduces 
the effectiveness of regulation by the Federal Government.
    In closing, I urge this committee to again exercise its 
legislative authority and direct the EPA to refrain from 
intruding into the NRC's proper regulatory process. The EPA 
should apply its finite resources in areas under its 
jurisdiction with the objective of assuring that every Federal 
action in this area is done for the benefit of public health 
and safety. Further, we recommend that the committee include 
language in the appropriations bill that calls for a detailed 
report by the EPA of every interaction with NRC or NRC 
licensees with regard to site remediation.
    Mr. Chairman, Congress can't afford to let the Federal 
Government and Federal agencies waste public and private funds 
in overlapping regulatory activities. We urge you to continue 
your support of this matter.
    Thank you, sir.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Thank you, Mr. Beedle.
    Any questions, Mrs. Meek?
    Mrs. Meek. No. Thank you.
    Mr. Wicker. Mr. Beedle, has your organization filed any 
lawsuit against the EPA for disregarding congressional 
mandates? Have you considered that?
    Mr. Beedle. We have not filed one, but we might go back 
after this conversation and consider that.
    Mr. Wicker. I am not making any suggestion. I am serious. 
But oftentimes when there are allegations that an agency is 
exceeding its bounds, we find that the fight is conducted on 
several fronts.
    Your contention is that the EPA is duplicating the work 
that is more properly done by another agency and, secondly, 
that they are disregarding a mandate by Congress.
    Mr. Beedle. That is our contention.
    Mr. Wicker. Well, we will certainly, I think, look at that 
and see if that is the case.
    Mrs. Meek. I was just going to say, if we looked into it to 
see if there is that discrepancy----
    Mr. Wicker. Oh, indeed.
    Mrs. Meek. And then put language in to try and correct it.
    Mr. Wicker. We will look at it.
    Mrs. Meek. If it exists.
    Mr. Beedle. Last year Mrs. Meek made the observation that I 
was one of the few people who testified that wasn't asking for 
money. In fact, I am asking that we make an effort to continue 
to effectively manage the Government and private funds.
    Thank you very much.
    Mr. Wicker. We thank you for your time and testimony.
                              ----------                              


                                         Wednesday, April 28, 1999.

               NATIONAL EMERGENCY MANAGEMENT ASSOCIATION


                                WITNESS

EDWARD JACOBY, JR., DIRECTOR, NEW YORK STATE EMERGENCY MANAGEMENT
    Mr. Wicker. Edward Jacoby, Jr., National Emergency 
Management Association.
    Mr. Jacoby? You are swimming upstream, Mr. Jacoby. I will 
give you a second to get over here. What would you have for us 
today?
    Mr. Jacoby. I have some testimony, Congressman, that I 
would like to present for the National Emergency Management 
Association. My name is Ed Jacoby. I am director of the New 
York State Emergency Management Office. I am here today on 
behalf of the National Emergency Management Association which 
represents the emergency management directors in 50 States and 
territories responsible to their Governors for emergency 
preparedness, mitigation, response, and recovery. NEMA 
appreciates the opportunity to provide this comment on FEMA for 
the year 2000 budget.
    Mr. Congressman, the FEMA budget provides critical dollars 
to support State and local emergency management programs. NEMA 
urges your strong support of the budget as presented with 
consideration for additional dollars in the State and Local 
Assistance program.
    The FEMA budget request reflects the incredible growth of 
all-hazards emergency management activities in recent years--
from domestic preparedness program to Y2K to international 
disaster relief and now planning for school safety. Emergency 
management programs at all levels of government face difficult 
challenges today, including the expectation to do more with 
less, increased competition for resources, increased frequency 
and destructiveness of disasters, and increased public 
expectations for services. In addition, there is an expectation 
by Congress to reduce disaster costs.
    I am proud to inform you that States are rising to meet 
these challenges. They are committed greater resources than 
ever before to emergency management. According to a recent 
survey by NEMA, States spent $2.77 billion on emergency 
management in fiscal year 1997, which is nearly double the 
amount spent only 5 years ago. While emergency management once 
focused on responding to and recovering from disasters, States 
are now clearly focusing their efforts and resources on 
mitigation or prevention efforts. The NEMA survey revealed that 
States spent $1.24 billion on mitigation activities in fiscal 
year 1997, which is 45 percent of all spending on emergency 
management. This is an 80 percent increase over the previous 
year.
    Given the short amount of time we have today, I will 
briefly touch on a few of the FEMA budget initiatives most 
important to the State emergency managers. The budget request 
includes a new Emergency Management Performance Grant that will 
consolidate separate funding streams and replace the current 
Performance Partnership Agreement. NEMA understands the 
benefits of the consolidated grant will include flexibility for 
the States to meet emergency management priorities and more 
effectively use State staff and fiscal resources.
    NEMA has been working in cooperation with FEMA to develop 
program goals and objectives, and we are excited about the 
opportunities the consolidated grant provides for the States.
    The purpose of the Emergency Management Performance Grant 
includes a request for $141 million for grants to States with 
an increase of about $4 million for State and Local Assistance 
funding. The State and Local Assistance funds are pass-through 
grants that go to the State and local governments and provide 
the very foundation upon which basic emergency management 
capabilities are built.
    The $4 million increase in SLA funds over the previous year 
is sorely needed. In fact, a significant increase in SLA 
funding is needed to bring the program up to the intended 50/50 
match between the Federal Government and the States. States 
reported shortfalls in SLA grants totaling more than $152 
million in fiscal year 1997. This is $27 million more than 
fiscal year 1996 and $68 million more than fiscal year 1992.
    As you can see, the funding has not kept pace with 
increased emergency management responsibilities and public 
expectations for a world-class emergency management system. In 
addition, the cost share for the SLA program will shift to 50/
50 in the year 2000. This has a negative impact on budgets and 
staffing levels in several States with limited financial 
capacity. Other States have been able to secure the necessary 
matching fund requirements.
    Regardless of their States' current financial capacity, all 
State officials share the common concern that the future of 
basic emergency management programs and capabilities will be in 
jeopardy if we continue to shift those costs to the State and 
local governments and piecemeal funding for emergency 
management through special programs that may or may not be 
national priorities in the future. With this in mind, we urge 
you to seriously consider providing additional SLA funds over 
and above the FEMA request.
    NEMA supports FEMA's request for $30 million for pre-
disaster mitigation. This is truly the only way we can reduce 
disaster costs. As I mentioned earlier, States have followed 
FEMA's lead and focused their efforts on prevention. Ninety 
percent of spending for emergency management in fiscal year 
1997 occurred before disasters could strike. NEMA is working in 
partnership with FEMA to collect mitigation success stories and 
to document the cost-effectiveness of such activities as 
property buyout relocation projects. FEMA's request for an 
additional $12 million to focus on removing repetitive loss 
structures from flood plains is very important and will prove 
to be a wise use of Federal and State dollars.
    A critical initiative that has been significantly 
underfunded within FEMA is the domestic preparedness program. 
FEMA has a critical role to play as the lead Federal agency for 
consequence management, but hasn't received the funds to 
appropriately support that lead role. In turn, States receive 
little funding to adequately plan, train, and exercise for 
potential terrorist incidents. NEMA fully supports FEMA's 
request for additional anti-terrorism funds, $8 million of 
which is targeted to go to States for planning and exercises. 
This is critical--I will submit the other two pages for the 
record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. I appreciate that. We hate to call time on 
people. I appreciate your testimony. We were just mentioning 
that I am sure Mr. Walsh, our new subcommittee chairman, 
appreciates your kind remarks in your prepared statement. He 
has a conflict this afternoon and was not able to chair this 
segment of the hearing. And we appreciate your emphasis on the 
role of States in emergency management.
    Mrs. Meek?
    Mrs. Meek. Mr. Chairman, we don't have a lot of time.
    Is the Emergency Management Performance program the same as 
the Emergency Management Preparedness grant? One, the Emergency 
Management Preparedness grant, and the other one that you 
mentioned was the Emergency Management Performance. You changed 
the name. Is it preparedness--performance or preparedness?
    Mr. Jacoby. It is performance.
    Mrs. Meek. It is performance. Is it one and the same grant?
    Mr. Jacoby. Yes, it is.
    Mrs. Meek. All right. Thank you.
    Mr. Wicker. We thank you so much.
                              ----------                              


                                         Wednesday, April 28, 1999.

            ASSOCIATION OF STATE DAM SAFETY OFFICIALS, INC.


                                WITNESS

BRAD IAROSSI, PRESIDENT AND LEGISLATIVE ACTIVITIES CHAIRMAN
    Mr. Wicker. Brad Iarossi, Association of State Dam Safety 
Officials, Incorporated. We are glad to have you.
    Mr. Iarossi. Thank you, Mr. Chairman.
    Mr. Chairman, Mrs. Meek, my name is Brad Iarossi. I am 
president of the Association of State Dam Safety Officials and 
chief of the Dam Safety Program for the State of Maryland. I 
appreciate the opportunity to testify before you today in 
support of the current budget request of $5.9 million for the 
National Dam Safety Program administered by FEMA. Our 
association represents the interest of State Dam Safety 
Programs across the country.
    There are over 75,000 dams in the United States, and States 
have the responsibility for assuring the safety of 95 percent 
of these dams. Dams are a vital part of this Nation's aging 
infrastructure. They provide many essential benefits such as 
flood control, hydropower, water supply, irrigation, 
navigation, and recreation. Yet dams also pose potential 
failure threats that can affect thousands of lives and cause 
millions of dollars in damage to private property and public 
infrastructure.
    The current inventory of dams identified is 9,300 dams that 
are classified high hazard, meaning that their failure will 
cause loss of life and significant downstream property damage. 
In addition, States have identified 1,800 dams that are 
declared to be unsafe.
    Attached to the back of our testimony is a table of State 
dam safety data listing 57 unsafe dams in the State of New 
York, 32 in New Jersey, and 10 in Mississippi.
    States have an enormous task in assuring the safety of dams 
through the regulatory programs. In many States, support for 
the dam safety regulatory programs is lacking. As an example, 
the State of Iowa has 2,500 dams and only three-tenths of a 
full-time position to administer the program.
    In contrast to the Federal Energy Regulatory Commission 
that does an excellent job of assuring the safety of hydropower 
dams, they regulate 2,600 dams and have a staff of 90 
engineers.
    According to the National Dam Inventory, 35 percent of the 
high-hazard dams have not been inspected in this country since 
1990. A handful of States have exemptions in their laws, 
leaving thousands of dams unregulated. This lack of State 
authority and insufficient staffing allows dam owners to ignore 
maintenance, postpone needed safety repairs, or abandon their 
dams completely, leaving serious threats downstream to 
residents and property.
    Congress in 1996 clearly recognized the need for a Federal 
role to provide assistance to States and passed the National 
Dam Safety Program Act. The act provides for $500,000 a year 
for training for State dam safety personnel, $1 million a year 
for research into more efficient methods of inspecting and 
repairing dams, and grant assistance funds to States as an 
incentive to improve their State programs.
    In fiscal year 2000, the grant assistance is $4 million, 
distributed to qualifying States using a formula based on the 
number of dams in each State.
    The National Dam Safety Program under the leadership of 
FEMA is currently in its second year, and we are seeing 
significant progress as a result of this program. In fiscal 
year 1999, 46 States received incentive grants. Some of the 
success stories include training. States have been able to send 
their engineers to much more professional training at regional 
technical seminars, university short courses, training through 
FEMA's Emergency Management Institute, and dam safety 
conferences.
    In addition, States are using the grant assistance funds to 
make specific improvements in their State programs. Kansas, 
with over 6,000 dams, has begun a regular inspection of unsafe 
dams and all dams rated as high-hazard. New York has used 
training funds to send staff to short courses on embankment 
design, hydrologic engineering of dams, and is currently 
planning to offer training courses in their home State, 
including safety evaluation of existing dams and an embankment 
dams course offered by the University of Florida.
    In addition, New York will be using grant funds to enhance 
its geographic information system to include the States' dam 
inventory data and digitized flood maps.
    Other improvements include 11 States reporting increased 
dam inspections, 12 States reporting an increased number of 
emergency warning plans for dams, and 15 States reporting 
progress in the remediation of the fishing dams.
    Mr. Chairman, dams provide essential benefits on a daily 
basis to millions of people in this country. They also 
represent a threat to those who live and work below the dams. 
Dams are aging and State dam safety programs are struggling. 
The Federal Government has an important leadership role and a 
significant economic interest as the recovery costs from dam 
failures come from the President's Disaster Relief Fund and the 
National Flood Insurance Program.
    While we still have much to accomplish, this program is 
very successful. I strongly urge the subcommittee to recognize 
the benefits of this modest investment in public safety and 
support the full authorized funding in the proposed 
administration budget of $5.9 million.
    Thank you for this opportunity. I would be happy to answer 
any questions you may have.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. Thank you, Mr. Iarossi.
    There is no infrastructure money in this appropriation, is 
there?
    Mr. Iarossi. No, sir. No money in this bill----
    Mr. Wicker. Just staff and training.
    Mr. Iarossi. And research.
    Mr. Wicker. And research, yes. So it is up to the States 
then, generally speaking, to----
    Mr. Iarossi. This should jump-start the State programs and 
help mitigate future dam failures.
    Mr. Wicker. Well, it is a problem. I certainly will 
acknowledge that.
    We thank you very much for your testimony.
    The committee will be in recess for 3 minutes.
    [Recess.]
    Mr. Wicker. The subcommittee will come to order. Now, we 
will have order in here. [Laughter.]
    Just have to ask that the aisles be cleared and refrain 
from audible conversations. [Laughter.]
    Do we have Dr. Steven Mirin?
    Dr. Mirin. Before you.
    Mr. Wicker. Wonderful. Dr. Mirin, what do you have to say 
to us on behalf of the American Psychiatric Association?
                              ----------                              

                                         Wednesday, April 28, 1999.

                        VETERANS' ADMINISTRATION


                                WITNESS

STEVEN MIRIN, M.D., AMERICAN PSYCHIATRIC ASSOCIATION
    Dr. Mirin. Well, Mr. Chairman, I thank you for the 
opportunity to appear before you today and to provide APA 
comments on the recommendations for the appropriation of the 
Department of Veterans Affairs, particularly as they relate to 
health care and medical research in the fiscal year 2000 
budget. You have my full written statement.
    Before beginning my comments, I would like to thank the 
members of the subcommittee and your colleagues in the House 
for your commitment to providing high-quality medical care to 
the Nation's veterans and to support the necessary research to 
advance the quality of that care. Having said that, I must also 
say that APA is somewhat troubled by the administration's 
proposed budget for fiscal year 2000, a concern that is shared 
by the veterans service organizations and other health care 
organizations.
    Flat funding for the VA, which was termed by OMB as a 
management deficiency, is really a budget reduction. And our 
concern is that, as in the past, a lot of the proposed 
management deficiencies have been extracted from the core 
mental health programs of the VA. We are particularly concerned 
about mentally ill veterans who account for about 25 percent of 
all the veterans receiving any kind of treatment in the VA 
system. The kind of staffing reductions, hospital closures, 
program cancellations and hiring freezes that are implicit in 
the $1.4 million management deficiencies will inevitably, in 
our view, reduce care for mentally ill veterans.
    By the same token, the flat lining of the VA research 
budget comes only a year after APA was very vigorous in 
complimenting the Veterans Administration for overcoming a very 
long draught in research funding. Even with a significant 
fiscal year 1999 increase, funding for psychiatric research in 
the VA remains disproportionately low compared to the 
utilization of psych services by veterans. And the VA resources 
devoted to mental illness research lag far beyond those of 
other disorders. For example, only 12 percent of the research 
budget is dedicated to the study of mental illness in veterans, 
and mental illness accounts for 25 percent of the patients.
    I would like to highlight some very notable successes in 
the VA. Bed occupancy, both general, mental health and 
substance abuse has gone down. Outpatient services and the 
total number of veterans treated have increased by about 7 
percent, when one compares the current fiscal year 1998 to 
fiscal year 1997. And care givers, by and large, have been able 
to maintain or in some cases enhance their capacity to serve 
veterans.
    We had about 650,000 persons in the VA system who received 
care for some form of mental illness in fiscal year 1998. That 
was compared to 610,000 in 1997. But the actual cost per 
patient decreased by 18 percent from 1997 to 1998. So we are 
making some progress here.
    We are obviously pleased with the outcomes of the VA mental 
health and substance abuse programs. We worry about the 
reorganization of the VA into autonomous integrated service 
networks because not all of the integrated service networks are 
as rigorous in pursuing mental health care for the folks that 
they are responsible for, as others. And we are very interested 
in the committee and the VA monitoring the quality of care 
across the 22 VISNs so that we are sure that the quality is 
equal across all of these programs.
    My written statement categorizes and describes other 
successes. But in summary, I would say that we do have some 
serious concerns. There have been a lot of achievements, but 
also significant disparities in access, and quality of care at 
some of the VISNs need to be addressed by Central VA 
Headquarters and the Congress. And we are concerned that the 
administration's proposed year 2000 budget poses a risk to the 
quality of mental health care for our Nation's veterans.
    I appreciate the opportunity to share these comments with 
you today.
    Mr. Wicker. Thank you very much, Dr. Mirin. Your full 
statement will be included in the record, and we will pass 
along your concerns about the administration's proposed budget 
to other members of the subcommittee.
    Dr. Mirin. Thank you very much.
    Mrs. Meek. We could not get hearings on this. And all of 
this, it was quite apparent when the VA was there for their 
hearing.
    However, it appears to me, after having been on this 
subcommittee for a while, is that they figure that those of us 
who represent you, as Congresspersons we sit on this 
subcommittee, that certainly we will recommend the kind of 
funding. I think that is what OMB precludes when they make 
these budget recommendations, that the subcommittee and members 
of Congress will want to see veterans treated fairly and 
equitably and will go beyond these. That is just an observation 
of mine after all of this time.
    Dr. Mirin. Yes. Well, thank you very much for that.
    Mr. Wicker. How old is the psychiatric profession?
    Dr. Mirin. Well, some people think it is the second-oldest 
profession. [Laughter.]
    But the American Psychiatric Association was founded in 
1844. We are the second-oldest medical specialty society in the 
United States.
    Mr. Wicker. What was it called when it was founded?
    Dr. Mirin. It was the Association for the Care of the 
Insane. So we have come a long way.
    Mr. Wicker. I have been reading about the alienists at the 
turn of the century.
    Dr. Mirin. Ah, yes. Well, the 13 superintendents of the 13 
large State hospitals that existed in this country in the early 
1800s were the founders of the American Psychiatric 
Association. We have 42,000 members of whom about 2,000 are 
psychiatrists working in the Veterans Administration.
    Mr. Wicker. Well, we appreciate you. Thank you so much for 
your testimony and for your time.
    Dr. Mirin. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. I suppose our final witness is Robert German, 
Juvenile Diabetes Foundation International.
                              ----------                              

                                         Wednesday, April 28, 1999.

                        VETERANS' ADMINISTRATION


                                WITNESS

ROBERT D. GERMAN, JUVENILE DIABETES FOUNDATION INTERNATIONAL
    Mr. German. Thank you, Mr. Chairman.
    Mr. Wicker. We are glad to have you here, an effort near 
and dear to my heart.
    Mr. German. Yes, I know. The chairman of our board was 
before your other subcommittee last week and testified with his 
daughter. So I am here before this subcommittee.
    My name is Rob German. I am an attorney with the law firm 
of Sherrard, German & Kelly in Pittsburgh, Pennsylvania. And I 
appear before you today on behalf of the Juvenile Diabetes 
Foundation International, where I serve as a member of its 
board of directors, to testify in support of fiscal year 2000 
appropriations for the Department of Veteran Affairs Medical 
Research Programs and the National Aeronautics and Space 
Administration's Office of Life and Microgravity Science and 
Applications.
    JDF's mission is to find a cure for diabetes and its 
complications through the support of research. JDF is the 
world's leading nongovernmental, nonprofit supporters of 
diabetes research. And this fiscal year, ending June 30, we 
expect to support diabetes research to the tune of $55 million.
    Although JDF is a research funding organization, I am not a 
scientist. I appear before you today as a father. I have been 
an active JDF volunteer since my son, Christopher, came down 
with the disease almost 11 years ago.
    Christopher pricks his finger to test his blood sugar five 
to six times a day and is injecting himself with insulin on an 
average of four times a day. His daily food-take is extremely 
regimented. Christopher does this every day of his life in an 
effort to keep his blood sugar levels within acceptable ranges 
in order to try to reduce the risk of future significant 
problems that he might face down the road. Those potential 
medical problems include blindness, kidney failure, heart 
disease, stroke and amputation. Christopher never gets a day 
off from his diabetes.
    Virtually every JDF parent has made the same promise to his 
or her child to do everything possible to find a cure for 
diabetes and its complications. JDF is doing its share to 
support this effort, and we seek the combined help of the 
Federal Government, and your commitment as well, to help speed 
our path to a cure.
    Diabetes imposes a great strain on the VA health care 
system. The VA estimates that 15 percent of all veterans suffer 
from diabetes, and nearly 25 percent of all pharmacy outpatient 
costs are attributable to persons with diabetes. JDF has 
established public-private research partnerships with the VA in 
1996 to further advance our mutual interests in curing diabetes 
and its complications. So far, our partnership has resulted in 
diabetes research centers in Iowa City, Nashville and San 
Diego.
    Current and future JDF-VA partnerships will focus on new 
treatments to help veterans who suffer from complications such 
as heart disease, blindness, kidney failure and nerve damage.
    Mr. Chairman, we hope this subcommittee will support the 
Friends of the VA Medical Care and Health Research Coalition's 
request for $360 million for VA medical and prosthetics 
research.
    JDF is also working with NASA to advance our understanding 
of diabetes and to develop new treatments. NASA's Office of 
Life and Microgravity Science and Applications undertakes 
research projects that are relevant to issues affecting the 
diagnosis and treatment of diabetes.
    Among the research areas of mutual interest to JDF and NASA 
are the following:
    Diabetic retinopathy. Diabetes is the leading cause of new 
adult blindness. NASA is developing new techniques that will 
permit early diagnosis of diabetic retinopathy suitable for 
mass screening. JDF and NASA co-sponsored recently a major 
national research conference on issues relating to diabetic 
retinopathy research.
    A second area is non-invasive blood glucose monitoring. 
NASA is searching for ways to allow its astronauts to avoid 
invasive procedures for testing their blood. If we can develop 
noninvasive technologies, it will aid individuals with 
diabetes, such as my son, in day-to-day blood sugar control as 
well as astronauts in space.
    Finally, NASA Bioreactor Program. NASA maintains a 
bioreactor that is showing great promise in helping us 
understand more about the biology of insulin-producing beta 
cells. In addition, the bioreactor is helping us study ways 
that insulin-producing cells can replicate in microgravity 
environments, hopefully providing us with an endless source of 
such cells for eventual transplantation in persons with 
diabetes.
    Mr. Chairman, we are requesting $300 million for NASA's 
Office of Life and Microgravity Science and Applications 
Program.
    In summary, Mr. Chairman, I would like to thank you once 
again for the opportunity to testify before you today. We 
believe that the work of the VA and NASA in diabetes research 
will help speed the path to a cure for diabetes, and we thank 
you for your strong support.
    If there are any questions, I would be happy to entertain 
them.
    Mr. Wicker. Well, I can assure you of my continued strong 
support for finding a cure for diabetes. I am a member of the 
Diabetes Caucus. I do not know of a disease that has had more 
visible support on Capitol Hill this year than diabetes.
    Mr. German. Yes.
    Mr. Wicker. You have a number of very capable advocates 
nationally, and we appreciate the work that they are doing. I 
think that the Labor, HHS, Education Subcommittee is also very, 
very interested in this disease. And we appreciate what you are 
doing with the Foundation, and we want to work with you.
    Mr. German. Thank you very much, Mr. Chairman.
    Mrs. Meek. Thank you.
    Mr. German. Thank you, Mrs. Meek.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wicker. The hearing is adjourned. Thank you.
    [The following statements were submitted for the record:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                           WITNESSES
                             ______ 


Akin,Richard .................................................... 1214
Anderson,Dr.S.D ................................................. 1226
Anthes,R.A ...................................................... 1269
Appleby,Bill .................................................... 1258
Archuleta,E.G ...................................................  679
Barrett, Hon.T.M ................................................  374
Becker,S.w ...................................................... 1381
Beedle,Ralph .................................................... 1067
Bereuter,Hon.Doug ...............................................   11
Bitting,Dr.Robert ............................................... 1165
Blum,J.O ........................................................ 1141
Blumenauer,Hon.Earl .............................................    1
Bowles,Lisa .....................................................  564
Brinkley,Dr.Willaim .............................................  393
Browder,Dr,Felix ................................................  393
Bursell,Sven-Erik ...............................................  998
Butler,Master Gunnery Sergeant B.H .............................. 1304
Bye,R.E.,Jr .....................................................  621
Calkins,C.L ..................................................... 1345
Castell,D O ..................................................... 1375
Clacken,W.F ..................................................... 1263
Clark,Les ....................................................... 1216
Clyburn,Hon.Jim .................................................  135
Conner,D.R ......................................................  716
Cook,S.D ........................................................  613
Courtice,Dr.T.B ................................................. 1154
Cox,Christopher .................................................  835
Coyne,Hon.W.J ...................................................  342
Creque,M.E ......................................................  492
Cross,Dr.Ray .................................................... 1134
Cunha,Manuel,Jr ................................................. 1216
Czub,J.P ........................................................  929
Davenport,R.J ...................................................  686
David,Rachel ....................................................  541
Davis,Hon.D.K ...................................................  146
Davis,J.E .......................................................  672
DeSimone,J.M .................................................... 1196
Doolittle,Hon.John ..............................................  388
Doumas,B.C'Bill` ................................................  975
Doyle,Hon.M.F ...................................................  283
Eischen,Peter ...................................................  647
Eisland,J.M ..................................................... 1190
Erianson,D.M .................................................... 1407
Evans,Hon.Lane ..................................................   24
Filner,Hon.Bob ..................................................  300
Foley,Hon.Mark ..................................................  368
Fox,Dr.Peter .................................................... 1250
Frank,Billy,Jr .................................................. 1121
Frank,Hon.Barney ................................................    7
Friedman,Dr.Jerome ..............................................  393
Futter,Ellen ....................................................  595
Galbraith,S.R ...................................................  460
Gejdenson,Hon.Sam ...............................................  124
Geller,Howard ...................................................  728
German,R.D ...................................................... 1102
Gipson,Mitch ....................................................  991
Godbey,Dr.Galen ................................................. 1113
Golen,Jay .......................................................  413
Goodlatte,Hon.Bob ...............................................  708
Goodling,Hon.Bill ...............................................   93
Gordon,Hon.Bart .................................................   18
Gordon,Phil ..................................................... 1261
Greenlee,Alan ...................................................  500
Hackney,Karen ................................................... 1042
Hall,Hon.Tony ...................................................  411
Hanle,Paul ......................................................  844
Hanrahan,Pegeen .................................................  792
Havey, Dr.W.R ................................................... 1109
Harwitz,Jonathan ................................................  865
Hayes,Dr.Alice .................................................. 1247
Hilner,Dr.E.A ................................................... 1209
Hines,E.F ....................................................... 1396
Holland,L.S ..................................................... 1176
Hooker,Michael ..................................................  800
Hooley,Hon.Darlene ..............................................  329
Huggett,R.J .....................................................  701
Jackson-Lee,Hon.Sheila ..........................................  139
Jacoby,Edward,Jr ................................................ 1075
James,Sharpe ....................................................  782
Jefferson,Hon.W.J ...............................................  549
Johnson,David ...................................................  903
Johnson,Hon.E.B .................................................  370
Jollivette,Cyrus ................................................  761
Jones,E.G ....................................................... 1273
Jones,Hon.S.T ...................................................  310
Jones,Richard ................................................... 1285
Kahn. B.M ....................................................... 1129
Kasdin,Neisen ...................................................  771
Kelly,Rev.Aloysius .............................................. 1146
Kenny,M.P ....................................................... 1216
Kerester,A.A .................................................... 1057
Kleczka,Hon.Jerry ...............................................  364
Knaub,Patricia .................................................. 1220
Kraut,A.G .......................................................  874
Lackner,R.H .....................................................  723
Lampson,Hon.Nick ................................................   87
Lancaster,R.B ...................................................  639
Larossi,Brad .................................................... 1084
Laurin,Thomas ...................................................  401
Lazowska,Edward .................................................  982
Lee,Alma ........................................................  708
Lennie,Dr.Peter .................................................  587
Levine,F.J ......................................................  911
Lewis,Tom .......................................................  621
Libeu,Larry ..................................................... 1211
Linder,Hon.John .................................................  362
Lokovic,J.E .....................................................  514
MacDonald,D.B ................................................... 1266
Maloney,Hon.James ...............................................  277
Mascara,Hon.Frank ...............................................  283
Mason,Dr.R.J .................................................... 1301
Mauderly,Dr.Joseph ..............................................  809
McCarty,Ricard ..................................................  882
McGovern,Hon.J.P ................................................    7
McIntyre,Hon.Mike ...............................................  297
Meek,Hon.Carrie .................................................  761
Miller,Hon.Dan ..................................................  325
Minhas,Dr.Jasjit ................................................  579
Mirin,Steven .................................................... 1094
Morella.Hon.C.A .................................................  100
Murphy Fred .....................................................  431
Nadler,Hon.Jerrold ..............................................   99
Neal Hon.R.E ....................................................  366
Nellor,M.H ...................................................... 1250
Nelson, Darrell ................................................. 1222
Nelson,Dr.Darrell ............................................... 1226
Nemtzow,David ...................................................  662
Nethercutt,Hon.George ...........................................  132
Norton,Hon.E.H ..................................................  318
O`Brien,T.J ..................................................... 1204
O'Connell,John ..................................................  665
Oberstar,Hon.J.L ................................................  347
Olanoff,M.H .....................................................  481
Overbey,M.M .....................................................  507
Pallone,Hon.Frank,Jr ............................................  334
Pasinski,Theodore ............................................... 1161
Patrick,Barbara ................................................. 1261
Payne,Hon.D.M ...................................................  351
Payne,Hon.D.M ...................................................  612
Payne,Hon.D.M ...................................................  779
Pelosi,Hon.Nancy ................................................  357
Peter,Father V.J ................................................  550
Peterson,C.A .................................................... 1020
Pickard,Carey ................................................... 1169
Price,Hon.D.E ...................................................  600
Price,Hon.D.E ...................................................  949
Primus,W.D ......................................................  532
Prichard,David .................................................. 1009
Quinn,T.H ....................................................... 1254
Radanovich,Hon.George ...........................................  355
Ream,K.A ........................................................ 1200
Reheis,C.H ...................................................... 1216
Reyes,Hon.Slyvestre .............................................   62
Rice,R.K ........................................................ 1126
Roberts,B.F .....................................................  417
Roemer,Hon.Tim ..................................................  108
Roman,Nan .......................................................  557
Rothman,Hon.S.R .................................................   81
Roukema,Hon.Merge ...............................................  344
Saxton,Hon.Jim ..................................................   72
Schakowsky,Hon.Jan ..............................................   40
Schlender,J.H ...................................................  826
Schwingel,Laura .................................................  830
Shays,Hon.Christopher ...........................................   45
Siedow,James ....................................................  949
Silver,H.J ......................................................  936
Skemp,S.H ....................................................... 1036
Small,Cheryl .................................................... 1172
Smith Hon.Chris .................................................  339
Soltis,Ann ......................................................  823
Stoneman,Dorothy ................................................  523
Strang,Gilbert ..................................................  970
Sublette,Kerry ..................................................  816
Tabron,James ....................................................  600
Thilly,Prof.W.G ................................................. 1309
Thompson,B.J .................................................... 1180
Thompson,Hon.Bennie .............................................  119
Tiedje,J.M ...................................................... 1028
Torpey,Paul ..................................................... 1282
Turner,Michael ..................................................  411
Turner Russell .................................................. 1186
VanDe Hei,Diane .................................................  693
Vinner,Wesley ...................................................  452
Visclosky,Hon.P.J ...............................................   57
Vitikacs,John ...................................................  569
Wasserman,Dr.Edel ...............................................  393
Waters,Hon.Maxine ...............................................  372
Weiner,Hon.A.D ..................................................  541
Weston,Vic ......................................................  735
Weygand,Hon.Bob .................................................   66
Weygandt,Robert ................................................. 1119
Williams,David .................................................. 1151
Williams,L.R ....................................................  632




I N D E X

                                                                   Page
Community Development Financial Institutions:
    The Coalition of Community Development Financial Institutions   830
Enviornmental Protection Agency:
    Agriculture and Life Sciences Texas A&M University...........  1209
    Alliance to Save Energy......................................   662
    American Council for an Energy-Efficient Economy.............   728
    American Lung Association....................................   647
    Ameircan Public Power Association............................  1353
    American Society of Civil Engineers..........................   672
    American Water Works Association.............................   800
    Assoc. of Metro Water Agencies...............................   693
    Associated General Contractors of America....................   735
    Association of Metropolitan Sewerage Agencies & Water 
      Environment Federation.....................................  1369
    Association of National Estuary Programs (ANEP)..............  1413
    Association of State Drinking Water Administrators...........  1391
    Association of University Superfund Basic Research Programs..  1309
    California Industry and Government coalition on PM-10/PM-2.5.  1216
    City of Gainesville, Florida.................................   792
    City of Miami Beach..........................................   771
    City of Newark, New Jersey...................................   782
    County Sanitation Districts of Los Angeles County............  1250
    El Paso Water Utilities Public Service BD....................   679
    Enviornmental Lung Center National Jewish Medical and 
      Research Center Denver, Colorado...........................  1301
    Experiment Station Committee on Policy of the NASU and Land 
      Grant Colleges.............................................  1234
    Extension Committee on Organization and policy on the NASU 
      and Land Grant Colleges....................................  1234
    Great Lakes Indian Fish and Wildlife Commission..............   823
    Kenan Center for the Utilization of Liquid Carbon Dioxide in 
      Manufacturing..............................................  1196
    Lovelace Respiratory Research Institute of Albuquerque, New 
      Mexico.....................................................   809
    Massachusetts Water Resources Authority......................  1266
    Metropolitan Water District of South California..............  1254
    Metropolitan Water Reclamation District of Greater Chicago...  1204
    National Association of Conservation Districts...............  1126
    National Association of State Universities and Land-Grant 
      Colleges...................................................   701
    National Rural Water Association.............................   655
    National Utility Contractors Association (NUCA)..............   716
    Northwest Indian Fisheries Commission........................  1121
    Nuclear Energy Institute.....................................  1067
    Passaic Valley Sewerage Commissioners........................   686
    Placer County, CA Subregional Wastewater Treatment System....  1119
    Polyisocyanurate Insulation Manufacturers Association........  1141
    Public Utilities Board.......................................   723
    Speaking on behalf of Sharpe James the Mayor of the City of 
      Newark, NJ.................................................   787
    STAPPA/ALAPCO................................................  1381
    The Association of Minority Health Professional Schools......   639
    The Mickey Leland National Urban Toxic Research Center.......  1057
    Unviersity of Miami..........................................   761
    University of Tulsa--IPEC....................................   816
    Western Coalition of Arid States (WESTCAS)...................  1211
    American Society for Microbiology............................  1028
Federal Emergency Management Agency:
    American Society of Civil Engineers..........................  1242
    Association of State Dam Safety Officials, Inc...............  1084
    International Association of Emergency Managers..............  1258
    National Emergency Management Association....................  1075
    National Flood Determination Association.....................  1172
Housing and Urban Development:
    AARP.........................................................   492
    American Association of Homes and Services for the Aging.....  1402
    American Federation of Government Employees, AFL-CIO, Local..  1365
    American Indian Higher Education Consortium..................   579
    Association of State Floodplain Managers, Inc................  1176
    Boys Town USA................................................   550
    Carnegie Hall................................................   441
    Center for the Engineered Conservation of Energy at Alfred 
      University.................................................  1165
    City of Dayton Washington Office.............................   411
    College of Agriculture and Technology at Morrisville.........  1134
    Consortium Citizen Disability Housing Task Force.............   460
    Corporation for Supportive Housing...........................   865
    Council at Large Public Housing Authorities..................   431
    Council member for the City of Phoenix, AZ...................  1261
    County of Sutter, California.................................  1214
    Dept. of Neighborhood and Community Services, Tallahassee, 
      Fla........................................................   621
    Florida State University.....................................   621
    Habitat for Humanity International...........................  1151
    Hampton University, Virginia.................................  1109
    Herbrew Academy of Special Children..........................  1129
    KidsPeace Therapeutic Education Center.......................  1386
    Local Initiatives Support Corporation........................   417
    Metropolitan Family Services.................................  1285
    Morris County Urban League...................................   532
    NAHB Research Center.........................................   564
    National Association of Housing and Redevelopment Officials 
      (NAHRO)....................................................  1407
    National Council of State Housing Agencies...................  1180
    Neve Yerushalayim College....................................   541
    New York University..........................................   587
    NYU Downtown Hospital........................................  1356
    Ohio Wesleyan University.....................................  1154
    Pennsylvania Educational Telecommunications Exchange Network.  1113
    Public Housing Authorities Director Association..............   600
    Robert A. Rapoza Associates..................................  1312
    St. Joseph's Hospital Health Center of the Central New York 
      Regional...................................................  1161
    The American Museum of Natural History.......................   595
    The Arc of the United States Governmental Affairs Office.....   452
    The Enterprise Foundation....................................   500
    The Information Technology Center at Fairfield University....  1146
    The National Alliance to End Homelessness....................   557
    Tubman African American Museum...............................  1169
    U.S. Conference of Mayors NACCED/ALHFANCDA...................   401
    University of Medicine and Dentistry of New Jersey...........   613
    Village of Freeport, Long Island, New York...................  1263
    Wake Forest University Baptist Medical Center................  1359
    YouthBuild U.S.A.............................................   523
National Aeronautics and Space Administration:
    American Society of Mechanical Engineers (ASME) International  1036
    Coalition of EPSCoR States...................................  1042
    Experiment Station Committee on Policy of the NASU and Land 
      Grant Colleges.............................................  1226
    Extension Committee on Organization and Policy of the NASU 
      and Land Grant Colleges....................................  1226
    United Space Alliance........................................  1186
National Science Foundation:
    American Society for Microbiology............................  1028
    American Anthropological Association.........................   507
    American Association of Community Colleges...................  1361
    American Association of Engineering Societies................  1282
    American Chemical Society....................................   393
    American Institute of Chemical Engineers.....................   975
    American Mathematical Society................................   393
    American Physical Society....................................   393
    American Psychological Association...........................   882
    American Psychological Society...............................   874
    American Society of Plant Physiologists......................   949
    American Sociological Association............................   911
    College of Human Environmental Sciences Oklahoma State 
      University.................................................  1220
    Columbia University in the City of New York..................   991
    Computing Research Association...............................   982
    Consortium of Social Science Association.....................   936
    Experiment Station Committee on O&P and Experiment Station, 
      University of Nebraska.....................................  1222
    Federation of American Societies for Experimental Biology....   393
    Federation of Behavioral, Psychological and Cognitive 
      Sciences...................................................   903
    Joint Policy Board for Mathematics...........................   970
    Mystic Seaport...............................................   835
    National Corn Growers Association............................   929
    National Institute for the Environment.......................  1020
    Optical Society of America...................................  1009
    The Academy of Natural Sciences..............................   844
    The Council for Chemical Research............................  1200
    The Society for Neuroscience.................................  1273
    The University of San Diego..................................  1247
    University Corporation for Atmospheric Research..............  1269
Veterans Affairs:
    Air Force Sergeants Association..............................   514
    American Association of Nurse Anesthetists...................   632
    American Federation of Government Employees, AFL-CIO.........   708
    American Gastroenterological Association.....................  1375
    American Heart Association...................................  1396
    American Psychiatric Association.............................  1094
    Joslin Diabetes Center.......................................   998
    Juvenile Diabetes Foundation International...................  1102
    National Association for Uniformed Services (NAU)............  1304
    Retired Enlisted Association.................................   481
    The American Legion..........................................   569
    The Council of the City of New York..........................  1190
    The Fleet Reserve Association................................  1345

</pre></body></html>
